Audit Report




OIG-14-011
Audit of the Department of the Treasury’s Fiscal Years 2013 and
2012 Financial Statements
December 16, 2013




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2013
             Agency Financial Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220


                                                    December 16, 2013
     OFFICE OF
INSPECTOR GENERAL




           INFORMATION MEMORANDUM FOR SECRETARY LEW

           FROM:                       Eric M. Thorson
                                       Inspector General

           SUBJECT:                    Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2013 and 2012


           INTRODUCTION

           I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
           Department) financial statements as of and for the fiscal years (FY) ending September 30, 2013
           and 2012.

           The Chief Financial Officer’s Act, as amended, requires the Department of the Treasury Office
           of Inspector General or an independent auditor, as determined by the Inspector General, to audit
           the Department’s financial statements. Under a contract monitored by my office, KPMG LLP, an
           independent certified public accounting firm, performed an audit of the Department’s FY 2013
           and 2012 financial statements. The contract required that the audit be performed in accordance
           with generally accepted government auditing standards issued by the Comptroller General of the
           United States and Office of Management and Budget Bulletin No. 14-02, Audit Requirements for
           Federal Financial Statements.

           RESULTS OF INDEPENDENT AUDIT

           In its audit of the Department, KPMG LLP reported the following:

                •   the financial statements were fairly presented, in all material respects, in accordance with
                    U.S. generally accepted accounting principles;

                •   a material weakness related to unpaid tax assessments and a significant deficiency related
                    to financial reporting systems identified by the auditor of the Internal Revenue Service
                    collectively represent a material weakness for the Department as a whole;

                •   weaknesses related to information systems controls at the Bureau of the Fiscal Service
                    represent a significant deficiency for the Department as a whole;

                •   the Department’s financial management systems did not substantially comply with the
                    requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA)
                    related to Federal financial management systems requirements and applicable Federal
                    accounting standards;
Page 2

   •     no instances of reportable noncompliance with laws and regulations , exclusive of
         FFMIA, that are required to be reported under government auditing standards or Office of
         Management and Budget Bulletin No. 14-02; and

   •     an instance of a potential Anti-deficiency Act violation related to voluntary services
         provided to the Departmental Offices.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we evaluated KPMG LLP’s qualifications
and independence, reviewed the approach and planning of the audit, monitored the progress of
the audit at key points, reviewed and accepted KPMG LLP’s audit report, and performed other
procedures that we deemed necessary. Additionally, we provide oversight of the audits of
financial statements and certain accounts and activities conducted at 10 component entities of the
Department. Our review, as differentiated from an audit performed in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the effectiveness of internal
control or on whether the Department’s financial management systems substantially complied
with FFMIA or conclusions on compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ report dated December 16, 2013, and the conclusions expressed in that
report. However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Nani A. Coloretti
    Assistant Secretary for Management

   Dorrice C. Roth
   Deputy Chief Financial Officer
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the U.S. Department of the
Treasury (Department), which comprise the consolidated balance sheets as of September 30, 2013 and
2012, and the related consolidated statements of net cost, consolidated statements of changes in net
position, combined statements of budgetary resources, and statements of custodial activity for the years
then ended, and the related notes to the consolidated financial statements (hereinafter referred to as
“consolidated financial statements”).

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
the consolidated financial statements that are free from material misstatement, whether due to fraud or
error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our
audits. We did not audit the financial statements of the Internal Revenue Service (IRS), a component
entity of the Department, which statements reflect total assets of $42.2 and $46.8 billion, net cost of
operations of $12.3 and $12.8 billion before applicable eliminating entries, budgetary resources of
$12.7 and $13.2 billion, and custodial activity of $2,851 and $2,528 billion, as of and for the years
ended September 30, 2013 and September 30, 2012, respectively. Those statements were audited by
another auditor, whose report has been furnished to us, and our opinion, insofar as it relates to the
amounts included for IRS, is based solely on the report of the other auditor.
We did not audit the financial statements of the Office of Financial Stability (OFS), a component entity
of the Department, which statements reflect total assets of $71.2 and $116.7 billion, net income from
operations of $7.7 and $7.7 billion before applicable eliminating entries, and budgetary resources of
$37.9 and $67.8 billion, as of and for the years ended September 30, 2013 and September 30, 2012,
respectively. Those statements were audited by another auditor, whose report has been furnished to us,
and our opinion, insofar as it relates to the amounts included for OFS, is based solely on the report of
the other auditor.
We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Bulletin No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about
whether the consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the consolidated financial statements. The procedures selected depend on the auditors’ judgment,
including the assessment of the risks of material misstatement of the consolidated financial statements,
whether due to fraud or error. In making those risk assessments, the auditor considers internal control
relevant to the entity’s preparation and fair presentation of the consolidated financial statements in
order to design audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the entity’s internal control. Accordingly, we express no
such opinion. An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the
overall presentation of the consolidated financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.
Opinion on the Financial Statements

In our opinion, based on our audits and the reports of the other auditor, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the U.S.
Department of the Treasury as of September 30, 2013 and 2012, and its net costs, changes in net
position, budgetary resources, and custodial activity for the years then ended in accordance with U.S.
generally accepted accounting principles.

Emphasis of Matter

As discussed in Notes 7, 8, and 11, the Department is a participant in significant legislation and
transactions whose purpose is to assist in stabilizing the financial markets. Also as discussed in note
1A, the consolidated financial statements do not include the assets, liabilities, or results of operations
of commercial entities in which the Department has a significant equity interest as it has determined
that none of these entities meet the criteria for inclusion as a federal entity and are therefore not
included in the consolidated financial statements. Furthermore, as discussed in notes 1V, 7, 8, and 11,
the value of certain investments, loans, commitments, and asset guarantees is based on estimates.
These estimates are inherently subject to substantial uncertainty arising from the likelihood of future
changes in general economic, regulatory, and market conditions. In addition, there are significant
uncertainties related to the amounts that the Department will realize from its investments. As such,
there will likely be differences between the estimated value of these investments, loans, commitments,
and asset guarantees as of September 30, 2013 and 2012, and the amounts that may ultimately be
realized from these assets or may be required to settle these commitments and asset guarantees. Such
differences may be material and will also affect the ultimate cost of these programs. Our opinion is not
modified with respect to these matters.

As discussed in Note 24 to the consolidated financial statements, in 2013 the Department adopted
Statement of Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections:
Amending Statement of Federal Financial Accounting Standards No. 27, Identifying and Reporting
Earmarked Funds. The 2012 consolidated financial statements have been adjusted for the retrospective
application of the new accounting guidance. Our opinion is not modified with respect to this matter.
Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s
Discussion and Analysis and Required Supplemental Information sections be presented to supplement
the basic consolidated financial statements. Such information, although not a part of the basic
consolidated financial statements, is required by the Federal Accounting Standards Advisory Board
who considers it to be an essential part of financial reporting for placing the basic consolidated
financial statements in an appropriate operational, economic, or historical context. We have applied
certain limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the basic consolidated financial statements. We
do not express an opinion or provide any assurance on the information because the limited procedures
do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The Message from the Secretary of the Treasury, the Message from the
Assistant Secretary for Management and the Deputy Chief Financial Officer, and the Other
Information section are presented for purposes of additional analysis and are not a required part of the
basic consolidated financial statements. Such information has not been subjected to the auditing
procedures applied in the audits of the basic consolidated financial statements, and accordingly, we do
not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

Internal Control Over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered the
Department’s internal control over financial reporting (internal control) to determine the audit
procedures that are appropriate in the circumstances for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the Department’s internal control. Accordingly, we do not express an opinion on the effectiveness of
the Department’s internal control. We did not test all internal controls relevant to operating objectives
as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses
or significant deficiencies and therefore, material weaknesses or significant deficiencies may exist that
have not been identified. However, as described below, the other auditor identified certain deficiencies
in internal control that we consider to be a material weakness, and we identified certain deficiencies in
internal control that we consider to be a significant deficiency.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis. We consider the deficiency described below to be a material weakness.

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat Condition)

IRS needs to establish internal control over financial reporting and systems in accordance with OMB
Circular A-123, Management’s Responsibility for Internal Control to ensure reliable and timely
financial information is obtained, maintained, and reported. IRS continued to make progress in
addressing its deficiencies in internal control over financial reporting. However, a material weakness in
internal control over unpaid tax assessments and significant deficiency in internal control over
financial reporting systems continued to exist in fiscal year 2013 and are collectively considered a
material weakness at the Department level. The other auditor performed an audit of IRS’s internal
control over financial reporting for the purpose of providing an opinion on the effectiveness of internal
controls. Because of the material weakness, the other auditor’s opinion on IRS’s internal control over
financial reporting stated that IRS did not maintain, in all material respects, effective internal control
over financial reporting as of September 30, 2013, and thus did not provide reasonable assurance that
losses and misstatements that were material in relation to the IRS’s financial statements would be
prevented or detected and corrected on a timely basis. The deficiencies are summarized as follows:

•   Internal control deficiencies that affected IRS’s management and reporting of unpaid tax
    assessments continued to exist. Specifically, the IRS was unable to: (1) use its general ledger
    system and underlying subsidiary records to classify and report federal taxes receivable,
    compliance assessments, and write-offs for tax transactions, in accordance with federal accounting
    standards without a labor-intensive manual compensating estimation process; (2) use its subsidiary
    ledger for unpaid tax assessments to prepare reliable, useful, and timely information to manage and
    report externally because IRS’s classification program does not effectively sort through, identify,
    and analyze all the relevant transaction information required for proper classification, recording
    and reporting; and (3) effectively prevent or timely detect and correct errors in recording taxpayer
    information.

•   Internal control deficiencies over financial reporting systems continued to exist that increase the
    risk that IRS financial and taxpayer data will remain vulnerable to inappropriate and undetected
    use, modification or disclosure. Specifically, the IRS did not: (1) install appropriate security
    updates on certain databases and servers, which increased the risk that known vulnerabilities could
    be exploited; (2) sufficiently monitor internal and external system control activities supporting
    financial reporting; (3) monitor internal controls of its service organizations; (4) prevent
    individuals from making changes to mainframe processing without following its established
    change control procedures to ensure changes were authorized; (5) include sufficient detail in its
    authorization process to ensure that access to systems was appropriate and configure certain
    applications to use strong encryption for authentication; and (6) fully implement its information
    security program and update key mainframe policies and procedures related to access.

Additional details related to the material weakness identified above have been provided separately to
IRS management by the auditor of the IRS’s financial statements.
Recommendation

The other auditor separately provided IRS management with recommendations to address the above
material weakness. We recommend that the Assistant Secretary for Management (ASM) and Deputy
Chief Financial Officer (DCFO) ensure that the IRS takes corrective action to improve controls over
financial reporting.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiency described below to be a significant deficiency.

B. Significant Deficiency in Internal Control in Information Systems Controls at the Bureau of the
Fiscal Service (Repeat Condition)

The Bureau of the Fiscal Service (Fiscal Service) relies on an extensive array of information
technology systems to perform its primary mission. Effective information system controls and security
programs over financial systems are essential to protecting information resources in accordance with
OMB Circular No. A-130, Management of Federal Information Resources. Fiscal Service made
progress in several areas in its efforts to address prior year deficiencies in its information systems
controls. Despite these improvements, our tests revealed that the necessary policies and procedures to
detect and correct control and functionality weaknesses have not been consistently documented,
implemented, or enforced. Specifically, deficiencies continue to exist in the areas of: (1) security
management; (2) access to computer resources, including data, equipment, and facilities; (3) changes to
information system resources and system configurations; and (4) segregation of responsibilities. These
deficiencies could compromise the Fiscal Service’s ability to ensure security over sensitive financial
data and reliability of the financial systems.

Recommendation

Recommendations to address the above significant deficiency have been provided to Fiscal Service
management. We recommend that the ASM and DCFO ensure that the Fiscal Service takes corrective
action to improve controls over its information systems.

Compliance and Other Matter

As part of obtaining reasonable assurance about whether the Department’s consolidated financial
statements are free from material misstatement, we, and the other auditor, performed tests of the
Department’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No.
14-02. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our, and the other auditor’s,
tests disclosed no instances of noncompliance that are required to be reported under Government
Auditing Standards or OMB Bulletin No. 14-02. The results of our tests disclosed an other matter this
is required to be reported under Government Auditing Standards or OMB Bulletin No. 14-02, and is
described below.
C. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition)

As stated in our prior year auditors’ report, the Department informed us of an instance of a potential
violation of the Anti-Deficiency Act related to voluntary services provided to the Departmental Offices.
This matter has been referred to the Government Accountability Office to determine whether the
matter is a violation of the Anti-Deficiency Act.

We, and the other auditor, also performed tests of the Department’s compliance with certain provisions
referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). Providing an opinion on compliance with FFMIA was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests of FFMIA disclosed instances,
described below, in which the Department’s financial management systems did not substantially
comply with the (1) Federal financial management systems requirements, and (2) applicable Federal
accounting standards. The results of our tests of FFMIA disclosed no instances in which the
Department’s financial management systems did not substantially comply with the United States
Government Standard General Ledger at the transaction level.

D. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat
Condition)

The Department’s financial management systems did not substantially comply with the following
FFMIA requirements:

1. Federal Financial Management Systems Requirements
As discussed in finding A. Material Weakness in Internal Control Over Financial Reporting at the IRS
(Repeat Condition), the Department continues to have deficiencies in the IRS’s financial management
systems.

2. Federal Accounting Standards
As discussed in finding A. Material Weakness in Internal Control Over Financial Reporting at the IRS
(Repeat Condition), the Department has a material weakness related to the IRS that affected the
Department’s ability to prepare its financial statements in accordance with the federal accounting
standards. Specifically, IRS financial management systems were unable to support the taxes receivable
amount on the consolidated balance sheet, and the compliance assessments and write-offs in the
required supplementary information disclosures, in accordance with accounting standards.

Recommendation
The other auditor separately provided IRS management with recommendations to address the above
noncompliance with FFMIA. We recommend that the ASM and DCFO ensure that the IRS implements
its remediation plan outlining actions to be taken to resolve noncompliance with the FFMIA
requirements and the resources and responsible organizational units for such planned actions. Many of
the IRS’s planned actions are long term in nature and are tied to IRS’s systems modernization efforts.
Department’s Response to Findings

The Department indicated in a separate letter immediately following this report that it concurs with the
findings and recommendations presented in our report. Further, the Department responded that it will
take necessary corrective actions to address each of the matters presented. The Department’s response
was not subjected to the auditing procedures applied in the audit of the consolidated financial
statements and, accordingly, we express no opinion on the response.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and
the results of that testing, and not to provide an opinion on the effectiveness of the Department’s
internal control or compliance. Accordingly, this communication is not suitable for any other purpose.




December 16, 2013
                                                     U.S. Department of the Treasury | Fiscal Year 2013


MANAGEMENT’S RESPONSE TO INDEPENDENT AUDITORS’
REPORT




                                            December 16, 2013



KPMG LLP
1801 K Street, NW
Washington, DC 20006

Ladies and Gentlemen:

On behalf of Secretary Lew, we are responding to your draft audit report on the Department of the
Treasury’s fiscal year 2013 consolidated financial statements. Our bureaus and program offices are
proud of the Department’s success in achieving an unmodified audit opinion on the Department’s
financial statements for the fourteenth consecutive year.

The high level of professionalism, technical expertise, and partnership demonstrated by KPMG in
conducting this year’s audit contributed greatly to Treasury’s successful fiscal year 2013 results.
We also appreciate the expertise and commitment demonstrated by the other organizations involved
in the audit process – the Office of the Inspector General, Government Accountability Office
(GAO), and the firms that audited several of our bureaus.

We acknowledge the one material weakness and one significant deficiency at the Department level,
and instances of noncompliance with laws and regulations described in your report. We agree with
your recommendations, and will focus on necessary corrective actions to address each of the issues.

Overall, we have made substantial progress in enhancing our internal control environment. We are
very proud of our progress, and remain committed to ensuring high standards of integrity and
transparency in reporting our financial performance.




Nani A. Coloretti                                            Dorrice C. Roth
Assistant Secretary for Management                           Deputy Chief Financial Officer




                                                48
        SECTION II –

DEPARTMENT OF THE TREASURY
     FISCAL YEAR 2013
  AGENCY FINANCIAL REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
    U.S. Department of the Treasury | Fiscal Year 2013




i
     U.S. Department of the Treasury | Fiscal Year 2013




ii
    U.S. Department of the Treasury | Fiscal Year 2013




i
     U.S. Department of the Treasury | Fiscal Year 2013




ii
                                                                                               U.S. Department of the Treasury | Fiscal Year 2013

TABLE OF CONTENTS
Message from the Secretary of the Treasury...................................................................................................................... iv

Part 1: Management’s Discussion and Analysis (Unaudited)

Introduction........................................................................................................................................................................ 3

Organization........................................................................................................................................................................ 3

Treasury's Fiscal Year 2012-2015 Strategic Framework and Key Performance Indicators……........................................ 6

Fiscal Year 2013 Performance by Strategic Goal............................................................................................................... 8

Performance by Agency Priority Goal………...................................................................................................................... 22

Highlights of Management and Performance Challenges ............................................................................................... 24

Financial Highlights.......................................................................................................................................................... 25

Management Assurances ................................................................................................................................................. 30

Part 2: Annual Financial Report

Message from the Assistant Secretary for Management and Deputy Chief Financial Officer ....................................... 38

Inspector General’s Transmittal Letter ........................................................................................................................... 39

Independent Auditors’ Report on the Department’s Financial Statements………………………………………………………… 41

Management’s Response to Independent Auditors’ Report............................................................................................ 48

Financial Statements......................................................................................................................................................... 49

Notes to the Financial Statements.................................................................................................................................... 56

Required Supplemental Information (Unaudited) ........................................................................................................ 135

Part 3: Other Information (Unaudited)

Section A: Schedule of Spending ................................................................................................................................... 143

Section B: Tax Gap and Tax Burden............................................................................................................................... 144

Section C: Management and Performance Challenges Identified by the Inspectors General and the Secretary’s
Responses........................................................................................................................................................................ 146

Section D: Summary of Financial Statement Audit and Management Assurances ..................................................... 203

Section E: IPIA (as amended by IPERA) Reporting Details ......................................................................................... 204

Section F: Material Weaknesses and Audit Follow up .................................................................................................. 215

Appendix: Glossary of Acronyms ................................................................................................................................... 223




                                                                                         iii
                                                                U.S. Department of the Treasury | Fiscal Year 2013

MESSAGE FROM THE SECRETARY OF THE TREASURY

                    Five years ago, our economy faced challenges on a scale not seen since the Great Depression. In
                    the span of a few weeks, many of our nation’s largest financial institutions failed or were forced to
                    merge to avoid insolvency. Capital markets – essential for helping families and businesses meet
                    their everyday financing needs – were freezing up, dramatically reducing the availability of credit,
                    such as student, auto, and small business loans. Market participants, consumers, and investors
                    were rapidly losing trust in the stability of America’s financial system. Our economy was
                    shedding hundreds of thousands of jobs each month.

Since then, thanks to the tenacity of the American people and the bold, decisive, and bipartisan actions taken across
the U.S. government, the U.S. economy has returned to a path of stability and steady growth. We have added more
than 2 million jobs in the past year alone and our deficits are half of what they were when President Obama took
office in 2009. And the end of this year and beginning of next year show signs of further progress.

As we continue on this path to recovery, I am proud of what the Treasury Department has achieved during the past
fiscal year. Treasury made significant progress toward achieving its five strategic goals. As demonstrated in this
report and by the following highlights, we have effectively pursued policies that will build a strong foundation for
future growth and prepare for the challenges ahead – both at home and abroad.

    •    To meet our goal of repairing and reforming the financial system, we have worked diligently with
         federal regulators, as chair of the Financial Stability Oversight Council, to implement historic reforms
         designed to make the financial system safe, stronger, and more resilient;
    •    To pursue our goal of enhancing U.S. competitiveness and promoting international financial
         stability, we have successfully promoted free trade and open markets. Negotiating with the European
         Union to successfully launch a Transatlantic Trade and Investment Partnership, committing China to
         undertake future bi-lateral negotiations, and supporting development programs in the Middle East and
         Northern Africa;
    •    To protect our national security, we have helped to combat and prevent financial crimes and terrorist
         financing by conducting evaluations of various countries’ compliance with international standards and
         providing training to international counterparts and we have made great strides to bolster cyber security in
         the public and private sectors alike;
    •    To pursue comprehensive tax and fiscal reform, we have worked tirelessly to increase international
         cooperation in implementing the Foreign Account Tax Compliance Act by signing intergovernmental
         agreements with eight countries, which will bolster our efforts to combat offshore tax evasion; and
    •    To manage the government’s finances in a fiscally responsible manner, in fiscal year 2013, the
         Fiscal Service collected over $7.02 billion of delinquent debt, an increase of more than 13 percent over fiscal
         year 2012 and its highest annual collection to date.


While these accomplishments are worth noting, we cannot afford to be complacent. In fiscal year 2014, Treasury staff
will continue to implement reforms and lay the foundation for stable economic growth both at home and abroad.
Within the Department, we will continue to focus on a comprehensive set of management priorities, including
recruiting and retaining outstanding employees, increasing shared services, using data to make better decisions, and


                                                           iv
                                                                U.S. Department of the Treasury | Fiscal Year 2013

improving customer service, which will better enable us to lead and support government-wide financial management
efforts to increase productivity, reduce waste and non-essential expenses, and modernize processes and systems.

As evidenced in this report, and for the fourteenth consecutive year, the Treasury Department received an unmodified
opinion on its consolidated financial statements and, for the fifth consecutive year, on the financial statements of the
Office of Financial Stability/Troubled Asset Relief Program. Treasury also made progress in reducing management
control weaknesses and in achieving U.S. financial systems and control objectives. The financial and performance
data in this report have been validated as accurate, complete, and reliable. To streamline the Department’s reporting
efforts, we are not providing a single Performance and Accountability Report for Fiscal Year 2013. The Annual
Performance Report will be included in the Congressional Budget Justification in February 2014.

I look forward to building on the accomplishments contained in this year’s Agency Financial Report, and leading the
Treasury Department as it pursues policies to fuel our economy into the future and chart a course to expand
opportunities for the next generation.




Jacob J. Lew
Secretary of the Treasury
December 16, 2013




                                                            v
THIS PAGE INTENTIONALLY LEFT BLANK




               vi
    U.S. Department of the Treasury | Fiscal Year 2013




(UNAUDITED)




1
    U.S. Department of the Treasury | Fiscal Year 2013




2
                                                                U.S. Department of the Treasury | Fiscal Year 2013

INTRODUCTION
In fiscal year 2013, the Department of the Treasury (Treasury) took a number of actions to strengthen the United
States (U.S.) economy and job creation, help struggling homeowners, monitor risks to the financial system, encourage
small business lending, protect taxpayers, fight financial crimes, reinforce the international competitiveness of the
U.S., and responsibly manage the U.S. government’s financial resources, among other duties. Treasury performed
these functions in pursuit of achieving its vital mission: maintaining a strong economy and promoting conditions that
enable economic growth and stability at home and abroad, strengthening national security by combating threats and
protecting the integrity of the financial system, and managing the U.S. government’s finances and resources
effectively.

This Agency Financial Report documents Treasury’s operational and financial performance during fiscal year 2013.
This report also demonstrates Treasury’s steady progress on the five Strategic Goals and two Agency Priority Goals
outlined in the Department’s Fiscal Year 2012 - 2015 Strategic Plan 1.


ORGANIZATION
Treasury is organized into the Departmental Offices, seven operating bureaus, and three inspectors general. The
Departmental Offices are primarily responsible for policy formulation, while the bureaus are primarily the operating
units of the organization.

DEPARTMENTAL OFFICES
Domestic Finance works to preserve confidence in the U.S. Treasury market, effectively manage federal fiscal
operations, strengthen financial institutions and markets, promote access to credit, and improve financial access and
education in service of America’s long-term economic strength and stability.

International Affairs protects and supports U.S. economic prosperity and national security by working to help
ensure the most favorable external environment for sustained jobs and economic growth in the U.S Through bilateral
and multilateral engagement, the office promotes global economic and financial stability, encourages market-
determined foreign exchange rates, leverages leadership positions in the international financial institutions to
advance U.S. policy priorities, and pursues free trade, open markets, and level playing fields for U.S. financial
institutions doing business abroad.

Terrorism and Financial Intelligence (TFI) marshals the Department's intelligence and enforcement functions
with the twin aims of safeguarding the financial system against illicit use and combating rogue nations, terrorist
facilitators, weapons of mass destruction (WMD) proliferators, money launderers, drug kingpins, and other national
security threats.

Economic Policy reports on current and prospective economic developments and assists in the determination of
appropriate economic policies. The office is responsible for the review and analysis of domestic economic issues and
developments in the financial markets.

Tax Policy develops and implements tax policies and programs, reviews regulations and rulings to administer the
Internal Revenue Code, negotiates tax treaties, and provides economic and legal policy analysis for domestic and
international tax policy decisions. Tax Policy also provides revenue estimates for the President’s Budget.

1Treasury 2012-2015 Strategic Plan: http://www.treasury.gov/about/budget-performance/strategic-
plan/Documents/strategic-plan2012-2015.pdf


                                                            3
                                                                  U.S. Department of the Treasury | Fiscal Year 2013

Treasurer of the United States has direct oversight over the U.S. Mint and the Bureau of Engraving and Printing.
The Treasurer also chairs the Advanced Counterfeit Deterrence Steering Committee and is a key liaison with the
Federal Reserve. In addition, the Treasurer serves as a senior advisor to the Secretary in the areas of community
development and public engagement.

Other Offices

Internally, the Departmental Offices are responsible for overall management of Treasury. The Office of Management
and the Chief Financial Officer are responsible for managing the Department’s financial resources and oversees
Treasury-wide programs, including human capital, information and technology, acquisition, and diversity issues.

Other offices include General Counsel, Legislative Affairs, and Public Affairs. Three inspectors general—the Office of
the Inspector General (OIG), the Treasury Inspector General for Tax Administration (TIGTA), and the Special
Inspector General for the Troubled Asset Relief Program (SIGTARP) — provide independent audits, investigations,
and oversight of the Department of the Treasury and its programs.

BUREAUS
Bureaus employ approximately 96 percent of Treasury’s workforce and are responsible for carrying out specific
operations assigned to the Department.

The Alcohol and Tobacco Tax and Trade Bureau (TTB) collects federal excise taxes on alcohol, tobacco,
firearms, and ammunition; and is responsible for enforcing and administering laws covering the production, use, and
distribution of alcohol and tobacco products.

The Bureau of Engraving and Printing (BEP) develops and produces U.S. currency notes trusted worldwide.

The Financial Crimes Enforcement Network (FinCEN) safeguards the financial system from illicit use and
combats money laundering and promotes national security through the collection, analysis, and dissemination of
financial intelligence and strategic use of financial authorities.

The Bureau of the Fiscal Service (Fiscal Service) provides central payment services to federal program
agencies, operates the U.S. government’s collections and deposit systems, provides government-wide accounting and
reporting services, and manages the collection of delinquent debt owed to the U.S. government. In addition, Fiscal
Service borrows the money needed to operate the U.S. government through the sale of marketable, savings, and
special purpose U.S. Treasury securities and accounts for and services the public debt.

The Internal Revenue Service (IRS) is the largest of the Department’s bureaus and determines, assesses, and
collects the tax revenue in the United States.

The United States Mint (U.S. Mint) designs, mints, and issues U.S. circulating and bullion coins; prepares and
distributes numismatic coins and other items; and strikes Congressional Gold Medals and other medals of national
significance. The Mint maintains physical custody and protection of most of the Nation’s gold and all of its silver
assets.

The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises national banks and
federal savings associations to ensure a safe, sound, and competitive banking system that supports the citizens,
communities, and economy of the United States. The OCC also supervises federal branches and agencies of foreign
banks. Effective July 21, 2011, Title III of the Dodd-Frank Wall Street Reform and Consumer Protection Act,
transferred to the OCC responsibility for the supervision of federal savings associations (thrifts) and rule making
authority for all savings associations.


                                                              4
THE DEPARTMENT OF THE TREASURY ORGANIZATIONAL CHART

                                                                        Secretary                                   Treasury Inspector General
  Office of the Chief of Staff
                                                                                                                       for Tax Administration
                                        Inspector General
                                                                    Deputy Secretary
                                                                                                                    Special Inspector General
                                                                                                                     for the Troubled Asset
                                                                                                                          Relief Program




                                         Under Secretary         Under Secretary Terrorism         Under Secretary
                                         Domestic Finance        and Financial Intelligence      International Affairs           Assistant Secretary
                                                                                                                                     Tax Policy


                                                                                                                         Alcohol and Tobacco
                                                                                                                         Tax and Trade Bureau
        Internal Revenue                Assistant Secretary        Assistant Secretary
             Service                     Financial Markets         Terrorist Financing
                                                                                                                                   Assistant Secretary
                                                                                               Assistant Secretary                  Economic Policy
         Office of the                  Assistant Secretary         Assistant Secretary       International Finance
       Comptroller of the                Financial Stability     Intelligence and Analysis
          Currency
                                                                                                                                   Assistant Secretary
                                        Assistant Secretary      The Executive Office of       Assistant Secretary                    Public Affairs
                                        Financial Institutions      Asset Forfeiture          International Markets
                                                                                                and Development

                                  Community Development              Office of Foreign                                           Assistant Secretary
                                 Financial Institutions Fund          Assets Control          Office of Technical                 Legislative Affairs
                                                                                                  Assistance


                                                                    Financial Crimes                                             Assistant Secretary
                                             Office of            Enforcement Network                                              Management
                                         Financial Stability
                                         Oversight Council
                                                                                                                                  General Counsel
                                         Office of Financial
                                              Research                                                                                Treasurer


                                        Assistant Secretary
                                               Fiscal                                                                    United States Mint



                                 Bureau of the Fiscal                                                                    Bureau of Engraving
                                      Service                                                                                and Printing




                                                                        Departmental Office
                                                                        Bureau
                                                                        Inspector General




                                                                                 5
                                                                                 U.S. Department of the Treasury | Fiscal Year 2013

            TREASURY FISCAL YEAR 2012-2015 STRATEGIC FRAMEWORK
            AND KEY PERFORMANCE INDICATORS
            The strategic framework comprises the Department’s goals and objectives and forms the basis for performance
            management within the agency.

                                                                                                                            Select
              Strategic Goals                                Strategic Objectives                                        Performance
                                                                                                                          Indicators2
                                          • Lead the Administration’s efforts to continue to implement             • Clean audit opinion on
                                            comprehensive regulatory reform to increase stability and                TARP financial statements
                                            strengthen accountability in the financial system                        (OFS)
                                          • Effectively manage and exit emergency programs                         • Percentage of SIGTARP
Financial




            Goal 1
            Repair and Reform the         • Reform and strengthen the housing finance system                         and GAO oversight
            Financial System and          • Help prevent avoidable foreclosures and support the                      recommendations
            Support the Recovery of         availability of affordable mortgage credit                               responded to on time (OFS)
            the Housing Market



                                          • Protect global economic and financial stability and                    • Percentage of Multilateral
                                            encourage market-determined exchange rates                               Development Bank grant
                                          • Promote strong international financial standards and a                   and loan proposals
                                            level playing field for U.S. financial institutions                      containing satisfactory
                                          • Pursue free trade and open markets                                       framework for results
                                          • Encourage foreign investment in the U.S. economy while                   measurement (IA)
                                            ensuring national security                                             • Average number of days to
            Goal 2                                                                                                   process an original permit
Economic




                                          • Enter into bilateral and multilateral tax agreements that
            Enhance U.S.                                                                                             application for a new
                                            encourage cross-border trade and investment, and promote
            Competitiveness and                                                                                      alcohol or tobacco business
                                            the exchange of tax information to combat offshore tax
            Promote International                                                                                    (TTB)
                                            evasion
            Financial Stability and
                                          • Use leadership positions in the multilateral development
            Balanced Global Growth
                                            banks and the International Monetary Fund to advance
                                            U.S. national security and economic interests
                                          • Provide direct assistance to developing countries working
                                            to improve public financial management, and strengthen
                                            their financial systems




            2Example performance measures are provided in this table to illustrate how performance against these goals can be quantified. A
            full discussion of all performance measures that are reported under each goal will be provided in the “Performance by Goal” sections
            of this report.



                                                                             6
                                                                        U.S. Department of the Treasury | Fiscal Year 2013

                                                                                                               Select
              Strategic Goals                           Strategic Objectives                                Performance
                                                                                                             Indicators
                                     • Collect, analyze, and disseminate financial and other        • Impact of TFI programs
                                       information concerning illicit financing and national          and activities (TFI)
                                       security threats                                             • Percentage of domestic law
                                     • Disrupt and dismantle the financial networks of those who      enforcement finding
                                       threaten national security or engage in illicit financing      FinCEN’s analytic reports
             Goal 3                  • Shape policy, laws, and regulations to safeguard the U.S.      contribute to the detection
Security




             Protect our National      and international financial systems                            and deterrence of financial
             Security through        • Coordinate with partners, both at home and abroad,             crime (FinCEN)
             Targeted Financial        including the foreign policy, law enforcement, and
             Actions                   intelligence communities, to combat illicit finance
                                     • Assist partner countries in developing and implementing
                                       anti-money laundering and counter terrorist financing
                                       regimes compliant with international standards


                                     • Develop comprehensive proposals to reform and simplify       • Customer service
                                       the tax code                                                   representative level of
                                     • Increase voluntary tax compliance                              service (%, IRS)
             Goal 4
                                     • Promote policies to ensure a sound fiscal footing over the   • Percent of individual
             Pursue Comprehensive
                                       medium term                                                    returns processed
             Tax and Fiscal Reform
                                                                                                      electronically (IRS)
Management




                                     • Optimize the cash and debt portfolio to manage the           • Percentage collected
                                       Government’s borrowing costs effectively                       electronically of total dollar
                                     • Expand the use of electronic transactions                      amount of U.S. government
             Goal 5                  • Modernize financial systems and standardize accounting         receipts (Fiscal Service)
             Manage the                practices                                                    • Amount of delinquent debt
             Government’s Finances   • Continuously improve our operations and processes to           collected through all
             in a Fiscally             generate efficiency savings                                    available tools ($ billions,
             Responsible Manner      • Attract and retain an exceptional workforce                    Fiscal Service)




                                                                    7
                                                                              U.S. Department of the Treasury | Fiscal Year 2013


FISCAL YEAR 2013 PERFORMANCE BY STRATEGIC GOAL
GOAL #1: REPAIR AND REFORM THE FINANCIAL SYSTEM AND SUPPORT THE
RECOVERY OF THE HOUSING MARKET
In late 2008 and early 2009, the Department of the Treasury put in place a set of emergency programs to help recover from a
historic financial crisis, restore confidence, and restart economic growth.

In 2010, Congress passed and the President signed into law comprehensive financial regulatory reform: the Dodd-Frank Wall
Street Reform and Consumer Protection Act. Treasury has worked with the financial regulatory agencies to implement these
reforms, which are helping to protect the economy and financial system by addressing key gaps and weaknesses in the pre-crisis
regulatory system. These reforms will also help to protect consumers against fraud and abuse that in part contributed to the
financial crisis.

Treasury has also worked to support efforts to reform the housing market. Treasury has taken leadership roles in the development
of loan modification and refinancing programs designed to help prevent avoidable foreclosures and reduce mortgage costs for
homeowners. At the same time, Treasury has been involved in an ongoing conversation about a path forward for the nation’s
housing finance system and has responsibly managed the government’s investments in Fannie Mae and Freddie Mac.

SIGNIFICANT ACHIEVEMENTS
Treasury’s Office of Financial Stability (OFS) has continued to make progress in winding down the Troubled Asset Relief Program
(TARP) 3 and the emergency assistance for the financial system has primarily been replaced with private capital. OFS, on behalf of
taxpayers, has now recovered far more of its TARP investments than most people expected when the program began. As of
September 30, 2013, OFS had collected 96.2 percent of the $421.6 billion in program funds that were disbursed under TARP.

As OFS carefully winds down the investment programs under TARP, it continues to implement programs to help struggling
homeowners avoid foreclosure, primarily through mortgage modifications under the Treasury housing programs. In addition to
providing assistance to 1.8 million homeowners directly, these programs have set new standards and encouraged positive changes
throughout the mortgage servicing industry. On May 30, 2013, the Obama Administration extended the application deadline for
the Making Home Affordable Program through December 2015 in part to provide struggling homeowners additional time to access
sustainable mortgage relief.

PERFORMANCE AND FACTORS AFFECTING RESULTS
For a full discussion of Treasury’s efforts to repair and reform the financial system and support the recovery of the housing market,
please view the Agency Financial Report for OFS available at:

http://www.treasury.gov/initiatives/financial-stability/reports/Pages/Annual-Agency-Financial-Reports.aspx

EMERGING ISSUES
For a full discussion of the emerging issues facing Treasury’s efforts to repair and reform the financial system and support the
recovery of the housing market, please view the Agency Financial Report for OFS available at the URL referenced above.




3   Troubled Asset Relief Program: http://www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx


                                                                  8
                                                                              U.S. Department of the Treasury | Fiscal Year 2013


GOAL #2: ENHANCE U.S. COMPETITIVENESS AND PROMOTE INTERNATIONAL
FINANCIAL STABILITY AND BALANCED GLOBAL GROWTH
Treasury works bilaterally and multilaterally to foster strong and balanced global growth, promote stable international financial
markets, encourage foreign investment in the United States while protecting national security, promote a level playing field for U.S.
financial institutions internationally, and enhance U.S. competitiveness. This goal is supported through the operations of the
Office of International Affairs, the Office of Tax Policy, and the TTB. Promoting international growth and stability also includes
Treasury’s efforts to enable domestic growth and U.S. financial stability, which is supported through the efforts of the CDFI Fund,
the U.S. Mint, and the BEP.

SIGNIFICANT ACHIEVEMENTS
This year Treasury’s Office of International Affairs made significant progress promoting free trade, open markets, and global
financial stability:

     •    As co-lead on financial services negotiations, Treasury continued to support the Administration in negotiating the
          Transatlantic Trade and Investment Partnership agreement with the European Union and a Trade in Services Agreement
          with 23 other like-minded countries to liberalize services trade;
     •    At the U.S.-China Strategic and Economic Dialogue, China committed to undertake negotiations for a high-standard U.S.-
          China Bilateral Investment Treaty that would aim to cover all phases of investment and all sectors. China also reaffirmed
          its commitment to move to a more market-determined exchange rate and; between June 2010 and October 2013, the
          Chinese currency appreciated by over 17 percent against the dollar on a real, inflation-adjusted basis;
     •    As part of its efforts to prevent financial instability in the Eurozone from spreading to the U.S. economy, Treasury
          encouraged European countries to implement a robust policy framework to promote economic growth and restore
          confidence in the European banking system. Over the period, Treasury saw a significant reduction in interest rates facing
          Europe’s most vulnerable economies;
     •    As chair of the G-8 Deauville Partnership, Treasury helped lead an effort to launch a transition fund to support projects
          contributing to economic growth and stability, trade and investment integration, and inclusive development and job
          creation in the Middle East and North Africa. In fiscal year 2013, the fund approved $100 million for 28 projects in
          Jordan, Egypt, Libya, Morocco, Tunisia and Yemen, helping to directly support U.S. development and national security
          priorities in the region; and
     •    In fiscal year 2013, TTB worked with the Office of the U.S. Trade Representative to promote U.S. exports by working with
          foreign regulators to address barriers that block market access for U.S. products. For example, many major markets
          abroad require export certifications to accompany shipments of alcohol beverages before a product may enter foreign
          commerce. In fiscal year 2013, TTB issued more than 12,000 export certificates for beer, wine, and distilled spirits. TTB
          also continued its work to open burgeoning markets to U.S. producers, including member economies of the Asia-Pacific
          Economic Cooperation forum, by educating their regulators about the U.S. system to help prevent those countries from
          issuing technical barriers to U.S. exports.

Also in 2013, Treasury made progress in implementing the Foreign Account Tax Compliance Act (FATCA) 4 and tax treaty
negotiations:



4Foreign Account Tax Compliance Act: http://www.irs.gov/Businesses/Corporations/Foreign-Account-Tax-Compliance-Act-
(FATCA)


                                                                   9
                                                                           U.S. Department of the Treasury | Fiscal Year 2013


    •   The Office of Tax Policy signed eight intergovernmental agreements under FATCA, concluded negotiations with another
        15 countries, and began discussions with at numerous other countries; and
    •   In fiscal year 2013, Treasury signed three significant tax treaties: a protocol to the U.S.-Japan tax treaty, a protocol to the
        U.S.-Spain tax treaty, and a new tax treaty with Poland. Treasury also concluded negotiations on a new tax treaty with
        Romania and continued negotiations with Austria and Vietnam.

Treasury‘s achievements in supporting economic growth within the U.S. include:

    •   The Community Development Financial Institutions (CDFI) Fund’s core program (the CDFI Program) awarded $146.7
        million in funding to 148 CDFIs to provide loans, investments, financial services, and technical assistance to underserved
        populations and low-income communities. The CDFI Program awardees helped provide funds for projects that created or
        maintained 35,000 jobs; and
    •   The CDFI Fund completed the first round of the Bond Guarantee Program for $325 million in bonds with maturities up
        to 29.5 years that, when issued, are guaranteed by Treasury for community and economic development financing through.
        The CDFI Bond Guarantee Program was enacted through the Small Business Jobs Act of 2010, in order to provide eligible
        CDFIs with access to long-term capital by providing guarantees of bonds. As the administrator of the CDFI Bond
        Guarantee Program, the Fund completed final bond closings and issuance of guarantees during the final quarter of fiscal
        year 2013.

Treasury also achieved progress in managing the demand for U.S. currency, thus helping to improve financial stability through:

    •   The BEP produced sufficient quantities of the next generation $100 note needed to support the note’s initial release into
        worldwide circulation;
    •   The U.S. Mint met an 18 percent increase in demand for circulating coinage in fiscal year 2013 over an initial forecast of
        9.0 billion coins; and
    •   In fiscal year 2013, the U.S. Mint returned $350 million to the General Fund.




                                                                  10
                                                                           U.S. Department of the Treasury | Fiscal Year 2013


PERFORMANCE AND FACTORS AFFECTING RESULTS

      International Affairs Measures                                                                        FY 13       FY 13
                                                               FY 10     FY 11     FY 12        FY 13
                                                                                                            Target     Results

      Timely review of CFIUS 5 cases                           N/A        N/A       N/A        100.00       100.00       Met

      Monitor quality and enhance effectiveness of
      International Monetary Fund (IMF) lending                97.00    100.00     100.00      100.00       100.00       Met
      through review of IMF country programs

      Percentage of Multilateral Development Bank
      grant and loan proposals containing satisfactory         92.50     94.00      94.00       92.00        92.00       Met
      framework for results measurement

      Changes that result from project engagement
      (Impact) (Office of Technical Assistance                 3.00       3.20       3.10        3.00        3.10      Unmet
      Programs) 6

      Scope and intensity of engagement (Traction)
                                                               3.50       3.70      3.90         3.8         3.60        Met
      (Office of Technical Assistance Programs) 7


For both CFIUS (Treasury is the statutory Chair of the interagency committee) and IMF measures, the prioritize engagement and
support of Treasury leadership contributed positively to the results. Several factors contributed to the Office of Technical
Assistance Programs not realizing their fiscal year 2013 performance target for changes that result from project engagement,
including: increased instability overseas; increased cost of overseas operations; increased cost of domestic operations; and funding
reductions.


                                                                                                              FY 13      FY 13
     Alcohol Tobacco Tax and Trade Bureau (TTB)                 FY 10     FY 11     FY 12        FY 13
                                                                                                             Target     Results
     Measures

     Average number of days to process an original
     permit application for a new alcohol or tobacco            65.00     74.00      67.00       81.00        65.00     Unmet
     business

     Percentage of electronically filed Certificate of Label
                                                                79.00     88.00      91.00       92.00        92.00       Met
     Approval applications


TTB monitors its timeliness in processing permit applications through its measure of the average number of days to process an
original permit application for a new alcohol or tobacco business. Undue delays in permit application processing impede economic
growth, primarily in the small business sector, since taxable commodities, such as finished wine, beer, or spirits products, cannot


5 Committee for Foreign Investment in the United States (CFIUS)
6 Office of Technical Assistance measures are scored on a five-point scale and are averaged across all projects to provide one overall
measure of OTA’s performance in the categories of traction and impact.
7 Ibid




                                                                  11
                                                                           U.S. Department of the Treasury | Fiscal Year 2013


be lawfully produced without a federal permit from TTB. In fiscal year 2013, TTB targeted a 65-day turnaround time for original
permit applications; however, given increased demand for service from a growing industry and reduced resources, TTB averaged 81
days to process these applications. Even with greater than anticipated adoption rates for the Permits Online system, TTB does not
anticipate achieving sustained reductions to its permit application turnaround time until the latter quarters of fiscal year 2015.

TTB protects U.S. consumers by ensuring that the alcohol beverage products offered at retail outlets are properly labeled and
comply with federal production standards. In furtherance of Treasury’s Agency Priority Goal of increasing paperless transactions,
TTB met its performance level of 92 percent electronic filing for Certificates of Label Approval (COLA) applications. The ongoing
rise in electronic filing is due to system improvements that track with customer feedback and which simplify the filing process for
industry members.

      CDFI Fund Measures                                                                                     FY 13      FY 13
                                                               FY 10     FY 11      FY 12        FY 13
                                                                                                            Target     Results
      Awardees’ portfolio amount of CDFI
                                                                NA        1,228     1,298        1,978       1,200        Met
      loans/investments originated ($ millions)

      Number of jobs created/maintained by all CDFI
                                                                NA       55,274     57,023      50,353       50,000       Met
      fund programs (as reported by CDFIs)

      Percentage of New Markets Tax Credit (NMTC)
      loans and investments that went to severely              73.40      72.40     70.40        78.50       70.00        Met
      distressed communities


A key factor that contributed to an increase in the number and amount of loans reported by CDFI awardees’ portfolios was that
reporting awardees had a significantly larger asset base (30 percent larger) than the prior year awardees, leading to increased
lending over the projected target. Total jobs associated with lending and investing activities as reported by both CDFI and NMTC
Program awardees (not including construction jobs) met the performance target, largely reflecting improved data quality for
reporting project-level job outcomes for NMTC investments (due to improvement in linking multiple investments in the same
project). The percentage of NMTC investments made in severely distressed communities exceeded the target largely as a result of
better targeting by Community Development Entities (and it may also reflect improved targeting using new census data).

      BEP and U.S. Mint Measures                                                                            FY 13       FY 13
                                                              FY 10      FY 11     FY 12       FY 13
                                                                                                           Target      Results
      Manufacturing costs for currency (Dollar costs per
                                                              44.90      34.60     43.30       50.45        55.00         Met
      thousand notes produced) (BEP)

      Customer satisfaction index (MINT)                       86.1       91.7      90.0        92.6         90.0         Met

      Numismatic sales units (Million Units) (MINT)             NA        7.3        5.6        5.5          5.2          Met

      Seigniorage per dollar issued (MINT)                     0.49      0.45       0.21        0.24         0.17         Met


Manufacturing costs for currency notes (dollar costs per 1,000 notes) is an indicator of currency manufacturing efficiency and the
effectiveness of program management. This standard is developed annually based on the past year’s performance, contracted price
factors, and anticipated productivity improvements. Actual performance against the standard depends on BEP’s ability to meet


                                                                  12
                                                                               U.S. Department of the Treasury | Fiscal Year 2013


annual spoilage, efficiency, and capacity utilization goals established for a particular product line. In fiscal year 2013, the favorable
results for this metric were driven primarily by more efficient use of currency inks in the manufacturing process and improved
productivity in the Bureau’s currency overprinting function.

Mint sold more than 5.5 million numismatic (or collectors’) units, a 5.8 percent increase above the fiscal year 2013 target of 5.2
million units. The increase mainly resulted from strong Presidential $1 Coin product sales (above forecast by 23 percent); silver
coin product sales (above forecast by 26 percent); and gold and platinum coin product sales (78 percent above forecast).

In fiscal year 2013, seigniorage per dollar coin issued was $0.24, which is above the fiscal year 2013 performance target of $0.17.
Performance results exceeded the target mainly due to increased Federal Reserve Bank demand for quarter dollars and dimes;
lower input costs than forecast for copper, nickel, and zinc; and reduced general and administrative expenses.

EMERGING ISSUES
As Treasury strives to achieve its goals of enhanced U.S. competitiveness, balanced global growth, and international financial
stability, its policy offices and bureaus face a variety of emerging issues that are environmental, operational, and managerial in
nature.

Security conditions complicated ongoing work in North Africa and the increasing cost of overseas operations and budget
uncertainty has the potential to reduce the effectiveness of Treasury personnel who are assigned overseas and hamper Treasury’s
ability to undertake international travel for critical activities like trade negotiations.

The Office of Tax Policy spends a significant amount of time and resources implementing FATCA. From a technical perspective,
the U.S. government cannot offer full reciprocity under the FATCA agreements, which complicates the law’s implementation.

The TTB has seen sharp increases in turnaround times for permit, label, and formula applications. Even as electronic filing rates
for applications increase, TTB cannot meet the increasing demand for TTB service given the dramatic rise in small, craft alcohol
producers in recent years.

The BEP faces significant manufacturing challenges caused by the complex new design of the $100 note (next generation), which
have led to increased spoilage and quality issues. This has prompted BEP to partner with the Federal Reserve Board to develop a
more robust quality assurance program based on best industry practices.

Finally, the U.S. Mint is facing increasing demand for circulating coinage, which required bringing on temporary workers and
finding raw materials and supplies to meet delivery requirements. In circulating coinage, higher metal costs of one-cent and five-
cent coins have raised production costs above the coins’ face value for the eighth consecutive fiscal year. Also, the decision to cease
minting and issuing $1 coins for circulation in December 2011 created challenges to circulating financial results because of
reduced overall seigniorage generated by circulating coinage. Despite these challenges in circulating coinage operations, the
seigniorage increased in fiscal year 2013 compared to last year, mainly due to increased demand for quarter-dollar coins and
reduced general and administrative expenses.

Numismatic operations have faced a trend of declining sales for some products, such as recurring annual coin sets. The Mint’s
order management system is outdated, which creates challenges to the Mint’s ability to meet numismatic customers’ expectations
for ordering Mint products online.




                                                                     13
                                                                              U.S. Department of the Treasury | Fiscal Year 2013


GOAL #3: PROTECT OUR NATIONAL SECURITY THROUGH TARGETED
FINANCIAL ACTIONS
Treasury is devoted to using financial measures to track, degrade, and disrupt threats to national security from state and non-state
actors, including terrorists, WMD proliferators, drug traffickers, rogue regimes, and transnational criminal organizations.

As the Department works to enhance the accessibility of the financial system to legitimate users, it also works to prevent its
exploitation by illicit actors. Financial intelligence information can help identify the infrastructure of terrorist and other illicit
organizations that threaten U.S. national security. It is uniquely reliable and allows Treasury to track, deter, and disrupt threats.

SIGNIFICANT ACHIEVEMENTS
The Office of Terrorism and Financial Intelligence (TFI), through its various components, supported Treasury’s strategic and
priority goals by implementing sanctions (via Executive Order and legislation) and by conducting other enforcement, analytic, and
capacity-building work vital to protecting our national security.

In fiscal year 2013, TFI’s Office of Foreign Assets Control (OFAC) tallied over 500 designations under its sanctions authorities in its
efforts against weapons of mass destruction proliferators, terrorists, narcotics traffickers, transnational organized crime, persons
contributing to regional violence in Africa and those who support these individuals and groups. In particular, OFAC conducted a
sustained sanctions campaign against Iran, its agents, and its front companies in response to Iran’s continued defiance of various
United Nations Security Council resolutions. As a result, banks around the world have continued cutting off Iran from the
international financial sector; this isolation has played an essential role in bringing Iran to the negotiating table.

Since fiscal year 2010, OFAC has undertaken the task of implementing 16 new executive orders and a number of new laws, while
continuing the ongoing work of administering existing programs. OFAC puts great effort into working to ensure that the public has
clear and accurate information on its evolving sanctions programs through a robust website, telephone, and e-hotlines, and regular
public outreach conferences and events with various sectors.

In fiscal year 2013, OFAC also implemented a new online application system made available to the public for all licensing situations
(this application has been very well received by the regulated public), settled several significant enforcement cases, and published
an unprecedented number of guidance documents on OFAC sanctions, including implementation guidance, fact sheets, FAQs, and
website brochures. The office also released a public search tool for its Specially Designated Nationals and Blocked Persons List that
allows the public faster and more simplified access to this list. This tool has become one of the most popular applications on the
Treasury.gov domain.

TFI’s Office of Terrorist Financing and Financial Crimes (TFFC) worked to strengthen global standards to combat and prevent
financial crimes and terrorist financing. TFFC participated in or reviewed 18 mutual evaluations of various countries’ compliance
with international anti-money laundering (AML), terrorist financing, and counter-terrorist financing (AML/CFT) standards. TFFC
also worked with its counterparts abroad, focusing on creating effective AML/CFT frameworks and financial regulations capable of
combating terrorist financing.

Finally, the Financial Criminal Enforcement Network (FinCEN) issued interpretive guidance to clarify applicability of the Bank
Secrecy Act (BSA) to administrators and exchangers of convertible currency and provided reference information to partners on
emerging payment systems; implemented new processes to identify and deter money laundering through targeted enforcement
actions; joined other federal and state agencies in imposing a $1.9 billion enforcement action against HSBC, the largest combined
BSA and AML penalty ever imposed against any financial institution; and continued support of high priority health and tax fraud
investigations, including identification of key links to third-party money launderers.


                                                                    14
                                                                                  U.S. Department of the Treasury | Fiscal Year 2013


PERFORMANCE AND FACTORS AFFECTING RESULTS

         TFI and FinCEN Measures                                                                                FY 13     FY 13
                                                                          FY 10      FY 11   FY 12    FY 13
                                                                                                               Target    Results
         Impact of TFI programs and activities   (TFI) 8                   7.4        7.6      8.1     8.3 9     8.3       Met

         Percentage of domestic law enforcement finding that
         FinCEN’s analytic reports contribute to the detection and         80         86       83       81        83      Unmet
         deterrence of financial crime (FinCEN)

         Percentage of regulatory helpline customers
         understanding BSA guidance (FinCEN)                               92         92       89      92         90       Met



During fiscal year 2013, TFI estimates that it has met its performance target of 8.3 (on a scale of 10) on its composite measure,
“Impact of TFI Programs and Activities.” TFI will continue to achieve future performance level goals by continuing customer
outreach, increasing production of intelligence products, and implementing IT modernization projects.

In fiscal year 2013, TFI continued to conduct effective AML/CFT actions to protect the integrity of markets and of the global
financial framework as they help mitigate the factors that facilitate financial abuse. TFI provided AML/CFT policy development,
coordination, and coalition-building and worked to ensure unique access to valuable financial information and conducted all-
source analysis on financial and other illicit support.

Each of these actions was supported by critical analysis of intelligence by Treasury’s Office of Intelligence and Analysis (OIA). In
fiscal year 2013, OIA provided intelligence analysis of regional and specific country economies, the impact of U.S. and multilateral
sanctions, and targeted organizations and individuals that would threaten the U.S. Further, OIA focused upon enhancing
Intelligence Community (IC) efforts to address the impact of targeted financial measures, threats to the international financial
system, and efforts to diminish the potential to be a target for internal and external threats to national security.

In the customer liaison area, FinCEN measures the percentage of regulatory helpline customers who understand Bank Secrecy Act
(BSA) guidance. In fiscal year 2013, FinCEN exceeded its target by 2 percent with a 92 percent satisfaction level, continuing to
provide timely and valuable guidance to the financial industry. Also, modernized information technology brought opportunities to
generate efficiencies and improve effectiveness through increased use of the FinCEN website and delivery channels such as
webinars that also positively impacted performance.

In the intelligence area, FinCEN supports domestic law enforcement by providing analyses of BSA information. In fiscal year 2013,
81 percent of domestic law enforcement, when surveyed, indicated that FinCEN’s analytic reports contribute to the detection and
deterrence of financial crime, narrowly missing the 83 percent target. FinCEN attributes this missed target to decline in
satisfaction with proactive products, likely resulting from its focus on other mission related priorities and types of products.
FinCEN created an analyst working group to review its customers and product types and make recommendations for


8 Thiscomposite measure consists of three program office focus areas related to its mission and strategic goals. The composite
measure consists of customer surveys, the impact of designations and identifications, compliance with and implementation of
sanctions, evaluation of demonstrated action in key regions against threats and vulnerabilities to the financial system, evaluation of
the development of timely and relevant US financial and economic initiatives to advance efforts to combat national security threats,
and review of the private sector response in taking voluntary action to identify and safeguard against terrorist financing and money
laundering threats.
9 Value for this measure is estimated. Actual data will be available and reported in the Citizen’s Report in February.




                                                                     15
                                                                            U.S. Department of the Treasury | Fiscal Year 2013


enhancements and broader dissemination for greater impact. FinCEN has also increased its emphasis on production of proactive
products and believes it will be able to increase the percentage of customers who find its analytical products valuable with more
focused products and targeted dissemination in the future.

EMERGING ISSUES
TFI has been increasingly tasked with addressing the most pressing and emerging national security issues. These up-and-coming
issues have levied many additional tasks and requirements upon Treasury. To meet these challenges, TFI has worked towards
recruiting and retaining a flexible, multi-skill set workforce capable of meeting and addressing the quickly changing nature of
threats in the national security arena. This effort has resulted in a workforce with the ability to quickly change focus and positively
address new and rising key issues and the ever shifting complexities of combating illicit finance, disrupting and dismantling the
financial infrastructure of terrorists, and isolating their support networks.

A more tactical emerging issue related to this goal involves FinCEN’s efforts to modernize technology to better support its mission.
In the first quarter of fiscal year 2013, FinCEN incrementally rolled out new technology to nearly 8,000 users to include a new
portal to access BSA tools, including the new FinCEN Query system. The new Query tool has much more powerful capabilities than
the legacy system. As such, it introduced a significant change and learning curve for users, especially those who do not use it
regularly. Users currently have access to web-based training, along with other support materials. FinCEN is also developing a
comprehensive, sustainable training plan that targets external users.


GOAL #4: PURSUE COMPREHENSIVE TAX AND FISCAL REFORM
The Treasury Department leads the Administration’s efforts to create and implement a tax system that is simple, fair, and fiscally
responsible. Treasury is committed to comprehensive reform of the tax laws, which lowers tax rates while broadening the tax base,
makes the system fairer, improves incentives for investment and production in the U.S., and helps contribute to a balanced deficit
reduction plan over the medium-term.

Addressing the Nation’s fiscal challenges requires reforms and fiscal policies that go beyond streamlining the corporate tax code.
The Obama Administration has committed to pursuing a balanced approach to deficit reduction that strengthens our fiscal position
and helps ensure that America has room to invest in education, infrastructure, and other areas critical to long term economic
growth.

SIGNIFICANT ACHIEVEMENTS
Treasury’s Office of Tax Policy (OTP) continued implementation of the Foreign Account Tax Compliance Act (FATCA), which aims
to combat offshore tax evasion. In fiscal year 2013, OTP worked to achieve the signing of eight intergovernmental agreements,
concluded negotiations on another 15, and began discussions with at least 70 other countries.

In fiscal year 2013, the Internal Revenue Service (IRS) processed more than 240 million individual and business tax returns. In
addition, after 18 years, in February 2013, the Government Accountability Office (GAO) removed the IRS Business Systems
Modernization program from its High-Risk List. GAO concluded that the IRS had made substantial progress in addressing security
material weaknesses over the past several years and demonstrated a commitment to sustained progress.

Additionally, the IRS has made progress in the implementation of the Affordable Care Act by proposing regulations on insurance
provider fees, additional Medicare tax, net investment income tax, employer responsibility provision, small business health care tax
credit (2014 phase), and information reporting regulations for Marketplaces, insurers and employers. The IRS also issued final
regulations on disclosure of tax data to Marketplaces, the individual responsibility provision, the patient centered outcome excise
tax, and the medical device excise tax.

                                                                   16
                                                                                U.S. Department of the Treasury | Fiscal Year 2013


TTB collected more than $22 billion in excise taxes and other revenues from over 9,000 taxpayers in the alcohol, tobacco, firearms,
and ammunition industries. The return on investment for TTB’s Collect the Revenue program consistently exceeds 400:1 and, in
fiscal year 2013, reached 457:1. Additionally, TTB has developed an effective criminal enforcement program that draws on forensic
auditing and advanced investigative techniques to be responsive to diversion schemes, which vary widely and change in response to
targeted enforcement efforts. In less than three years, TTB’s criminal enforcement program has initiated 63 cases and identified
approximately $378 million in excise tax liabilities on diverted tobacco products, as well as $116 million in seizures. TTB has
successfully referred each of these cases for prosecution to the U.S. Attorney’s Office.

PERFORMANCE AND FACTORS AFFECTING RESULTS

      Internal Revenue Service Measures                                                                        FY 13      FY 13
                                                                        FY 10     FY 11    FY 12     FY 13
                                                                                                               Target     Result
      Customer service representative level of service (IRS)            74.0       70.1     67.6      60.5      70.0      Unmet

      Percentage of individual returns processed electronically
                                                                        69.3       76.9     80.5      82.5      80.0       Met
      (IRS)


The customer service representative level of service target for fiscal year 2013 (70 percent) was established prior to sequestration.
When sequestration took effect, the required funding adjustment severely hampered the IRS’s ability to meet the original target. In
addition, demand for toll-free service increased over the prior year by 7 percent, further straining reduced resources.

IRS met its fiscal year 2013 target for processing individual returns electronically; 82.5 percent of returns were processed
electronically (2 percent above the target). This is in large part due to IRS’s efforts to achieve Treasury’s Agency Priority Goal of
Increasing Voluntary Tax Compliance, which is discussed in detail later in this report.

EMERGING ISSUES
Since fiscal year 2010, IRS’s appropriated funding has been reduced by almost $1 billion. In fiscal year 2011 and fiscal year 2012,
the IRS budget allocation decreased by 0.2 percent and 2.5 percent, respectively. During fiscal year 2012, the IRS collected $2.9
trillion, using a budget of $11.2 billion, accounting for 91 percent of the total revenue that the U.S. government received that year.
This substantial return on investment provides the funds that allow the U.S. government to operate. In fiscal year 2013,
sequestration and an across the board rescission combined to further reduce the IRS budget by $618 million. This resulted in the
IRS re-evaluating its operating levels to ensure critical programs continued to be delivered. The effects of sequestration have
created significant impediments to the ability of the IRS to achieve all taxpayer service goals. The challenges created by the current
budget climate will continue to impact the IRS’s ability to meet performance targets, including level of service..

For the TTB, a new law introducing large federal excise tax disparities among tobacco products, combined with higher prices on
tobacco products, could result in decreased consumption of tobacco increased illicit trade, and tax avoidance schemes by
manufacturers. This could indicate declining TTB tax revenues in the out years and GAO has recommended that Congress, in
consultation with the Department of the Treasury, consider options for reducing tax avoidance due to tax differentials between
small and large cigars.




                                                                   17
                                                                            U.S. Department of the Treasury | Fiscal Year 2013


GOAL #5: MANAGE THE GOVERNMENT’S FINANCES IN A FISCALLY
RESPONSIBLE MANNER
The Treasury Department is responsible for managing the finances of the U.S. government and maintaining public trust and
confidence in U.S. and international economic and financial systems. Ensuring the Department is efficient, effective, accountable,
and transparent enables the smooth, continuous operation of essential government services and enables the government to meet
its financial obligations. To that end—and while supporting and maintaining governmental operations—during fiscal year 2013,
Treasury focused on achieving greater cost savings for the American public, modernizing operations, and increasing productivity,
effectiveness, and efficiency. Treasury has done this by developing systems, tools, and a culture of governing strategically, working
smarter, and leveraging technologies.

SIGNIFICANT ACHIEVEMENTS
The Collections and Cash Management Modernization Initiative has allowed Treasury to meet its target of receiving 97 percent of
its collections electronically. This initiative, which involved reengineering the processes that have been built over decades, allows
the Fiscal Service to be more efficient and cost-effective in processing collections for hundreds of agency cash flows with over 400
million transactions per year worth over $3 trillion.

A significant management achievement includes Treasury’s Quarterly Performance Review process, which entails quarterly review
sessions conducted with bureaus and policy offices by the Deputy Secretary, serving as the Chief Operating Officer, and the
Assistant Secretary for Management, serving as the Performance Improvement Officer. These sessions bring key leaders together
for regular discussions focused on management challenges and priority projects, driving accountability to make and sustain
improvements, align expectations and priorities across the agency, and encourage data-driven decision-making. These quarterly
reviews have been recognized by OMB and GAO as a best practice.

In addition to the quarterly performance reviews, Treasury’s “shared services first” approach to managing across organizational
boundaries has helped improve operation effectiveness and coordination across Treasury. The Treasury Shared Services Council
provides a portfolio-wide approach to shared services, providing additional transparency and accountability for cost and
performance issues and a common governance structure for Treasury’s multiple shared services programs.

Finally, the Department continued multiple initiatives to broaden efficiency within its procurement operations to include
acquisition-related savings and high risk reduction. In fiscal year 2013, the Department exceeded its internal savings goal of $97
million by achieving more than $340 million in acquisition-related savings. Treasury also exceeded its goal of reducing high-risk
contracting obligations by five percent.




                                                                  18
                                                                               U.S. Department of the Treasury | Fiscal Year 2013


PERFORMANCE AND FACTORS AFFECTING RESULTS

         Bureau of the Fiscal Service Measures                                                                    FY13        FY 13
                                                                   FY10        FY11        FY12        FY13
                                                                                                                 Target      Result
         Percentage collected electronically of total dollar
                                                                    85.0        96.0       97.0        97.0        97.0        Met
         amount of U.S. government receipts

         Amount ($ billions) of delinquent debt collected
                                                                    5.45        6.17        6.17       7.02        6.67        Met
         through all available tools

         Percentage of Treasury payments and associated
                                                                    82.2        84.3       88.3        92.5        91.0        Met
         information made electronically

         Percentage of respondents selecting the highest
         rating of customer satisfaction with Government             5.5        60.0       60.0        61.0        61.0        Met
         Agency Investment Services


In fiscal year 2013, the Fiscal Service met its target for the percentage collected electronically of total dollar amount of U.S.
government receipts. On December 7, 2010, Treasury published a regulation that required businesses with an annual tax liability of
at least $10,000 to pay their taxes electronically. The new requirement, combined with the Fiscal Service’s efforts to transition
taxpayers to electronic payments, resulted in the Fiscal Service processing approximately 138.5 million Electronic Federal Tax
Payment System transactions during fiscal year 2013, sustaining the improved performance first reported three years ago, when
the percentage of receipts collected electronically increased more than ten percent. With continued emphasis on the All Electronic
Treasury initiative, the Fiscal Service has undertaken the Non-Tax Paperless Initiative, which is aimed at electronically processing
collections and associated remittances. By processing these transactions electronically, the Fiscal Service and its agency partners
will achieve greater efficiencies and afford the public more convenient methods for making their payments.

The Fiscal Service collects delinquent debt owed to the U.S. government and states, including child support debt, by providing
centralized debt collection, oversight, and operational services pursuant to the Debt Collection Improvement Act of 1996 and
related legislation 10. The Fiscal Service uses two debt collection programs: Treasury Offset Program and Cross Servicing. In fiscal
year 2013, the Fiscal Service collected over $7.02 billion of delinquent debt, an increase of more than 13 percent over fiscal year
2012, its highest annual collection to date. Since 1997, the Fiscal Service has collected over $62 billion in delinquent debt.
Following are some accomplishments that supported the increase in delinquent debt collections:

           •    In 2013, the Fiscal Service continued to expand participation in state programs: 37 states including the District of
                Columbia now participate in the Unemployment Insurance Compensation (UIC) program, 19 more states than fiscal
                year 2012. UIC collected over $326 million (an increase of more than $194 million compared to fiscal year 2012).
                The Fiscal Service’s goal is to serve all 50 states and territories participating in the state programs. To realize this
                goal requires states to pass legislation and prioritize funding;
           •    In fiscal year 2013, the Fiscal Service increased the number of administrative wage garnishments, with initiated
                garnishment orders up 73 percent compared to fiscal year 2012;
           •    In 2013, through improved partial matching, the Fiscal Service collected over $220 million. Since the program began
                in 2010, the Fiscal Service has collected over $267 million; and

10   Debt Collection Improvement Act of 1996: http://www.fms.treas.gov/debt/dmdcia.txt


                                                                      19
                                                                             U.S. Department of the Treasury | Fiscal Year 2013


         •    In 2013, the Fiscal Service improved call center operations – all collector agents went through a training/certification
              program and became certified collectors

In fiscal year 2013, the Fiscal Service implemented a Centralized Receivables Service (CRS) pilot – six agency programs
implemented CRS with additional agency programs expected. In fiscal year 2013, CRS invoiced over $11.2 million in receivables
and collected over $9.8 million in current receivables.

In support of the All Electronic Treasury initiative, the Fiscal Service continued to expand and market the use of electronic funds
transfer to deliver federal payments, improve service to payment recipients, and reduce government program costs. In fiscal year
2013, the Fiscal Service made over 92 percent of its payments electronically, exceeding its performance goal of 91 percent. The
Fiscal Service attributes the performance outcome to considerable success in implementing its nationwide Go Direct® campaign to
encourage current check recipients to switch to direct deposit. As a result, paper checks have declined from 10.3 million per month
in January 2011 to 1.97 million as of September 2013, saving millions of taxpayer dollars in the years to come.

The GAIS Program strives to provide high-quality customer service, reliable transaction processing, and accurate and timely
payment distribution. In fiscal year 2013, GAIS distributed 99 percent of its principal and interest payments accurately and timely.
The basis for the consistent results achieved by GAIS is the commitment to maintaining strong internal controls, effective
procedures, and a well-trained staff. These effective business practices are exhibited by routinely receiving clean audit opinions
with no findings or material weaknesses. In fiscal year 2013, the targeted program initiatives to support the effective management
of investments and borrowings activity consisted of enhancing case management functionality for federal investments customers,
presenting at federal and state conferences, and conducting customer outreach through visits to various agencies and the
distribution of a customer satisfaction survey.

      Office of Management (ASM) Measures                                                                    FY 13        FY 13
                                                               FY 10      FY 11      FY 12       FY 13
                                                                                                            Target       Result
      Treasury-wide footprint (Square
                                                              37,088     37,596     37,998      37,320        n/a          n/a
      Footage/Thousands)

      Treasury-wide percentage of procurement dollars
                                                               29.62      34.51      38.52      38.54 11     32.00        TBD 12
      spent on small business


The Treasury-wide footprint is a measure of the total square footage occupied by Treasury’s owned and leased buildings.
Management’s goal is to generally reduce total square footage over the course of several years, using space more efficiently and
consuming fewer resources. Key strategies to reduce Treasury’s footprint include an increased adoption of telework, hoteling, and
work-space sharing in addition to improved work-station standards and office design.

The Treasury-wide percentage of procurement dollars spent on small businesses measures the percentage of total dollars obligated
to small businesses and highlights Treasury’s strong efforts to ensure that small businesses have the maximum practicable
opportunity to provide goods and services to the U.S. government. In fiscal year 2013, according to preliminary results, Treasury
spent 38.54 percent of its procurement dollars on small businesses, exceeding its target by more than six percentage




11 Final data will not be available until early 2014. However, current numbers indicate that Treasury will meet the established

target.
12 The result for this measure is TBD; since final data will not be available until early 2014, the final result of this measure is

unknown at the time this report was published.


                                                                   20
                                                                            U.S. Department of the Treasury | Fiscal Year 2013


points. Treasury will continue to employ proven past strategies in fiscal year 2014, including targeted small business outreach,
enhanced leadership accountability, and increased intra-agency communication.

EMERGING ISSUES
Fiscal year 2013 was a challenging year from a management and planning perspective. The uncertainty stemming from the year-
long continuing resolution, implementation of sequestration, and continuity planning for the lapse in appropriations disrupted
normal operations and hampered performance across the Department.

Sequestration was particularly difficult. The across-the-board spending cuts forced reductions across nearly all Treasury programs,
harming both taxpayers and federal employees. The IRS was especially affected, with sequestration reducing the agency’s ability to
provide core taxpayer services and resulting in billions of dollars in lost revenue due to fewer tax return reviews and diminished
fraud detection. For example, the IRS’s customer level of service (i.e. the number of taxpayers receiving assistance at assistance
centers and response letters) for fiscal year 2013 was 60.5 percent, down from the 67.6 percent in fiscal year 2012 and the fiscal
year 2013 planned level of 70 percent prior to sequestration. Sequestration also forced Treasury to reduce direct payments to state
and municipal bond issuers, decrease assistance for development of renewable energy, and grant fewer and smaller grants to low-
income and disadvantaged communities.

Sequestration had a considerable impact on Treasury employees as well, compelling Treasury bureaus to institute hiring freezes
and reduce training and travel budgets. The IRS furloughed all employees for three days in fiscal year 2013. These personnel
impacts can be seen through the year over year decline in Treasury employee satisfaction and engagement scores as measured by
OPM’s Federal Employee Viewpoint Survey.

As the Department continues to work towards increasing the percentage of collections received electronically, Treasury will
continue to pursue progress despite resource and budget constraints at federal agencies; and competing priorities that reduce the
abilities of our federal agencies partners to focus on moving to an all-electronic Treasury.




                                                                  21
                                                                           U.S. Department of the Treasury | Fiscal Year 2013


PERFORMANCE BY AGENCY PRIORITY GOAL
Treasury is pursuing two Agency Priority Goals for fiscal years 2012 and 2013. Performance data are available at the end of the
calendar year in the Annual Performance Report, and reported quarterly on Performance.gov. A synopsis of these goals is provided
below.


INCREASE VOLUNTARY TAX COMPLIANCE
Helping taxpayers understand their obligations under the tax law is critical to improving compliance and addressing the tax gap.
Therefore, the IRS is committed to making tax law easier to access and understand. The IRS remains committed to improving
voluntary compliance and reducing the tax gap through both taxpayer service and enforcement programs. In fiscal year 2013, the
IRS processed 147.6 million individual tax returns, of which more than 121 million were filed electronically. However, while
improvements were made, sequestration limited the IRS’s ability to provide service and enforcement to the level desired.


The IRS continued to increase the amount of tax information and services available to taxpayers through online and social media.
IRS.gov provides alternative online and self-help service options. In fiscal year 2013, taxpayers viewed IRS.gov web pages
approximately 1.9 billion times as they used the website to:

•   Get forms and publications. More than 217.5 million tax products were downloaded;

•   Link to the Electronic Federal Tax Payment System (EFTPS). EFTPS processed more than 145 million electronic tax
    payments totaling more than $2.3 trillion during fiscal year 2013;

•   Get answers. More than 2.4 million visits to the Interactive Tax Assistant introduction page occurred where taxpayers can
    receive answers to tax law questions; and

•   Check on Refunds. Taxpayers used “Where’s My Refund?” more than 192.3 million times to check on the status of their tax
    refunds, an increase of 51.6 percent from 2012.


In addition, the IRS continued efforts in fiscal year 2013 to increase voluntary compliance in a variety of ways which include:

•   Announced the release of an updated smartphone application “IRS2Go 3.0”;
•   Continued to expand the Virtual Service Delivery project, allowing assistors to interact with taxpayers virtually;
•   Expanded its social media presence by adding Tumblr to its list of social media platforms;
•   Deployed a web-based tool (“Where’s my Amended Return?”) to expand self-service features on the IRS website;
•   Expanded the Law Enforcement Assistance Program, piloted in Florida in April 2012, to all 50 states and the District of
    Columbia to help law enforcement pursue identity thieves; and
•   Announced a joint plan with the tax administrations from Australia and the United Kingdom to share tax information to
    pursue international tax evasion.




                                                                 22
                                                                            U.S. Department of the Treasury | Fiscal Year 2013


SIGNIFICANTLY INCREASE THE NUMBER OF ELECTRONIC TRANSACTIONS WITH
THE PUBLIC
The safety, security, efficiency, and reliability of Treasury transactions are paramount to maintaining public trust. Billions of
transactions, including payments to benefits recipients, savings bonds purchases, and tax collections, are executed by Treasury
each year. The paper processes associated with these transactions can be slow, insecure, inaccurate, and wasteful. In an effort to
improve customer service, decrease the public’s vulnerability to fraud, and efficiently manage resources, Treasury approved several
initiatives to move towards electronic transactions including electronic savings bonds, electronic benefit payments, and electronic
tax collection. Treasury has already discontinued the issuance of paper savings bonds. Treasury has achieved its goal for benefit
payments as more than 97 percent are made electronically. Treasury will continue to have more businesses pay taxes electronically
rather than by paper coupon. This priority goal is related to the strategic goal of “Manage the Government’s Finances in a Fiscally
Responsible Manner.”

PAYMENTS
In fiscal year 2013, 95.7 percent of benefit recipients were receiving their payments electronically. In support of the goal to
increase electronic federal benefit payments, the Go Direct public education campaign conducted qualitative research with
beneficiaries still receiving paper checks. The research was conducted to track awareness of the rule (31 CFR Part 208), which has
helped to determine the likelihood that the remaining federal benefit check recipients would switch to an electronic payment
method before the rule deadline of March 1, 2013.

COLLECTIONS
To achieve Treasury’s goal of increasing electronic non-tax collections and remittances, the Fiscal Service embarked on the Non-
Tax Paperless Initiative. The goal is to raise the electronic initiated revenue collection volume rate from the current 55-60 percent
to 70 percent by 2017. This approach will involve efforts to increase awareness of available electronic options and their value,
inform agencies about the need to transition their customers from paper to electronic, drive agency adoption of electronic
collection processes and technologies, educate end users about the specific benefits of electronic transactions, and increase
conversions from paper to electronic.




                                                                  23
                                                                     U.S. Department of the Treasury | Fiscal Year 2013


HIGHLIGHTS OF MANAGEMENT AND PERFORMANCE CHALLENGES
  Annually, in accordance with the Reports Consolidation Act of 2000, OIG and TIGTA identify the most significant
  management and performance challenges facing the Department. These challenges do not necessarily indicate
  deficiencies in performance; rather, some represent inherent risks that require continuous monitoring. Treasury
  made progress on these issues in fiscal year 2013, and will continue to focus on resolving them during fiscal year 2014
  and beyond. Refer to Section C of Part 3, Other Accompanying Information, for a detailed discussion of these
  challenges, listed below.

  Note: SIGTARP does not provide the Secretary with an annual report on management and performance
  challenges. SIGTARP provides oversight of the Troubled Asset Relief Program, a program that spans several federal
  agencies, only as a special inspector general while the OIG and TIGTA provide oversight of the Department and IRS,
  respectively, and report on its management and performance challenges under the Reports Consolidation Act of
  2000.

   TREASURY-WIDE MANAGEMENT CHALLENGES – AS IDENTIFIED BY OIG
        •   Continued Implementation of Dodd-Frank

        •   Management of Treasury’s Authorities Intended to Support and Improve the Economy

        •   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement

        •   Gulf Coast Restoration Trust Fund Administration


   IRS MANAGEMENT CHALLENGES – AS IDENTIFIED BY TIGTA
        •   Security for Taxpayer Data and IRS Employees

        •   Implementing the Affordable Care Act and Other Tax Law Changes

        •   Tax Compliance Initiatives

        •   Modernization

        •   Fraudulent Claims and Improper Payments

        •   Providing Quality Taxpayer Service Operations

        •   Human Capital

        •   Globalization

        •   Taxpayer Protection and Rights

        •   Achieving Program Efficiencies and Cost Savings




                                                            24
                            U.S. Department of the Treasury | Fiscal Year 2013


FINANCIAL HIGHLIGHTS




Figure 1                      Figure 2




Figure 3                      Figure 4




Figure 5                      Figure 6




Figure 7                      Figure 8




                       25
                                                                            U.S. Department of the Treasury | Fiscal Year 2013


The financial highlights below are an analysis of the information included in the Department’s consolidated financial statements
that appear within the “Annual Financial Report” section of this report. The Department’s principal financial statements have been
prepared to report the agency’s financial position and results of operations, pursuant to the requirements of 31 USC 3515(b). These
consolidated financial statements have been prepared from the books and records of the Department in accordance with generally
accepted accounting principles (GAAP) for federal entities and the formats prescribed by OMB. The consolidated financial
statements are in addition to the financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records. The financial statements should be read with the realization that they are for a component of the U.S.
government, a sovereign entity.

The chart below presents changes in key financial statement line items as of and for the fiscal year ended September 30, 2013
compared to September 30, 2012.

                                      Summary Financial Information (dollars in billions)

                                                                   2013                  2012            $ Change     % Change
Total Assets                                             $     19,040.6       $      17,921.9     $         1,118.7        6.2%
Total Liabilities                                        $     18,599.5       $      17,532.5     $        1,067.0         6.1%
Total Net Position                                       $         441.1      $         389.4     $            51.7       13.3%
Total Net Cost of (Revenue From) Treasury                $           3.3      $       (275.2)     $          278.5     (101.2)%
Operations
Net Federal Debt Interest Costs                          $        390.0       $         399.3     $           (9.3)       (2.3)%
GSEs Non-Entity Costs (Revenue)                          $       (126.6)      $           5.3     $         (131.9)   (2488.7)%
Total Budgetary Resources                                $         857.8      $         816.1     $            41.7         5.1%
Agency Outlays, Net                                      $         286.9      $         241.3     $            45.6        18.9%
Net Revenue Received (Custodial)                         $       2,591.6      $       2,256.2     $          335.4         14.9%


Financial Overview. The Department’s financial performance as of and for the fiscal year ended September 30, 2013, reflects
several major trends. Most significantly, the outstanding federal debt, including interest, rose by $671.9 billion to finance the U.S.
government’s operations. The Department also incurred a liability at September 30, 2013, totaling $248.6 billion in connection
with extraordinary debt management measures undertaken by the Department during a debt issuance suspension period (DISP) to
prevent outstanding Treasury debt from exceeding the statutory debt limit. Specifically, these measures included, among other
things: (i) suspending investments in Treasury debt securities by the Government Securities Investment Fund of the Federal
Employees’ Retirement System Thrift Savings Plan (TSP), Civil Service Retirement and Disability Trust Fund (Civil Service Fund),
and the Postal Service Retiree Health Benefits Fund (Postal Benefits Fund); and (ii) redeeming early a certain amount of Treasury
debt securities held by the Civil Service Fund. The $248.6 billion liability reflects the Department’s obligation by statute as of
September 30, 2013, to restore to the three funds the accumulated principal balance of Treasury debt securities bearing the same
interest rates and maturity dates that would have been invested by these funds had the DISP not occurred (uninvested principal),
as well as pay these funds the related lost interest on the uninvested principal.

Additionally, the Department amended its Senior Preferred Stock Purchase Agreements (SPSPAs) with Fannie Mae and Freddie
Mac - two Government-Sponsored Enterprises (GSEs) - in 2012, which changed, among other things, the basis for determining
quarterly dividends that are paid by the GSEs to the U.S. government commencing with the quarter ending March 31, 2013. As a
result of the amended SPSPAs, coupled with the GSEs’ long-term financial forecasts within a specific time horizon, the Department
reduced its contingent liability associated with the GSE program by $9.0 billion and $288.7 billion at the end of fiscal year 2013
and 2012, respectively, via a reduction in expense.




                                                                   26
                                                                              U.S. Department of the Treasury | Fiscal Year 2013


The Department’s 2013 financial performance also reflects the ongoing wind-down of the TARP programs, principally through
sales of securities and principal repayments of loans made under these programs. TARP’s wind-down activity included, among
other things, sales of its remaining equity investments in the AIG Investment Program, Public-Private Investment Program, and
Capital Purchase Program. In December 2013, the Department completed the disposition of the remaining shares of General
Motors common stock held under the Automotive Industry Financing Program. The continued wind-down of the TARP programs
in fiscal year 2013 drove significant fluctuations in the subsidy costs associated with these programs. Subsidy costs recorded in
connection with each credit program represent the difference between the projected costs of the program and the future cash flows
anticipated to be generated by the program.




                             Figure 9

Total Assets of $19.0 trillion at September 30, 2013 consist of a receivable due from the General Fund of the U.S. government of
$17.1 trillion, intra-governmental loans and interest receivable of $1.1 trillion, and fund balance and various other assets which
totaled $823.7 billion (Figure 9). The $1.1 trillion (or 6.2 percent) increase in total assets at the end of fiscal year 2013 over the
prior year is primarily due to an increase in the “Due from the General Fund of the U.S. Government” account, corresponding to
increases in the following liabilities: (i) a $671.9 billion increase in federal debt and related interest payable and (ii) a $248.6 billion
additional liability for the restoration of federal debt principal and interest in connection with the DISP. These additions to
Treasury liabilities at the end of 2013 caused a corresponding rise in the “Due from the General Fund of the U.S. Government”
asset account which represents future funds required from the General Fund of the U.S. Government to pay borrowings from the
public and other federal agencies.

Intra-governmental loans and interest receivable represent loans issued primarily by the Fiscal Service to other federal agencies for
their own use or for the agencies to loan to private sector borrowers whose loans are guaranteed by the federal agencies. This
receivable grew by $179.3 billion (or 19.6 percent) to $1.1 trillion at the end of fiscal year 2013 due to increased borrowings by
various federal agencies – such as the Departments of Education, Agriculture, and Housing and Urban Development – to fund
their existing programs.

Other assets include, among other things, TARP and non-TARP credit program receivables due from, and other investments in
certain financial institutions for which the Department provides financial assistance in an effort to stabilize financial markets.
Other assets decreased by almost $5.1 billion primarily due to, among other things, the ongoing wind-down of the TARP programs
through sales of securities or principal repayments of loans made under these programs. Offsetting this decrease was an increase
in the fair value of the GSE investments, which primarily reflects the improved financial performance of the GSEs.



                                                                    27
                                                                               U.S. Department of the Treasury | Fiscal Year 2013




                             Figure 10
Total Liabilities of $18.6 trillion at September 30, 2013 principally consist of the federal debt held by the public, including
interest, of $12.0 trillion, which were mainly issued as Treasury Notes and Bills (Figure 10). Liabilities also include intra-
governmental liabilities totaling $6.4 trillion (of which $4.8 trillion represent principal and interest of federal debt in the form of
Treasury securities held by federal agencies), and various other liabilities totaling $0.2 trillion. The $1.1 trillion (or 6.1 percent)
increase in total liabilities at the end of fiscal year 2013 over the prior year is attributable to a $671.9 billion increase in federal debt,
including interest, held by the public and federal agencies that was needed to finance the U.S. government’s budget deficits. An
additional $248.6 billion of the increase is attributable to a liability for restoration of federal debt principal and interest as of
September 30, 2013. This liability relates to uninvested principal and interest owed to funds due to extraordinary measures taken
by the Department during the DISP. The increase in total liabilities is also attributable to a $159.7 billion increase in the “Due to
the General Fund of the U.S. Government” account, primarily as a result of an increase in intra-governmental loans and interest
receivable. The Department, through the Fiscal Service, accounts for and reports on the principal borrowings from and
repayments to the General Fund, as well as the related interest due to the General Fund.


Total Net Position of $441.1 billion at September 30, 2013 represents the combined total of the Department’s cumulative results
of operations and unexpended appropriations at the end of the fiscal year. The $51.7 billion (13.3 percent) increase in the net
position at the end of fiscal year 2013 was principally attributable to a $69.3 billion increase in budgetary financing sources driven
by increased appropriations primarily to fund the Department’s Economic programs.




                             Figure 11


                                                                     28
                                                                             U.S. Department of the Treasury | Fiscal Year 2013


Net Cost of (Revenue From) Treasury Operations, as presented on the Department’s Consolidated Statements of Net Cost,
presents the Department’s gross and net costs by strategic program. There are three main categories of strategic
programs: financial, economic, and security. The Department’s net cost of operations totaled $3.3 billion for 2013 compared to
total net revenue from its operations of $275.2 billion for 2012. The year-over-year combined change of $278.5 billion in cost of
operations is primarily driven by net revenue in fiscal 2012 associated with the Department’s economic programs, as described
below.

Economic programs generated net revenue of $8.2 billion in 2013 compared to $288.8 billion in 2012 (Figure 11). The $288.8
billion in economic programs net revenue in fiscal year 2012 was driven by a $288.7 billion reduction in the Department’s
estimated future liability to the GSEs in 2012, via a reduction in expense, down to $9.0 billion at the end of 2012. As a result of the
new dividend payment requirement under the amended SPSPAs that commenced with the quarter ended March 31, 2013, coupled
with GSEs’ long-term financial forecasts within a specific time horizon, the Department reduced by $9.0 billion its estimated future
liability to the GSEs in 2013, via a reduction in expense.

Net Federal Debt Interest Costs primarily reflect interest expense on the federal debt. Federal interest costs declined by $9.3
billion (or 2.3 percent) in fiscal year 2013 (Figure 5) despite the rise in the overall federal debt. The decrease in cost is primarily
attributable to a decline in the intra-governmental federal debt outstanding balance, coupled with a decline in the average interest
rate on intra-governmental federal debt. This decrease was slightly offset by increased expense associated with the growth in the
outstanding balance of federal debt held by the public.

GSE Non-Entity Revenue totaled $126.6 billion for 2013 compared to net cost of $5.3 billion for 2012. The revenue in 2013 was
primarily driven by a $77.3 billion increase in preferred stock dividends, coupled with a $30.9 billion valuation gain on GSE
investments in 2013 compared to a $42.3 billion loss in 2012. These increases primarily stemmed from federal income tax benefits
and other improvements in the GSEs’ financial performance in 2013.

Total Budgetary Resources of $857.8 billion were higher in fiscal year 2013 (Figure 6) by $41.7 billion (or 5.1 percent)
primarily due to an increase in appropriations, offset by decreases in other changes in unobligated balances, borrowing authority,
and spending authority from offsetting collections. Appropriations increased $75.2 billion primarily due to increased funding
needed in fiscal year 2013 to service the federal debt. Partially offsetting the increase in appropriations were reduced borrowing
authority, spending authority from offsetting collections, and other changes in unobligated balances by a combined total of $34.7
billion principally due to the ongoing wind-down of the TARP programs.

Agency Outlays, Net of $286.9 billion were higher in fiscal year 2013 (Figure 7) by $45.6 billion (or 18.9 percent) primarily due
to fewer collections in fiscal year 2013 from the wind-down of the TARP programs, partially offset by increased receipts of
preferred stock dividends from the GSE SPSPA program.

Net Revenue Received (Custodial), representing net revenue collected by Treasury on behalf of the U.S. government, includes
various taxes, primarily income taxes, as well as user fees, fines and penalties, and other revenue. Over 90 percent of these
revenues are related to income and social security taxes. Net revenue received was $2.6 trillion for fiscal year 2013, an increase of
$335.4 billion (or 14.9 percent) over the prior fiscal year. This increase is attributed mainly to an increase in ordinary, capital
gains, and dividend income tax rates for individuals, coupled with an increase in corporate income tax collections and a reduction
in tax refunds.




                                                                    29
                                                                           U.S. Department of the Treasury | Fiscal Year 2013


MANAGEMENT ASSURANCES


                            The Secretary’s Assurance Statement

The Department of the Treasury’s management is responsible for establishing and maintaining effective internal control and
financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). Treasury has
evaluated its management controls, internal controls over financial reporting, and compliance with federal financial systems
standards. As part of the evaluation process, Treasury considered results of extensive testing and assessment across the
Department and independent audits.

Treasury provides assurance that the objectives of Section 2 of the FMFIA (Financial Reporting and Operations) have been
achieved, except for the material weaknesses noted below. Treasury is in substantial conformance with Section 4 (Financial
Management Systems) of the FMFIA. Also, in accordance with Office of Management and Budget Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A, Internal Control over Financial Reporting, Treasury provides
qualified assurance that internal control over financial reporting was operating effectively based on the results of the assessment as
of June 30, 2013. Treasury’s financial management systems are not in substantial compliance with the Federal Financial
Management Improvement Act (FFMIA) due to the Internal Revenue Service’s (IRS’s) material weakness related to unpaid tax
assessments.

During fiscal year 2013 Treasury closed one material weakness: IRS – Computer Security. As of September 30, 2013, Treasury had
two remaining FMFIA material weaknesses as follows (with origination/planned resolution timeframes indicated):


   Operations:

        •   Bureau of the Fiscal Service (formerly Financial Management Service) – Systems, Controls, and Procedures to Prepare
            the Government-wide Financial Statements (Fiscal Year 2001/2015)

   Financial Reporting:

        •   IRS – Unpaid Tax Assessments (Fiscal Year 1995/2015)


Treasury management remains dedicated to the resolution of these remaining weaknesses. Overall, Treasury continues to make
progress in reducing internal control weaknesses and in meeting federal financial management systems requirements.




Jacob J. Lew
Secretary of the Treasury
December 16, 2013




                                                                 30
                                                                U.S. Department of the Treasury | Fiscal Year 2013


FMFIA
The management control objectives under FMFIA are to reasonably ensure that:
  •   Obligations and costs are in compliance with applicable law

  •   Funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation

  •   Revenues and expenditures applicable to agency operations are properly recorded and accounted for to permit
      the preparation of accounts and reliable financial and statistical reports and to maintain accountability over the
      assets

FMFIA requires agencies to evaluate and report on the effectiveness of controls over operations and financial
reporting (FMFIA Section 2), and conformance with financial management systems requirements (FMFIA Section 4
and FFMIA) that protect the integrity of federal programs. Deficiencies that seriously affect an agency’s ability to
meet these objectives are deemed “material weaknesses.”

In fiscal year 2013, Treasury continued to make progress on closing its three material weaknesses, as listed in the
Secretary’s assurance statement. Treasury includes resolution of material weaknesses as a performance requirement
for every executive, manager, and supervisor. Treasury closed the IRS Computer Security material weakness during
fiscal year 2013. Additional information on Treasury’s material weaknesses and progress can be found in Section F of
Part 3, Other Accompanying Information.



FFMIA AND FINANCIAL MANAGEMENT SYSTEMS
FFMIA
FFMIA mandates that agencies “... implement and maintain financial management systems that comply substantially
with federal financial management systems requirements, applicable federal accounting standards, and the United
States Government Standard General Ledger (USSGL) at the transaction level.” FFMIA also requires the
development of remediation plans by any entity unable to report substantial compliance with these requirements.

During fiscal year 2013, Treasury bureaus and offices used a risk-based approach to assess their financial
management systems’ compliance with FFMIA, as required by OMB. The bureaus and offices conducted self-
assessments to determine their risk levels. All Treasury bureau and office financial management systems are in
compliance with FFMIA, with the exception of IRS that did not comply with federal financial management systems
requirements or applicable federal accounting standards. As required, the IRS has a remediation plan in place to
correct the identified deficiencies. IRS management updates this plan quarterly and Treasury management reviews it.
In addition, TIGTA audits IRS’s remediation progress annually.




                                                           31
                                                                U.S. Department of the Treasury | Fiscal Year 2013


To address the Unpaid Tax Assessments material weakness, the IRS implemented programming changes in the
Custodial Detail Data Base to improve the financial classification in situations where:

    •    There are unpaid tax assessments requiring amounts to be accurately reported on single Business Master
         File modules with a partial collection statute-expired assessment

    •    A taxpayer is ordered to make restitution on criminal activity

    •    A taxpayer has become a victim of identity theft and his/her account has been compromised; the taxpayer’s
         account will be restored to its accurate balance


In addition, the IRS continues to update the Automated Trust Fund Recovery system to increase the number of Trust
Fund Recovery Penalty (TFRP) cases that can be worked without user intervention and to eliminate errors. The IRS
will continue to perform internal control testing to ensure the accuracy of these accounts.


FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK
The Department of the Treasury’s financial management systems framework consists of two fundamental
components: (1) core financial and mixed systems maintained by the Treasury bureaus, and (2) the Department-wide
Financial Analysis and Reporting System (FARS). The bureau systems process and record detailed financial
transactions and submit summary-level data to FARS, which maintains the key financial data necessary for Treasury-
wide consolidated financial reporting. This framework satisfies the bureaus’ diverse financial operational and
reporting needs as well as the Department’s internal and external reporting requirements. The FARS framework
provides essential support each year to Treasury’s efforts to obtain an unqualified audit opinion.

The FARS includes the following component applications:

    •    Treasury Information Executive Repository (TIER) – a financial data warehouse used to consolidate and
         validate bureau financial data

    •    CFO Vision (CFOV) – a tool used to produce monthly financial statements, notes, and other supporting
         reports, and also to perform financial analysis

    •    Joint Audit Management Enterprise System (JAMES) – tracks information on open audits and audit report
         findings, recommendations, and planned corrective actions

Bureaus submit summary-level financial data to TIER monthly. The CFOV application uses these data to produce
financial statements and reports on both a Department-wide and bureau-level basis, including Treasury’s audited
annual financial statements and monthly management reports.

Fourteen Treasury bureaus and offices use centralized financial operations, budget execution services, or IT support
provided by the Fiscal Service’s Administrative Resource Center (ARC). This shared services approach enables these
bureaus to have access to core financial systems without having to maintain the necessary technical and systems
architectures. Fiscal Service/ARC also provides administrative services in the areas of accounting, travel, payroll,
human resources, and procurement to Treasury bureaus and offices and to other federal entities to support core
business activities. Using these services reduces the need for Treasury to maintain duplicative financial management
systems; enhances the quality, timeliness, and accuracy of financial management processes; and provides a more
efficient and cost-effective business model. In fiscal year 2013, Fiscal Service/ARC upgraded its core financial
management system to adopt the Common Government-wide Accounting Classification (CGAC) structure and offer
additional functionality to its customers. In fiscal years 2013 and 2014, the Department and Fiscal Service/ARC plan

                                                           32
                                                                 U.S. Department of the Treasury | Fiscal Year 2013


to upgrade to the second instance of the core financial management system to meet compliance expectations. In
addition, Fiscal Service/ARC will continue to expand its use of the Invoice Processing Platform (IPP), a secure, web-
based service implemented in fiscal year 2012 that more efficiently manages government invoicing.


GOALS AND THE SUPPORTING FINANCIAL SYSTEM STRATEGIES
Treasury’s financial system goals and supporting strategies focus on improving and streamlining the current bureau
core and mixed financial systems as well as the current FARS applications in order to support new financial
requirements and continue to provide management with accurate and timely financial information.

Throughout fiscal year 2013, Treasury updated TIER and CFOV to meet new and evolving reporting requirements.
These include updates to TIER to comply with the data standard reflected in Fiscal Service’s planned Government-
wide Treasury Account Symbol Adjusted Trial Balance System (GTAS). The TIER Focus Group, which serves as a
forum for bureau feedback on TIER enhancements and issues, continued to meet to improve communication with the
bureaus and coordinate changes impacting financial management systems and financial operations.

In fiscal year 2014, Treasury will replace two component FARS applications in order to reduce operating costs and
increase the efficiency of Treasury staff through increased automation.

    •    The current CFOV application will be replaced as part of Treasury's effort to bring the FARS into compliance
         with Fiscal Service's new GTAS data standard. CFOV will be replaced by the TIER Financial Statements
         (TFS) application, which is expected to have lower operating costs.
    •    The current JAMES application will be replaced by a commercial off-the-shelf (COTS) governance, risk, and
         compliance (GRC) software product for managing audit follow-up and internal self-assessment activities. By
         automating certain operational functions, the new product will allow Treasury staff more time for analysis
         and oversight. The GRC product will improve the ability to document, track, and mitigate key risks across
         Treasury; facilitate collaboration with and across Treasury bureaus, third-party service providers, and
         oversight bodies; and enable users to manage issues centrally and leverage data over multiple years in the
         development of corrective action plans.

Customer Account Data Engine (CADE) 2 Transition State 1 daily processing is enhancing IRS tax administration and
improving service to taxpayers by enabling faster refunds for taxpayers, more timely account updates, and faster
issuance of taxpayer notices. In addition, Transition State 1 changes the underlying Information Technology
infrastructure by allowing the IRS to store taxpayer data in a state-of-the-art database, which will position the IRS to
implement new applications to access and analyze all of a taxpayer’s data from one authoritative source.

In calendar year 2013, intense focus has been placed on optimizing performance of the CADE 2 database, ensuring
the data are clean and ready for next filing season production deployment in 2014 and for the longer term. This effort
includes database performance optimization, building and testing data validation and data recovery tools, addressing
security and privacy requirements, changes to code base to reflect tax law changes, infrastructure upgrades, systems
and integration testing, and organizational readiness activities to ensure support processes and monitoring are in
place so the database can run successfully in production.

In fiscal year 2013, the IRS also began the next phase of CADE 2 Transition State 2, modernizing its 50-year old
legacy core taxpayer account processing systems, which includes re-writing IRS’s legacy core tax processing
applications in modern programming language, resulting in increased flexibility, scalability, reliability and security;


                                                            33
                                                                U.S. Department of the Treasury | Fiscal Year 2013


and enhancing IRS’s ability to leverage the new CADE 2 database, ensuring compliance with federal financial system
requirements and addressing IRS’s Financial Material Weakness for individual taxpayer accounts. The Penalty and
Interest 2013 Mid-Year Release, part of the Transition State 2 score to insure that Penalty and Interest calculations
are consistent across IRS, was successfully deployed on July 29, 2013. The Primary Penalty and Interest Project is on
track for its scheduled Filing Season 2014 implementation.

In fiscal year 2013, BEP enhanced and refined its cloud-based, fully integrated enterprise resource planning system.
This included the conversion of supply chain management, manufacturing management, project accounting, and
contract lifecycle management modules. BEP plans to continually focus on improving automation and streamlining
in a cost-efficient manner in fiscal year 2014.

The OCC upgraded its Management and Accountability Reporting Tools ($MART) financial system in order to retain
access to vendor support for the underlying software in fiscal year 2013. The OCC plans to continue to integrate its
applications with its customers and to provide innovative solutions for efficient reporting.




                                                           34
2s
     THE U.S. DEPARTMENT OF THE TREASURY




               [Pick the date]
     U.S. Department of the Treasury | Fiscal Year 2012




36
                                                                                         U.S. Department of the Treasury | Fiscal Year 2013

PART II - TABLE OF CONTENTS
Message From The Assistant Secretary for Management and Deputy Chief Financial Officer .............................................3 8
Inspector General’s Transmittal Letter ...................................................................................................................3 9
Independent Auditors' Report on the Departments' Financial Statements ………………………………………………………………………….. 41
Managem ent’s Response to Independent Auditors’ Report .........................................................................................4 8
Financial St atements
Consolidated Balance Sheets................................................................................................................................4 9
Consolidated Statem ents of Net Cost ..................................................................................................................... 51
Consolidated Statem ents of Changes in Net Position ................................................................................................. 52
Combined Statement of Budgetary Resources.......................................................................................................... 53
Statements of Custodial Activity ........................................................................................................................... 55
Not es t o t he Financial Statements
1. Summary of Significant Accounting Policies ........................................................................................................ 56
2. Fund Balance................................................................................................................................................7 2
3. Loans and Interest Receivable – Intra-Governmental ............................................................................................7 4
4. Due From the General Fund and Due To the General Fund.....................................................................................7 6
5. Cash, Foreign Currency, and Other Monetary Assets .............................................................................................7 8
6. Gold and Silver Reserves, and Gold Certificates Issued to the Federal Reserve Banks ...................................................80
7. Troubled Asset Relief Program – Credit Program Receivables, Net ........................................................................... 81
8. Investments in Governm ent Sponsored Enterprises..............................................................................................9 0
9. Investments in International Financial Institutions .............................................................................................. 9 5
10. Other Investments and Related Interest ............................................................................................................ 9 5
11. Other Credit Program Receivables, Net .............................................................................................................9 6
12. Reserve Position in the International Monetary Fund and Related Loans and Interest Receivable ............................... 1 01
13. Taxes, Interest, and Other Receivables, Net...................................................................................................... 1 02
14. Property, Plant, and Equipm ent, Net .............................................................................................................. 1 03
15. Non-Entity vs. Entity Assets ......................................................................................................................... 1 04
16. Federal Debt and Interest Payable and Related Liabilities ................................................................................... 1 05
17. Other Debt and Interest Payable .................................................................................................................... 1 09
18. D.C. Pensions and Judicial Retirem ent Actuarial Liability ................................................................................... 1 10
19. Liabilities ..................................................................................................................................................1 12
20. Net Position...............................................................................................................................................1 13
21. Consolidated Statem ents of Net Cost and Net Costs of Treasury Sub-Organizations...................................................1 14
22. Additional Information Related to the Combined Statements of Budgetary Resources .............................................. 1 2 0
23. Collection and Disposition of Custodial Revenue .............................................................................................. 1 23
24. Funds From Dedicated Collections ................................................................................................................ 1 2 5
25. Reconciliation of Net Cost of Treasury Operations and Non-Entity Costs to Budget.................................................. 1 2 9
26. Schedule of Fiduciary Activity....................................................................................................................... 1 3 0
27. Commitments and Contingencies ...................................................................................................................1 31
Required Supplem ental Information (Unaudited – See accom panying auditors’ report) ................................................. 1 3 5



                                                                                 37
                                                                       U.S. Department of the Treasury | Fiscal Year 2013

MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT
AND DEPUTY CHIEF FINANCIAL OFFICER
                                                  In fiscal year 2013, Treasury pursued an aggressive set of management
                                                  programs and initiatives designed to manage the U.S. government’s finances
                                                  efficiently and responsibly. By focusing on a comprehensive set of
                                                  management priorities, Treasury has led and supported government-wide
                                                  financial management efforts to increase productivity, reduce waste and non-
                                                  essential expenses, and modernize processes and systems. These priorities
                                                  included the Department’s two Agency Priority Goals “Increase Voluntary Tax

   Nani A. Coloretti       Dorrice C. Roth        Compliance” and “Significantly Increase the Number of Electronic
  Assistant Secretary   Deputy Chief Financial    Transactions with the Public.”
   for Management              Officer

                                                 In efforts to make doing business with the U.S. government as easy as possible,
the Department is leading in implementing the use of electronic transactions with the public. In fiscal year 2013, 93
percent of Treasury payments and associated information was made electronically. As the number of Social Security
recipients increases, the savings from electronic payments will also increase while providing beneficiaries a safer, more
reliable, and convenient way to receive their payments.


In fiscal year 2013, Treasury demonstrated leadership in fiscal prudence and management excellence by:
    •     Advancing engagement of small businesses by exceeding all small business contracting goals for the third year in
          a row (based on preliminary results) to jump-start job creation and stimulate local economies;
    •     Further reducing administrative expenses as directed by the President’s Executive Order to cut waste, in which
          we exceeded this year’s goal by $153.5 million (saving a total of $394.5 million in fiscal year 2013);
    •     Advancing the Administration’s goal of reducing the federal footprint by working to align space expenses with
          organizations that use the space, creating cost accountability and, consequently, incentives to use less space; and
    •     Enhancing technological modernization efforts, supporting federal data center consolidation, and increasing
          shared services through initiatives such as onboarding new customers to Treasury’s Administrative Resource
          Center and HR Connect (Treasury’s HR line of business).

The Department again received an unmodified audit opinion on both the Treasury-wide and Office of Financial
Stability/TARP fiscal year 2013 financial statements. Treasury closed the material weakness on IRS – Computer Security
and continued to make steady progress toward resolving the two Federal Managers’ Financial Integrity Act material
weaknesses remaining open as of September 30, 2013 (IRS – Unpaid Tax Assessments, and Bureau of the Fiscal Service
– Systems, Controls, and Procedures to Prepare the Government-wide Financial Statements). Despite the complexity of
Treasury’s financial systems contributing to these material weaknesses, we have made considerable progress toward
resolving the issues.




Nani A. Coloretti                                                       Dorrice C. Roth
Assistant Secretary for Management                                      Deputy Chief Financial Officer
December 16, 2013                                                       December 16, 2013




                                                                  38
PAGES 39-48 INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
                                                              U.S. Department of the Treasury | Fiscal Year 2013
                                          Consolidated Balance Sheets
                                       As of September 30, 2013 and 2012
                                                  (In Millions)

                                                                                            2013              2012
ASSETS
Intra-governmental Assets
Fund Balance (Note 2)                                                             $       367,820   $      344,346
Loans and Interest Receivable (Note 3)                                                  1,093,559          914,304
Advances to the Unemployment Trust Fund (Note 4)                                           29,696           32,932
Due From the General Fund (Note 4)                                                     17,123,357       16,202,179
Other Intra-governmental Assets                                                               435            1,495
Total Intra-governmental Assets                                                       18,614,867        17,495,256

Cash, Foreign Currency, and Other Monetary Assets (Note 5)                             148,506              145,551
Gold and Silver Reserves (Note 6)                                                         11,062             11,062
Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net (Note 7)          17,869              40,231
Investments in Government Sponsored Enterprises (GSE) (Notes 4 and 8)                   140,221            109,342
Investments in International Financial Institutions (Note 9)                               6,396              6,043
Non-TARP Investments in American International Group, Inc. (Note 7)                            -               2,611
Other Investments and Related Interest (Note 10)                                          14,114             15,436
Other Credit Program Receivables, Net (Note 11)                                          17,628              19,888
Loans and Interest Receivable (Note 12)                                                  10,042              10,334
Reserve Position in the International Monetary Fund (Note 12)                             17,915             21,573
Taxes, Interest and Other Receivables, Net (Note 13)                                     38,602              41,463
Property, Plant, and Equipment, Net (Note 14)                                              2,646              2,435
Other Assets                                                                                 756                637
Total Assets (Note 15)                                                            $ 19,040,624      $   17,921,862

Heritage Assets (Note 14)

The accompanying notes are an integral part of these financial statements.




                                                         49
                                                                 U.S. Department of the Treasury | Fiscal Year 2013
                                            Consolidated Balance Sheets
                                         As of September 30, 2013 and 2012
                                                    (In Millions)


                                                                                           2013               2012
LIABILITIES
Intra-governmental Liabilities
Federal Debt and Interest Payable (Notes 4 and 16)                              $    4,837,436     $    4,861,005
Liability for Restoration of Federal Debt Principal and Interest (Notes 4 and
16)                                                                                     128,272                  -
Other Debt and Interest Payable (Note 17)                                                 5,761              7,194
Due To the General Fund (Note 4)                                                      1,417,423          1,257,752
Other Intra-governmental Liabilities (Note 19)                                              477                541
Total Intra-governmental Liabilities                                                 6,389,369           6,126,492

Federal Debt and Interest Payable (Notes 4 and 16)                                  12,003,030          11,307,583
Liability for Restoration of Federal Debt Principal and Interest (Notes 4 and
16)                                                                                     120,356                   -
Certificates Issued to the Federal Reserve (Note 5)                                       5,200              5,200
Allocation of Special Drawing Rights (Note 5)                                             54,177            54,463
Gold Certificates Issued to the Federal Reserve (Note 6)                                  11,037             11,037
Refunds Payable (Notes 4 and 23)                                                           2,914              3,255
D.C. Pensions and Judicial Retirement Actuarial Liability (Note 18)                        9,164            10,059
Liability to Government Sponsored Enterprises (Note 8)                                         -             9,003
Other Liabilities (Note 19)                                                                4,234              5,374
Total Liabilities (Note 19)                                                          18,599,481         17,532,466
Commitments and Contingencies (Note 27)

NET POSITION
Unexpended Appropriations:
  Funds from Dedicated Collections (Note 24)                                               200                 200
  Other Funds                                                                          361,095             317,309
    Subtotal                                                                           361,295             317,509
Cumulative Results of Operations:
  Funds from Dedicated Collections (Note 24)                                            48,477             49,047
  Other Funds                                                                            31,371            22,840
    Subtotal                                                                            79,848             71,887

Total Net Position – Funds from Dedicated Collections (Note 24)                          48,677             49,247
Total Net Position – Other Funds                                                       392,466             340,149
Total Net Position (Note 20)                                                            441,143            389,396
Total Liabilities and Net Position                                              $   19,040,624     $    17,921,862

The accompanying notes are an integral part of these financial statements.




                                                            50
                                                               U.S. Department of the Treasury | Fiscal Year 2013
                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2013 and 2012
                                                 (In Millions)

Cost of Treasury Operations: (Note 21)                                                       2013             2012

Financial Program
Gross Cost                                                                         $      14,293     $      14,883
Less Earned Revenue                                                                       (3,127)          (3,100)
Net Program Cost                                                                           11,166            11,783

Economic Program
Gross Cost (Revenue) (Note 8)                                                               (834)        (280,045)
Less Earned Revenue                                                                       (7,389)           (8,735)
Net Program Cost (Revenue)                                                                (8,223)        (288,780)

Security Program
Gross Cost                                                                                  1,030            1,059
Less Earned Revenue                                                                            (7)              (4)
Net Program Cost                                                                            1,023            1,055

Total Program Gross Costs (Revenue)                                                        14,489        (264,103)
Total Program Gross Earned Revenues                                                      (10,523)          (11,839)
Total Net Program Cost (Revenue) before Changes in Actuarial                                3,966        (275,942)
  Assumptions
(Gain)/Loss on Pension, ORB, or OPEB Assumption Changes                                     (684)              695
Total Net Cost of (Revenue From) Treasury Operations (Note 21)                              3,282        (275,247)

Non-Entity Costs
Federal Debt Interest                                                                     425,081          432,265
Restoration of Foregone Federal Debt Interest (Note 16)                                         20              59
Less Interest Revenue from Loans                                                          (35,132)        (33,073)
Net Federal Debt Interest Costs                                                           389,969          399,251
Accrued Restoration of Foregone Federal Debt Interest (Note 16)                                801               -
Other Federal Costs (Note 21)                                                              17,006           16,290
GSEs Non-Entity Cost (Revenue) (Note 8)                                                 (126,606)            5,322
Other, net                                                                                  (828)            (435)
Total Net Non-Entity Costs                                                                280,342         420,428

Total Net Cost of Treasury Operations and Non-Entity Costs                         $     283,624     $     145,181

The accompanying notes are an integral part of these financial statements.




                                                          51
                                                                U.S. Department of the Treasury | Fiscal Year 2013
                             Consolidated Statements of Changes in Net Position
                           For the Fiscal Years Ended September 30, 2013 and 2012
                                                 (In Millions)

                                                                                      2013              2012
CUMULATIVE RESULTS OF OPERATIONS (Note 20)
Beginning Balance                                                         $          71,887     $   (262,840)
Budgetary Financing Sources
Appropriations Used                                                                 455,216          428,479
Non-Exchange Revenue                                                                    695              620
Donations and Forfeitures of Cash/Equivalent                                          1,093              186
Transfers In/Out Without Reimbursement                                                 (30)                -
Other                                                                                    12              148
Other Financing Sources (Non-Exchange)
Donation/Forfeiture of Property                                                           135               174
Accrued Interest and Discount on Debt                                                 10,905            95,877
Accrued Interest on Restoration of Federal Debt Principal (Note 16)                       801                 -
Transfers In/Out Without Reimbursement                                                   (42)              (47)
Imputed Financing Sources (Note 21)                                                       776               812
Transfers to the General Fund and Other (Note 20)                                  (177,976)          (46,341)
Total Financing Sources                                                              291,585          479,908
Net Cost of Treasury Operations and Non-Entity Costs                              (283,624)          (145,181)
Net Change                                                                             7,961           334,727
Cumulative Results of Operations                                                      79,848            71,887

UNEXPENDED APPROPRIATIONS (Note 20)
Beginning Balance                                                                   317,509          342,978
Budgetary Financing Sources
Appropriations Received (Note 20)                                                  508,448             419,130
Appropriations Transferred In/Out                                                        25                142
Other Adjustments                                                                    (9,471)          (16,262)
Appropriations Used                                                               (455,216)         (428,479)
Total Budgetary Financing Sources                                                    43,786          (25,469)
Total Unexpended Appropriations                                                     361,295            317,509
Net Position                                                              $         441,143     $     389,396



The accompanying notes are an integral part of these financial statements.




                                                           52
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
                                  Combined Statement of Budgetary Resources
                                  For the Fiscal Year Ended September 30, 2013
                                                   (In Millions)



                                                                                                  Non-
                                                                                             Budgetary             2013
BUDGETARY RESOURCES                                                      Budgetary           Financing             Total
Unobligated balance brought forward, October 1                          $  320,785       $       18,813    $    339,598
Recoveries of prior year unpaid obligations                                   7,876               7,608           15,484
Other changes in unobligated balance                                        (3,366)            (23,430)         (26,796)
Unobligated balance from prior year budget authority, net                  325,295                2,991         328,286
Appropriations (discretionary and mandatory) (Notes 20)                    504,687                    -         504,687
Borrowing authority (discretionary and mandatory) (Note 22)                       -                 576              576
Spending authority from offsetting collections (discretionary and
  mandatory)                                                                  10,091              14,141          24,232
Total Budgetary Resources                                               $    840,073     $       17,708    $     857,781

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 22)                                          $    471,734     $       15,697    $     487,431
Unobligated balance, end of year:
  Apportioned                                                                274,291                735         275,026
  Exempt from apportionment                                                   18,983                  -          18,983
  Unapportioned                                                               75,065              1,276          76,341
Total unobligated balance brought forward, end of year                       368,339              2,011         370,350
Total Status of Budgetary Resources                                     $    840,073     $       17,708    $    857,781

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1                   $     142,307    $      110,866    $      253,173
Obligations incurred (Note 22)                                                471,734             15,697          487,431
Outlays, gross                                                              (473,187)           (17,521)       (490,708)
Recoveries of prior year unpaid obligations                                    (7,876)          (7,608)          (15,484)
Unpaid obligations, gross, end of year                                        132,978           101,434           234,412
Uncollected Payments:
Uncollected payments from federal sources, brought forward,
  October 1                                                                    (186)              (818)           (1,004)
Change in uncollected customer payments from federal sources                    (59)                 88                29
Uncollected customer payments from federal sources, end of year                (245)              (730)             (975)
Obligated Balance, End of Year (Net)                                    $    132,733     $      100,704    $     233,437
Obligated balance, net, Start of Year                                   $    142,121     $      110,048    $     252,169

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)                   $    514,778     $       14,717    $     529,495
Actual offsetting collections (discretionary and mandatory)                 (10,088)           (42,358)         (52,446)
Change in uncollected customer payments from federal sources
  (discretionary and mandatory)                                                 (59)                 88               29
Budget Authority, Net (Discretionary and Mandatory)                     $    504,631     $      (27,553)   $     477,078

Outlays, gross (discretionary and mandatory)                            $     473,187    $       17,521    $    490,708
Actual offsetting collections (discretionary and mandatory)                  (10,088)          (42,358)         (52,446)
Outlays, net (discretionary and mandatory)                                   463,099           (24,837)         438,262
Distributed offsetting receipts                                             (151,404)                 -        (151,404)
Agency Outlays, Net (Discretionary and Mandatory)                       $     311,695    $     (24,837)    $    286,858

The accompanying notes are an integral part of these financial statements.




                                                              53
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
                                  Combined Statement of Budgetary Resources
                                  For the Fiscal Year Ended September 30, 2012
                                                   (In Millions)

                                                                                                     Non-
                                                                                                 Budgetary             2012
BUDGETARY RESOURCES                                                     Budgetary                Financing             Total
Unobligated balance brought forward, October 1                          $    340,384     $           28,570    $    368,954
Recoveries of prior year unpaid obligations                                     2,818                10,531           13,349
Other changes in unobligated balance                                          (3,542)              (37,484)         (41,026)
Unobligated balance from prior year budget authority, net                    339,660                   1,617         341,277
Appropriations (discretionary and mandatory) (Note 20)                       429,535                       -        429,535
Borrowing authority (discretionary and mandatory) (Note 22)                         -                 11,019          11,019
Spending authority from offsetting collections (discretionary and
  mandatory)                                                                   9,727                 24,503           34,230
Total Budgetary Resources                                               $    778,922         $       37,139    $     816,061

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 22)                                          $    458,137         $       18,326    $    476,463
Unobligated balance, end of year:
  Apportioned                                                                227,587                  3,948         231,535
  Exempt from apportionment                                                   23,692                      -          23,692
  Unapportioned                                                               69,506                 14,865          84,371
Total unobligated balance brought forward, end of year                       320,785                 18,813         339,598
Total Status of Budgetary Resources                                     $    778,922         $       37,139    $    816,061

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1                   $     148,351        $     123,802     $      272,153
Obligations incurred (Note 22)                                                458,137                18,326          476,463
Outlays, gross                                                              (461,363)              (20,731)        (482,094)
Recoveries of prior year unpaid obligations                                    (2,818)             (10,531)          (13,349)
Unpaid obligations, gross, end of year                                        142,307               110,866           253,173
Uncollected Payments:
Uncollected payments from federal sources, brought forward,
  October 1                                                                    (201)                  (969)           (1,170)
Change in uncollected customer payments from federal sources                      15                     151              166
Uncollected customer payments from federal sources, end of year                (186)                  (818)          (1,004)
Obligated balance, End of Year (Net)                                    $    142,121         $      110,048    $    252,169
Obligated balance, net, Start of Year                                   $    148,150         $      122,833    $    270,983

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)                   $    439,262         $       35,522    $     474,784
Actual offsetting collections (discretionary and mandatory)                   (9,743)              (157,152)       (166,895)
Change in uncollected customer payments from federal sources
  (discretionary and mandatory)                                                   15                     151            166
Budget Authority, Net (Discretionary and Mandatory)                     $    429,534         $     (121,479)   $    308,055

Outlays, gross (discretionary and mandatory)                            $     461,363        $        20,731   $    482,094
Actual offsetting collections (discretionary and mandatory)                    (9,743)             (157,152)       (166,895)
Outlays, net (discretionary and mandatory)                                   451,620               (136,421)         315,199
Distributed offsetting receipts                                              (73,881)                      -        (73,881)
Agency Outlays, Net (Discretionary and Mandatory)                       $     377,739        $     (136,421)   $     241,318

The accompanying notes are an integral part of these financial statements.




                                                              54
                                                              U.S. Department of the Treasury | Fiscal Year 2013


                                      Statements of Custodial Activity
                          For the Fiscal Years Ended September 30, 2013 and 2012
                                                (In Millions)


                                                                                           2013              2012
Sources of Custodial Revenue (Note 23)
Individual Income and FICA Taxes                                                  $   2,448,546     $   2,159,990
Corporate Income Taxes                                                                   311,994           281,462
Estate and Gift Taxes                                                                     19,830            14,450
Excise Taxes                                                                              83,970            79,554
Railroad Retirement Taxes                                                                   5,511            4,773
Unemployment Taxes                                                                         7,896             7,159
Deposit of Earnings, Federal Reserve System                                               75,767            81,957
Fines, Penalties, Interest, and Other Revenue                                              2,886               623
Total Revenue Received                                                                2,956,400         2,629,968
Less Refunds                                                                          (364,788)          (373,752)
Net Revenue Received                                                                   2,591,612        2,256,216
Non-Cash Accrual Adjustment                                                                (959)             5,543
Non-TARP Investments in American International Group, Inc. (Note 7):
  Cash Proceeds from Sale of Stock                                                        2,588             12,992
  Non-Cash Market Adjustments                                                            (2,611)           (8,251)
Total Custodial Revenue                                                               2,590,630         2,266,500

Disposition of Custodial Revenue (Note 23)
Amounts Provided to Fund Non-Federal Entities                                               358               386
Amounts Provided to Fund the Federal Government                                       2,591,254         2,255,830
Non-Cash Accrual Adjustment:
  Amounts to be Provided to the General Fund and Others                                    (618)            4,000
  Accrual Adjustment                                                                       (341)             1,543
Non-TARP Investments in American International Group, Inc. (Note 7):
  Cash Proceeds from Stock Sales Provided to Fund the Federal Government                  2,588             12,992
  Non-Cash Market Adjustment                                                             (2,611)           (8,251)
Total Disposition of Custodial Revenue                                                2,590,630         2,266,500
Net Custodial Revenue                                                             $            -    $            -

The accompanying notes are an integral part of these financial statements.




                                                         55
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

NOTES TO THE FINANCIAL STATEMENTS
1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. REPORTING ENTITY
The accompanying financial statements include the operations of the U.S. Department of the Treasury (Department), one
of 24 CFO Act agencies of the Executive Branch of the U.S. government, and certain custodial activities the Department
manages on behalf of the entire U.S. government. The following paragraphs describe the activities of the reporting entity.

The Department was established by an Act of Congress approved on September 2, 1789. Many subsequent acts affected
the development of the Department, delegating new duties to its charge and establishing the numerous bureaus and
divisions that now comprise the Department. As a major policy advisor to the President, the Secretary of the Treasury
(Secretary) has primary responsibility for formulating and managing the domestic and international tax and financial
policies of the U.S. government.

Further, the Secretary is responsible for recommending and implementing U.S. domestic and international economic and
fiscal policy; governing the fiscal operations of the U.S. government; maintaining foreign assets control; managing the
federal debt; collecting income and excise taxes; representing the United States on international monetary, trade, and
investment issues; overseeing Departmental overseas operations; and directing the manufacture of coins, currency, and
other products for customer agencies and the public.

The Department’s reporting entities include Departmental Offices (DO) and seven operating bureaus. For financial
reporting purposes, DO is composed of: Community Development Financial Institutions (CDFI) Fund, Office of D.C.
Pensions (ODCP), Exchange Stabilization Fund (ESF), Federal Financing Bank (FFB), Government Sponsored
Enterprises (GSE) Program, International Assistance Programs (IAP), Office of Financial Research (OFR), Office of
Financial Stability (OFS), Office of Inspector General (OIG), Small Business Lending Fund (SBLF), Special Office of
Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury Forfeiture Fund (TFF), Treasury
Inspector General for Tax Administration (TIGTA), and the DO policy offices.

As of September 30, 2013, the Department’s seven operating bureaus were: Bureau of Engraving and Printing (BEP);
Bureau of the Fiscal Service (Fiscal Service); Financial Crimes Enforcement Network (FinCEN); Internal Revenue Service
(IRS); United States Mint (Mint); Office of the Comptroller of the Currency (OCC); and Alcohol and Tobacco Tax and
Trade Bureau (TTB). Effective in October 2012, the Bureau of the Public Debt (BPD) and Financial Management Service
(FMS) operating bureaus merged to form the new Fiscal Service operating bureau. Financial information of the legacy
BPD and FMS operating bureaus were combined for purposes of disclosure within the notes to the financial statements.
The administrative accounts of the legacy BPD and FMS bureaus will continue to be managed separately until Congress
enacts legislation for a single appropriation to fund the newly consolidated Fiscal Service. The Department’s financial
statements reflect the reporting of its own entity activities comprising both the Department’s operating bureaus and DO
that are consolidated with the Department, which include appropriations received to conduct its operations and revenue
generated from those operations. They also reflect the reporting of certain non-entity (custodial) functions it performs on
behalf of the U.S. government and others. Non-entity activities include collecting certain federal revenue, servicing the
federal debt, disbursing certain federal funds, and maintaining certain assets and liabilities for the U.S. government, as
well as for other federal entities. The Department’s reporting entity does not include the General Fund of the U.S.
government (General Fund), which maintains receipt, disbursement, and appropriation accounts for all federal agencies.

Following generally accepted accounting principles (GAAP) for federal entities, the Department does not consolidate into
its financial statements the assets, liabilities, or results of operations of any financial organization or commercial entity in


                                                              56
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
which it holds either a direct, indirect, or beneficial majority equity investment, unless they constitute a part of the
reporting entity per GAAP. Even though some of the equity investments are significant, these entities meet the criteria of
“bailed out” entities under paragraph 50 of Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, Entity
and Display, which directs that such “bailout” investments should not be consolidated into the Financial Report of the
U.S. government, either in part or as a whole.

In addition, the Department made loans and investments in certain special purpose vehicles (SPV) under the American
International Group, Inc. Investment Program, Public-Private Investment Program, and the Term Asset-Backed
Securities Loan Facility. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as ownership and control
over an SPV to carry out government powers and missions as criteria in the determination about whether the SPV should
be classified as a federal entity. The Department has concluded that the lack of control over the SPVs is the primary basis
for determining that none of the SPVs meet the criteria to be classified as a federal entity. As a result, the assets,
liabilities, and results of operations of the SPVs are not included in the Department’s financial statements. The
Department has recorded the loans and investments in private entities and investments in SPVs in accordance with credit
reform accounting, as discussed below. Additional disclosures regarding these SPV investments are included in Note 7.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).
FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting standards-
setting body for the U.S. government.

These financial statements consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, the
Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary Resources, and the
Statements of Custodial Activity. The statements and the related notes are prepared in a comparative form to present
both fiscal years 2013 and 2012 information.

To provide additional clarity to its financial statements, the Department has presented more line items on the
Consolidated Balance Sheets than are required by the guidance in OMB Circular No. A-136. The following summarizes
what the Department's additional balance sheet line items represent in accordance with the financial statement
guidelines of the OMB Circular No. A-136: (i) Advances to the Unemployment Trust Fund and Due From the General
Fund represent other intra-governmental assets; (ii) Gold and Silver Reserves and the Reserve Position in the
International Monetary Fund (IMF) represent other monetary assets; (iii) Loans and Interest Receivable represents other
assets; (iv) Liability for Restoration of Federal Debt Principal and Interest and Due To the General Fund represent other
intra-governmental liabilities; (v) Liability for Restoration of Federal Debt Principal and Interest, Certificates issued to
the Federal Reserve, Allocation of Special Drawing Rights, Gold Certificates Issued to the Federal Reserve, Refunds
Payable, Liability to Government Sponsored Enterprises, and the D.C. Pensions and Judicial Retirement Actuarial
Liability represent other liabilities. For the Statement of Changes in Net Position, the following line items -- Accrued
Interest and Discount on Debt, Accrued Interest on Restoration of Federal Debt Principal, and Transfers to the General
Fund and Other -- represent other non-exchange financing sources per OMB Circular No. A-136 guidance.

Transactions and balances among the Department’s entities have been eliminated from the Consolidated Balance Sheets,
the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statements of
Budgetary Resources are presented on a combined basis; therefore, intra-departmental transactions and balances have
not been eliminated from these statements.

                                                              57
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
While these financial statements have been prepared from the accounting records of the Department in accordance with
the formats prescribed by OMB, these financial statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same accounting records.

Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental earned
revenues are collections or accruals of revenue from other federal entities, and intra-governmental costs are payments or
accruals of expenditures to other federal entities.

The financial statements should be read with the realization that the Department is a component of the U.S. government,
a sovereign entity and, accordingly, its liabilities not covered by budgetary resources cannot be liquidated without the
legislative enactment of an appropriation, and that the payment of all liabilities other than for contracts can be abrogated
by the sovereign entity. Liabilities represent the probable and measurable future outflow or other sacrifice of resources
as a result of past transactions or events. Liabilities covered by budgetary resources are those liabilities for which
Congress has appropriated funds or funding is otherwise available to pay amounts due. Liabilities not covered by
budgetary or other resources represent amounts owed in excess of available, congressionally appropriated funds or other
amounts, and there is no certainty that the appropriations will be enacted.

Certain fiscal year 2012 activity and balances presented on the financial statements have been reclassified to conform to
the presentation in the current year, the effects of which are immaterial.

There are numerous acronyms used throughout the notes herein as well as other sections of this Agency Financial Report
(AFR). Refer to the “Glossary of Acronyms” located in the Appendix of this report for a complete listing of these
acronyms and their definitions.

C. FUND BALANCE
The Fund Balance is the aggregate amount of the Department’s accounts with the U.S. government’s central accounts
from which the Department is authorized to make expenditures and pay liabilities. It is an asset because it represents the
Department’s claim to the U.S. government’s resources. Fund balance is not equivalent to unexpended appropriations
because it also includes non-appropriated revolving and enterprise funds, suspense accounts, and custodial funds such as
deposit funds, special funds, and trust funds.

D. LOANS AND INTEREST RECEIVABLE, INTRA-GOVERNMENTAL
Intra-governmental entity loans and interest receivable from other federal agencies represent the principal and related
interest receivable on loans issued by the Department, through FFB. No loan loss allowance or credit reform subsidy
costs are recorded for loans purchased from federal agencies or for guaranteed loans made to non-federal borrowers
because the outstanding balances (interest and principal) are guaranteed by those agencies.

Intra-governmental non-entity loans and interest receivable from other federal agencies represent the principal and
related interest receivable on loans issued by the Department, through the Fiscal Service. The Department acts as an
intermediary issuing these loans because the agencies receiving these loans lend these funds to third parties to carry out
various programs of the U.S. government. Because of the Department’s intermediary role in issuing these loans, the
Department does not record a loan loss allowance related to these non-entity intra-governmental loans. Instead, loan
loss allowances and subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans to the
public.

E. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances are issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund for states to
pay unemployment benefits. The Fiscal Service accounts for the advances issued on behalf of the General Fund. As

                                                              58
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
outlined in the United States Code (USC) 42 USC §1323, these advances bear an interest rate that is computed as the
average interest rate as of the end of the calendar month preceding the issuance date of the advance for all interest-
bearing obligations of the United States that form the public debt, to the nearest lower 1/8 of 1.0 percent. Interest on the
advances is due on September 30th of each year. Advances are repaid by transfers from the Unemployment Trust Fund
to the General Fund when the Secretary, in consultation with the Secretary of the DOL, determines that the balance in the
Unemployment Trust Fund is adequate to allow repayment.

F. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is non-entity government-wide cash held in depository institutions
and Federal Reserve Bank (FRB) accounts. Agencies can deposit funds that are submitted to them directly into either a
Federal Reserve Treasury General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are
transferred into the Federal Reserve Bank of New York’s (FRBNY) TGA at the end of each day.

Operating cash of the U.S. government represents balances from tax collections, customs duties, other revenue, federal
debt receipts, and other various receipts, net of cash outflows for budget outlays and other payments held in the FRBs
and in foreign and domestic financial institutions. Outstanding checks net against operating cash until they clear the
Federal Reserve System.

The FRBNY maintains the TGA which functions as the U.S. government’s checking account for deposits and
disbursements of public funds. Cash in the TGA is restricted for government-wide operations.

The Department’s foreign currency investments having original maturities of three months or less are classified as cash
equivalents. Special Drawing Rights (SDRs) holdings comprise most of the other monetary assets (refer to the
accounting policy below entitled “Special Drawing Rights”).

G. INVESTMENTS
Investments in GSEs

The Department holds senior preferred stock and warrants for the purchase of common stock of two GSEs, the Federal
National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac). These
non-federal investment holdings are presented at their fair value. Changes in the valuation of these investments are
recorded as non-entity exchange transactions on the Consolidated Statements of Net Cost. Dividends related to these
investments are also recorded as non-entity exchange transactions, and accrued when declared.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs), entered into by the Department with each GSE when
the GSEs were placed under conservatorship, require the Department to increase its investment in the GSEs’ senior
preferred stock if, at the end of any quarter, the Federal Housing Finance Agency (FHFA), acting as the conservator,
determines that the liabilities of either GSE exceed its respective assets. As funding to the GSEs to pay their excess
liabilities is appropriated directly to the Department, such payments are reported as entity expenses within the Economic
Program on the Consolidated Statements of Net Cost and in the line item “Cumulative Results of Operations” on the
Consolidated Balance Sheets. These payments also result in an increase to the non-entity investment in the GSEs’ senior
preferred stock, with a corresponding increase in Due To the General Fund, as the Department holds the investment on
behalf of the General Fund.

Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support poverty
reduction, private sector development, transitions to market economies, and sustainable economic growth and
development, thereby advancing U.S. economic, political, and commercial interests abroad. As a participating member

                                                              59
                                                                    U.S. Department of the Treasury | Fiscal Year 2013
country, the Department, on behalf of the United States, provides a portion of the capital base of the MDBs, through
subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle-income developing
countries. These paid-in capital investments are non-marketable equity investments valued at cost on the Department’s
Consolidated Balance Sheets.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and extend
credit to poor countries at below market-based interest rates. These U.S. contributions, also referred to as “concessional
window” contributions, are reported as an expense on the Department’s Consolidated Statements of Net Cost.

Non-TARP Investment in American International Group, Inc.

The Department held American International Group, Inc. (AIG) common stock, a non-federal investment, on behalf of
the General Fund until December 2012 when the remaining common stock held was sold. The AIG common stock was
recorded at fair value. Changes in the valuation of these investments held represented non-entity, non-exchange
transactions reported on the Statements of Custodial Activity. The increase or decrease in previously recognized revenue
that resulted from gains or losses on sales of these investments represented non-entity, exchange transactions reported
on the Statements of Custodial Activity rather than on the Consolidated Statements of Net Cost as the Department did
not incur any costs related to these investments.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. Other foreign currency denominated assets and
investment securities are available-for-sale securities recorded at fair value. These holdings are normally invested in
interest-bearing securities issued or held through foreign governments or monetary authorities. Interest on investments,
amortization of premiums, and accretion of discounts are recognized on an accrual basis. Premiums and discounts are
amortized or accreted over the life of the related investment security as an adjustment to yield using the effective interest
method.

H. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and preferred
stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities, under the
provisions of credit reform accounting pursuant to the Federal Credit Reform Act (FCRA) (Note 7). In addition to its
TARP programs, the Department accounts for all other of its credit program receivables under the provisions of credit
reform accounting, including the loans or equity securities associated with the Department’s state and local Housing
Finance Agency (HFA) initiative programs, SBLF program, CDFI program, and certain portions of the Department’s
participation in the IMF (Note 11).

To account for the Department’s TARP and other credit program receivables, the Department applies the accounting
provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No. 2, as amended, which was
promulgated as a result of FCRA, requires measurement of the asset or liability at the net present value of the estimated
future cash flows. The cash flow estimates for each credit program transaction reflect the actual structure of the
instruments. For each of these instruments, the Department estimates cash inflows and outflows related to the program
over the estimated term of the instrument. Further, each cash-flow estimate reflects the specific terms and conditions of
the program, technical assumptions regarding the underlying assets, risk of default or other losses, and other factors as
appropriate. The measurement of assets within these programs is primarily derived from inputs which generally



                                                               60
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
represent market data and, when such data is not available, management’s best estimate of how a market participant
would assess the risk inherent in the asset.

The primary purpose of the FCRA is to measure the cost of federal credit programs, and to place the cost of such credit
programs on a basis equivalent with other federal spending. FCRA requires that the ultimate costs of a credit program be
calculated and the budgetary resources be obtained before incurring the direct loan obligations. To accomplish this, the
Department first predicts or estimates the future performance of direct and guaranteed loans when preparing its annual
budget. The data used for these budgetary estimates are re-estimated at the fiscal year-end to reflect changes in actual
loan performance and actual interest rates in effect when the loans were issued. The re-estimated data reflect
adjustments for market risks, asset performance, and other key variables and economic factors. The re-estimated data is
then used to report the cost of the loans disbursed under the direct or guaranteed loan program as a “Program Cost” in
the Department’s Consolidated Statements of Net Cost.

Cash flows associated with the Department’s credit programs generally include disbursements, repayments, repurchases,
fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury, negative subsidy, and
the subsidy cost received from the program accounts. Security-level data and assumptions used as the basis for cash flow
model forecasts and program performance are drawn from widely available market sources, as well as information
published by investees. Key inputs to the cash flow forecasts include:

•   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
•   Department actions as well as changes in legislation
•   Forecast prepayment rates and default rates
•   Forecast dividend payments
•   Expected escrow conversion and return rates
•   Default and recovery reports published by Moody’s and Standard and Poor’s
•   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs represents the difference between
the Department’s projected costs of the program and the future cash flows anticipated to be received by the Department.
The subsidy allowance specifically takes into consideration projected repayments and defaults and the projected cost of
borrowings. The allowance is amortized to reflect the difference between projected and actual financing costs.

The Department’s actions, as well as changes in legislation, may impact estimated future cash flows and related subsidy
costs. The cost or cost savings of a modification is recognized in subsidy costs when the terms of a program are modified.
Workouts are actions taken to maximize repayments of existing credit programs, and the expected effects on cash flows
are included in the original estimate and re-estimates of the subsidy cost. Subsidy costs are also impacted by re-estimates
which may occur as a result of updates to the original program subsidy cost estimates to reflect actual cash flows
experience, as well as changes in forecasts of estimated future cash flows associated with the credit program.

I. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
Federal taxes receivable, net, and the corresponding liability due to the General Fund, are not accrued until related tax
returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court. Additionally, the
prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on taxes receivable through
the balance sheet date.



                                                             61
                                                                    U.S. Department of the Treasury | Fiscal Year 2013
Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient payment,
or a court ruling in favor of the IRS. An allowance for doubtful accounts is recorded to reflect an estimate of the portion
of total taxes receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer owes
to the U.S. government. Examples include assessments resulting from an IRS audit or examination in which the taxpayer
does not agree with the results. Compliance assessment write-offs consist of unpaid assessments for which the IRS does
not expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death. Compliance
assessments and related write-offs are not reported on the balance sheet. Statutory provisions require the accounts to be
maintained until the statute for collection expires.

J. PROPERTY, PLANT, AND EQUIPMENT, NET
General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also includes
assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for the capital
lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and installation, less
accumulated depreciation. Major alterations and renovations, including leasehold and land improvements, are
capitalized, while maintenance and repair costs are charged to expense as incurred. Costs for construction projects are
recorded as construction-in-progress until completed, and are valued at actual (direct) cost plus applied overhead and
other indirect costs.

Internal-use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal-use software are accumulated in work-in-
development until a project is placed into service, and testing and final acceptance are successfully completed. Once
completed, the costs are transferred to depreciable property.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. Such leases do not meet capital lease requirements for financial reporting purposes. GSA charges a standard
level user fee which approximates commercial rental rates for similar properties.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which generally range from $25,000 to $50,000 for all
property categories except for internal-use software thresholds which generally range from $50,000 to $250,000. The
Department also uses a capitalization threshold for bulk purchases which generally ranges from $250,000 to $500,000
for non-manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual
items that comprise bulk purchases based on Departmental guidance. In addition, the Department’s bureaus may
expense individual and/or bulk purchases if they conclude that total period costs would not be materially distorted and
the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of leasehold
improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the useful life of
the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset or term of the
lease, whichever is shorter. Service life ranges (2 to 50 years) are wide due to the Department’s diversity of PP&E. Land
and land improvements, construction-in-progress, and internal-use software in development are not depreciated.




                                                               62
                                                                    U.S. Department of the Treasury | Fiscal Year 2013
Heritage Assets

Heritage assets are assets of historical significance. Multi-use heritage assets are those heritage assets for which the
predominant use is general government operations. All acquisition, reconstruction, and betterment costs for the
Treasury multi-use heritage asset buildings are capitalized as general PP&E and depreciated over their service life.

K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These discounts
and premiums are amortized over the term of the security using an interest method for all long-term securities and the
straight-line method for short-term securities.

L. COMMITMENTS AND CONTINGENCIES
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above entitled
“Loans and Interest Receivable, Intra-Governmental”). The Department establishes loan commitments when the
Department and other parties fully execute promissory notes in which the Department becomes obligated to issue such
loans immediately or at some future date. The Department reduces loan commitments when it issues the loans or when
the commitments expire. Most obligations of the Department give a borrower the contractual right to a loan or loans
immediately or at some point in the future within an agreed upon timeframe.

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the Department recognizes
material contingent liabilities when the following criteria are met:
 •    A past event or exchange transaction has occurred
 •    A future cash outflow is probable
 •    A future cash outflow is measurable

The estimated liability recorded by the Department is either a specific amount or within a range of amounts. If some
amount within the range is a better estimate than any other amount within the range, that amount is recognized. If no
amount within the range is a better estimate than any other amount, the minimum amount in the range is recognized,
and the range and a description of the nature of the contingency are disclosed. The Department follows this policy in
recording a contingent liability, if any, related to the GSE SPSPA program (Note 8), and loss contingencies that may arise
from claims, assessments, litigations, fines, penalties, and other sources (Note 27).

If one or more, but not all, of the above criteria for recognition are met, and there is a reasonable possibility of loss, the
Department will disclose, if material, the nature of the contingent liability, along with a range of possible loss, if
estimable, and a description of the nature of the contingency.

M. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the IMF to supplement its member countries’ official reserves.
Under its Articles of Agreement, the IMF may allocate SDRs to member countries in proportion to their IMF quotas.
Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF holds all SDRs allocated to or otherwise
acquired by the United States.

Allocations and Holdings

The Department records the SDR holdings as part of “Cash, Foreign Currency, and Other Monetary Assets,” and the SDR
allocations as the “Allocation of Special Drawing Rights” liability when the IMF allocates SDRs to the Department. The


                                                               63
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
liabilities represent the amount that is payable in the event of liquidation of, or withdrawal by the United States from, the
SDR department of the IMF or cancellation of the SDRs.

SDR holdings increase primarily as a result of IMF SDR allocations. SDR transactions are recorded as incurred. They
include acquisitions and sales of SDRs, interest received on SDR holdings, interest charges on SDRs allocations, and
valuation adjustments. The U.S. government receives remuneration in SDRs from the IMF based on claims on the IMF
as represented by the U.S. Reserve Position. The remuneration is credited to the ESF which transfers to either the TGA
account or a specified financing account an equivalent amount of dollars plus nominal interest. The allocations and
holdings are revalued monthly based on the SDR valuation rate as calculated by the IMF, resulting in the recognition of
unrealized gains or losses on revaluation that are reported on the Consolidated Statements of Net Cost.

Certificates Issued to the Federal Reserve

The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources to finance other ESF
operations. Certificates issued are redeemed by the Department at such times and in such amounts as the Secretary may
determine, and do not bear interest. Certificates issued to the FRB are reported at their face value which approximates
their carrying value since, under the terms of the agreement, there is no set repayment date and no interest accrued while
certificates remain outstanding.

N. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes they owe. Amounts that the Department has concluded to be valid refunds owed to taxpayers are
recorded as a liability entitled “Refunds Payable” on the Consolidated Balance Sheets, with a corresponding receivable
from the General Fund included in the line entitled “Due From the General Fund.”

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational disease.
The FECA program is administered by the DOL which pays valid claims and subsequently seeks reimbursements from
the Department for these paid claims. Generally, the Department reimburses the DOL within two to three years once
funds are appropriated. The FECA liability consists of two components. The first component is based on actual claims
paid by the DOL but not yet reimbursed by the Department. The second component is the estimated liability for future
workers compensation as a result of past events. Both components are reported in “Other Liabilities” on the
Consolidated Balance Sheets. These future workers’ compensation estimates are generated by applying actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits
include the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for which
funding is not available is recorded as an unfunded liability as reported in “Other Liabilities” on the Consolidated Balance
Sheets. Sick and other leave are expensed as taken, and the Department does not record a liability for such amounts
because employees do not vest in sick and other leave benefits.




                                                             64
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
Q. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS

Federal Pension Costs, Other Retirement Benefits, and Other Post-Employment Benefits

The Department recognizes the full costs of its employees’ pension benefits, including recognizing imputed costs for the
difference between the estimated service cost and the contributions made by the Department. However, the assets and
liabilities associated with these benefits are recognized by the Office of Personnel Management (OPM) rather than the
Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes between 7.0 percent and 7.5 percent of pay. On January 1, 1987, the
Federal Employees’ Retirement System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees hired
after December 31, 1983 are automatically covered by FERS and Social Security. A primary feature of FERS is that it
offers a savings plan to which the Department automatically contributes one percent of base pay and matches any
employee contributions up to an additional four percent of base pay. For most employees hired after December 31, 1983,
the Department also contributes the employer’s matching share for Social Security. For the FERS basic benefit, the
Department contributes 11.9 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the assets and liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and Federal
Employees Group Life Insurance (FEGLI) Program. The Department reports the full cost of providing other retirement
benefits (ORB). The Department also recognizes an expense and a liability for other post-employment benefits (OPEB),
which includes all types of benefits, provided to former or inactive (but not retired) employees, their beneficiaries, and
covered dependents. Additionally, one of the Department’s bureaus, OCC, separately sponsors a defined life insurance
benefit plan for current and retired employees, and is the administrator for a private defined benefit retirement plan, the
Pentegra Defined Benefit Plan (PDBP), that provides certain health and life insurance benefits for certain of its retired
employees who meet eligibility requirements.


District of Columbia Pensions and Judicial Retirement Plans

Pursuant to Title XI of the Balanced Budget Act of 1997, as amended, the Department became responsible for certain
District of Columbia (D.C.) retirement plans (Note 18). The actuarial cost method used to determine costs for the
retirement plans is the Individual Entry Age Normal Funding Method, which approximates the methodology specified by
the Aggregate Entry Age Normal Actuarial Cost Method. The actuarial liability is based upon long-term economic
assumptions. The pension benefit costs incurred by the plans are included on the Consolidated Statements of Net Cost.

The economic assumptions used for the D.C. retirement plans differ from those used by the OPM for the following
reasons: (i) the annual rate of salary increase assumptions are based on different plan member experience; (ii) the annual
rate of inflation and cost-of-living adjustment assumptions are based on different statutory requirements (applicable
Consumer Price Index and period of calculation); and (iii) for the annual rate of investment return assumption, OPM and
the D.C. retirement plans use the same underlying yield curve but, unlike the D.C. Federal Pension Funds, OPM converts
to a single equivalent rate.

R. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized

                                                             65
                                                                    U.S. Department of the Treasury | Fiscal Year 2013
when earned; i.e., goods are delivered or services are rendered. Revenue from reimbursable agreements is recognized
when the services are provided. Non-exchange revenues are recorded when received or accrued when the Department
has a legal claim through the respective collecting bureau. Appropriations used are recognized as financing sources when
related expenses are incurred or assets are purchased.

The Department also incurs certain costs that are paid in total or in part by other federal entities, such as pension costs,
the FEHBP, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the Department.
These subsidized costs are recognized on the Consolidated Statements of Net Cost, and the imputed financing for these
costs is recognized on the Consolidated Statements of Changes in Net Position. As a result, there is no effect on net
position. Other non-exchange financing sources, such as donations and transfers of assets without reimbursements, are
also recognized for the period in which they occurred on the Consolidated Statements of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Consolidated Statements of Changes in Net Position. The costs related to the Forfeiture Fund program are reported on
the Consolidated Statements of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing non-
tax forfeiture proceeds received pursuant to laws enforced or administered by law enforcement bureaus that participate
in the Treasury Forfeiture Fund. Forfeited property balances are reported in “Other Assets” on the Consolidated Balance
Sheets.

S. CUSTODIAL REVENUES AND COLLECTIONS
Non-entity revenue reported on the Department’s Statements of Custodial Activity includes cash collected by the
Department, primarily from taxes. It does not include revenue collected by other federal agencies, such as user fees and
other receipts, which are remitted for general operating purposes of the U.S. government or are dedicated for certain
trust funds. The Statements of Custodial Activity are presented on the “modified accrual basis.” The Department
recognizes revenues as cash is collected, and records a “non-cash accrual adjustment” representing the net increase or
decrease during the reporting period in net revenue-related assets and liabilities, mainly taxes receivable. The
Department also records as custodial revenue cash proceeds from the sale of stock and non-cash market valuation
changes related to the U.S. government’s holdings in AIG (Note 7).

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
Refund payment funding is recognized as appropriations are used. Permanent indefinite authority for refund activity is
available for an indefinite period of time in the amount necessary to cover the refund and/or credit. Tax refunds and
credits are reported as a custodial activity of the Department, since they are, in substance, a custodial revenue-related
activity resulting from taxpayer overpayments of their tax liabilities.

The Department also has two permanent and indefinite appropriations related to debt activity. One is used to pay
interest on the public debt securities; the other is used to redeem securities that are matured, called, or eligible for early
redemption. These accounts are not annual appropriations and do not have refunds. Debt activity appropriations are
related to the Department’s liability and are reported on the Department’s Consolidated Balance Sheet. Permanent
indefinite authority for debt activity is available for an indefinite period of time.

The Department also has permanent and indefinite appropriations to fund increases in the projected subsidy costs of
credit programs as determined by the re-estimation process required by the FCRA. The Department’s renewable energy
project is also covered by permanent indefinite appropriations.




                                                               66
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
Additionally, the Department has other permanent and indefinite appropriations to make certain payments on behalf of
the U.S. government. These appropriations are provided to make payments to the FRB for fiscal services provided, and
to the financial institutions for services provided as financial agents of the U.S. government. They also include
appropriations provided to make other disbursements on behalf of the U.S. government, including payments made to
various parties as a result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. government, the Department is exempt from all income taxes imposed by any governing body,
whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results may differ from
these estimates. It is possible that the results of operations, cash flows or the financial position of the Department may be
materially affected in future periods by adverse changes in the outlook for the key assumptions underlying management’s
estimates. Significant transactions subject to estimates include loan and credit program receivables, credit reform
subsidy costs, investments in GSEs and other non-federal securities and related impairment, tax receivables, loan
guarantees, depreciation, imputed costs, actuarial liabilities, cost and earned revenue allocations, as well as contingencies
and any related recognized liabilities.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit reform
accounting (refer to the accounting policy above entitled “Credit Program Receivables,” and Notes 7 and 11). These
receivables are derived using credit reform modeling which is subject to the use of estimates and forecasts that have
inherent uncertainty. The Department recognizes the sensitivity of credit reform modeling to slight changes in certain
model assumptions such as general economic conditions, specific stock price volatility of the entities in which the
Department has an equity interest, estimates of expected default, and prepayment rates. The “TARP Credit Program
Receivables, Net” line item on the Consolidated Balance Sheets is reflective of relatively illiquid, troubled assets whose
values are particularly sensitive to future economic conditions and other assumptions.

The Department uses regular review of model factors, statistical modeling, and annual re-estimates to reflect the most
accurate cost of the credit programs to the U.S. government. The purpose of re-estimates is to update original program
subsidy cost estimates to reflect actual cash flow experience as well as changes in forecasts of future cash flows. Forecasts
of future cash flows are updated based on actual program performance to date, additional information about the
portfolio, additional publicly available relevant historical market data on securities performance, revised expectations for
future economic conditions, and enhancements to cash flow projection methods.

The “Liability to Government Sponsored Enterprises” line item on the Consolidated Balance Sheets related to the SPSPAs
represents the recognized contingency, if any, related to the funding commitment. It is predicated on the probable future
occurrence of an excess of liabilities and minimum capital reserve amounts, as defined, over the assets of either GSE at
the end of any reporting quarter. The Department performs annual valuations, as of September 30, on the preferred
stock and warrants in an attempt to provide a “sufficiently reliable” estimate of the outstanding commitments in order for
the Department to record the remaining liability in accordance with SFFAS No. 5. The occurrence of future deficits,
which ultimately determines the Department’s liability to the GSEs, is most sensitive to future changes in the housing
price index.

The valuation of the “Investments in Government Sponsored Enterprises” line item on the Consolidated Balance Sheets
incorporates various forecasts, projections and cash flow analyses to develop an estimate of the asset’s fair value. Any

                                                             67
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
changes in valuation, including impairment, are recorded and disclosed in accordance with SFFAS No. 7, Accounting for
Revenue and Other Financing Sources. Since the valuation is an annual process, the change in valuation of the preferred
stock and warrants are deemed usual and recurring. The GSEs contingent liability, if any, is assessed annually and
recorded at the gross estimated amount, without considering the increase in senior preferred stock liquidation
preference, or future dividend payments, or future commitment fees, due to the uncertainties involved. Note 8 includes a
detailed discussion of the results of the asset valuation and any liability recorded.

Estimation of such complex and long-duration receivables, investments, and contingencies is subject to uncertainty. It is
possible that new developments will adversely impact the value of receivables, investments, and contingencies, as well as
ultimate amounts required to be funded by the Department.

W. OTHER-THAN-TEMPORARY IMPAIRMENTS
A decline in the market value (either due to credit, price or currency) of any investment below cost that is deemed to be
other-than-temporary is accounted for as an impairment, and the carrying value is reduced to fair value for financial
reporting purposes. To determine whether an impairment is other-than-temporary, the Department considers whether it
has the ability and intent to hold the investment until a market price recovery, and considers whether evidence indicating
the cost of the investment is recoverable outweighs evidence to the contrary.

X. CREDIT, MARKET AND FOREIGN CURRENCY RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial transactions
with foreign countries (Note 10). The following programs of the Department entail credit risk: monetary assets held;
committed but undisbursed direct loans; funding commitment to the GSEs; GSE obligations obtained under the HFA
initiative (the New Issue Bond Program and Temporary Credit Liquidity Program); investments, loans, and other credit
programs of the TARP; non-TARP credit programs including the CDFI Fund, SBLF, and certain portions of the
Department’s participation in the IMF; and the Terrorism Risk Insurance Program.

Except for the Terrorism Risk Insurance Program, the Department’s activities focus on the underlying problems in the
credit markets, and the ongoing instability in those markets exposes the Department to potential costs and losses. The
extent of the risk assumed by the Department is described in more detail in the notes to the financial statements and,
where applicable, is factored into credit reform models and reflected in fair value measurements (Notes 7, 8, and 11).

For Emergency Economic Stabilization Act (EESA) programs, the statute requires that budgetary costs of the troubled
assets and guarantees of troubled assets be calculated by adjusting the discount rate for market risks. Within the TARP
programs, the Department invested in many assets that would traditionally be held by private investors, and their
valuation would inherently include market risk. Accordingly, for all TARP direct loans, equity investments, and other
credit programs, the Department calculates a Market Risk Adjusted Discount Rate (MRADR). The Department’s cost
estimates for the TARP programs are adjusted to reflect the additional return required by the market to compensate for
variability around the expected losses reflected in the cash flows. Under SFFAS No. 2, including market risk in the cash
flow estimates is consistent with the type of assets being valued. The inclusion of the MRADR is the mechanism for
deriving a fair value of the assets. As directed by Congress, a MRADR is also used in the credit reform model for certain
portions of the Department’s participation in the IMF.

The Department faces certain risks and uncertainties as a result of holding securities denominated in foreign currency.
The price of holdings of such securities may widely fluctuate as a result of volatility in foreign currency markets and
changes in real and perceived credit of the Department’s counterparties.

                                                              68
                                                                    U.S. Department of the Treasury | Fiscal Year 2013
Y. FUNDS FROM DEDICATED COLLECTIONS
The Department accounts for revenues and other financing sources for funds from dedicated collections (FDC) separately
from other funds. Such funds are financed by specifically identified revenues provided to the U.S. government by non-
federal sources, often supplemented by federal and other financing sources, which remain available over time. These
specifically identified revenues and other financing sources are required by statute to be used for designated activities,
benefits, or purposes. In fiscal year 2013, the Department adopted SFFAS No. 43, Funds from Dedicated Collections:
Amending SFFAS No. 27, Identifying and Reporting Earmarked Funds. Specifically, SFFAS No. 43 specifies the
following criteria for purposes of designating funds as dedicated collections: (i) a statute committing the U.S.
government to use specifically identified revenues and/or other financing sources that are originally provided to the U.S.
government by a non-federal source only for designated activities, benefits, or purposes; (ii) explicit authority for the
fund to retain revenues and/or other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; (iii) a requirement to account for and report on the receipt, use, and retention
of the revenues and/or other financing sources that distinguishes the fund from the U.S. government’s general revenues;
and (iv) for funds comprised of both federal and non-federal sources, such funding is predominantly non-federal, or the
non-federal funding is material to the Department’s financial statements. See Note 24, Funds from Dedicated
Collections, for further discussion of this change in accounting principle.

Z. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or
a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S.
Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent. Parent federal agencies report both the
proprietary and budgetary activity and the child agency does not report any financial activity related to budget authority
allocated from the parent federal agency to the child federal agency. However, OMB guidance (Circular No. A-136, II.4.2,
question 5, for three exceptions) requires the child to report the activity in certain situations.

The Department allocates funds, as the parent, to the Department of Energy. Also, the Department receives allocation
transfers, as the child, from the Agency for International Development, Department of Health and Human Services,
Department of Transportation, Executive Office of the President, and General Services Administration.

AA. FIDUCIARY ACTIVITIES
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment, and
disposition by the U.S. government of cash or other assets in which non-Federal individuals or entities have an ownership
interest that the U.S. government must uphold. Fiduciary cash and other assets are not assets of the U.S. government.
These activities are not reported in the Department’s consolidated financial statements, but instead are reported in Note
26.

AB. RELATED PARTIES AND OTHER ENTITIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly through
the normal lending activities of the Fiscal Service and the FFB. These activities are disclosed in the consolidated financial
statements. Additionally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA on
matters involving Fannie Mae and Freddie Mac. This provides the Department an advisory role in the FHFA’s actions as
the conservator for Fannie Mae and Freddie Mac. The Department has no transactions with FHFA, but rather transacts


                                                               69
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
directly with the GSEs. The Department also utilizes the services of the FRBs to execute a variety of transactions on
behalf of the Fiscal Service and the ESF. Due to the magnitude and variety of services provided, the following provides an
overview of the FRBs’ purpose, governance, and the various services provided on behalf of the Department.


Federal Reserve System

The Federal Reserve System (FR System) was created by Congress under the Federal Reserve Act of 1913. The FR System
consists of the Federal Reserve Board of Governors (Board), the Federal Open Market Committee (FOMC), and the FRBs.
Collectively, the FR System serves as the nation’s central bank and is responsible for formulating and conducting
monetary policy, issuing and distributing currency (Federal Reserve Notes), supervising and regulating financial
institutions, providing nationwide payments systems (including large-dollar transfers of funds, automated clearinghouse
(ACH) operations, and check collection), providing certain financial services to federal agencies and fiscal principals, and
serving as the U.S. government’s bank. Monetary policy includes actions undertaken by the FR System that influence the
availability and cost of money and credit as a means of helping to promote national economic goals. The FR System also
conducts operations in foreign markets in order to counter disorderly conditions in exchange markets or to meet other
needs specified by the FOMC to carry out its central bank responsibilities. The FR System is not included in the federal
budget. It is considered an independent central bank, and its decisions are not ratified by the executive branch of the
U.S. government.

The Department interacts with the FRBs in a variety of ways, including the following:
•   The FRBs serve as the Department’s fiscal agent and depositary, executing banking and other financial transactions
    on the Department’s behalf. The Department reimburses the FRBs for these services, the cost of which is included
    on the Consolidated Statements of Net Costs
•   The FRBs hold Treasury and other federal securities in the FRBs’ System Open Market Account (SOMA) for the
    purpose of conducting monetary policy (Note 16)
•   The FRBs hold gold certificates issued by the Department in which the certificates are collateralized by gold (Note 6)
•   The FRBs hold SDR certificates issued by the Department which are collateralized by SDRs (Notes 5 and 12)
•   The FRBs are required by Board policy to transfer their excess earnings to the Department on behalf of the U.S.
    government (Notes 13 and 23)

The Department also consults with the FR System on matters affecting the economy and certain financial stability
activities (Notes 7). The above financial activities involving the Department are accounted for and disclosed in the
Department’s consolidated financial statements. In accordance with SFFAC No. 2, Entity and Display, the FR Systems’
assets, liabilities, and operations are not consolidated into the Department’s financial statements.

Federal Reserve System Structure

The Board is an independent organization governed by seven members who are appointed by the President and
confirmed by the Senate. The full term of a Board member is 14 years, and the appointments are staggered so that one
term expires on January 31 of each even-numbered year. The Board has a number of supervisory and regulatory
responsibilities for institutions including, among others, state-chartered banks that are members of the FR System, bank
holding companies, and savings and loan holding companies. In addition, the Board has general supervisory
responsibilities for the 12 FRBs, and issues currency (Federal Reserve Notes) to the FRBs for distribution.

The FOMC is comprised of the seven Board members and five of the 12 FRB presidents, and is charged with formulating
and conducting monetary policy primarily through open market operations (the purchase and sale of certain securities in
the open market), the principal tool of national monetary policy. These operations affect the amount of reserve balances
available to depository institutions, thereby influencing overall monetary and credit conditions. The 12 FRBs are

                                                             70
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
chartered under the Federal Reserve Act, which requires each member bank to own the capital stock of its FRB.
Supervision and control of each FRB is exercised by a board of directors, of which three are appointed by the Board of
Governors of the FR System, and six are elected by their member banks.

The FRBs participate in formulating and conducting monetary policy, distribute currency and coin, and serve as fiscal
agents for the Department, other federal agencies and fiscal principals. Additionally, the FRBs provide short-term loans
to depository institutions and loans to participants in programs or facilities with broad-based eligibility in unusual and
crucial circumstances when approved by the Board.

Federal Reserve System Assets and Liabilities

The FRBs hold Treasury and other securities in the SOMA for the purpose of conducting monetary policy. Treasury
securities held by the FRBs totaled $1.9 trillion and $1.6 trillion at September 30, 2013 and 2012, respectively (Note 16).
These assets are generally subject to the same market (principally interest-rate) and credit risks as other financial
instruments. In the open market, the FR System purchases and sells Treasury securities as a mechanism for controlling
the money supply.

The FRBs have deposit liabilities with Treasury and depository institutions. The FRBs issue Federal Reserve Notes, the
circulating currency of the United States, which are collateralized by the Treasury securities and other assets held by the
FRBs.

Financial and other information concerning the FR System, including financial statements for the Board and the FRBs,
may be obtained at http://www.federalreserve.gov.

FRB Residual Earnings Transferred to the Department

FRBs generate income from interest earned on securities, reimbursable services provided to federal agencies, and the
provision of priced services to depository institutions as specified by the Monetary Control Act of 1980. Although the
FRBs generate earnings from carrying out open market operations, via the earnings on securities held in the SOMA
account, their execution of these operations is for the purpose of accomplishing monetary policy rather than generating
earnings. Each FRB is required by Board policy to transfer to the Department its residual (or excess) earnings after
providing for the cost of operations, payment of dividends, and reservation of an amount necessary to equate surplus
with paid-in capital. These residual earnings may vary due to, among other things, changes in the SOMA balance levels
that may occur in conducting monetary policy. In the event of losses, or a substantial increase in capital, an FRB will
suspend its payments to the U.S. Treasury until such losses or increases in capital are recovered through subsequent
earnings. The FRB residual earnings of $75.8 billion and $82.0 billion for fiscal years ended September 30, 2013 and
2012, respectively, are reported as custodial revenues on the Department’s Statements of Custodial Activity. They
constituted 2.6 percent and 3.1 percent of the Department’s total custodial revenues collected in fiscal years 2013 and
2012, respectively. “Taxes, Interest and Other Receivables, Net” includes a receivable for FRB’s residual earnings which
represents the earnings due to the U.S. Treasury as of September 30, but not collected by the U.S. Treasury until after the
end of the month (Note 13).




                                                             71
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

2. FUND BALANCE
As of September 30, 2013 and 2012, Fund Balance consisted of the following (in millions):
                                                                                                    2013                  2012
Appropriated Funds                                                                        $     358,611       $       315,690
Revolving Funds                                                                                   7,016                26,698
Special Funds                                                                                     1,403                   976
Clearing Funds                                                                                      503                   681
Deposit Funds                                                                                        115                  163
Other Funds (principally Receipt, Suspense, and Trust Funds)                                        172                   138
Total Fund Balance                                                                        $     367,820       $       344,346

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the Department.

Revolving funds are used for continuing cycles of business-like activity in which the fund charges for the sale of products
or services and uses the proceeds to finance its spending, usually without requirement for annual appropriations. A
public enterprise revolving fund is an account that is authorized by law to be credited with offsetting collections from the
public, and those monies are used to finance operations. Also included in revolving funds are the working capital fund
and financing funds. The working capital fund is a fee-for-service fund established to support operations of components
within the Department. The financing funds relate to credit reform activities.

Special funds include funds designated for specific purposes, including the disbursement of non-entity monies received
in connection with the Presidential Election Campaign. Clearing funds represent reconciling differences with the
Department’s balances as reported in the U.S. government’s central accounts. These fund accounts temporarily hold
unidentifiable general, special, or trust fund collections that belong to the U.S. government until they are classified to the
proper receipt or expenditure account by the federal entity. Deposit funds are accounts that record amounts held
temporarily by the U.S. government until ownership is determined, and include seized cash and other amounts received
as an advance that are not accompanied by an order.


STATUS OF FUND BALANCE
As of September 30, 2013 and 2012, the status of the fund balance consisted of the following (in millions):
                                                                                       2013                             2012
Unobligated Balance – Available                                              $     294,009                $         255,227
Unobligated Balance - Not Available                                                  76,341                           84,371
Unpaid Obligations                                                                 233,437                          252,169
Subtotal                                                                           603,787                           591,767
Adjustment for Borrowing Authority                                               (103,333)                        (109,930)
Adjustment for ESF                                                                (101,777)                       (103,763)
Adjustment for IMF                                                                 (28,197)                        (32,093)
Adjustment for Intra-Treasury Investments                                           (8,334)                           (7,251)
Adjustment for Authority Unavailable for Obligations                                  3,790                            3,706
Other Adjustments                                                                     1,884                             1,910
Total Status of Fund Balance                                                 $     367,820                $         344,346

Portions of the Unobligated Balance Not Available, as shown on the Combined Statement of Budgetary Resources,
include amounts appropriated in prior fiscal years that are not available to fund new obligations. However, such amounts
may be used for upward and downward adjustments for existing obligations in future years. The Unpaid Obligations
represent amounts designated for payment of goods and services ordered but not received, or goods and services received
but for which payment has not yet been made.




                                                              72
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
Since the following line items do not post to budgetary status accounts, the following adjustments are required to
reconcile the budgetary status to the non-budgetary Fund Balance as reported on the Consolidated Balance Sheets:

•   Adjustments for Borrowing Authority – Borrowing authority is in budgetary status but not in the Fund Balance
•   Adjustments for ESF – ESF investments in Treasury securities (which are eliminated on the consolidated balance
    sheets), foreign investments, SDR holdings, and related balances that meet the criteria for reporting as part of
    budgetary resources are reported on the Statement of Budgetary Resources; however, they are not a component of
    the Fund Balance as they represent invested funds
•   Adjustments for IMF – The reserve position in the IMF, loans and interest receivable, and related balances that meet
    the criteria for reporting as part of budgetary resources are reported on the Combined Statement of Budgetary
    Resources; however, they are not a component of the Fund Balance as they represent other monetary assets
•   Adjustments for Intra-Treasury Investments – Budgetary resources include Treasury security investments; however,
    the money has been moved from the Fund Balance asset account to Investments, which is eliminated on the
    consolidated balance sheets
•   Adjustment for Authority Unavailable for Obligations – Resources unavailable for obligations reduced the budgetary
    resources, however, they do not impact the Fund Balance

As of September 30, 2013 and 2012, the Department had no budgetary authority in the Fund Balance that was specifically
withheld from apportionment by the OMB. The balances in non-entity funds, such as certain deposit funds (e.g., seized
cash), are being held by the Department for the public or for another federal entity, such as the General Fund. Such
funds have an offsetting liability equal to the Fund Balance. See Note 12 regarding restrictions related to the line of credit
held on the U.S. quota in the IMF.




                                                             73
                                                                           U.S. Department of the Treasury | Fiscal Year 2013

  3. LOANS AND INTEREST RECEIVABLE – INTRA-GOVERNMENTAL
  ENTITY INTRA-GOVERNMENTAL
  The Department, through FFB, issues loans to federal agencies for the agencies’ own use or for the agencies to loan to
  private sector borrowers whose loans are guaranteed by the federal agencies. FFB is a wholly-owned Government
  corporation that operates under the general supervision of the Secretary, and has its own broad statutory authority to
  finance any obligations that are issued, sold, or guaranteed by federal agencies. For agencies that have the statutory
  authority to borrow in the market, but not from Treasury through the Fiscal Service (refer to the Non-Entity Intra-
  Governmental section below), FFB uses its statutory authority to make these loans directly to federal agencies.

  FFB also uses its statutory authority to finance direct or indirect federally guaranteed obligations which, as a matter of
  long-standing Federal credit policy, is the least expensive and most efficient method of financing these credit-risk
  obligations when compared to private sector lendor financing. When a federal agency has to honor its guarantee because
  a private sector borrower defaults, the federal agency that guaranteed the loan must obtain an appropriation or use other
  resources to repay the FFB.

  All principal and interest on FFB loans to federal agencies and private sector borrowers are, or have a commitment to be,
  backed by the full faith and credit of the U.S. government. The Department has not recognized any credit-related losses
  on its loans, nor has the Department recorded an allowance for uncollectible intra-governmental loans.

  As of September 30, 2013 and 2012, entity intra-governmental loans (issued by the FFB) and interest receivable consisted
  of the following (in millions):
                                                     Loans        Interest              2013              Loans      Interest             2012
                                                 Receivable     Receivable              Total         Receivable   Receivable             Total
  Department of Agriculture                  $      40,638     $           22   $     40,660      $      37,750    $      343    $      38,093
  United States Postal Service(1)                   15,000                 49         15,049             15,000            48           15,048
  Department of Energy                              14,034                 52         14,086              12,171           35           12,206
  General Services Administration                     1,733                31           1,764              1,819           32             1,851
  Department of Education                             1,133                 8           1,141                929            6               935
  Other Agencies                                         86                 -              86                194            1               195
  Total Entity Intra-governmental            $      72,624     $         162    $      72,786     $      67,863    $      465    $      68,328
(1)The United States Postal Service (USPS) experienced an operating deficit in both fiscal years 2013 and 2012. The Department, Congress, and
  other stakeholders are aware of the current and long-term financial issues of the USPS. Congress is considering legislative solutions for
  returning the USPS to financial stability.




                                                                      74
                                                                     U.S. Department of the Treasury | Fiscal Year 2013
    NON-ENTITY INTRA-GOVERNMENTAL
    The Department, through the Fiscal Service, accounts for and reports on the principal borrowings from and repayments
    to the General Fund for various funds managed by other federal agencies, as well as the related interest due to the
    General Fund. These federal agencies are statutorily authorized to borrow from the General Fund, through the Fiscal
    Service, to make loans for a broad range of purposes, such as education, housing, farming, and small business support.

    As of September 30, 2013 and 2012, non-entity intra-governmental loans (issued by the Fiscal Service) and interest
    receivable due to the General Fund consisted of the following (in millions):

                                                  Loans       Interest            2013            Loans       Interest       2012
                                              Receivable    Receivable           Total        Receivable    Receivable      Total
Department of Education                   $     851,295    $         -     $    851,295     $    714,368   $        - $   714,368
Department of Agriculture                         61,777             1           61,778           55,787            -      55,787
Department of Housing and Urban
Development                                      26,079                -           26,079         11,567          -         11,567
Department of Homeland Security                  24,076                -           24,076        18,073           -        18,073
Export-Import Bank of the U.S.                   18,102                -           18,102         11,301          -         11,301
Small Business Administration                     8,088               -            8,088          7,920           -         7,920
Department of Transportation                      6,958               -            6,958          5,193           -         5,193
Department of Labor                               6,027               -            6,027          6,065           -         6,065
National Credit Union Administration              4,725               2             4,727         3,200           2         3,202
Department of Energy                              3,967              26            3,993          3,616          20         3,636
Railroad Retirement Board                         3,587              42            3,629          3,402          44         3,446
Overseas Private Investment Corporation           2,293               -            2,293          2,241           -         2,241
Department of Defense                              1,175              -             1,175           953           -           953
Other Agencies                                    2,553               -            2,553          2,224           -         2,224
Total Non-Entity Intra-
  governmental                            $   1,020,702    $          71   $   1,020,773    $   845,910    $     66   $   845,976

Total Intra-governmental Loans
  and Interest Receivable (Entity
  and Non-Entity)                         $   1,093,326    $      233      $   1,093,559    $   913,773    $    531   $   914,304




                                                                75
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

4. DUE FROM THE GENERAL FUND AND DUE TO THE GENERAL
FUND
The General Fund consists of assets and liabilities used to finance the daily and long-term operations of the U.S
Government, as a whole. It also includes accounts used in the management of the Budget of the U.S. government.

General Fund assets, such as loans and interest receivable, cash, and investments in the GSEs, are held and managed by
the Department on behalf of the U.S. government, and constitute resources available to meet the operating needs of the
U.S. government. These Department-managed assets are separately reported on the Consolidated Balance Sheets, with a
corresponding amount reported as Due To the General Fund that represents a liability to reflect assets owed by the
Department to the General Fund.

General Fund liabilities, primarily federal debt and liability for restoration of Federal Debt Principal and Interest, are
obligations of the U.S. government. These Department-managed liabilities are separately reported on the Consolidated
Balance Sheets, with a corresponding amount reported as Due From the General Fund that represents a receivable, or
future funds required of the General Fund to repay borrowings from the public and other federal agencies.

As of September 30, 2013 and 2012, the General Fund assets and liabilities had a negative net position of $15.7 trillion
and $14.9 trillion, respectively. This negative net position represents the amount needed by the U.S. government,
through a combination of future tax collections and/or continued borrowing from the public and federal agencies to meet
its obligations.

As of September 30, 2013 and 2012, Due From the General Fund included the following non-entity assets (in millions):

Liabilities Requiring Funding from the General Fund                                                2013                  2012
Federal Debt and Interest Payable – Held by the Public (Note 16)                         $   12,003,030      $     11,307,583
Federal Debt and Interest Payable - Intra-governmental (Note 16)                              4,837,436             4,861,005
Liability for Restoration of Federal Debt Principal and Interest – Due to the Public
 (Note 16)                                                                                       120,356                     -
Liability for Restoration of Federal Debt Principal and Interest - Intra-
 governmental (Note 16)                                                                          128,272                    -
Refunds Payable (Note 23)                                                                          2,914                3,255
Adjustment for Eliminated Liabilities                                                             31,349               30,336
Total Due From the General Fund                                                          $    17,123,357     $     16,202,179

The Adjustment for Eliminated Liabilities principally represents investments in U.S. government securities held by the
Department’s reporting entities that were eliminated against Federal Debt and Interest Payable Intra-governmental.




                                                              76
                                                                      U.S. Department of the Treasury | Fiscal Year 2013
As of September 30, 2013 and 2012, Due To the General Fund included the following non-entity liabilities (in millions):

Assets to be Distributed to the General Fund                                                              2013                  2012
Fund Balance                                                                                   $           434      $            406
Loans and Interest Receivable - Intra-governmental (Note 3)                                          1,020,773              845,976
Advances to the Unemployment Trust Fund                                                                 29,696                32,932
Cash Due to the General Fund (Held by the Department) (Note 5)                                          82,865                79,245
Accounts Receivable - Intra-governmental                                                                   362                    455
Foreign Currency                                                                                            60                     64
Custodial Gold without certificates and Silver held by the U.S. Mint                                        25                     25
Investments in Government Sponsored Enterprises (Note 8)                                               140,221               109,342
Non-TARP Investments in American International Group, Inc. (Note 7)                                          -                  2,611
Credit Reform Downward Subsidy Re-estimates                                                              8,213                10,444
Loans and Interest Receivable                                                                               88                     94
Taxes and Other Non-Entity Receivables Due to General Fund                                              38,519                 41,421
Adjustment for Eliminated Assets                                                                        96,167               134,737
Total Due To the General Fund                                                                  $     1,417,423      $      1,257,752
The assets to be distributed to the General Fund do not represent all of the non-entity assets managed by the Department. See Note 15
for all non-entity assets held by the Department.

The Fund Balance reported above represents the non-entity funds held by the Department on behalf of the General Fund.
It is used to administer programs such as the Presidential Election Campaign and payments for Legal Services
Corporation and thus not available for general use by the Department.

Advances have been issued from the General Fund to the DOL’s Unemployment Trust Fund to disburse to states for
unemployment benefits. The Department transfers repayment of these advances to the General Fund.

The non-entity Credit Reform Downward Subsidy Re-estimates result from changes in forecasted future cash flows of the
equity investments and direct loans under the Department’s TARP and non-TARP credit programs (See Note 1H and 1V).

Taxes and Other Non-Entity Receivables Due to General Fund primarily represents IRS-related federal taxes receivable
(Note 13).

The Adjustment for Eliminated Assets principally represents loans and interest payable owed by the Treasury reporting
entities, which were eliminated against Loans and Interest Receivable Intra-governmental held by the Fiscal Service.




                                                                 77
                                                                 U.S. Department of the Treasury | Fiscal Year 2013

5. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Cash, Foreign Currency, and Other Monetary Assets held as of September 30, 2013 and 2012 were as follows (in
millions):
                                                                                                   2013             2012
Entity:
Cash                                                                                         $        69   $          75
Foreign Currency and Foreign Currency Denominated Assets                                          10,125          10,524
Other Monetary Assets:
  Special Drawing Right Holdings                                                                 54,972           55,240
  U.S. Dollars Held in Cash by the IMF                                                              132              137
Total Entity                                                                                     65,298           65,976

Non-Entity:
Operating Cash of the U.S. government                                                             82,742           79,195
Foreign Currency                                                                                      60               64
Miscellaneous Cash Held by All Treasury Reporting Entities                                           406              316
Total Non-Entity                                                                                  83,208           79,575
Total Cash, Foreign Currency, and Other Monetary Assets                                      $   148,506   $      145,551

Non-entity operating and other miscellaneous cash due to the General Fund which was held by the Department consisted
of the following as of September 30, 2013 and 2012 (in millions):
                                                                                                    2013            2012
Operating Cash - FRB Account                                                                 $   88,386    $      85,446
Outstanding Checks                                                                               (5,644)          (6,251)
Total Operating Cash of the U.S. government                                                       82,742           79,195
Miscellaneous Cash                                                                                   192              128
Subtotal                                                                                          82,934          79,323
Amounts Due to the Public                                                                           (69)             (78)
Total Cash Due to the General Fund (Note 4)                                                  $   82,865    $      79,245

ENTITY
Entity cash, foreign currency, and other monetary assets principally include foreign currency, foreign currency
denominated assets (FCDAs), and SDRs. These assets are valued as of September 30, 2013 and 2012 using current
exchange rates plus accrued interest.

Foreign Currency Denominated Assets

FCDA holdings are normally invested in interest-bearing securities issued by or held through foreign governments or
monetary authorities. FCDA holdings include securities whereby the FRBNY, on behalf of the ESF, enters into
transactions to purchase foreign-currency-denominated government-debt securities. These government-debt securities
are under agreements to resell for which the accepted collateral is the debt instruments, denominated in euros, and is
issued or guaranteed in full by European governments. These agreements are subject to daily margining requirements.
FCDAs with original maturities of three months or less, including securities purchased under agreement to resell, were
valued at $10.1 billion and $10.5 billion as of September 30, 2013 and 2012, respectively.

Special Drawing Rights

The SDR is an international reserve asset created by the IMF to supplement existing reserve assets. The IMF has
allocated new SDRs on several occasions to members participating in the IMF’s SDR department. The SDR derives its
value as a reserve asset essentially from the commitments of participants to hold and accept SDRs and to honor various
obligations connected with their proper functioning as a reserve asset. Pursuant to the Special Drawing Rights Act of

                                                            78
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
1968, as amended, the Department issued certificates to the Federal Reserve, valued at $5.2 billion which were reported
as a liability on the Consolidated Balance Sheets as of September 30, 2013 and 2012. The certificates were issued to
finance the ESF’s acquisition of SDRs from other countries or to provide U.S. dollar resources for financing other ESF
operations.

On a daily basis, the IMF calculates the value of the SDR using the market value in terms of the U.S. dollar from weighted
amounts of each of four freely usable currencies, as defined by the IMF. These currencies are the U.S. dollar, the
European euro, the Japanese yen, and the British pound sterling. The U.S. SDR holdings (assets resulting from various
SDR-related activities including remuneration on the U.S. reserve position) and allocations from the IMF (liabilities of
the United States coming due only in the event of a liquidation of, or United States withdrawal from, the SDR department
of the IMF, or cancellation of SDRs) are revalued monthly based on the SDR valuation rate calculated by the IMF.

Pursuant to the IMF Articles of Agreement, SDR holdings and allocations acquired by the United States are permanent
resources or liabilities unless:

  •    cancelled by the Board of Governors pursuant to an 85.0 percent majority decision of the total voting power of
       IMF members;
  •    the SDR department of the IMF is liquidated;
  •    the IMF is liquidated; or
  •    the United States chooses to withdraw from the IMF or terminate its participation in the SDR department

Except for the payment of interest and charges on SDR allocations to the United States, the payment of the U.S.
commitment related to SDR allocations is conditional on events listed above, in which the United States has a substantial
or controlling voice. The United States has received no SDR allocations since 2009.

As of September 30, 2013 and 2012, the total amount of SDR holdings of the United States was the equivalent of $55.0
billion and $55.2 billion, respectively. As of September 30, 2013 and 2012, the total value of SDR allocations to the
United States was the equivalent of $54.2 billion and $54.5 billion, respectively.

NON-ENTITY

Non-entity cash, foreign currency, and other monetary assets principally include the Operating Cash of the U.S.
government which is managed by the Department. Also included is foreign currency maintained by various U.S.
disbursing offices, miscellaneous cash such as seized monetary instruments, undistributed cash, and offers in
compromises which are maintained as a result of the Department’s tax collecting responsibilities.

The Operating Cash of the U.S. government represents balances from tax collections, other revenues, federal debt
receipts, and other receipts, net of checks outstanding, which are held in the FRBNY. Operating Cash of the U.S.
government is either insured by the Federal Deposit Insurance Corporation (for balances up to $250,000 as of
September 30, 2013 and 2012), or collateralized by securities pledged by the depository institutions and held by the FRB.




                                                             79
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

6. GOLD AND SILVER RESERVES, AND GOLD CERTIFICATES
   ISSUED TO THE FEDERAL RESERVE BANKS
The Department, through the Mint, is responsible for safeguarding most of the U.S. government’s gold and all of the
silver reserves in accordance with 31 USC §5117; a smaller portion of the gold is in the custody of the FRBs.

The gold reserves being held by the Department are partially offset by a liability for gold certificates issued by the
Secretary to the FRBNY at the statutory rate, as provided in 31 USC §5117. Since 1934, Gold Certificates have been issued
in non-definitive or book-entry form to the FRBNY. The Department’s liability incurred by issuing the Gold Certificates,
as reported on the Consolidated Balance Sheets, is limited to the gold being held by the Department at the statutory
value. Upon issuance of Gold Certificates to the FRBNY, the proceeds from the certificates are deposited into the
operating cash of the U.S. government. All of the Department’s certificates issued are payable to the FRBNY. The Mint
also holds 100,000 fine troy ounces (FTO) ($4 million at the statutory carrying value) of gold reserves without
certificates.

The gold and silver bullion reserve (deep storage and working stock) are reported on the consolidated financial
statements at the values stated in 31 USC § 5116 – 5117 (statutory rates) which are $42.2222 per FTO of gold and no less
than $1.292929292 per FTO of silver. Accordingly, the silver is valued at $1.292929292 per FTO. The market values of
the gold and silver reserves disclosed below are based on the London Gold Fixing. As of September 30, 2013 and 2012,
the values of gold and silver reserves consisted of the following:
                                                                                          2013
                                                                                     Statutory                                 2013
                                                                                     Carrying              Market            Market
                                                               Statutory                 Value            Rate Per            Value
                                                  FTOs              Rate             (in millions)            FTO         (in millions)
Gold                                        248,046,116       $ 42.2222          $       10,473       $   1,326.50    $     329,033
Gold Held by Federal Reserve Banks           13,452,811       $ 42.2222                     568       $   1,326.50           17,845
Total Gold                                  261,498,927                                  11,041                             346,878
Silver                                      16,000,000        $       1.2929                 21       $      21.68              347
Total Gold and Silver Reserves                                                   $       11,062                       $     347,225



                                                                                            2012
                                                                                       Statutory                                2012
                                                                                       Carrying              Market           Market
                                                                     Statutory             Value           Rate Per            Value
                                                    FTOs                  Rate        (in millions)            FTO         (in millions)
Gold                                          248,046,116     $       42.2222    $        10,473      $    1,776.00   $      440,530
Gold Held by Federal Reserve Banks             13,452,811     $       42.2222                568      $    1,776.00           23,892
Total Gold                                    261,498,927                                 11,041                             464,422
Silver                                        16,000,000      $        1.2929                 21      $      34.65               554
Total Gold and Silver Reserves                                                   $        11,062                      $      464,976




                                                              80
                                                                          U.S. Department of the Treasury | Fiscal Year 2013

7. TROUBLED ASSET RELIEF PROGRAM – CREDIT PROGRAM
   RECEIVABLES, NET
The Department administers a number of programs designed to help stabilize the financial system and restore the flow of
credit to consumers and businesses. Through TARP, the Department made direct loans, equity investments, and entered
into other credit programs. TARP’s authority to make new commitments to purchase or guarantee troubled assets
expired in October 2010. The table below displays the assets held as of September 30, 2013 and 2012, by the
observability of inputs significant to the measurement of each value (in millions):
                                                                                Quoted
                                                                             Prices for       Significant        Significant
                                                                              Identical       Observable       Unobservable               2013
Program                                                                        Assets(1)        Inputs(2)          Inputs(3)             Total
Capital Purchase Program                                                   $       125      $           -     $       1,668        $     1,793
Automotive Industry Financing Program                                            3,647            11,950                   -            15,597
Public-Private Investment Program                                                      -                -                 10                10
Other Programs (TALF and CDCI)                                                       18                 -                451               469
Total TARP Programs                                                        $     3,790      $     11,950      $        2,129       $    17,869
(1) Measurement is based on direct market quotes for the specific asset, e.g. quoted prices of common stock.
(2) Measurement is primarily derived from market observable data, other than a direct market quote, for the asset. This data could be market

    quotes for similar assets for the same entity.
(3) Measurement is primarily derived from inputs which generally represent management’s best estimate of how a market participant would

   assess the risk inherent in the asset. These unobservable inputs are used because there is little to no direct market activity.


                                                                                 Quoted
                                                                               Prices for     Significant         Significant
                                                                               Identical      Observable        Unobservable               2012
Program                                                                         Assets(1)       Inputs(2)           Inputs(3)             Total
Capital Purchase Program                                                   $         327    $           -     $        5,407       $      5,734
American International Group, Inc. Investment Program(4)                           5,067                -                   2             5,069
Automotive Industry Financing Program                                             11,376                -              6,170             17,546
Public-Private Investment Program                                                       -               -             10,778             10,778
Other Programs (TALF and CDCI)                                                          9               -              1,095              1,104
Asset Guarantee Program(5)                                                              -             967                   -               967
Total TARP Programs                                                        $      16,779    $          967    $          23,452    $     41,198
See table above for explanations to (1), (2), and (3).
(4) Non-TARP investments in AIG totaling $2.6 billion as of September 30, 2012 are not included in this amount and reported separately on the

   Consolidated Balance Sheets as Non-TARP Investments in American International Group, Inc. These investments were sold in fiscal year 2013.
(5) Of the combined TARP Program totaling $41.2 billion as of September 30, 2012, $967 million represented other intra-governmental assets and

   $40.2 billion represented assets with the public as reported on the Consolidated Balance Sheets.

DIRECT LOAN AND EQUITY INVESTMENT PROGRAMS

Capital Purchase Program

TARP implemented the Capital Purchase Program (CPP) in fiscal year 2009 which was designed to help stabilize the
financial system by assisting in building the capital base of certain viable U.S. financial institutions to increase the
capacity of those institutions to lend to businesses and consumers and support the economy. Under this program, the
Department invested a total of $204.9 billion and purchased senior perpetual preferred stock and subordinate
debentures from qualifying U.S. controlled banks, savings associations, and certain bank and savings and loan holding
companies (Qualified Financial Institution or QFI). The senior preferred stock has a stated dividend rate ranging from
5.0 percent to 9.0 percent. The dividends are cumulative for bank holding companies and non-cumulative for others;
they are payable when and if declared by the institution’s board of directors. QFIs that are Sub-chapter S corporations
(public and non-public) issued subordinated debentures that have a maturity of generally 30 years, and interest rates
ranging from 7.7 percent to 13.8 percent.

In addition to the senior preferred stock, the Department received warrants, with a ten-year term, from public QFIs to
purchase a number of shares of common stock. Additionally, the Department exercised warrants received from non-

                                                                     81
                                                                     U.S. Department of the Treasury | Fiscal Year 2013
public QFIs resulting in additional holdings of senior preferred stock (or subordinated debentures as appropriate) of non-
public QFIs.

In fiscal years 2013 and 2012, repayments and sales of CPP investments totaled $4.8 billion and $8.2 billion, respectively.
Of these CPP investment repayments and sales in fiscal years 2013 and 2012, net proceeds of $1.5 billion and $1.3 billion,
respectively, resulted from auction sales from the Department’s decision in fiscal year 2012 to sell certain CPP
investments to the public in auction sales. Total CPP repayments and sales resulted in net proceeds less than cost of
$493 million and $285 million in fiscal year 2013 and 2012, respectively. The initial auction sales were not considered in
the formulation estimate for the CPP program and, as such, a modification was recorded, increasing the cost of the
program by $973 million in fiscal year 2012.

The estimated value of the CPP preferred equity investments is based on the net present values of the expected dividend
payments and proceeds from repurchases and sales. The model assumes a probabilistic evolution of each institution’s
asset-to-liability ratio (based on the estimated fair value of the institution’s assets against its liabilities). Historical
volatility is used to scale the likely evolution of each institution’s asset-to-liability ratio. Inputs to the model include
institution specific accounting data obtained from regulatory filings, an institution’s stock price volatility, historical bank
failure information, as well as market prices of comparable securities trading in the market. The market risk adjustment
is obtained through a calibration process to the market value of certain trading securities of financial institutions within
the TARP programs or other comparable financial institutions. The Department estimates the values and projects the
cash flows of warrants using an option-pricing approach based on the current stock price and its volatility. Investments
in common stock which are exchange traded are valued at the quoted market price as of fiscal year end.


American International Group, Inc. Investment Program

The Department provided assistance to systemically significant financial institutions on a case by case basis to provide
stability to those institutions and protect the economy from being adversely affected by the failure of these firms. In fiscal
year 2009, the Department invested $40.0 billion in AIG in the form of AIG’s cumulative 10.0 percent Series D preferred
stock. Additionally, the Department made available to AIG an equity capital facility under which AIG drew $27.8 billion,
and the Department received additional AIG preferred stock. By January 2011, the Department (in combination with
AIG and the FRBNY) had restructured the AIG investments into a $20.3 billion interest in AIG SPVs, and 1.1 billion
shares of AIG common stock. Additionally, the credit facility between FRBNY and AIG was terminated, and the
Department on behalf of the General Fund separately received 563 million shares of AIG common stock at no cost,
reported separately on the Consolidated Balance Sheets as Non-TARP Investments in AIG. Upon completion of the
restructuring, the Department (including TARP) held a combined total of 1.7 billion shares of AIG common stock, or 92.1
percent of AIG’s common stock equity.

During fiscal years 2011 and 2012, the Department received a total of $21.1 billion in distributions from the AIG SPVs,
fully repaying the $20.3 billion original investment balance and $204 million of capitalized dividend income, of which
$9.6 billion and $11.5 billion were received in fiscal years 2012 and 2011, respectively. The Department recorded
proceeds in excess of cost of $127 million in fiscal year 2012 (none in 2011), along with investment income of $191 million
and $246 million in fiscal years 2012 and 2011, respectively.

Between fiscal years 2011 and 2013, the Department sold all of its 1.7 billion AIG common shares held by the General
Fund and TARP together, on a pro-rata basis, in the open market. In fiscal year 2011, the Department sold in the open
market 200 million shares of AIG common stock held by the General Fund and TARP (68 million and 132 million shares,
respectively) for total gross cash proceeds of $5.8 billion, of which the General Fund and TARP received $2.0 billion and
$3.8 billion, respectively. Sales continued in fiscal year 2012 in which the Department sold an additional 1.2 billion


                                                                82
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
shares of AIG common stock held by the General Fund and TARP (415 million and 806 million shares, respectively) for
total gross cash proceeds of $38.2 billion, of which the General Fund and TARP received $13.0 billion and $25.2 billion,
respectively. During fiscal year 2013, the Department sold the remaining 234 million shares of AIG common stock held
by the General Fund and TARP (80 million and 154 million shares, respectively) for total gross cash proceeds of $7.6
billion, of which the General Fund and TARP received $2.6 billion and $5.0 billion, respectively. For the TARP shares
sold in fiscal years 2013, 2012 and 2011, the proceeds were less than the Department’s cost by $1.7 billion, $9.9 billion
and $1.9 billion, respectively.

As of September 30, 2013, the Department no longer held any ownership interest in AIG. The remaining 234 million
shares of AIG common stock held by the Department (including TARP) as of September 30, 2012 constituted 15.9 percent
of AIG’s total outstanding common shares. These common shares held had a fair value which approximated their
carrying value totaling approximately $7.7 billion at September 30, 2012, of which $2.6 billion and $5.1 billion related to
the General Fund and TARP, respectively. The fair value of the AIG common stock was based on the New York Stock
Exchange (NYSE) quoted market price as of September 30, 2012.

During fiscal year 2013, the carrying value of the AIG investments held on behalf of the General Fund declined by $2.6
billion from the end of the prior fiscal year due to the sale of the remaining AIG common stock for $2.588 billion which
resulted in a $23 million loss from the final sale. The September 30, 2012 carrying value of these investments had
declined by $8.3 billion from September 30, 2011 due to sales of $13.0 billion during fiscal year 2012, partially offset by a
fair value gain of $4.7 billion on the remaining existing portfolio as of September 30, 2012. Accordingly, the carrying
value of the AIG common stock investment was adjusted by these amounts, and a corresponding amount was reported as
custodial expense on the Statements of Custodial Activity.


Automotive Industry Financing Program

The Automotive Industry Financing Program (AIFP) was designed to help prevent a significant disruption of the
American automotive industry, which could have had a negative effect on the economy of the United States.

General Motors Company and General Motors Corporation
In fiscal year 2009, the Department provided $51.0 billion to General Motors Corporation (Old GM) through various loan
agreements while Old GM was in bankruptcy. During fiscal year 2009, General Motors Company (New GM) was created
and, through various sales and restructurings of its investment, the Department held 500 million shares of New GM
common stock, or 31.9 percent of New GM’s total outstanding common shares, as of September 30, 2012. During fiscal
year 2013, the Department sold 399 million shares of the New GM common stock for $12.0 billion, which resulted in net
proceeds less than cost of $5.4 billion. There were no sales of common stock during fiscal year 2012. As of September
30, 2013, the Department held 101 million shares of New GM common stock, or 7.3 percent of New GM’s total
outstanding common shares. The fair value of the New GM common shares held as of September 30, 2013 and 2012 was
$3.6 billion and $11.4 billion, respectively, based on the NYSE quoted market price, plus the value of any traded but not
settled shares. Traded but not settled shares were valued based on the actual trade proceeds.


Ally Financial Inc. (formerly known as GMAC Inc.)

The Department invested a total of $16.3 billion in GMAC Inc. between December 2008 and December 2009 to help
support its ability to originate new loans to GM and Chrysler dealers and consumers, and to help address GMAC’s capital
needs. In 2010, GMAC changed its corporate name to Ally Financial, Inc. (Ally). As a result of original investments,
exchanges, conversions and warrant exercises, the Department held 981,971 shares of Ally common stock, representing
73.8 percent of Ally’s outstanding common stock, as of September 30, 2013 and 2012. The Department also held 119
million shares of Ally Series F-2 Mandatorily Convertible Preferred Securities (Series F-2), with a stated dividend rate of

                                                             83
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
9.0 percent, which were convertible into at least 513,000 shares of Ally common stock. In both fiscal years 2013 and
2012, the Department received $534 million in dividends from Ally. The fair value of the Ally investments held was $12.0
billion and $6.2 billion at September 30, 2013 and 2012, respectively.

Per an August 2013 agreement, Ally repurchased all of the Series F-2 from the Department for $5.2 billion in November
2013. The Department received an additional $725 million for the elimination of certain rights under the original
agreement. This August 2013 agreement also included terms for Ally to issue a November 2013 private offering of new
common stock at a price of $6,000 per share. To value the holdings in Ally at September 30, 2013, the Department
considered observable market data from the November 2013 transactions pursuant to the August 2013 agreement.
Proceeds and dividends received in November 2013 were discounted to September 30, 2013, at a risk-free discount rate
to reflect the timing of the expected cash flows. The Department’s remaining investment in Ally, consisting of 981,971
shares of common stock, representing 63.4 percent of Ally’s outstanding common stock, was valued at the price per share
in Ally’s private offering.

Investments in Ally’s common equity and mandatorily convertible preferred stock were valued on an “if-converted” basis
at September 30, 2012, and the Department used an average of valuation multiples such as price-to-earnings, price-to-
tangible book value, and asset manager valuations to estimate the value of the shares. The multiples were based on those
of comparable publicly-traded entities. The adjustment for market risk was incorporated in the data points the
Department uses to determine the measurement for Ally as all points relied on market data.


Public-Private Investment Program

The Public-Private Investment Program (PPIP) was part of the Department’s efforts to help restart the financial securities
market and provide liquidity for legacy securities. Under this program, the Department (as a limited partner) made
equity investments in and loans to nine investment vehicles (referred to as Public-Private Investment Funds or “PPIFs”)
established by private investment managers between September and December 2009. The equity investments were used
to match private capital and equaled 49.9 percent of the total equity invested.

During fiscal year 2013, all of the remaining PPIFs fully liquidated their portfolios and repaid investors, including the
Department. At September 30, 2013, the Department had no PPIF equity investments or loans outstanding. At
September 30, 2012, the Department had investments in six PPIFs which included $4.1 billion of equity investments
outstanding and $5.7 billion of loans outstanding, for an aggregate total of $9.8 billion. At September 30, 2012, the fair
value of these loans outstanding was $10.8 billion. These portfolios were comprised of 74.0 percent non-agency
residential mortgage-backed securities (RMBS) and 26.0 percent commercial mortgage-backed securities (CMBS). The
Department made no disbursements to the PPIFs during fiscal year 2013, compared to fiscal year 2012 in which the
Department disbursed $245 million as equity investments and $803 million as loans to the PPIFs. In both fiscal years
2013 and 2012, the Department received $5.7 billion in loan principal and interest repayments from the PPIFs. Also
during fiscal year 2013, the Department received $5.5 billion in equity distributions, comprised of $254 million of
investment income, $1.2 billion of net proceeds in excess of cost, and $4.1 billion reduction of the gross investment
outstanding. In fiscal year 2012, the Department received $3.2 billion in equity distributions, comprised of $1.3 billion of
investment income, $223 million of net proceeds in excess of cost, and $1.7 billion reduction of the gross investment
outstanding.

The $10 million positive subsidy allowance at September 30, 2013 represents additional proceeds expected upon final
liquidation of remaining partnerships at the net present value. As of September 30, 2013, the Department had legal
commitments to disburse up to $984 million in additional equity to PPIFs which will remain until all distributions have
been received from PPIFs and all PPIF liabilities have been settled.


                                                             84
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
For the valuation at September 30, 2012, the Department estimated cash flows to the PPIFs by simulating the
performance of the collateral supporting the assets held by the PPIF. Inputs used to simulate the cash flows, which
considered market risks, included unemployment forecasts, home price appreciation/depreciation forecasts, the current
term structure of interest rates, historical pool performance, and estimates of the net income and value of commercial
real estate supporting the CMBS. The simulated cash flows were then run through a financial model that defined
distributions of the RMBS/CMBS to determine the estimated cash flows to the PPIF.


Other Direct Loan and Equity Investment Programs

The Department initiated other programs intended to help unlock the flow of credit to consumers and small businesses.
The following programs were established to help accomplish this: the Term Asset-Backed Securities Loan Facility (TALF)
and the Community Development Capital Initiative (CDCI). Each program is discussed in more detail below and
included in the “Other Programs” column of the table within this note.


Term Asset-Backed Securities Loan Facility

The TALF was created by the FRB to provide low-cost funding to investors in certain classes of Asset Backed Securities
(ABS). The Department agreed to participate in the program by providing liquidity and credit protection to the FRB.
Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse basis to
purchasers of certain AAA rated ABS secured by consumer and commercial loans and CMBS. The FRBNY ceased issuing
new loans in 2010. Approximately $101 million and $1.5 billion of loans due to the FRBNY remained outstanding as of
September 30, 2013 and 2012, respectively.

As part of the program, the FRBNY created the TALF, Limited Liability Corporation (LLC), an SPV that agreed to
purchase from the FRBNY any collateral it has seized due to borrower default. Upon its creation, the Department
disbursed a $100 million loan to fund the facility. The TALF, LLC would fund purchases from the accumulation of
monthly fees paid by FRBNY as compensation for the agreement. Only if the TALF, LLC had insufficient funds to
purchase the collateral did the Department commit to invest up to $20.0 billion in non-recourse subordinated notes
issued by the TALF, LLC. This commitment amount has been reduced periodically since 2010, and was terminated in
fiscal year 2013. In fiscal year 2013, a modification to the terms of the legal agreement resulted in $55 million is subsidy
income for the program. The modification allowed the Department to receive $100 million in repayments, $13 million in
interest and $570 million of contingent interest, recorded as proceeds in excess of cost, in fiscal year 2013 rather than in
fiscal year 2015 as originally expected. As of September 30, 2013 and 2012, no TALF loans were in default and
consequently no collateral was purchased by the TALF, LLC.

In valuing the TALF loan, the Department model derives the cash flows to the SPV, and ultimately to the Department, by
simulating the performance of underlying collateral. Loss probabilities on the underlying collateral are calculated based
on analysis of historical loan loss and charge-off experience by credit sector and subsector. Impaired TALF-eligible
securities are projected to be purchased by the SPV, which could require additional Department funding. Simulation
outcomes consisting of a range of loss scenarios are probability-weighted to generate the expected net present value of
future cash flows.


Community Development Capital Initiative

In fiscal year 2010, the CDCI was created to provide additional low cost capital in Community Development Financial
Institutions (CDFIs) to encourage more lending to small businesses. Under the terms of the program, the Department
purchased senior preferred stock (or subordinated debt) from eligible CDFIs with an initial dividend rate of 2.0 percent
that will increase to 9.0 percent after eight years. The Department invested a total of $570 million in 84 institutions


                                                             85
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
under the CDCI. In fiscal years 2013 and 2012, the Department received $86 million and $3 million in repayments,
respectively. The Department values the CDCI preferred stock investments in a manner broadly analogous to the
methodology used to value the preferred stock securities within the CPP program.


OTHER CREDIT PROGRAMS

Asset Guarantee Program

The Asset Guarantee Program (AGP) provided guarantees for assets held by systemically significant financial institutions
that faced a risk of losing market confidence due in large part to a portfolio of distressed or illiquid assets. Section 102 of
the EESA required the Secretary to establish the AGP to guarantee troubled assets originated or issued prior to March 14,
2008, including MBS.

In January 2009, the Department entered into a guarantee agreement with Citigroup under which the Department’s
protection was limited to $5.0 billion. The Department, Federal Deposit Insurance Corporation (FDIC), and the FRBNY
provided protection against the possibility of large losses on a Citigroup asset pool of approximately $301.0 billion of
loans and securities backed by residential and commercial real estate and other such assets. In fiscal year 2010, this
guarantee agreement was terminated and, accordingly, FDIC agreed to transfer to the Department $800 million of
Citigroup trust preferred securities (TruPS) holdings plus dividends by December 31, 2012, reduced by any losses FDIC
incurred on its Citigroup guaranteed debt. The Department recorded a TruPS-related receivable from the FDIC valued at
$967 million at September 30, 2012. The Department sold this investment in fiscal year 2013 for $894 million. During
fiscal year 2013, the Department also received $200 million of dividends on the TruPS. A downward modification of $94
million and a closing downward re-estimate of $24 million were recorded in fiscal year 2013. The Department valued the
AGP preferred stock investments in a manner broadly analogous to the methodology used to value the preferred stock
securities within the CPP program. As of September 30, 2013, the Department held no remaining holding in the AGP
program.


FHA-Refinance Program

In fiscal year 2010, the Department entered into a loss-sharing agreement with the FHA to support a program in which
FHA guarantees refinancing of borrowers whose homes are worth less than the remaining amounts owed under their
mortgage loans. The Department established a $50 million account, held by a commercial bank as its agent, from which
any required reimbursements for losses will be paid to third-party claimants, including banks or other investors. FHA
disbursed $182 million and $234 million of loans during fiscal year 2013 and 2012, respectively. At September 30, 2013
and 2012, 3,015 and 1,774 loans that FHA had guaranteed with a total value of $489 million and $307 million,
respectively, had been refinanced under the program. At September 30, 2013 and 2012, the Department’s maximum
exposure related to the FHA guarantee totaled $59 million and $41 million, respectively. The Department’s guarantee
resulted in the Department incurring a $9 million and $7 million liability as of September 30, 2013 and 2012,
respectively, that was reported in Other Liabilities on the Consolidated Balance Sheets.

Based on credit reform accounting, the liability was derived as the present value of the future cash outflows for the
Department’s share of losses incurred on any defaults of the disbursed loans. The budget subsidy rates for the program,
entirely for defaults, excluding modifications and re-estimates, were set at 2.5 percent and 4.0 percent for loans
guaranteed in fiscal years 2013 and 2012, respectively. As of September 30, 2013 and 2012, the Department recorded
subsidy cost of $5 million and $9 million, respectively, for projected losses due to defaults. The program recorded a $3
million downward re-estimate for the year ended September 30, 2013 and 2012, due to a reduction in market risks and
lower than projected defaults.



                                                              86
                                                                 U.S. Department of the Treasury | Fiscal Year 2013
SUMMARY TABLES
The following tables provide the net composition, subsidy cost, modifications and re-estimates, a reconciliation of
subsidy cost allowances, and subsidy by component for each TARP direct loan, equity investment or other credit
programs for the fiscal years ended September 30, 2013 and 2012. There were no budget subsidy rates for fiscal year
2013 and 2012, except for the FHA- Refinance Program as previously disclosed in this note. All of the disbursements in
fiscal year 2012, were from loans or investments obligated in prior years.




                                                            87
                                                                             U.S. Department of the Treasury | Fiscal Year 2013
                    Troubled Asset Relief Program Direct Loans and Equity Investments

                                                                                                                                 Other
As of September 30, 2013 (in millions)                       CPP               AIG               AIFP            PPIP          Programs           2013
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding, Gross    $     3,143    $            -       $    19,878     $        -    $        475       $    23,496
Subsidy Cost Allowance                                       (1,350)                 -           (4,281)             10             (6)            (5,627)
Direct Loans and Equity Investments
   Outstanding, Net                                      $    1,793     $            -       $    15,597     $       10    $        469       $    17,869
Obligations for Loans and Investments Not Yet
   Disbursed                                             $          -   $            -       $           -   $      984    $              -   $       984

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                             $    2,930     $       1,658        $    19,706     $   (1,015)   $       (437)      $    22,842
  Subsidy Income for Modifications                                -                 -                  -               -            (55)              (55)
  Interest and Dividend Revenue                                 262                 -                534             271              25            1,092
  Net Proceeds from Sales and Repurchases of Assets in
    Excess of (Less than) Cost                                 (493)          (1,679)             (5,361)          1,173            570           (5,790)
  Write-Offs                                                   (104)                -                   -              -             (7)              (111)
  Net Interest Income (Expense) on Borrowings from
    the Fiscal Service and Financing Account Balance           (105)              (11)              (412)           (59)            (25)             (612)
Balance, End of Period, Before Re-estimates                   2,490              (32)              14,467            370              71            17,366
  Subsidy Re-estimates                                       (1,140)               32            (10,186)         (380)             (65)          (11,739)
Balance, End of Period                                   $     1,350    $            -       $      4,281    $      (10)   $           6      $      5,627

Reconciliation of Subsidy Cost:
   Subsidy Cost for Modifications                        $         -    $            -       $          -    $        -    $        (55)      $        (55)
   Subsidy Re-estimates                                      (1,140)               32            (10,186)         (380)             (65)          (11,739)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                         $   (1,140)    $          32        $   (10,186)    $    (380)    $       (120)      $   (11,794)



                                                                                                                                 Other
As of September 30, 2012 (in millions)                        CPP              AIG                AIFP           PPIP          Programs           2012
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding, Gross    $     8,664    $        6,727       $     37,252    $    9,763    $        667       $     63,073
Subsidy Cost Allowance                                       (2,930)           (1,658)           (19,706)         1,015             437           (22,842)
Direct Loans and Equity Investments
   Outstanding, Net                                      $     5,734    $       5,069        $    17,546     $   10,778    $       1,104      $     40,231
New Loans or Investments Disbursed                       $         -    $           -        $        -      $    1,048    $           -      $      1,048
Obligations for Loans and Investments Not Yet
   Disbursed                                             $          -   $                -   $       -       $    3,058    $       1,300      $      4,358

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                             $     4,857    $      20,717        $    19,440     $   (2,434)   $       (279)      $     42,301
  Subsidy Cost (Income) for Disbursements and
    Modifications                                                973                -                  -            (31)               -               942
  Interest and Dividend Revenue                                  572              191                534          1,426               10             2,733
  Net Proceeds from Sales and Repurchases of Assets in
    Excess of (Less than) Cost                                 (285)          (9,735)                    9          223                   -        (9,788)
  Net Interest Income (Expense) on Borrowings from
    the Fiscal Service and Financing Account Balance           (290)           (349)               (507)           (439)            (41)            (1,626)
Balance, End of Period, Before Re-estimates                    5,827          10,824              19,476         (1,255)           (310)            34,562
  Subsidy Re-estimates                                       (2,897)          (9,166)                230             240           (127)           (11,720)
Balance, End of Period                                   $     2,930    $       1,658        $    19,706     $   (1,015)   $       (437)      $     22,842

Reconciliation of Subsidy Cost:
  Subsidy Cost for Disbursements                         $         -    $           -        $         -     $      (31)   $           -      $        (31)
  Subsidy Cost for Modifications                                 973                -                  -               -               -               973
  Subsidy Re-estimates                                       (2,897)          (9,166)                230            240            (127)          (11,720)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                         $   (1,924)    $     (9,166)        $       230     $      209    $       (127)      $   (10,778)




                                                                        88
                                                                U.S. Department of the Treasury | Fiscal Year 2013
                       Troubled Asset Relief Program Asset Guarantee Program
                                 As of September 30, 2013 and 2012
                                             (in millions)

                                                                                         2013                 2012

      Asset Guarantee Program                                                   $             -      $         967

      Reconciliation of Asset Guarantee Program:
      Balance, Beginning of Period                                              $       (967)        $       (739)
        Subsidy Income for Modification                                                  (94)                     -
        Dividend Revenue                                                                 200                      -
        Net Proceeds from Sale of Assets in Excess of cost                               894                      -
        Net Interest Expense on Borrowings from the Fiscal Service                        (9)                  (21)
      Balance, End of Period, Before Re-estimate                                           24                (760)
        Subsidy Re-estimate                                                              (24)                (207)
      Balance, End of Period                                                    $           -        $       (967)

      Reconciliation of Subsidy Income:
      Subsidy Income for Modification                                           $         (94)       $           -
      Subsidy Re-estimates                                                                (24)               (207)
      Total Subsidy Income                                                      $        (118)       $       (207)

HOUSING PROGRAMS UNDER TARP
Housing programs under TARP are designed to provide stability for both the housing market and homeowners. These
programs assist homeowners who are experiencing financial hardships to remain in their homes until their financial
position improves or they relocate to a more sustainable living situation. As of September 30, 2013 and 2012, the
Department had committed up to $38.5 billion and $45.6 billion, respectively, for these programs. For fiscal year 2013
and 2012, payments made on behalf of the housing programs under TARP totaled $3.9 billion and $3.1 billion,
respectively.




                                                           89
                                                                  U.S. Department of the Treasury | Fiscal Year 2013

8. INVESTMENTS IN GOVERNMENT SPONSORED ENTERPRISES
Congress established Fannie Mae and Freddie Mac as GSEs to support the supply of mortgage loans. A key function of
the GSEs is to package purchased mortgages into securities, which are subsequently sold to investors.

Leading up to the financial crisis, increasingly difficult conditions in the housing market challenged the soundness and
profitability of the GSEs, thereby undermining the entire housing market. This led Congress to pass the Housing and
Economic Recovery Act (HERA) (P.L. 110-289) in July 2008. This act created FHFA, with enhanced regulatory authority
over the GSEs, and provided the Secretary with certain authorities intended to ensure the financial stability of the GSEs,
if necessary. In September 2008, FHFA placed the GSEs under conservatorship, and the Department entered into a
Senior Preferred Stock Purchase Agreement (SPSPA) with each GSE. These actions were taken to preserve the GSEs’
assets, ensure a sound and solvent financial condition, and mitigate systemic risks that contributed to current market
instability. The SPSPAs were amended in August 2012 (the amended SPSPAs) which changed, among other things, the
basis for determining quarterly dividends that are paid by the GSEs to the U.S. government. The dividend change in the
amended SPSPAs became operationally effective commencing with the quarter ending March 31, 2013.

The actions taken by the Department are intended to provide financial stability. The purpose of the Department’s actions
is to maintain the solvency of the GSEs so they can continue to fulfill their vital roles in the home mortgage market while
the Administration and Congress determine what structural changes should be made. The FHFA director may terminate
the conservatorship if safe and solvent conditions can be established. Draws under the SPSPAs result in an increased
investment in the GSEs as further discussed below.

Under the SPSPAs, the Department initially received from each GSE: (i) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share, and (ii) a non-
transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis. The
warrants expire on September 7, 2028. Through December 31, 2012, the senior preferred stock accrued dividends at 10.0
percent per year, payable quarterly. Under the amended SPSPAs, the quarterly dividend payment changed from a 10.0
percent per annum fixed rate dividend to an amount equivalent to the GSE’s positive net worth above a capital reserve
amount. The capital reserve amount was initially set at $3.0 billion for calendar year 2013, and declines by $600 million
at the beginning of each calendar year thereafter until it reaches zero by calendar year 2018. The GSEs will not pay a
quarterly dividend if their positive net worth is below the required capital reserve threshold. Cash dividends of $95.7
billion and $18.4 billion were declared and received during fiscal years ended September 30, 2013 and 2012, respectively.
The significant increase in dividends received in fiscal year 2013 compared to 2012 was attributable to a federal income
tax benefit that was recognized in the 2013 earnings of one of the GSEs resulting in improved net worth and, thus,
increased dividends remitted to the Department.

The SPSPAs, which have no expiration date, provide for the Department to disburse funds to the GSEs if, at the end of
any quarter, the FHFA determines that the liabilities of either GSE exceed its assets. Draws from the Department under
the SPSPAs are designed to ensure that the GSEs maintain positive net worth. The maximum amount available to each
GSE under this agreement was previously based on a formulaic cap that increased by the amount of actual draws made
for a three-year period which ended December 31, 2012, at which time, the maximum amount was automatically adjusted
downward by each GSE’s positive net worth as of December 31, 2012 and became fixed effective December 31, 2012 (refer
to the “Contingent Liability to GSEs” section below). Draws against the funding commitment of the SPSPAs do not result
in the issuance of additional shares of senior preferred stock; instead, the liquidation preference of the initial 1,000,000
shares is increased by the amount of the draw. There were no payments to the GSEs for the fiscal year ended September
30, 2013. Payments to the GSEs for fiscal year ended September 30, 2012 were $18.5 billion.



                                                             90
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
ACCOUNTING TREATMENT
Entity Transactions ― The estimated contingent liability to the GSEs on the Department’s Consolidated Balance
Sheets is accrued pursuant to the SPSPAs and funded through the Department’s direct appropriations. Therefore, the
liability accrual is reflected at its gross amount as an “entity” cost on the Department’s Consolidated Statements of Net
Cost, within the line item, “Cumulative Results of Operations” on the Department’s Consolidated Balance Sheets, without
considering the increase in senior preferred stock liquidation preference/fair value adjustments, and future dividend
receipts from the GSEs.

Non-Entity Transactions ― As actual payments are made to the GSEs, they result in increases to the U.S.
government’s liquidation preference in the GSEs’ senior preferred stock, and thus represent General Fund exchange
revenue reported on the Department’s Consolidated Statements of Net Cost as “GSEs Non-Entity Cost (Revenue).”
Changes in the fair valuation of the GSE preferred stock and common stock warrants, and related dividends received, are
General Fund-related costs and revenues that are likewise reported as “GSEs Non-Entity Cost (Revenue).”


INVESTMENTS IN GSES
As of September 30, 2013 and 2012, the Department’s investments in the GSEs consisted of the following (in millions):
                                                                        Gross        Cumulative
                                                               Investments             Valuation              9/30/13
GSEs Investments                                              As of 9/30/13          Gain/(Loss)           Fair Value
Fannie Mae Senior Preferred Stock                            $        116,989      $     (40,429)        $      76,560
Freddie Mac Senior Preferred Stock                                     72,160             (16,295)              55,865
Fannie Mae Warrants Common Stock                                        3,104                 1,978              5,082
Freddie Mac Warrants Common Stock                                       2,264                   450               2,714
Total GSEs Investments                                              $      194,517      $     (54,296)       $     140,221




                                                                              Gross         Cumulative
                                                                       Investments           Valuation             9/30/12
GSEs Investments                                                      As of 9/30/12                Loss          Fair Value
Fannie Mae Senior Preferred Stock                                   $       116,989     $      (51,331)      $      65,658
Freddie Mac Senior Preferred Stock                                           72,160           (30,224)               41,936
Fannie Mae Warrants Common Stock                                              3,104             (1,956)               1,148
Freddie Mac Warrants Common Stock                                             2,264             (1,664)                 600
Total GSEs Investments                                              $       194,517     $       (85,175)     $      109,342




SENIOR PREFERRED STOCK AND WARRANTS FOR COMMON STOCK
In determining the fair value of the senior preferred stock and warrants for common stock, the Department relied on the
GSEs’ public filings and press releases concerning their financial statements, as well as non-public, long-term financial
forecasts, monthly summaries, quarterly credit supplements, independent research regarding high-yield bond and
preferred stock trading, independent research regarding the GSEs’ common stock trading, discussions with each of the
GSEs and FHFA, and other information pertinent to the fair valuations. Because of the nature of the instruments, which
are not publicly traded and for which there is no comparable trading information available, the fair valuations rely on
significant unobservable inputs that reflect assumptions about the expectations that market participants would use in
pricing.

The fair value of the senior preferred stock considers the amount of forecasted dividend payments. The fair valuations
assume that a hypothetical buyer would acquire the discounted dividend stream as of the transaction date. The fair value


                                                             91
                                                                   U.S. Department of the Treasury | Fiscal Year 2013
of the senior preferred stock increased at September 30, 2013 when compared to 2012 primarily due to the GSEs’
improved financial performance as discussed below.

The fair value of the warrants is impacted by the nominal exercise price and the large number of potential exercise shares,
the market trading of the common stock that underlies the warrants as of September 30, the principal market, and the
market participants. Other factors impacting the fair value include, among other things, the holding period risk related
directly to the amount of time that it will take to sell the exercised shares without depressing the market. The fair value of
the warrants increased at the end of fiscal year 2013 when compared to 2012 primarily due to increases in the market
price of the underlying common stock of each GSE.


CONTINGENT LIABILITY TO GSES
As part of the annual process undertaken by the Department, a series of long-term financial forecasts are prepared to
assess the probability and magnitude of draws under the SPSPAs as of September 30. The Department used financial
forecasts prepared through year 2038 and 2025 in estimating the contingent liability as of September 30, 2013 and 2012,
respectively. If future payments under the SPSPAs are deemed to be probable within the forecast horizon, the
Department will estimate and accrue a contingent liability to the GSEs to reflect the forecasted equity deficits of the
GSEs. This accrued contingent liability will be undiscounted and will not take into account any of the offsetting dividends
which would be received, as the dividends would be owed directly to the General Fund. Such recorded accruals are
adjusted as new information develops or circumstances change.

Based on the annual assessment of the Department’s estimated future contingent liability, as of September 30, 2013, the
Department estimated and accrued no contingent liability, compared to a $9.0 billion estimated contingent liability
accrued as of September 30, 2012. Accordingly, the Department reduced its estimated liability by $9.0 billion and
$288.7 billion at the end of fiscal years 2013 and 2012, respectively, via a reduction in expense. The reduction in the
estimated liability in both years is primarily due to a decrease in the amount of estimated future draws forecasted to be
required by the GSEs within the forecast time horizon. The $288.7 billion reduction in 2012 resulted in a remaining
contingent liability of $9.0 billion at the end of that fiscal year to reflect the Department’s forecast of draws that may have
been required by the GSEs for the quarter ended December 31, 2012 to meet the 10.0 percent per annum dividend
payment requirement in accordance with the pre-amended SPSPAs. As a result of the amended SPSPAs in which the new
dividend payment requirement became operationally effective commencing with the quarter ended March 31, 2013,
coupled with the long-term financial forecasts of the GSEs, the Department reduced by $9.0 billion the contingent
liability as of September 30, 2013. The Department reported this expense reduction in entity costs within the Economic
Program section of the Department’s Consolidated Statements of Net Cost.

At September 30, 2013, the maximum remaining contractual commitment to the GSEs for the remaining life of the
SPSPAs was $258.1 billion which, as discussed above, was established on December 31, 2012. At September 30, 2012, the
maximum remaining potential commitment to the GSEs for the remaining life of the SPSPAs was estimated at $282.3
billion, which was based upon case scenario estimates ranging from $274.0 billion to $291.5 billion.

In determining the contingent liability estimates, the Department relied on the GSEs’ public filings and press releases
concerning their financial statements, monthly summaries, and quarterly credit supplements, as well as non-public, long-
term financial forecasts, the FHFA House Price Index, discussions with each of the GSEs and FHFA, and other
information pertinent to the liability estimates. The forecasts include three potential wind-down scenarios, with varying
assumptions regarding the timing as to when new guarantee mortgage-backed securities would cease being underwritten
by the GSEs. The forecasts also assume a continued gradual wind-down of the retained portfolios (and corresponding net
interest income) through 2018, as directed under the amended SPSPAs for each GSE to reduce the maximum balance of


                                                              92
                                                                     U.S. Department of the Treasury | Fiscal Year 2013
its retained mortgage portfolio by 15.0 percent per annum beginning December 31, 2013 (a change from the 10.0 percent
per annum prior to the amended SPSPAs). The maximum balance of the GSEs’ retained mortgage portfolio was initially
set at $650 billion as of December 31, 2012, and is required under the amended SPSPAs to be reduced to $250.0 billion
by December 31, 2018.


FINANCIAL PERFORMANCE OF THE GSES
The summarized unaudited aggregated financial condition of the GSEs as of September 30, 2013 and 2012, along with
their summarized unaudited aggregated financial operating results for the nine months ended September 30, 2013 and
2012 were as follows (in millions):
                                                                                                  2013                  2012
Combined Assets
   Investment Securities                                                                $     266,305      $        338,974
   Mortgage Loans                                                                           4,702,674             4,641,231
   Other                                                                                      294,028               262,548
Total Combined Assets                                                                       5,263,007             5,242,753
Combined Liabilities
   Long-Term Debt                                                                           4,959,558             4,963,297
   Other                                                                                      258,396               272,137
Total Combined Liabilities                                                                  5,217,954             5,235,434
Combined Net Equity                                                                     $      45,053      $          7,319

For the Nine Months Ended September 30
Combined Net Interest Income                                                            $      30,238      $           29,097
Combined Benefit (Provision) for Loan Losses                                                    11,213                (3,628)
Combined Net Interest Income After Provision for Loan Losses                            $       41,451     $           25,469

Combined Regulatory Capital - Minimum Capital Deficit as of September 30                $    (195,697)     $      (231,949)
Excludes financial guarantees not consolidated on GSE balance sheets.

The above information was taken directly from the quarterly reports filed with the SEC, which are publicly available on
the SEC’s website (www.SEC.gov) and also the GSE investor relations websites.

The improved financial performance of the GSEs in 2013 compared to 2012 was primarily attributable to a federal
income tax benefit that the GSEs recognized in their 2013 earnings. The GSEs’ improved financial performance in 2013
also reflects increased guarantee fees on single family mortgages and reduced credit losses due to improving regional
housing markets and a higher quality credit portfolio of mortgage loans originated after 2008, coupled with the ongoing
run-off of troubled loans that were originated during 2005 through 2008.

Under the amended SPSPAs, the Department’s forecasts indicate that neither GSE will fully utilize the amount of funding
available. The Department’s forecasts of future draws by the GSEs may differ from actual experience. Future actual draw
amounts will depend on numerous factors that are difficult to predict including, but not limited to, changes in
government policy with respect to the GSEs, the business cycle, inflation, home prices, unemployment rates, interest
rates, changes in housing preferences, home financing alternatives, availability of debt financing, market rates of
guarantee fees, outcomes of loan refinancings and modifications, new housing programs, and other applicable factors.




                                                                93
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
GSES NON-ENTITY COST (REVENUE)
For the fiscal years ended September 30, 2013 and 2012, GSEs Non-Entity Cost (Revenue) consisted of the following (in
millions):

Summary of GSEs Non-Entity Cost (Revenue)                                                          2013              2012
General Fund Revenue from Increase in Liquidation Preference of GSEs
  Preferred Stock                                                                       $             -    $     (18,519)
Fair Value (Gain)/Loss on GSEs Warrants/Preferred Stock                                       (30,879)           42,220
GSEs Preferred Stock Dividends                                                                 (95,727)          (18,379)
Total GSEs Non-Entity Cost (Revenue)                                                    $    (126,606)     $       5,322

REGULATORY ENVIRONMENT
Pursuant to a provision within the Dodd Frank Act, the Secretary conducted a study and developed recommendations
regarding the options for ending the conservatorship. In 2011, the President delivered to Congress a report from the
Secretary that provided recommendations regarding the options for ending the conservatorship and plans to wind down
the GSEs. To date, Congress has not approved a plan to address the future of the GSEs, thus the GSEs continue to
operate under the direction of their conservator, the FHFA, whose stated strategic goals for the GSEs are to: (i) build a
new infrastructure for the secondary mortgage market; (ii) contract the GSEs’ presence in the marketplace; and (iii)
maintain foreclosure prevention activities and credit availability.

In December 2011, Congress passed the Temporary Payroll Tax Cut Continuation Act of 2011 which was funded by an
increase of ten basis points in the GSEs’ guarantee fees (referred to as “the increased fees”) beginning April 1, 2012, and is
effective through October 1, 2021. The increased fees are to be remitted to the Department and not retained by the
GSEs. Accordingly, the increased fees do not affect the profitability of the GSEs. The Department received its first
remittance of the increased fees from the GSEs on September 28, 2012. For fiscal years 2013 and 2012, the GSEs
remitted to the Department the increased fees totaling $946 million and $35 million, respectively.




                                                             94
                                                                          U.S. Department of the Treasury | Fiscal Year 2013

9. INVESTMENTS IN INTERNATIONAL FINANCIAL INSTITUTIONS
As of September 30, 2013 and 2012, Investments in International Financial Institutions (or Multilateral Development
Banks) consisted of the following (in millions):
                                                                                                                    2013                  2012

International Bank for Reconstruction and Development                                                    $      2,216             $       2,103
Inter-American Development Bank (1)                                                                             1,695                     1,587
Asian Development Bank                                                                                            772                       671
European Bank for Reconstruction and Development                                                                  636                       636
International Finance Corporation                                                                                 569                       569
North American Development Bank                                                                                   225                       225
African Development Bank                                                                                          238                       207
Multilateral Investment Guarantee Agency                                                                           45                        45
Total                                                                                                    $      6,396             $       6,043
Refer to Note 27 for a description of the additional commitments related to these institutions.
(1) Includes Inter-American Investment Corporation




10. OTHER INVESTMENTS AND RELATED INTEREST
Other investments and related interest include foreign currency holdings that are typically invested in interest-bearing
securities issued or held through foreign governments or monetary authorities (See Note 5). ESF holds most of the
Department’s foreign currency investments.
As of September 30, 2013 and 2012, Other Investments and Related Interest consisted of the following (in millions):

                                             Cost/     Unamortized                                   9/30/13
                                        Acquisition     (Premium)/                Interest               Net     Unrealized             9/30/13
Type of Investment                           Value         Discount             Receivable        Investment    Gain/(Loss)           Fair Value
Foreign Investments:
  Euro Bonds & Notes                $        4,556     $           143      $           75    $        4,774    $           85        $      4,859
  Japanese Government Bonds                  6,326                   15                  4             6,345                 8               6,353
  Other FCDAs                                2,884                    -                  -             2,884                 -               2,884
Other Investments                               28                  (2)                  -                26               (8)                  18
Total Non-Federal                   $       13,794     $           156      $           79    $       14,029    $           85        $      14,114



                                              Cost/        Unamortized                                9/30/12
                                         Acquisition        (Premium)/             Interest               Net        Unrealized             9/30/12
Type of Investment                            Value            Discount          Receivable        Investment       Gain/(Loss)           Fair Value
Foreign Investments:
  Euro Bonds & Notes                $         4,317    $           109      $           83    $        4,509    $          156        $       4,665
  Japanese Government Bonds                   7,959                  27                  7             7,993                 18               8,011
  Other FCDAs                                 2,739                   -                  -             2,739                  -               2,739
Other Investments                                30                 (2)                  -                28                (7)                  21
Total Non-Federal                   $        15,045    $           134      $           90    $       15,269    $          167        $      15,436




                                                                    95
                                                                  U.S. Department of the Treasury | Fiscal Year 2013

11. OTHER CREDIT PROGRAM RECEIVABLES, NET
The Department administers a number of programs, in addition to the TARP programs, designed to stabilize the nation’s
financial system and restore the flow of credit to consumers, businesses, and homeowners. As of September 30, 2013 and
2012, Other Credit Program Receivables, Net consisted of the following (in millions):
                                                                                                  2013                    2012
State and Local Housing Finance Agency Program (GSE sponsored)                            $      8,420         $        12,556
Small Business Lending Fund Program                                                              3,605                   3,930
International Monetary Fund Programs:
  U.S. Quota in the IMF Program (FCRA portion)                                                    1,896                  1,858
  New Arrangements to Borrow Program (FCRA portion)                                               3,668                   1,511
Other Direct Loans Program                                                                           39                      33
Total                                                                                     $      17,628        $        19,888

STATE AND LOCAL HOUSING FINANCE AGENCY (HFA) INITIATIVE
Under HERA, the Department, together with the FHFA, Fannie Mae, and Freddie Mac, created an initiative in October
2009 to provide support to HFAs. This initiative was designed to support low mortgage rates and expand resources for
low and middle income borrowers to purchase or rent homes, making them more affordable over the long term. The
HFA Initiative is comprised of two separate programs: (i) the New Issue Bond Program (NIBP) and (ii) the Temporary
Credit and Liquidity Program (TCLP). As of September 30, 2013 and 2012, the HFA net credit program receivable of
$8.4 billion and $12.6 billion, respectively, included a positive subsidy allowance of $915 million and $1.1 billion,
respectively, which reflects the Department’s projection that the HFA program will result in a net cost to the Department
after accounting for repayments, interest, and fees.

Under the terms of the NIBP, the Department purchased securities of Fannie Mae and Freddie Mac backed by new
mortgage revenue bonds issued by HFAs. As of September 30, 2013 and 2012, the NIBP gross credit program receivable
was $9.3 billion and $13.7 billion, respectively. The Department performed a financial statement re-estimate of the NIBP
program’s cost as of September 30, 2013 and 2012. These re-estimates resulted in a downward re-estimate, or a decrease
in the cost of the program, of $74 million as of September 30, 2013, and an upward re-estimate, or increase in cost of the
program, of $588 million as of September 30, 2012. The downward re-estimate in fiscal year 2013 was primarily driven
by higher than estimated principal collections. The upward re-estimate in fiscal year 2012 was primarily driven by lower
forecasted prepayment rates and lower than expected market interest rates which reduced coupon rates for the HFA
bonds converted from escrow in fiscal year 2012. The drop in prepayment rates increases the cost of the program since
the HFA bonds carry a lower weighted average coupon than the funding cost of the program.

Under the terms of the TCLP, the Department purchased participation certificates issued by Fannie Mae and Freddie
Mac, representing participating interests in credit and liquidity facilities that the GSEs are providing to certain HFAs as
part of the program. Fannie Mae and Freddie Mac provided replacement credit and liquidity facilities to HFAs to help
reduce the costs of maintaining existing financing and relieve financial strains on the HFAs. The Department agreed to
support the GSE replacement credit and liquidity facilities by purchasing from the GSEs interests in certain HFA bonds
in the event such bonds were tendered to the GSEs. As of September 30, 2013 and 2012, the liquidity facilities covered
$2.0 billion and $3.9 billion, respectively, of single-family and multi-family variable-rate demand obligations (VRDOs).
As of September 30, 2013 and 2012, none of these bonds had been tendered to the GSEs and, accordingly, the
Department had not disbursed any funds. As such, the Department did not perform September 30, 2013 or 2012 subsidy
re-estimates for TCLP.




                                                             96
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
SMALL BUSINESS LENDING FUND
The Small Business Jobs Act of 2010 (P.L. 111-240) created the SBLF program. Pursuant to the Act, the Department
provided capital to qualified community banks, for purposes of encouraging bank lending to small businesses, by
purchasing qualifying non-cumulative preferred stock or equivalents in each bank. As an incentive to participating banks
to increase lending to small businesses, the dividend rate a bank pays to the Department for SBLF funding will be
reduced as the bank’s small business lending increases. For most banks, the initial dividend rate of 5.0 percent may be
reduced to as low as 1.0 percent. For institutions which did not increase lending by the end of the first two years of the
program, the rate will increase to 7.0 percent, effective for the quarter ending March 31, 2014. The program provides an
incentive for banks to repay loans within 4 ½ years. At that time, the rate will increase to 9.0 percent for banks
remaining in the program. The Department treats these purchases of capital as direct loans in accordance with the
requirements of FCRA. The Department’s authority to provide new capital to SBLF participants expired on September
27, 2011 and, accordingly, there were no new capital disbursements since that date.

As of September 30, 2013 and 2012, SBLF net credit program receivable was $3.6 billion and $3.9 billion, respectively.
These amounts include a positive subsidy allowance of $28 million and $50 million at September 30, 2013 and 2012,
respectively, which reflects the Department’s projection that the SBLF program will result in a net cost to the
Department.

The Department performed financial statement re-estimates of the program’s cost as of September 30, 2013 and 2012
which resulted in an upward re-estimate, or an increase in the cost of the program, of $34 million and $105 million. Both
the 2013 and 2012 upward re-estimates were driven by changes in performance assumptions, actual performance to-date,
and actual program funding costs. The 2013 performance assumptions anticipate an overall cost to the program due to
lower dividend rates, both actual and projected, paid by participating institutions relative to previously projected
dividend rates. These lower dividend rates are the result of participating banks increasing small business lending to
qualify for lower dividend rates.


INTERNATIONAL MONETARY FUND
The Supplemental Appropriations Act of 2009 authorized an increase in the U.S. quota in the IMF, as well as an increase
in U.S. participation in the New Arrangements to Borrow (NAB), one of the IMF’s supplemental borrowing arrangements
(Note 12). The legislation applied FCRA to both program increases and, thus, the program increases are treated as direct
loans to the IMF. For U.S. budget and accounting purposes, there are effectively two portions of the IMF quota and NAB
programs. As of September 30, 2013 and 2012, the U.S. quota in the IMF totaled $64.6 billion and $65.0 billion,
respectively, and comprised a FCRA and non-FCRA portion of $7.6 billion and $57.0 billion, respectively, at September
30, 2013, and $7.7 billion and $57.3 billion, respectively, at September 30, 2012. As of September 30, 2013 and 2012, the
U.S. NAB arrangement with the IMF totaled $106.0 billion and $106.5 billion, respectively, and comprised a FCRA and
non-FCRA portion of $95.8 billion and $10.2 billion, respectively, at September 30, 2013, and $96.3 billion and $10.2
billion, respectively, at September 30, 2012. These designations only affect the manner in which the Department
accounts for the use and repayment of these funds. The U.S. commitments to the IMF are denominated in SDRs and,
thus, the dollar amounts of these commitments fluctuate with the SDR valuation rate. The following is a discussion of the
FCRA portions of both the U.S. quota and NAB programs.

United States Quota in the IMF
On March 25, 2011, the Department disbursed $2.0 billion (SDR 1.2 billion) to increase the reserve asset portion of the
U.S. quota. The undisbursed FCRA portion is reported as a letter of credit (Note 12). At September 30, 2013 and 2012,
the FCRA portion of the U.S. quota in the IMF had a net credit program receivable of $1.9 billion, including positive
subsidy allowances of $99 million and $137 million, respectively, which reflect the Department’s projection that the

                                                             97
                                                                     U.S. Department of the Treasury | Fiscal Year 2013
program will result in a net cost to the Department after accounting for repayments and net interest. The Department
performed financial statement re-estimates of the program’s cost as of September 30, 2013 and 2012. The re-estimates
resulted in an increase in program costs (or an upward re-estimate) of $5 million and $67 million for fiscal years 2013
and 2012, respectively, primarily due to a fluctuation in the valuation of the SDR rate since the calculation of the prior
fiscal year’s re-estimate.

New Arrangements To Borrow
FCRA disbursements outstanding under the NAB for fiscal years ended 2013 and 2012 totaled $3.7 billion and $1.5
billion, respectively. The program had a negative subsidy allowance of $15 million and $21 million as of September 30,
2013 and 2012, respectively.

The Department performed a financial statement re-estimate of the program’s cost as of September 30, 2013 and 2012.
The re-estimates as of September 30, 2013 and 2012 resulted in a decrease in the projected cost of the program (or a
downward re-estimate) of $1 million and $25 million, respectively, due to, among other factors, the fluctuation in the
valuation of the SDR rate since the prior year’s re-estimate.


SUMMARY TABLES
The following tables provide the net composition of the Department’s portfolio, subsidy cost, modifications and re-
estimates, a reconciliation of subsidy cost allowances, budget subsidy rates, and the components of the subsidy for each
credit program for the fiscal years ended September 30, 2013 and 2012. The subsidy rates disclosed in the following
tables pertain only to that year’s cohorts. These rates cannot be applied to the direct loans disbursed during the current
reporting year to yield the subsidy expense. The subsidy expense reported in 2013 and 2012 also includes modifications
(in 2012 only) and re-estimates.




                                                                98
                                                                           U.S. Department of the Treasury | Fiscal Year 2013
                                                         2013
                                                                             IMF-            IMF-
(in millions)                              HFA           SBLF                Quota           NAB            Other           TOTAL
Credit Program Receivables, Net:
 Credit Program Receivables, Gross     $   9,335     $     3,633      $        1,995     $    3,653     $       56      $     18,672
 Subsidy Cost Allowance                    (915)            (28)                (99)             15            (17)          (1,044)
Net Credit Program Receivables         $   8,420     $     3,605      $        1,896     $   3,668      $       39      $    17,628
New Credit Program Loans
  Disbursed                            $         -   $            -   $              -   $    2,163     $       14      $      2,177
Obligations for Loans Not Yet
  Disbursed                            $         -   $            -   $              -   $          -   $      333      $       333


Budget Subsidy Rate, Excluding
  Modifications and Re-estimates:
  Interest Differential                          -                -                  -       0.26%          28.25%
  Defaults                                       -                -                  -            -         12.01%
  Other                                          -                -                  -       0.08%                -
Total Budget Subsidy Rate                        -                -                  -       0.34%          40.26%
Subsidy Cost by Component:
 Interest Differential                 $         -   $            -   $              -   $       5      $        4      $         9
 Defaults                                        -                -                  -           -               2                2
 Other                                           -                -                  -           2               -                2
Total Subsidy Cost, Excluding
  Modifications and Re-estimates       $         -   $            -   $              -   $       7      $        6      $        13

Reconciliation of Subsidy Cost
 Allowance:
 Balance, Beginning                    $    1,128    $        50      $          137     $     (21)     $        13     $     1,307
 Subsidy Cost for Disbursements                 -              -                   -              7               6               13
 Fees Received                                 27              -                   -              -               -              27
 Loans Written Off                              -              -                   -              -             (1)              (1)
 Subsidy Allowance Amortized                (166)           (56)                (43)              -             (1)           (266)
Balance, Ending, Before Re-estimates         989                (6)              94            (14)              17           1,080
  Subsidy Re-estimates                       (74)               34                5             (1)               -             (36)
Balance, Ending                        $     915     $          28    $          99      $     (15)     $        17     $     1,044


Re-estimates
  Interest on Re-estimate              $    (10)     $           2    $              -   $        -     $           -   $       (8)
  Technical/Default Re-estimate             (64)                32                   5          (1)                 -          (28)
Total Re-estimates – Increase
(Decrease) in Subsidy Cost             $     (74)    $          34    $              5   $      (1)     $           -   $      (36)


Reconciliation of Subsidy Costs:
 Subsidy Cost for Disbursements        $        -    $           -    $              -   $        7     $        6      $        13
 Subsidy Re-estimates                        (74)               34                   5          (1)              -             (36)
Total Credit Program Receivables
  Subsidy Costs                        $     (74)    $          34    $              5   $       6      $        6      $      (23)
Administrative Expense                 $         9   $          16    $              -   $          -   $           -   $        25




                                                                      99
                                                                                  U.S. Department of the Treasury | Fiscal Year 2013
                                                                             2012
                                                 GSE                                                  IMF-            IMF-
(in millions)                                   MBS(1)             HFA              SBLF              Quota           NAB           Other            TOTAL
Credit Program Receivables, Net:
 Credit Program Receivables, Gross        $              -   $     13,684     $        3,980    $        1,995    $    1,490    $       46    $        21,195
 Subsidy Cost Allowance                                  -         (1,128)               (50)            (137)            21           (13)           (1,307)
Net Credit Program Receivables            $              -   $      12,556    $        3,930    $        1,858    $     1,511   $       33    $       19,888
New Credit Program Loans
 Disbursed                                $              -   $           -    $             -   $             -   $    1,490    $         -   $        1,490


Budget Subsidy Rate, Excluding
  Modifications and Re-estimates:
  Interest Differential                                  -               -                  -                 -       0.26%               -
  Other                                                  -               -                  -                 -       0.08%               -
Total Budget Subsidy Rate                                -               -                  -                 -       0.34%               -
Subsidy Cost by Component:
 Interest Differential                    $              -   $           -    $             -   $             -   $        4    $         -   $            4
 Other                                                   -               -                  -                 -            1              -                1
Total Subsidy Cost, Excluding
  Modifications and Re-estimates          $              -   $           -    $             -   $             -   $        5    $         -   $            5

Reconciliation of Subsidy Cost
 Allowance:
 Balance, Beginning                       $        (1,831)   $         815    $          (80)   $           64    $         -   $        17   $       (1,015)
 Subsidy Cost for Disbursements                          -               -                  -                -              5             -                 5
 Subsidy Cost for Modifications                          -            (73)                  -                -              -             -              (73)
 Fees Received                                           -              38                  -                -              -             -                38
 Subsidy Allowance Amortized                           915          (240)                  25                6            (1)           (1)               704
 Other                                               1,621               -                  -                -              -             -             1,621
Balance, Ending, Before Re-estimates                  705             540                (55)               70              4            16            1,280
  Subsidy Re-estimates                              (705)             588                 105               67           (25)           (3)               27
Balance, Ending                           $              -   $       1,128    $            50   $          137    $      (21)   $        13   $        1,307


Re-estimates
  Interest Rate Re-estimate               $            128   $          -     $             -   $            -    $         -   $         -   $          128
  Interest on Re-estimate                             (82)             61                   4                -              -           (1)             (18)
  Technical/Default Re-estimate                      (751)            527                 101               67           (25)           (2)             (83)
Total Re-estimates – Increase
(Decrease) in Subsidy Cost                $         (705)    $        588     $           105   $           67    $      (25)   $       (3)   $           27


Reconciliation of Subsidy Costs:
 Subsidy Cost for Disbursements           $             -    $           -    $             -   $            -    $         5   $         -   $            5
 Subsidy Cost for Modifications                         -             (73)                  -                -              -             -             (73)
 Subsidy Re-estimates                               (705)             588                 105               67           (25)           (3)               27
Total Credit Program Receivables
  Subsidy Costs                           $         (705)    $         515    $           105   $           67    $     (20)    $       (3)   $          (41)
Administrative Expense                    $             11    $            - $               16 $               - $           - $          - $            27
 (1) The Department completed sales of its MBS portfolio in fiscal year 2012. As of September 30, 2012, the Department performed a financial
     statement re-estimate of the program’s cost that identified excess sales proceeds of $705 million. A closing re-estimate was completed in May
     2013 at which time the $705 million of excess sales proceeds were transferred to the General Fund.




                                                                             100
                                                                             U.S. Department of the Treasury | Fiscal Year 2013

12. RESERVE POSITION IN THE INTERNATIONAL MONETARY
    FUND AND RELATED LOANS AND INTEREST RECEIVABLE
The United States participates in the IMF through a quota subscription and certain borrowing arrangements that
supplement IMF resources. The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided for an increase of
approximately SDR 5.0 billion (approximately $8.0 billion) in the U.S. quota in the IMF, as well as an increase in the
United States’ participation in the NAB up to the dollar equivalent of SDR 75 billion. These increases in the U.S. quota
and NAB arrangement became effective in fiscal year 2011. Unlike all prior U.S. funding for the IMF, P.L. 111-32 subjects
the increases in both the U.S. quota and the NAB to the requirements of FCRA. All U.S. quota and NAB funding prior to
P.L. 111-32, referred to as “non-FCRA funds,” do not result in net budgetary outlays. All such funding provided pursuant
to P.L. 111-32, referred to as “FCRA funds,” is accounted for in accordance with credit reform accounting guidelines (Note
11). A credit program receivable is established for FCRA fund amounts disbursed. Additionally, FCRA fund amounts
disbursed do not result in net budgetary outlays, except for subsidy costs of the programs which constitute the excess of
program disbursements over the net present value of expected future repayments.


RESERVE POSITION IN THE INTERNATIONAL MONETARY FUND
Quota subscriptions are paid partly through the transfer of reserve assets, such as foreign currencies or SDRs, which are
international reserve assets created by the IMF, and partly by making domestic currency available as needed through a
non-interest-bearing letter of credit. This letter of credit, issued by the Department and maintained by the FRBNY,
represents the Department’s available commitment to the IMF which may be drawn upon by the IMF.

Transfers to the IMF under the U.S. quota do not result in net budgetary outlays as they constitute an exchange of
monetary assets in which the United States receives an equal offsetting claim on the IMF in the form of an increase in the
U.S. reserve position in the IMF. Similarly, when the IMF repays dollars to the United States, no net budgetary receipt
results because the U.S. reserve position declines concurrently in an equal amount. The U.S. reserve position is an
interest-bearing asset like other international reserve assets held by the United States, and is available at any time to
meet U.S. funding needs.

The U.S. quota is denominated in SDRs. As of September 30, 2013 and 2012, the U.S. quota in the IMF was SDR 42.1
billion. The equivalent U.S. dollar value of the U.S. quota consisted of the following (in millions):

                                                                 Non-                            Total             Non-                          Total
                                                                FCRA           FCRA              2013             FCRA           FCRA            2012
Letter of Credit(1)                                        $   39,075       $ 5,706        $   44,781       $     35,718     $   5,747     $    41,465
Reserve Position(2)                                             17,915        1,923            19,838             21,573         1,923          23,496
Total U.S. Quota in the IMF                                $ 56,990         $ 7,629        $    64,619      $     57,291     $ 7,670       $    64,961
(1)   Letter of Credit amounts are included as part of the “Fund Balance” as reported on the Consolidated Balance Sheets and “Appropriated Funds”
      as disclosed in Note 2. Amounts also include approximately 0.25 percent of the U.S. quota that is held in cash in an IMF account at the FRBNY.
(2)   The Reserve Position amounts shown in the non-FCRA columns are included in “Reserve Position in the IMF" as reported on the Consolidated
      Balance Sheets, while amounts shown in the FCRA columns are included in “Other Credit Program Receivables, Net” as reported on the
      Consolidated Balance Sheets. The FCRA amount shown represents the initial 2011 disbursement under P.L. 111-32 of SDR 1.2 billion at the current
      exchange rate (Note 11).


Fluctuations in the value of the U.S. dollar with respect to the SDR result in valuation changes in dollar terms for the U.S.
quota. The Department periodically adjusts this balance to maintain the SDR value of the U.S. quota. As of September
30, 2013 and 2012, the U.S. quota reflects a net downward adjustment in value of $342 million and $818 million,
respectively, due to the appreciation of the U.S. dollar against the SDR.




                                                                         101
                                                                 U.S. Department of the Treasury | Fiscal Year 2013
LOANS AND INTEREST RECEIVABLE
In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources in order to
forestall or cope with an impairment of the international monetary system when IMF liquidity is low. The United States
currently participates in two such arrangements – the NAB and the General Arrangements to Borrow (GAB). In
accordance with P.L. 111-32 which provided for an increase in the United States’ participation in the NAB of up to the
dollar equivalent of SDR 75 billion, the United States increased its NAB participation from SDR 6.6 billion to SDR 69.1
billion, which was equivalent to $106.0 billion and $106.5 billion as of September 30, 2013 and 2012, respectively. As of
September 30, 2013 and 2012, under the U.S. NAB arrangement with the IMF, there was $10.0 billion and $10.2 billion
of U.S. non-FCRA loans outstanding, and $3.7 billion and $1.5 billion of U.S. FCRA loans (Note 11) outstanding under the
NAB arrangement, respectively. These amounts are liquid and interest-bearing claims on the IMF, and the non-FCRA
portions are reported as Loans and Interest Receivable on the Consolidated Balance Sheets, while the FCRA portions are
reported as Other Credit Program Receivables, Net on the Consolidated Balance Sheets. As of September 30, 2013, the
IMF had not utilized the GAB.


13. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
As of September 30, 2013 and 2012, Taxes, Interest and Other Receivables, Net consisted of the following (in millions):

                                                                                                    2013               2012
Non-Entity
Federal Taxes Receivable, Gross                                                            $     159,087     $     152,060
Less: Allowance on Taxes Receivable                                                            (124,074)         (113,046)
Interest Receivable on FRB Deposits of Earnings                                                    3,079             2,282
Other Receivables                                                                                    465               148
Less: Allowance on Other Receivables                                                                (30)               (17)
Total Non-Entity (Note 15)                                                                        38,527            41,427

Entity
Miscellaneous Entity Receivables and Related Interest                                                75                   36
Total Taxes, Interest and Other Receivables, Net                                           $     38,602      $        41,463

Federal taxes receivable constitutes the largest portion of these receivables, with IRS-related taxes receivable
representing the majority of the balance. IRS federal taxes receivable consists of tax assessments, penalties, and interest
which were not paid or abated, and which were agreed to by either the taxpayer and IRS, or the courts. Federal taxes
receivable is reduced by an allowance for doubtful accounts which is established to represent an estimate for uncollectible
amounts. The portion of tax receivables estimated to be collectible and the allowance for doubtful accounts are based on
projections of collectability from a statistical sample of taxes receivable (refer to the section entitled Required
Supplemental Information (unaudited) - IRS Federal Taxes Receivable, Net).

In addition to amounts attributed to taxes, these receivables also include accrued interest income due on funds deposited
in FRBs. The Department does not establish an allowance for the receivable on deposits of FRB earnings.




                                                              102
                                                                     U.S. Department of the Treasury | Fiscal Year 2013

14. PROPERTY, PLANT, AND EQUIPMENT, NET
As of September 30, 2013 and 2012, Property, Plant and Equipment, Net consisted of the following (in millions):
                                                                                                                             2013
                                                                                                                             Book
                                           Depreciation         Service                                Accumulated            Net
                                             Method               Life                 Cost            Depreciation          Value
Buildings, structures, and facilities          S/L             3-50 years       $         737      $          (382)      $     355
Furniture, fixtures, and equipment             S/L             2-20 years               2,867               (2,005)            862
Construction in progress                      N/A                 N/A                     133                       -           133
Land and land improvements                    N/A                 N/A                       18                    (1)            17
Internal-use software in use                   S/L             2-15 years               1,837                (1,143)           694
Internal-use software in
  development                                   N/A               N/A                      343                     -           343
Assets under capital lease                      S/L            2-25 years                    9                   (3)             6
Leasehold improvements                          S/L            2-25 years                  403                 (167)           236
Total                                                                           $        6,347     $         (3,701)     $   2,646

                                                                                                                             2012
                                                                                                                             Book
                                            Depreciation          Service                              Accumulated            Net
                                              Method               Life                Cost            Depreciation          Value
Buildings, structures, and facilities           S/L             3-50 years      $         739     $             (381)    $      358
Furniture, fixtures, and equipment              S/L             2-20 years              3,012                 (2,164)           848
Construction in progress                       N/A                 N/A                    172                        -          172
Land and land improvements                     N/A                 N/A                      17                     (1)            16
Internal-use software in use                    S/L             2-15 years              1,662                 (1,002)           660
Internal-use software in
  development                                    N/A               N/A                     162                      -           162
Assets under capital lease                       S/L            2-25 years                   9                    (2)             7
Leasehold improvements                           S/L            2-25 years                 411                  (199)           212
Total                                                                           $        6,184    $           (3,749)    $    2,435
The service life ranges vary significantly due to the diverse nature of PP&E held by the Department.

HERITAGE ASSETS
The Department has a total of fifteen heritage assets, of which five are considered multi-use, for fiscal years 2013 and
2012. The Treasury Complex (Main Treasury Building and Annex), declared a national historical landmark in 1972, is
treated as a multi-use heritage asset and is expected to be preserved indefinitely. The buildings that house the Mint in
Denver, San Francisco, Fort Knox, and West Point are also considered multi-use heritage assets and included on the
National Register of Historic Places. Additionally, the Mint maintains heritage assets consisting of four coin collections
and six historical artifacts. The condition of the heritage assets is disclosed within the Required Supplemental
Information (Unaudited) section of this report.




                                                                 103
                                                                         U.S. Department of the Treasury | Fiscal Year 2013

   15. NON-ENTITY VS. ENTITY ASSETS
   Non-entity assets are those that are held and managed by the Department on behalf of the U.S. government (General
   Fund) but are not available for use by the Department. As of September 30, 2013 and 2012, the Department’s total
   assets, segregated between non-entity and entity, are shown below (in millions):

                                                                                                                   2013
                                                                                         Non-Entity               Entity                 Total
Intra-governmental Assets:
Fund Balance (a)                                                                     $          1,254      $   366,566       $      367,820
Loans and Interest Receivable (Note 3)                                                     1,020,773            72,786            1,093,559
Advances to the Unemployment Trust Fund (Note 4)                                              29,696                 -               29,696
Due From the General Fund (Note 4)                                                        17,123,357                 -           17,123,357
Other Intra-governmental Assets                                                                   364               71                   435
Total Intra-governmental Assets                                                          18,175,444            439,423          18,614,867
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(b)                                 83,208            65,298              148,506
Gold and Silver Reserves (Note 6)(c)                                                           11,062                -                11,062
Investments in GSEs (Note 8)                                                                 140,221                 -              140,221
Taxes, Interest and Other Receivables, Net (Note 13)                                          38,527                75               38,602
Other Assets (d)                                                                                   90           87,276               87,366
Total Assets                                                                         $   18,448,552        $   592,072       $ 19,040,624
   (a) $434 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
   (b) $82.9 billion of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
   (c) $25 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
   (d) Other Assets (Entity) include TARP and non-TARP credit program receivables, net, totaling $17.9 billion and $17.6 billion,

   respectively, a reserve position in the IMF of $17.9 billion, and other various assets on the Consolidated Balance Sheets not separately
   presented in this table.
                                                                                                                  2012
                                                                                         Non-Entity             Entity                Total
Intra-governmental Assets:
Fund Balance (e)                                                                     $         1,879      $    342,467      $           344,346
Loans and Interest Receivable (Note 3)                                                       845,976            68,328                  914,304
Advances to the Unemployment Trust Fund (Note 4)                                              32,932                 -                    32,932
Due From the General Fund (Note 4)                                                        16,202,179                 -               16,202,179
Other Intra-governmental Assets                                                                  456             1,039                     1,495
Total Intra-governmental Assets                                                           17,083,422           411,834               17,495,256
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(f)                                 79,575            65,976                   145,551
Gold and Silver Reserves (Note 6)(g)                                                          11,062                 -                    11,062
Investments in GSEs (Note 8)                                                                 109,342                 -                  109,342
Taxes, Interest and Other Receivables, Net (Note 13)                                          41,427                36                    41,463
Non-TARP Investments in American International Group, Inc. (Note 7)                            2,611                 -                     2,611
Other Assets (h)                                                                                  95           116,482                   116,577
Total Assets                                                                         $    17,327,534      $    594,328      $        17,921,862
    (e) $406 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
    (f) $79.2 billion of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
    (g) $25 million of the non-entity balance represents assets held on behalf of the General Fund (Note 4).
    (h) Other Assets (Entity) include TARP and non-TARP credit program receivables, net, totaling $40.2 billion and $19.9 billion,

    respectively, a reserve position in the IMF of $21.6 billion, and other various assets on the Consolidated Balance Sheets not
    separately presented in this table.




                                                                     104
                                                                U.S. Department of the Treasury | Fiscal Year 2013

16. FEDERAL DEBT AND INTEREST PAYABLE AND RELATED
LIABILITIES
The Department is responsible for administering the federal debt on behalf of the U.S. government. The federal debt
includes borrowings from the public as well as borrowings from federal agencies. The federal debt does not include debt
issued by other governmental agencies, such as the Tennessee Valley Authority or the HUD.

The Federal Debt and Interest Payable as of September 30, 2013 and 2012 was as follows (in millions):

Intra-governmental                                                                      2013                      2012
Beginning Balance                                                          $       4,759,532       $         4,625,038
New Borrowings/(Repayments)                                                         (34,396)                   134,494
Subtotal at Par Value                                                              4,725,136                 4,759,532
Premium/(Discount)                                                                    69,210                    55,964
Debt Principal Not Covered by Budgetary Resources (Note 19)                        4,794,346                 4,815,496
Interest Payable Covered by Budgetary Resources                                       43,090                    45,509
Total                                                                      $       4,837,436       $         4,861,005

Held by the Public                                                                       2013                      2012
Beginning Balance                                                          $       11,269,586      $        10,127,031
New Borrowings                                                                        706,693                 1,142,555
Subtotal at Par Value                                                              11,976,279               11,269,586
Premium/(Discount)                                                                   (24,444)                  (19,225)
Debt Principal Not Covered by Budgetary Resources (Note 19)                        11,951,835               11,250,361
Interest Payable Covered by Budgetary Resources                                         51,195                   57,222
Total                                                                      $      12,003,030       $        11,307,583

Debt held by the public primarily represents the amount the U.S. government has borrowed to finance cumulative cash
deficits. In contrast, intra-governmental debt holdings, primarily trust funds, represent balances of Treasury securities
held by individual federal agencies with either the authority or the requirement to invest excess receipts in U.S. Treasury
securities in which the principal and interest are guaranteed by the full faith and credit of the U.S. government.




                                                            105
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
FEDERAL DEBT HELD BY OTHER FEDERAL AGENCIES
Certain federal agencies are allowed to invest excess funds in debt securities issued by the Department on behalf of the
U.S. government. The terms and the conditions of debt securities issued are designed to meet the cash needs of the U.S.
government. The vast majority of debt securities are non-marketable securities issued at par value, but others are issued
at market prices and interest rates that reflect market terms. The average intra-governmental interest rate for debt held
by the federal entities, excluding Treasury Inflation-Protected Securities (TIPS), for fiscal years 2013 and 2012 was 3.6
percent and 3.7 percent, respectively. The average intra-governmental interest rate on TIPS for fiscal years 2013 and
2012 was 1.3 percent and 1.5 percent, respectively. The average interest rate represents the original issue weighted
effective yield on securities outstanding at the end of the fiscal year.

The federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted to buy
and sell on the open market. The debt held by federal agencies at par value (not including premium/discount or interest
payable) as of September 30, 2013 and 2012 was as follows (in millions):
                                                                                       2013                      2012
Social Security Administration                                               $    2,756,390         $       2,719,042
Office of Personnel Management                                                      821,466                   927,302
Department of Defense Agencies                                                      620,815                   562,657
Department of Health and Human Services                                             278,766                  302,932
All Other Federal Agencies - Consolidated                                           247,699                   247,599
Total Federal Debt Held by Other Federal Agencies                            $    4,725,136         $       4,759,532


FEDERAL DEBT HELD BY THE PUBLIC
Federal debt held by the public at par value (not including premium/discount or interest payable) as of September 30,
2013 and 2012 consisted of the following (in millions):

                                                                                        Average
                                                                                        Interest
(at par value)                                                      Term                 Rates                   2013
Marketable:
Treasury Bills                                              1 Year or Less                0.1%          $        1,527,909
Treasury Notes                                           Over 1 Year - 10 Years           1.8%                   7,750,336
Treasury Bonds                                              Over 10 Years                 5.1%                    1,363,114
Treasury Inflation-Protected Security (TIPS)               5 Years or More                1.1%                     936,041
Total Marketable                                                                                                11,577,400
Non-Marketable                                       On Demand to Over 10 Years           2.4%                     398,879
Total Federal Debt Held by the Public                                                                   $       11,976,279


                                                                                         Average
                                                                                         Interest
(at par value)                                                      Term                  Rates                   2012
Marketable:
Treasury Bills                                                 1 Year or Less             0.1%          $         1,613,026
Treasury Notes                                                Over 1 - 10 Years           2.0%                     7,114,961
Treasury Bonds                                                 Over 10 Years              5.4%                     1,194,715
Treasury Inflation-Protected Security (TIPS)                  5 Years or More             1.4%                      807,469
Total Marketable                                                                                                 10,730,171
Non-Marketable                                         On Demand to Over 10 Years          2.1%                     539,415
Total Federal Debt Held by the Public                                                                   $        11,269,586




                                                              106
                                                                  U.S. Department of the Treasury | Fiscal Year 2013
The Department issues marketable bills at a discount or at par, and pays the par amount of the security upon maturity.
The average interest rate on Treasury bills represents the original issue effective yield on securities outstanding at year
end. Treasury bills are issued with a term of one year or less.

The Department issues marketable notes and bonds as long-term securities that pay semi-annual interest based on the
securities’ stated interest rates. These securities are issued at either par value or at an amount that reflects a discount or a
premium. The average interest rate on marketable notes and bonds represents the stated interest rate adjusted by any
discount or premium on securities outstanding at year-end. Treasury notes are issued with a term of over one year to ten
years, and Treasury bonds are issued with a term of more than ten years. The Department also issues TIPS that have
interest and redemption payments tied to the Consumer Price Index (CPI) for all Urban Consumers, a widely used
measurement of inflation. TIPS are issued with a term of five years or more, and the principal for TIPS is adjusted daily
over the life of the security based on the CPI for all Urban Consumers. At maturity, TIPS are redeemed at the inflation-
adjusted principal amount, or the original par value, whichever is greater. TIPS pay a semi-annual fixed rate of interest
applied to the inflation-adjusted principal. The average interest rate on TIPS represents the stated interest rate on
principal plus inflation, adjusted by any discount or premium on securities outstanding as of the end of the fiscal year.
The inflation-adjusted TIPS principal balance of federal debt held by the public included inflation of $88.5 billion and
$77.9 billion as of September 30, 2013 and 2012, respectively.

During fiscal year 2013, the Department issued bills, notes, bonds, and TIPS to meet the borrowing needs of the U.S.
government. Treasury bills outstanding decreased by $85.1 billion; whereas, Treasury notes, bonds, and TIPS
outstanding increased by $635.4 billion, $168.4 billion, and $128.6 billion, respectively, in fiscal year 2013.

September 30, 2012 occurred on a Sunday and, therefore, debt repayments on matured securities occurred on Monday,
October 1, 2012. Accordingly, $53.0 billion of marketable Treasury notes and $36 million of non-marketable securities,
matured but not repaid, are included in the fiscal year 2012 balance of the total debt held by the public.

Federal Debt Held by the Public includes federal debt held outside of the U.S. government by individuals, corporations,
FRBs, state and local governments, foreign governments, and central banks. As of September 30, 2013, the FRBs had
total holdings of $1.9 trillion which: (i) excluded $145 billion in Treasury securities used in overnight reverse repurchase
transactions, and (ii) included a net of $3.1 billion in Treasury securities held by the FRB as collateral for securities
lending activities. As of September 30, 2012, the FRBs had total holdings of $1.6 trillion, which included a net of $1.5
billion in Treasury securities held by the FRBs as collateral for securities lending activities. Treasury securities are held
by the FRB in the FRB System Open Market Account for the purpose of conducting monetary policy.

DEBT ISSUANCE SUSPENSION PERIOD MEASURES
Congress provided the Department with statutory authority to take certain extraordinary measures during a debt
issuance suspension period (DISP) in the event that Treasury debt nears the statutory debt limit. These measures
authorize the Department to depart from its normal debt management practices and exercise legal authorities to avoid
exceeding the statutory debt limit.

The Secretary declared a DISP effective from December 31, 2012 through February 4, 2013. On February 4, 2013,
Congress enacted a law to temporary suspend the debt limit until May 18, 2013. As Congress did not suspend or increase
the debt limit prior to May 18, 2013, the Secretary declared another DISP effective from May 19, 2013 through October
16, 2013, on which date Congress enacted another law to suspend the debt limit through February 7, 2014.

In fiscal year 2013, the Department undertook the following extraordinary measures during the two DISPs: (i) suspended
investments in Treasury debt securities to the Government Securities Investment Fund of the Federal Employees’
Retirement System Thrift Savings Plan (TSP), the Civil Service Retirement and Disability Trust Fund (Civil Service

                                                              107
                                                                U.S. Department of the Treasury | Fiscal Year 2013
Fund), and the Postal Service Retiree Health Benefits Fund (Postal Benefits Fund); (ii) redeemed early a certain amount
of Treasury debt securities held by the Civil Service Fund; (iii) suspended new issuances of State and Local Government
Series securities; and (iv) issued cash management bills to manage short-term financing needs.

When a DISP ends, the Department is required by statute to restore the TSP, Civil Service Fund and Postal Benefits Fund
with the accumulated principal balance of Treasury debt securities that bears such interest rates and maturity dates
necessary to replicate the investments the funds would have held had the DISP not occurred (the uninvested principal).
The Department is also required by statute to pay these funds the related lost interest (forgone interest) on the
uninvested principal. Following the DISP period that ended on February 4, 2013, the Department restored the funds
with the uninvested principal and interest totaling $31 billion and $20 million, respectively. Forgone interest paid to the
funds in connection with DISPs that occurred in fiscal years 2013 and 2012 totaling $20 million and $59 million,
respectively, was reported on the Department’s Consolidated Statements of Net Cost as a non-entity expense entitled
“Restoration of Foregone Federal Debt Interest,” with an offsetting amount reported as “Accrued Interest and Discount
on Debt” on the Consolidated Statements of Changes in Net Position.

Since the second DISP (which commenced on May 19, 2013) did not end until October 16, 2013, none of the uninvested
principal and foregone interest payable to the funds as a result of the extraordinary measures had been restored to the
three funds as of September 30, 2013. Uninvested principal owed to the three funds as of September 30, 2013 totaled
$247.8 billion, and forgone interest payable to the funds for the period May 19, 2013 through September 30, 2013 totaled
$801 million. Accordingly, the Department recorded a liability for the uninvested principal and foregone interest payable
to the funds as of September 30, 2013. This liability, coupled with an additional liability for the uninvested principal and
foregone interest that was incurred during the DISP period October 1, 2013 through October 16, 2013, as discussed
below, was payable to the three funds subsequent to the October 16, 2013 ending of the DISP.

The uninvested principal and foregone interest payable as of September 30, 2013 was reported on the Department’s
Consolidated Balance Sheets as a liability entitled “Liability for Restoration of Federal Debt Principal and Interest,” of
which $128.3 billion represented an intra-governmental liability of combined principal and interest payable to the Civil
Service Fund and Postal Benefits Fund which are administered by the OPM, and the remaining $120.3 billion
represented the principal and interest payable to the TSP, a public liability. Corresponding amounts were reported in the
“Due From the General Fund” on the Consolidated Balance Sheets for the $248.6 billion of uninvested principal and
foregone interest owed to the funds (Note 4). Additionally, the accrued forgone interest expense of $801 million was
reported as a non-entity expense entitled “Accrued Restoration of Foregone Federal Debt Interest” on the Consolidated
Statements of Net Cost, with an offsetting amount reported as “Accrued Interest on Restoration of Federal Debt
Principal” on the Consolidated Statements of Changes in Net Position.

DISP measures such as those discussed above continued from October 1 through October 16, 2013. when the DISP ended
and Congress enacted a law to suspend temporarily the debt limit. In addition to those activities previously discussed,
other types of extraordinary measures were taken during the DISP periods, including temporarily suspending
investments in Treasury debt securities by the ESF, and utilization of FFB to redeem outstanding Treasury debt securities
held by the Civil Service Fund (refer to Note 17). On October 17, 2013, the Department discontinued its use of
extraordinary actions and resumed normal debt management operations. On this date, the Department restored
uninvested principal of $173.9 billion to the TSP, and $117.7 billion and $4.6 billion to the Civil Service Fund and Postal
Benefits Fund, respectively. The Department restored forgone interest to the TSP on October 18, 2013 in the amount of
$653 million. Forgone interest payable to the Civil Service Fund and Postal Benefits Fund will be restored on the next
semi-annual interest payment date of December 31, 2013. As of October 17, 2013, these amounts totaled $562 million
and $24 million, respectively. In addition, the Department authorized ESF to resume investments in Treasury debt


                                                             108
                                                               U.S. Department of the Treasury | Fiscal Year 2013
securities; however, the Department did not restore the ESF for lost interest incurred during the DISP in accordance with
statute.


17. OTHER DEBT AND INTEREST PAYABLE
The Department, through FFB, has outstanding borrowings and related accrued interest owed to the Civil Service Fund.
At September 30, 2013 and 2012, FFB had outstanding borrowings of $5.8 billion and $7.2 billion, inclusive of $66
million and $83 million of accrued interest payable, respectively. During fiscal years 2013 and 2012, the Department
paid $1.4 billion and $1.3 billion in principal, respectively. The outstanding borrowings at September 30, 2013 and 2012
had a stated interest rate of 4.63 percent and an effective interest rate of 4.63 percent. Maturity dates ranged from June
30, 2014 to June 30, 2019 for outstanding borrowings at September 30, 2013, and from June 30, 2013 to June 30, 2019
for outstanding borrowings at September 30, 2012.

On October 1, 2013, the Department, through FFB, exchanged $9.3 billion of non-Treasury debt securities held that do
not count against the debt limit for an equivalent amount of Treasury debt securities previously held by the Civil Service
Fund and that do count against the debt limit. FFB used the Treasury debt securities it had received from the Civil
Service Fund to repay $8.8 billion of outstanding principal borrowings, including interest, owed to the Fiscal Service.
The Fiscal Service then extinguished the Treasury debt securities it had received from FFB, thereby helping the
Department to remain below the statutory debt limit. The Department, FFB, and the Civil Service Fund took this
extraordinary measure to help prevent Treasury debt from exceeding the statutory debt limit. These transactions
resulted in an additional $9.3 billion outstanding debt obligation owed by FFB to the Civil Service Fund as of October 1,
2013 to be reported as an intra-governmental liability on the Department’s Consolidated Balance Sheets entitled “Other
Debt and Interest Payable.”




                                                            109
                                                                U.S. Department of the Treasury | Fiscal Year 2013

18. D.C. PENSIONS AND JUDICIAL RETIREMENT ACTUARIAL
LIABILITY
Title XI of the Balanced Budget Act of 1997, as amended was intended to relieve the D.C. government of the burden of
unfunded pension liabilities transferred to the District by the U.S. government in 1979. To fulfill its responsibility, the
Department manages two funds ― the D.C. Teachers’, Police Officers’, and Firefighters’ Federal Pension Fund (the D.C.
Federal Pension Fund) and the District of Columbia Judicial Retirement and Survivors’ Annuity Fund (the Judicial
Retirement Fund). The Department is required to make annual amortized payments from the General Fund to the D.C.
Federal Pension Fund and the Judicial Retirement Fund. The D.C. Federal Pension Fund benefit payments are related to
creditable service performed on or before June 30, 1997, while the Judicial Retirement Fund benefit payments are related
to all creditable service.

A reconciliation of the combined actuarial pension liability for the D.C. Federal Pension Fund and the Judicial
Retirement Fund as of September 30, 2013 and 2012 is as follows (in millions):
                                                                                                   2013               2012
Beginning Liability Balance                                                                 $    10,059         $     9,671
Pension Expense:
Normal cost                                                                                            5                  4
Interest on Pension Liability During the Year                                                        199                215

Actuarial (Gains) Losses During the Year:
From Experience                                                                                     128                  23
From Discount Rate Assumption Change                                                              (523)                 532
From Other Assumption Changes                                                                     (156)                 158
Total Pension Expense                                                                             (347)                 932
Less Amounts Paid                                                                                 (548)               (544)
Ending Liability Balance                                                                    $     9,164         $    10,059




                                                             110
                                                        U.S. Department of the Treasury | Fiscal Year 2013
Additional Information ($ in millions):

                                                           D.C. Federal            Judicial            2013
                                                          Pension Fund     Retirement Fund            Total
Pension and Other Actuarial Liability               $             8,972    $            192     $     9,164
Funded Liability                                                (3,652)               (138)         (3,790)
Unfunded Liability                                  $             5,320    $             54     $     5,374

Amount Received from the General Fund               $               496    $               9    $      505

Annual Rate of Investment Return Assumption               1.86% - 4.41%        1.86% - 4.41%

Future Annual Rate of Inflation and Cost-of-
 Living Adjustment:
  Police Officers                                                2.43%                  N/A
  Firefighters                                                   2.43%                  N/A
  Teachers                                                       2.53%                  N/A
  Judicial                                                         N/A                2.56%



Future Annual Rate of Salary Increases:
  Police Officers                                                3.40%                  N/A
  Firefighters                                                   3.08%                  N/A
  Teachers                                                       3.90%                  N/A
  Judicial                                                         N/A                2.34%



                                                            D.C. Federal             Judicial         2012
                                                           Pension Fund      Retirement Fund         Total
Pensions and Other Actuarial Liability              $             9,863    $             196    $   10,059
Receipts and Appropriations Temporarily Precluded
  from Obligations                                               (3,571)                (134)       (3,705)
Unfunded Liability                                  $             6,292    $               62   $     6,354

Amount Received from the General Fund               $               482    $              10    $      492

Annual Rate of Investment Return Assumption                2.02% - 4.70%       2.02% - 4.70%

Future Annual Rate of Inflation and Cost-of-
Living Adjustment
  Police Officers                                                 2.55%                  N/A
  Firefighters                                                    2.55%                  N/A
  Teachers                                                        2.55%                  N/A
  Judicial                                                          N/A                2.53%

Future Annual Rate of Salary Increases:
  Police Officers                                                 4.25%                  N/A
  Firefighters                                                    4.25%                  N/A
  Teachers                                                        4.25%                  N/A
  Judicial                                                          N/A                1.50%




                                                    111
                                                                  U.S. Department of the Treasury | Fiscal Year 2013

19. LIABILITIES
LIABILITIES NOT COVERED BY BUDGETARY AND OTHER RESOURCES
As of September 30, 2013 and 2012, liabilities not covered by budgetary and other resources consisted of the following (in
millions):
                                                                                                       2013                      2012
Intra-governmental Liabilities Not Covered by Budgetary
  and Other Resources
Federal Debt Principal, Premium/Discount (Note 16)                                       $        4,794,346        $        4,815,496
Liability for Restoration of Federal Debt Principal and Interest (Note 16)                          128,272                         -
Other Intra-governmental Liabilities                                                                    123                       124
Total Intra-governmental Liabilities Not Covered by Budgetary                                     4,922,741                 4,815,620
  and Other Resources
Federal Debt Principal, Premium/Discount (Note 16)                                                11,951,835                11,250,361
Liability for Restoration of Federal Debt Principal and Interest (Note 16)                           120,356                         -
Gold and Silver Reserves (Note 6)                                                                     11,062                    11,062
D.C. Pensions and Judicial Retirement - Unfunded Liability (Note 18)                                   5,374                     6,354
Liability to GSEs (Note 8)                                                                                 -                     9,003
Other Liabilities                                                                                      2,624                     2,866
Total Liabilities Not Covered by Budgetary and Other Resources                                   17,013,992                16,095,266
Total Liabilities Covered by Budgetary and Other Resources                                         1,585,489                 1,437,200
Total Liabilities                                                                        $       18,599,481        $       17,532,466

OTHER LIABILITIES
Total “Other Liabilities” displayed on the Consolidated Balance Sheets consists of both liabilities that are covered and not
covered by budgetary resources. Other liabilities at September 30, 2013 and 2012 consisted of the following (in millions):

                                                                    Non-         2013                            Non-           2012
                                                   Current        Current        Total           Current       Current          Total
Intra-governmental
Accounts Payable                               $      204     $          -   $     204       $      203    $           -    $     203
Unfunded Federal Workers Compensation
  Program Liability (FECA)                             48              56          104               47            58             105
Other Accrued Liabilities                             169               -          169              233             -             233
Total Intra-governmental                       $      421     $        56    $     477       $      483    $       58       $     541

With the Public
Liability for Deposit Funds (Held by the
  U.S. government for Others)
  and Suspense Accounts                        $      245     $          -   $     245       $      275    $           -    $     275
Actuarial Federal Workers Compensation
  Program Liability (FECA)                              -             618          618                -           576             576
Accrued Funded Payroll and Benefits                   269               -          269              558             -             558
Accounts Payable and Other Accrued
  Liabilities                                        3,047             55        3,102            3,905            60           3,965
Total with the Public                          $     3,561    $       673    $   4,234       $    4,738    $      636       $   5,374




                                                             112
                                                               U.S. Department of the Treasury | Fiscal Year 2013

20. NET POSITION
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated or
unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for obligation
until expended. Annual appropriations remain available for upward or downward adjustment of obligations until
expired.

Cumulative Results of Operations represents the net results of operations since inception, and includes cumulative
amounts related to investments in capitalized assets and donations and transfers of assets in and out without
reimbursement. Also included as a reduction in Cumulative Results of Operations are accruals for which the related
expenses require funding from future appropriations and assessments. These future funding requirements include,
among others: (a) accumulated annual leave earned but not taken, (b) accrued FECA, (c) credit reform cost re-estimates,
(d) unfunded D.C. pensions, and (d) expenses for contingent liabilities including Liability to GSEs.


APPROPRIATIONS RECEIVED
The amount reported as “appropriations received” is appropriated by Congress from the General Fund receipts, such as
income taxes, that are not dedicated by law for a specific purpose. This amount will not necessarily agree with the
“appropriations (discretionary and mandatory)” amount reported on the Combined Statements of Budgetary Resources
because of differences between proprietary and budgetary accounting concepts and reporting requirements. For
example, certain dedicated receipts are recorded as “appropriations (discretionary and mandatory)” on the Combined
Statements of Budgetary Resources, but are recognized as exchange or non-exchange revenue (i.e., typically in special
and non-revolving trust funds) and reported on the Statement of Changes in Net Position in accordance with SFFAS No.
7, Accounting for Revenue and Other Financing Sources.


TRANSFERS TO THE GENERAL FUND AND OTHER
The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statement of Changes in Net
Position under “Other Financing Sources” includes the following as of September 30, 2013 and 2012 (in millions):
                                                                                             2013            2012
Categories of Transfers to the General Fund and Other
Interest Revenue                                                             $             38,436      $   38,874
Increase/(Decrease) in Liquidation Preference of GSEs Preferred Stock,
  GSEs Preferred Stock Dividends and Valuation Changes (Note 8)                           126,606          (5,322)
Downward Re-estimates of Credit Reform Subsidies (Notes 7 and 11)                           11,718          11,648
Other                                                                                        1,216            1,141
TOTAL                                                                        $             177,976     $    46,341

Included in “Transfers to the General Fund and Other” are the GSE Senior Preferred Stock investments and related
dividends, as well as the annual valuation adjustment to those investments. These transfers also include distribution of
interest revenue to the General Fund. The interest revenue is accrued on inter-agency loans held by the Department on
behalf of the U.S. government. A corresponding amount is reported on the Consolidated Statements of Net Cost under
“Non-Entity Costs: Less Interest Revenue from Loans.” The amount reported on the Consolidated Statements of Net
Cost is reduced by eliminations with Treasury bureaus. The credit reform downward re-estimate subsidies that are
transferred to the General Fund result from a change in forecasts of future cash flows.

The “Other” line mainly represents collections from other federal agencies as reimbursement of costs incurred by the
Department for its administration of trust funds established within the Social Security Act. The Department is directed
by statute to execute these administrative services. Seigniorage and numismatic profits also are included in the “Other”
line. Seigniorage is the face value of newly minted circulating coins less the cost of production. Numismatic profit is any


                                                            113
                                                                 U.S. Department of the Treasury | Fiscal Year 2013
profit on the sale of proof coins, uncirculated coins, commemorative coins, and related products and accessories. The
United States Mint is required to distribute seigniorage and numismatic profits in excess of operating expenses to the
General Fund. In any given year, the amount recognized as seigniorage may differ from the amount distributed to the
General Fund by an insignificant amount due to timing differences.


21. CONSOLIDATED STATEMENTS OF NET COST AND NET COSTS
OF TREASURY SUB-ORGANIZATIONS
The Department’s Consolidated Statements of Net Cost display information on a consolidated basis. The Department
consists of DO and seven operating bureaus that the Department provides supporting schedules for Net Cost in the notes
to the financial statements (Note 1). These supporting schedules provide consolidating information, which fully displays
the costs, revenues, and net cost of DO and each operating bureau.

The classification of sub-organizations has been determined in accordance with SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government which states that the predominant factor is the
reporting entity’s organization structure and existing responsibility components, such as bureaus, administrations,
offices, and divisions within a department.

Each sub-organization is responsible for accumulating costs. The assignment of the costs to Department-wide programs
is the result of using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3) cost allocation.


INTRA-DEPARTMENTAL COSTS/REVENUES
Intra-departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis among
Departmental sub-organizations are reported as costs by providing sub-organizations and as revenues by receiving sub-
organizations. The Department recognized intra-departmental imputed costs on the Consolidated Statements of Net
Cost of $621 million and $518 million during fiscal years 2013 and 2012, respectively. Accordingly, such costs or
revenues are eliminated in the consolidation process.


INTRA-GOVERNMENTAL COSTS
Intra-governmental costs relate to the source of goods and services purchased by the Department and not to the
classification of the related intra-governmental revenue.

In certain cases, other federal agencies incur costs that are directly identifiable to the Department’s operations. In
accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, the Department recognizes identified costs paid on behalf of the Department by other agencies.
The imputed inter-departmental financing sources currently recognized by the Department include the actual cost of
future benefits for the federal pension plans that are paid by other federal entities, the FEHB, and any un-reimbursed
contract dispute payments made from the Treasury Judgment Fund on behalf of the Department. The funding for these
costs is reflected as costs on the Consolidated Statements of Net Cost, and as imputed financing sources on the
Statements of Changes in Net Position. Costs paid by other agencies on behalf of the Department were $776 million and
$812 million for the fiscal years ended September 30, 2013 and 2012, respectively.




                                                              114
                                                               U.S. Department of the Treasury | Fiscal Year 2013
CONSOLIDATED STATEMENTS OF NET COST PRESENTATION
OMB Circular No. A-136, Financial Reporting Requirements, as revised, requires that the presentation of the
Consolidated Statements of Net Cost align directly with the goals and outcomes identified in the Strategic Plan.
Accordingly, the Department has presented the gross costs and earned revenues by the applicable strategic goals in its
fiscal years 2012 – 2015 Strategic Plan. The majority of Treasury bureaus’ and reporting entities’ net cost information
falls within a single strategic goal in the Consolidated Statements of Net Cost. TTB, IRS, and DO allocate costs and
related revenues to multiple programs using a net cost percentage calculation.

The Department’s Consolidated Statements of Net Cost also present interest expense on the Federal Debt and other
federal costs incurred on behalf of the U.S. government. These costs are not reflected as program costs related to the
Department’s strategic plan missions. Such costs are eliminated in the consolidation process to the extent that they
involve transactions with Treasury sub-organizations.

Non-entity other federal costs shown on the Consolidated Statements of Net Cost for the years ended September 30, 2013
and 2012 consisted of the following (in millions):
                                                                                                      2013           2012
Credit Reform Interest on Uninvested Fund (Intra-governmental)                                 $     8,210    $     8,745
Judgment Claims and Contract Disputes                                                                 5,125         3,480
Resolution Funding Corporation                                                                       2,503          2,628
Corporation for Public Broadcasting                                                                    422            444
All Other Payments                                                                                      746           993
Total                                                                                          $    17,006    $    16,290




                                                            115
                                                                                     U.S. Department of the Treasury | Fiscal Year 2013

    21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
        OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS)
                                                          For Fiscal Year Ended September 30, 2013


                                                        Bureau of      Bureau of the              Depart-        Fin. Crimes              Internal
                                                      Engraving &             Fiscal               mental       Enforcement               Revenue
Program Costs                                            Printing          Service(a)             Office(b)         Network                Service            U.S. Mint
FINANCIAL PROGRAM
Intra-governmental Gross Costs                    $               -   $            426     $          2,443    $               -    $          4,256    $                 -
Less: Earned Revenue                                              -               (401)             (2,814)                    -                (75)                      -
Intra-governmental Net Costs                                      -                  25                (371)                   -               4,181                      -
Gross Costs with the Public                                       -               1,550                 672                    -               7,908                      -
Less: Earned Revenue                                              -                  (1)               (32)                    -               (402)                      -
Net Costs with the Public                                         -               1,549                 640                    -               7,506                      -
  Net Cost: Financial Program                                     -               1,574                 269                    -              11,687                      -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                                  95                     -              1,505                    -                    -                   76
Less: Earned Revenue                                            (2)                    -              (327)                    -                    -                   (3)
Intra-governmental Net Costs                                    93                     -               1,178                   -                    -                   73
Gross Costs with the Public                                    591                     -            (6,744)                    -                    -                4,009
Less: Earned Revenue                                         (693)                     -            (1,528)                    -                    -               (4,165)
Net Costs with the Public                                    (102)                     -            (8,272)                    -                    -                 (156)
  Net Cost (Revenue): Economic Program                          (9)                    -            (7,094)                    -                    -                 (83)
SECURITY PROGRAM
Intra-governmental Gross Costs                                    -                    -                184                   43                 153                      -
Less: Earned Revenue                                              -                    -               (46)                  (1)                (24)                      -
Intra-governmental Net Costs                                      -                    -                138                  42                  129                      -
Gross Costs with the Public                                       -                    -                162                   71                 484                      -
Less: Earned Revenue                                              -                    -                   -                   -                    -                     -
Net Costs with the Public                                         -                    -                162                   71                 484                      -
  Net Cost: Security Program                                      -                    -                300                  113                 613                      -
Total Net Program Cost (Revenue)
Before Changes in Actuarial
Assumptions                                                     (9)               1,574             (6,525)                  113              12,300                  (83)
(Gain)/Loss on Pension, ORB, or OPEB
  Assumption Changes                                              -                    -              (679)                    -                    -                     -
Total Net Cost of (Revenue From)
  Treasury Operations                             $             (9)   $           1,574    $        (7,204)    $             113    $         12,300    $             (83)

    (a)   Includes the combined financial information of the BPD and FMS operating bureaus which merged effective October 2012 (Note 1A). The salaries
          and other administrative expenses of the legacy BPD and FMS bureaus will continue to be funded separately until Congress enacts legislation to
          fund these costs through a single appropriation.
    (b)   Of the total $7.1 billion of net revenue reported by Departmental Offices for the Economic Program, GSE and OFS contributed $9.2 billion and $7.7
          billion, respectively, of net revenue, partially offset by Do Policy Offices, ESF, and Treasury International Assistance Programs of $5.6 billion, $1.7
          billion, and $2.2 billion, respectively. Other immaterial net costs were spread throughout other DO programs or offices.




                                                                                 116
                                                                 U.S. Department of the Treasury | Fiscal Year 2013

21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                            For Fiscal Year Ended September 30, 2013

                                                                            Alcohol
                                                                                and
                                                                            Tobacco
                                                      Office of the         Tax and
                                                 Comptroller of the           Trade        Combined                            2013
Program Costs                                            Currency            Bureau           Total     Eliminations   Consolidated
FINANCIAL PROGRAM
Intra-governmental Gross Costs                       $              -   $        14    $        7,139   $      3,015   $      4,124
Less: Earned Revenue                                                -           (3)           (3,293)          (603)         (2,690)
Intra-governmental Net Costs                                        -            11            3,846           2,412          1,434
Gross Costs with the Public                                         -            39           10,169               -         10,169
Less: Earned Revenue                                                -           (2)            (437)               -           (437)
Net Costs with the Public                                           -            37            9,732               -          9,732
  Net Cost: Financial Program                                       -            48           13,578           2,412          11,166
ECONOMIC PROGRAM
Intra-governmental Gross Costs                                  142              15            1,833           1,462            371
Less: Earned Revenue                                           (32)              (1)           (365)           (338)            (27)
Intra-governmental Net Costs                                    110              14            1,468           1,124            344
Gross Costs with the Public                                    899               40           (1,205)              -         (1,205)
Less: Earned Revenue                                          (975)              (1)          (7,362)              -         (7,362)
Net Costs with the Public                                      (76)              39           (8,567)              -         (8,567)
  Net Cost (Revenue): Economic Program                          34               53           (7,099)          1,124         (8,223)
SECURITY PROGRAM
Intra-governmental Gross Costs                                      -              -             380              67            313
Less: Earned Revenue                                                -              -             (71)           (64)             (7)
Intra-governmental Net Costs                                        -              -             309               3            306
Gross Costs with the Public                                         -              -             717               -            717
Less: Earned Revenue                                                -              -                -              -               -
Net Costs with the Public                                           -              -             717               -            717
  Net Cost: Security Program                                        -              -           1,026               3          1,023
Total Net Program Cost (Revenue) Before
  Changes in Actuarial Assumptions                              34              101            7,505           3,539          3,966
(Gain)/Loss on Pension, ORB, or OPEB
  Assumption Changes                                            (5)                -           (684)               -          (684)
Total Net Cost of (Revenue From) Treasury
  Operations                                         $          29      $       101    $       6,821    $      3,539   $      3,282




                                                              117
                                                                                U.S. Department of the Treasury | Fiscal Year 2013

    21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
        OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                                       For Fiscal Year Ended September 30, 2012


                                                     Bureau of         Bureau of the          Depart-          Fin. Crimes           Internal
                                                   Engraving &                Fiscal          mental          Enforcement            Revenue
Program Costs                                         Printing              Service           Office(c)           Network             Service           U.S. Mint
FINANCIAL PROGRAM
Intra-governmental Gross Costs                 $               -   $               418    $        2,412      $              -   $        4,225     $               -
Less: Earned Revenue                                           -               (429)             (2,762)                     -             (47)                     -
Intra-governmental Net Costs                                   -                   (11)            (350)                     -            4,178                     -
Gross Costs with the Public                                    -               1,599                 587                     -            8,329                     -
Less: Earned Revenue                                           -                   (2)                (1)                    -            (433)                     -
Net Costs with the Public                                      -                1,597                586                     -            7,896                     -
  Net Cost: Financial Program                                  -               1,586                 236                     -           12,074                     -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                               88                       -            4,216                     -                  -               76
Less: Earned Revenue                                         (2)                      -          (1,220)                     -                  -               (3)
Intra-governmental Net Costs                                 86                       -            2,996                     -                  -               73
Gross Costs with the Public                                 594                       -       (285,280)                      -                  -             3,194
Less: Earned Revenue                                      (726)                       -          (3,707)                     -                  -           (3,303)
Net Costs with the Public                                 (132)                       -       (288,987)                      -                  -             (109)
  Net Cost (Revenue): Economic Program                     (46)                       -        (285,991)                     -                  -              (36)
SECURITY PROGRAM
Intra-governmental Gross Costs                                 -                      -              150                 59                169                      -
Less: Earned Revenue                                           -                      -             (29)                     6              (2)                     -
Intra-governmental Net Costs                                   -                      -              121                 65                 167                     -
Gross Costs with the Public                                    -                      -              154                 60                526                      -
Less: Earned Revenue                                           -                      -                   -                  -                  -                   -
Net Costs with the Public                                      -                      -              154                 60                526                      -
  Net Cost: Security Program                                   -                      -              275                125                693                      -
Total Net Program Cost (Revenue)
Before Changes in Actuarial
Assumptions                                                (46)                1,586          (285,480)                 125              12,767                (36)
(Gain)/Loss on Pension, ORB, or OPEB
  Assumption Changes                                           -                      -             690                      -                  -                   -
Total Net Cost of (Revenue From)
  Treasury Operations                          $           (46)    $           1,586      $   (284,790)       $         125      $       12,767     $          (36)

     (c)   Of the total $286.0 billion of net revenue reported by Departmental Offices for the Economic Program, GSE and OFS contributed $288.4 billion
           and $7.8 billion of net revenue, respectively, partially offset by other DO policy offices net cost.




                                                                             118
                                                                 U.S. Department of the Treasury | Fiscal Year 2013

21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                            For Fiscal Year Ended September 30, 2012

                                                                            Alcohol
                                                                                and
                                                                            Tobacco
                                                      Office of the         Tax and
                                                 Comptroller of the           Trade        Combined                             2012
Program Costs                                            Currency            Bureau           Total     Eliminations    Consolidated
FINANCIAL PROGRAM
Intra-governmental Gross Costs                       $              -   $        14    $       7,069    $      2,742    $       4,327
Less: Earned Revenue                                                -            (1)          (3,239)          (578)          (2,661)
Intra-governmental Net Costs                                        -            13            3,830           2,164            1,666
Gross Costs with the Public                                         -            41            10,556               -          10,556
Less: Earned Revenue                                                -           (3)             (439)               -           (439)
Net Costs with the Public                                           -            38            10,117               -          10,117
  Net Cost: Financial Program                                       -            51            13,947          2,164           11,783
ECONOMIC PROGRAM
Intra-governmental Gross Costs                                  136              14            4,530           4,035             495
Less: Earned Revenue                                           (31)                -          (1,256)         (1,226)            (30)
Intra-governmental Net Costs                                    105              14             3,274          2,809             465
Gross Costs with the Public                                     913              39         (280,540)               -       (280,540)
Less: Earned Revenue                                          (969)                -          (8,705)               -         (8,705)
Net Costs with the Public                                      (56)              39         (289,245)               -       (289,245)
  Net Cost (Revenue): Economic Program                          49               53         (285,971)          2,809        (288,780)
SECURITY PROGRAM
Intra-governmental Gross Costs                                      -              -             378              59             319
Less: Earned Revenue                                                -              -             (25)            (21)             (4)
Intra-governmental Net Costs                                        -              -             353              38             315
Gross Costs with the Public                                         -              -             740                -            740
Less: Earned Revenue                                                -              -                -               -               -
Net Costs with the Public                                           -              -             740                -            740
  Net Cost: Security Program                                        -              -            1,093             38            1,055
Total Net Program Cost (Revenue) Before
  Changes in Actuarial Assumptions                              49              104         (270,931)          5,011        (275,942)
(Gain)/Loss on Pension, ORB, or OPEB
  Assumption Changes                                              5                -             695                -            695
Total Net Cost of (Revenue From) Treasury
  Operations                                         $          54      $       104    $    (270,236)   $      5,011    $   (275,247)




                                                              119
                                                                U.S. Department of the Treasury | Fiscal Year 2013

22. ADDITIONAL INFORMATION RELATED TO THE COMBINED
STATEMENTS OF BUDGETARY RESOURCES
UNDELIVERED ORDERS

Undelivered orders represent goods and services ordered and obligated, which have not been received. This includes any
orders for which advance payment has been made, but for which delivery or performance has not yet occurred.
Undelivered orders at September 30, 2013 and 2012 are shown below (in millions):

                                                                                                     2013               2012
Paid                                                                                        $          42       $        107
Unpaid                                                                                            172,804            190,252
Undelivered orders at the end of the year                                                   $     172,846       $    190,359

CONTRIBUTED CAPITAL
Contributed capital represents the current year authority and prior year balances of amounts actually transferred through
non-expenditure transfers to miscellaneous receipt accounts of the General Fund of the Treasury to repay a portion of a
capital investment. Contributed capital for the fiscal years ended September 30, 2013 and 2012 was $42 million and $78
million, respectively.


APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
Apportionment categories are determined in accordance with the guidance provided in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget. Apportionment Category A represents resources apportioned for
calendar quarters. Apportionment Category B represents resources apportioned for other time periods for activities,
projects or objectives, or for any combination thereof. Obligations incurred for direct and reimbursable obligations by
apportionment category for the fiscal years ended September 30, 2013 and 2012 are shown below (in millions):

                                                                                                     2013               2012
Direct - Category A                                                                        $           173     $      17,958
Direct - Category B                                                                                 51,173            83,093
Direct - Exempt from Apportionment                                                                429,364            369,596
Total Direct                                                                                      480,710            470,647

Reimbursable - Category B                                                                           5,448              4,490
Reimbursable - Exempt from Apportionment                                                            1,273              1,326
Total Reimbursable                                                                                  6,721              5,816
Total Direct and Reimbursable                                                              $      487,431      $     476,463

TERMS OF BORROWING AUTHORITY USED
Several Departmental programs have authority to borrow under the FCRA, as amended. The FCRA provides indefinite
borrowing authority to financing accounts to fund the unsubsidized portion of direct loans and to satisfy obligations in
the event the financing account’s resources are insufficient. Repayment requirements are defined by OMB Circular No.
A-11. Interest expense due is calculated based on the beginning balance of borrowings outstanding and the
borrowings/repayments activity that occurred during the fiscal year. Undisbursed Departmental borrowings earn
interest at the same rate as the financing account pays on its debt owed to the Fiscal Service. In the event that principal
and interest collections exceed the interest expense due, the excess will be repaid to the Department. If principal and
interest do not exceed interest expense due, the Department will borrow the difference. The Department makes periodic
principal repayments based on the analysis of cash balances and future disbursement needs. All interest on borrowings
were due on September 30, 2013. Interest rates on FCRA borrowings range from 0.07 percent to 7.59 percent.

                                                            120
                                                               U.S. Department of the Treasury | Fiscal Year 2013
AVAILABLE BORROWING
The available borrowing authority and related changes in available borrowing authority as of and for the fiscal years
ended September 30, 2013 and 2012 are shown below (in millions):
                                                                                          2013                      2012
Beginning Balance                                                         $           109,930        $           123,844
Current Authority                                                                          576                     11,019
Borrowing Authority Withdrawn                                                          (5,130)                  (10,038)
Borrowing Authority Converted to Cash                                                  (2,043)                  (14,895)
Ending Balance                                                            $           103,333        $           109,930

RECONCILIATION OF THE PRESIDENT’S BUDGET
The Budget of the United States (also known as the President’s Budget), with actual numbers for fiscal year 2013, was not
published at the time that these financial statements were issued. The President’s Budget is expected to be published in
February 2014, and can be located at the OMB website http://www.whitehouse.gov/omb and will be available from the
U.S. government Printing Office. The following chart displays the differences between the Combined Statement of
Budgetary Resources (SBR) in the fiscal year 2012 Agency Financial Report and the actual fiscal year 2012 balances
included in the fiscal year 2014 President’s Budget.




                                                           121
                                                                               U.S. Department of the Treasury | Fiscal Year 2013
                  Reconciliation of Fiscal Year 2012 Combined Statement of Budgetary Resources
                                     to the Fiscal Year 2014 President's Budget
                                                                                        Outlays (net        Distributed
                                                                          Budgetary     of offsetting        Offsetting            Net     Obligations
(in millions)                                                             Resources     collections)           Receipts        Outlays       Incurred


Statement of Budgetary Resources (SBR) Amounts                        $      816,061    $     315,199   $       (73,881)   $    241,318    $   476,463

Included in the Treasury Department Chapter of the
  President’s Budget (PB) but not in the SBR
IRS non-entity tax credit payments (1)                                        91,563           91,562                  -         91,562          91,563
Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                376              376                  -            376             376
Continued dumping subsidy - U.S. Customs and Border Patrol                       125              418                  -            418             418
Other                                                                              3                4               (13)             (9)              5
Subtotal                                                                      92,067          92,360                (13)         92,347          92,362

Included in the SBR but not in the Treasury Department
  chapter of the PB
Treasury resources shown in non-Treasury chapters of the PB (2)              (51,521)         (6,670)                 -         (6,670)         (6,696)
Offsetting collections net of collections shown in PB                         (8,725)               -             (276)           (276)               -
Treasury offsetting receipts shown in other chapters of PB                          -               -               544             544               -
Unobligated balance carried forward, recoveries of prior year funds
  and expired accounts                                                     (247,926)                -                  -              -               -
ESF resources not shown in PB (3)                                           (44,092)                -                  -              -               -
Treasury Financing Accounts (CDFI, GSE, OFS and SBLF)                        (37,112)         137,881                  -        137,881        (18,321)
Enacted reduction, 50% Transfer Accounts, and Capital Transfers to
  General Fund not included in PB                                                (44)               -                  -               -                -
Unobligated balance transfers                                                      14               -                  -               -                -
Other                                                                               -               -                  -               -              (5)
Subtotal                                                                   (389,406)          131,211               268         131,479        (25,022)
Trust Funds (4)                                                               (2,465)          (250)              (436)           (686)          (1,371)
President's Budget Amounts(5)                                         $     516,257     $   538,520     $     (74,062)     $ 464,458       $   542,432
     (1)    These are primarily Earned Income Tax Credit, Child Tax Credit, and Aid to First Time Homebuyers payments that are reported with
            refunds as custodial activities in the Department’s financial statements and thus are not reported as budgetary resources.
     (2)    The largest of these resources relate to the Department’s International Assistance Programs.
     (3)    The ESF is a self-sustaining component. Its primary sources of revenue are derived from interest on the ESF’s SDR holdings, investments
            in U.S. Treasury securities, and investments in foreign currency-denominated assets.
     (4)   The Trust Funds (OCC, CDFI Capital Magnet Fund & Cheyenne River Restoration) negative outlay appear in the offsetting receipts section
            of the Analytical Perspectives.
     (5)   Per the President’s Budget for fiscal year 2014 – Budgetary Resources and Outlays are from the Analytical Perspective. Offsetting
            Receipts and Obligations Incurred are from the Appendix.


     LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
     The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities. Funds are
     presumed to be available for only one fiscal year unless otherwise noted in the annual appropriation language.
     Unobligated balances in unexpired fund symbols are available in the next fiscal year for new obligations unless some
     restrictions had been placed on those funds by law. In those situations, the restricted funding will be temporarily
     unavailable until such time as the reasons for the restriction have been satisfied or legislation has been enacted to remove
     the restriction.

     Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and make
     disbursements that were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
     fiscal year for which the appropriation was made.




                                                                           122
                                                                      U.S. Department of the Treasury | Fiscal Year 2013

23. COLLECTION AND DISPOSITION OF CUSTODIAL REVENUE
The Department collects the majority of federal revenue from income and excise taxes. Collection activity, by revenue
type and tax year, for the fiscal years ended September 30, 2013 and 2012 are shown below (in millions):
                                                                              Tax Year
                                                                                                             Pre-              2013
                                                             2013              2012            2011          2011        Collections
Individual Income and FICA Taxes                     $   1,580,379      $   821,555      $   22,270    $   24,342    $    2,448,546
Corporate Income Taxes                                     217,602           83,575           2,005         8,812           311,994
Estate and Gift Taxes                                           27           10,243             625         8,935            19,830
Excise Taxes                                                60,880           22,912              50           128            83,970
Railroad Retirement Taxes                                    4,192             1,317              1             1              5,511
Unemployment Taxes                                           3,974            3,786              51            85             7,896
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                    1,155              113                -             -            1,268
Tax Related Revenue Received                             1,868,209          943,501          25,002        42,303         2,879,015
Deposit of Earnings , Federal Reserve System                53,958           21,809               -             -            75,767
Fines, Penalties, Interest & Other Revenue - Non-
  Tax Related                                                1,322              296                -             -             1,618
Non-Tax Related Revenue Received                           55,280            22,105                -             -           77,385
Total Revenue Received                               $   1,923,489      $   965,606      $   25,002    $   42,303    $   2,956,400
Less Amounts Collected for Non-Federal Entities                                                                                358
Total                                                                                                                $    2,956,042


                                                                              Tax Year
                                                                                                              Pre-              2012
                                                              2012             2011            2010          2010         Collections
Individual Income and FICA Taxes                     $    1,415,326     $   699,498      $    20,718   $   24,448    $     2,159,990
Corporate Income Taxes                                      197,244          73,126              739       10,353            281,462
Estate and Gift Taxes                                            77           6,753              167        7,453             14,450
Excise Taxes                                                 59,105          20,244               42          163             79,554
Railroad Retirement Taxes                                     3,609            1,163               -            1              4,773
Unemployment Taxes                                            3,886           3,162               28           83               7,159
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                      351                 -               -             -               351
Tax Related Revenue Received                              1,679,598         803,946           21,694       42,501          2,547,739
Deposit of Earnings, Federal Reserve System                  66,102          15,855                -            -             81,957
Fines, Penalties, Interest, & Other Revenue - Non-
  Tax Related                                                  216               56                -             -               272
Non-Tax Related Revenue Received                            66,318            15,911               -             -            82,229
Total Revenue Received                               $    1,745,916     $    819,857     $    21,694   $   42,501    $     2,629,968
Less Amounts Collected for Non-Federal Entities                                                                                  386
Total                                                                                                                $     2,629,582




                                                               123
                                                                      U.S. Department of the Treasury | Fiscal Year 2013
AMOUNTS PROVIDED TO FUND THE U.S. GOVERNMENT
For the years ended September 30, 2013 and 2012, collections of custodial revenue transferred to other federal entities
were as follows (in millions):
                                                                                                            2013                     2012
Department of the Interior                                                                     $             763         $             511
General Fund                                                                                           2,593,079                 2,268,311

Total(1)                                                                                       $       2,593,842         $   2,268,822
 (1)   Transferred amounts include Amounts Provided to Fund the Federal Government and Cash Proceeds from (AIG) Stock Sales Provided to
       Fund the Federal Government, as reported on the Statements of Custodial Activity.

FEDERAL TAX REFUNDS PAID
Refund activity, by revenue type and tax year, was as follows for the years ended September 30, 2013 and 2012 (in
millions):
                                                                                          Tax Year
                                                                                                                    Pre-                2013
                                                              2013               2012               2011            2011             Refunds

Individual Income and FICA Taxes                     $         702      $    287,132      $     21,861       $    10,740         $   320,435
Corporate Income Taxes                                       5,358            12,893             6,717            16,601              41,569
Estate and Gift Taxes                                            -               188               298               561               1,047
Excise Taxes                                                   512               797                91               118               1,518
Railroad Retirement Taxes                                        -                 2                 -                70                  72
Unemployment Taxes                                               1               112                20                14                 147
Fines, Penalties, Interest & Other Revenue                       -                 -                 -                 -                   -
Total                                                $       6,573      $    301,124      $    28,987        $    28,104         $   364,788




                                                                                           Tax Year
                                                                                                                     Pre-               2012
                                                               2012               2011              2010            2010             Refunds

Individual Income and FICA Taxes                    $           514     $     293,434     $        23,719    $     10,008        $   327,675
Corporate Income Taxes                                        5,093            10,567               7,356          20,954             43,970
Estate and Gift Taxes                                             -               180                  80             245                505
Excise Taxes                                                    433               839                  79             136              1,487
Railroad Retirement Taxes                                         -                 4                    -              4                  8
Unemployment Taxes                                                1                78                   11             16                106
Fines, Penalties, Interest & Other Revenue                        1                 -                    -              -                  1
Total                                               $         6,042     $     305,102     $        31,245    $     31,363        $   373,752

FEDERAL TAX REFUNDS PAYABLE
As of September 30, 2013 and September 30, 2012, refunds payable to taxpayers consisted of the following (in millions):
                                                                                                                  2013                 2012
Internal Revenue Service                                                                                 $       2,910       $        3,252
Alcohol and Tobacco Tax and Trade Bureau                                                                             4                    3
Total                                                                                                    $       2,914       $        3,255




                                                                  124
                                                                U.S. Department of the Treasury | Fiscal Year 2013

24. FUNDS FROM DEDICATED COLLECTIONS
The majority of the Department’s FDC activities are attributed to the ESF. In addition, such funds managed by BEP,
Mint, and OCC (the Department’s non-appropriated bureaus) and certain funds managed by the IRS are public
enterprise (or revolving) funds and receive no appropriations from the Congress. Other miscellaneous FDCs are
managed by the Fiscal Service, DO, IRS, OFR, and TFF.

The following is a list of FDCs and a brief description of the purpose, accounting, and uses of these funds.

Bureau                      Fund Code                             Fund Title/Description
Exchange Stabilization Fund (ESF)
ESF                         20X4444                               Exchange Stabilization Fund

Public Enterprise/Revolving Funds
BEP                         20X4502                               Bureau of Engraving and Printing Fund
MNT                         20X4159                               Public Enterprise Fund
OCC                         20X8413                               Assessment Funds
IRS                         20X4413                               Federal Tax Lien Revolving Fund

Other FDC Funds
Fiscal Service                     20X5080                        Gifts to Reduce Public Debt
Fiscal Service                     20X5081                        Presidential Election Campaign
Fiscal Service                     20X8625                        Gulf Coast Restoration Trust Fund
Fiscal Service                     20X8902                        Esther Cattell Schmitt Gift Fund
Fiscal Service                     955585                         Travel Promotion Fund, Corp for Travel Promotion
Fiscal Service                     95X5585                        Travel Promotion Fund, Corp for Travel Promotion
Fiscal Service                     207/85445                      Debt Collection Special Fund
Fiscal Service                     208/95445                      Debt Collection Special Fund
Fiscal Service                     209/05445                      Debt Collection Special Fund
Fiscal Service                     200/15445                      Debt Collection Special Fund
Fiscal Service                     201/25445                      Debt Collection Special Fund
Fiscal Service                     202/35445                      Debt Collection Special Fund
Fiscal Service                     203/45445                      Debt Collection Special Fund
DO                                 20X5816                        Confiscated and Vested Iraqi Property and Assets
DO                                 20X8790                        Gifts and Bequests Trust Fund
IRS                                20X5510                        Private Collection Agency Program
IRS                                20X5433                        Informant Reimbursement
OFR                                20X5590                        Financial Research Fund
TFF                                20X5697                        Treasury Forfeiture Fund

Pursuant to the legal authority found in Section 10 of the Gold Reserve Act of 1934, as amended, the ESF may purchase or
sell foreign currencies, hold U.S. foreign exchange and SDR assets, and may provide financing to foreign governments
and foreign entities. The ESF accounts for and reports its holdings to the Fiscal Service on the Standard Form 224,
“Statement of Transactions,” and provides other reports to Congress. Interest on SDRs in the IMF, investments in U.S.
Treasury securities, and investments in foreign currency assets are ESF’s primary sources of revenue. The ESF’s earnings
and realized gains on foreign currency assets represent inflows of resources to the government, and the interest revenues
earned from U.S. Securities are the result of intra-Departmental flows.

The BEP, Mint, OCC, and IRS operate “public enterprise/revolving funds” to account for their respective revenues and
expenses. 31 USC § 5142 established the revolving fund for BEP to account for revenue and expenses related to the
currency printing activities. P.L. 104-52 (31 USC § 5136) established the Public Enterprise Fund for the Mint to account
for all revenue and expenses related to the production and sale of numismatic products and circulating coinage.
Revenues and other financing sources at the Mint are mainly from the sale of numismatic and bullion products and the

                                                            125
                                                                 U.S. Department of the Treasury | Fiscal Year 2013
sale of circulating coins to the FRB system. These revenues represent inflows of resources to the government. 12 USC §
481 established the Assessment Funds for OCC. Revenue and financing sources are from the bank examinations and
assessments for the oversight of the national banks, savings associations, and savings and loan holding companies. These
non-appropriated funds contribute to the inflows of resources to the government to specifically fund these entity’s
operations. 26 USC § 7810 established the Federal Tax Lien Revolving Fund to account for revenue and expenses from
the sale of property foreclosed upon by a holder of a lien. Such revenue represents inflows of resources to the federal
government. There are minimal transactions with other government agencies.

There are other FDCs at several Treasury bureaus, such as donations to the Presidential Election Campaign Fund, gifts to
reduce the public debt, and other enforcement related activities. Public laws and the U.S. Code established and
authorized the use of these funds. Sources of revenues and other financing sources include contributions, cash and
property forfeited in enforcement activities, and public donations, all which represent inflows to the government.


INTRA-GOVERNMENTAL INVESTMENTS IN TREASURY SECURITIES
The U.S. government does not set aside assets to pay future benefits or other expenditures associated with FDCs. The
Department’s bureaus and other federal agencies invest some of the funds that they collect from the public, if they have
the statutory authority to do so, in securities issued by the Fiscal Service. The cash collected by the Fiscal Service is
deposited in the General Fund, which uses the cash for general government purposes.

The investments provide Department bureaus and other federal agencies with authority to draw upon the General Fund
to make future benefit payments or other expenditures. When the Department bureaus or other federal agencies require
redemption of these securities to make expenditures, the government finances those redemptions out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the government finances all other expenditures.

The securities are an asset to the Department bureaus and other federal agencies and a liability of the Fiscal Service. The
General Fund is liable to the Fiscal Service. Because the Department bureaus and other federal agencies are parts of the
U.S. government, these assets and liabilities offset each other from the standpoint of the government as a whole. For this
reason, they do not represent an asset or a liability in the U.S. government-wide financial statements.

The balances related to the investments made by the Department bureaus are not displayed on the Department’s
financial statements because the bureaus are subcomponents of the Department. However, the General Fund remains
liable to the Fiscal Service for the invested balances and the Fiscal Service remains liable to the investing Department
bureaus (See Note 4).


CHANGE IN ACCOUNTING PRINCIPLE
In fiscal year 2013, the Department adopted SFFAS No. 43, Funds from Dedicated Collections: Amending SFFAS No. 27,
Identifying and Reporting Earmarked Funds which, among other things, clarifies the definition of a fund from dedicated
collection (Note 1Y). In connection with this adoption, the Department determined that the D.C. Pension funds that were
previously classified and reported as FDCs under SFFAS No. 27 no longer met the requirements for such classification in
accordance with SFFAS No. 43. The D.C. Pension funds had a negative net position totaling $5.1 billion and $6.0 billion
as of September 30, 2013 and 2012, respectively, primarily due to the net unfunded liability of the D.C. Pension fund of
$5.4 billion and $6.4 billion at September 30, 2013 and 2012, respectively. Accordingly, these funds are no longer
reported in the Consolidated Balance Sheet line item “Cumulative Results of Operations: Funds from Dedicated
Collections,” but rather they are reported within the line item “Cumulative Results of Operations: Other Funds” as of
September 30, 2013. The Department adjusted the corresponding Consolidated Balance Sheet line items by $6.0 billion
as of September 30, 2012 to conform to the current year financial statement presentation of these funds. This change in

                                                              126
                                                                                U.S. Department of the Treasury | Fiscal Year 2013
     accounting had no impact to the total “Cumulative Results of Operations” or “Total Net Position” at September 30, 2013
     and 2012. In addition to the Consolidated Balance Sheet, the Department adjusted the fiscal year 2012 presentation of
     and amounts included in the following table to exclude the activity and related balances associated with those funds that
     are no longer designated as FDCs. Furthermore, as permitted by SFFAS No. 43, the Department no longer separately
     presents non-exchange revenue and other financing sources related to FDCs on the its Consolidated Statements of
     Changes in Net Position.

                                   Summary Information for Funds from Dedicated Collections
                                     as of and for the Fiscal Year Ended September 30, 2013

                                                                                      Public
                                                                  Exchange       Enterprise/
                                                               Stabilization      Revolving         Other FDC         Combined
(in millions)                                                          Fund           Funds              Fund        FDC Funds
ASSETS
Fund Balance                                               $                -    $       801    $         742    $        1,543
Investments and Related Interest – Intra-governmental                22,670            1,310             3,210           27,190
Cash, Foreign Currency and Other Monetary Assets                     65,097                 -              12            65,109
Investments and Related Interest                                     14,096                 -                -           14,096
Other Assets                                                                -          1,549              120             1,669
Total Assets                                               $         101,863     $     3,660    $       4,084    $      109,607


LIABILITIES
Intra-governmental Liabilities                             $                -    $        33    $         499    $          532
Certificates Issued to Federal Reserve Banks                          5,200                 -                -           5,200
Allocation of Special Drawing Rights                                  54,177                -                -           54,177
Other Liabilities                                                          6             562              453             1,021
Total Liabilities                                                    59,383              595              952           60,930


Net Position
Unexpended Appropriations                                               200                 -                -             200
Cumulative Results of Operations                                     42,280            3,065             3,132           48,477
Total Liabilities and Net Position                         $         101,863     $     3,660    $       4,084    $      109,607


Statement of Net Cost
Gross Cost                                                 $           2,163     $     5,812    $         468    $        8,443
Less: Earned Revenue                                                   (453)          (5,871)                -          (6,324)
Gains/Losses on Pension, ORB, or OPEB Assumption Changes                    -             (5)                -               (5)
Total Net Cost of (Revenue From) Operations                $           1,710     $      (64)    $         468    $        2,114


Statement of Changes in Net Position
Cumulative Results of Operations:
Beginning Balance                                          $         43,990      $     3,165    $        1,892   $       49,047
Budgetary Financing Sources                                                 -           (42)             1,647            1,605
Other Financing Sources                                                     -          (122)               61              (61)
Total Financing Sources                                                     -          (164)             1,708            1,544
Net Cost of (Revenue From) Operations                                 (1,710)             64            (468)            (2,114)
Change in Net Position                                                (1,710)          (100)            1,240             (570)
Ending Balance                                             $         42,280      $     3,065    $        3,132   $       48,477




                                                                          127
                                                                               U.S. Department of the Treasury | Fiscal Year 2013

                                   Summary Information for Funds from Dedicated Collections
                                     as of and for the Fiscal Year Ended September 30, 2012
                                                                                     Public
                                                                  Exchange      Enterprise/
                                                               Stabilization     Revolving         Other FDC         Combined
(in millions)                                                          Fund          Funds             Funds        FDC Funds
ASSETS
Fund Balance                                               $               -    $     1,093    $         749    $        1,842
Investments and Related Interest – Intra-governmental                22,680           1,380             1,634           25,694
Cash, Foreign Currency and Other Monetary Assets                     65,764                -              18            65,782
Investments and Related Interest                                      15,416               -                -           15,416
Other Assets                                                               -          1,350              139             1,489
Total Assets                                               $        103,860     $     3,823    $       2,540    $      110,223

LIABILITIES
Intra-governmental Liabilities                             $               -    $        37    $         395    $         432
Certificates Issued to Federal Reserve Banks                          5,200                -                -            5,200
Allocation of Special Drawing Rights                                 54,463                -                -           54,463
Other Liabilities                                                         7             621              253              881
Total Liabilities                                                    59,670             658              648            60,976

Net Position
Unexpended Appropriations                                               200                -                -             200
Cumulative Results of Operations                                     43,990           3,165             1,892           49,047
Total Liabilities and Net Position                         $        103,860     $     3,823    $       2,540    $      110,223


Statement of Net Cost
Gross Cost                                                 $           1,557    $     5,001    $         406    $        6,964
Less: Earned Revenue                                                   (956)         (5,033)                -          (5,989)
Gains/Losses on Pension, ORB, or OPEB Assumption Changes                   -              5                 -                5
Total Net Cost of (Revenue From) Operations                $            601     $       (27)   $         406    $         980


Statement of Changes in Net Position
Cumulative Results of Operations:
Beginning Balance                                          $          44,591    $     3,024    $        1,665   $       49,280
Budgetary Financing Sources                                                -            (77)             572              495
Other Financing Sources                                                    -            191               61              252
Total Financing Sources                                                    -            114              633               747
Net Cost of (Revenue From) Operations                                  (601)             27            (406)             (980)
Change in Net Position                                                 (601)            141              227             (233)
Ending Balance                                             $         43,990     $     3,165    $        1,892   $       49,047




                                                                          128
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

25. RECONCILIATION OF NET COST OF TREASURY OPERATIONS
AND NON-ENTITY COSTS TO BUDGET
The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net obligations and
the proprietary net cost of Treasury operations and non-entity costs. For the fiscal years ended September 30, 2013 and
2012, the Reconciliation of Net Cost of Operations to Budget consisted of the following (in millions):
                                                                                                             2013              2012
RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated:
Obligations Incurred (Note 22)                                                                    $       487,431     $     476,463
Less: Spending Authority from Offsetting Collections and Recoveries of Prior Year Unpaid
  Obligations                                                                                            (67,901)         (180,078)
Obligations Net of Offsetting Collections and Recoveries                                                  419,530           296,385
Less: Distributed Offsetting Receipts                                                                   (151,404)           (73,881)
Net Obligations                                                                                           268,126           222,504

Other Resources:
Donations and Forfeiture of Property                                                                          135                174
Financing Sources for Accrued Interest and Discount on Debt                                                10,905             95,877
Financing Sources for Accrued Interest on Restoration of Federal Debt Principal (Note 16)                     801                  -
Transfers In/Out Without Reimbursement                                                                       (42)               (47)
Imputed Financing Sources from Cost Absorbed by Others                                                        776                812
Transfers to the General Fund and Other (Note 20)                                                       (177,976)           (46,341)
Net Other Resources Used to Finance Activities                                                          (165,401)             50,475
Total Resources Used to Finance Activities                                                                102,725           272,979

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
  TREASURY OPERATIONS AND NON-ENTITY COSTS
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but not
  yet Provided                                                                                           (12,595)           (11,371)
Resources that Fund Expenses Recognized in Prior Periods                                                  (8,930)           330,975
Budgetary Offsetting Collections & Receipts that do not affect Net Cost of Treasury
  Operations and Non-Entity Costs                                                                       (175,527)         (145,649)
Adjustment to Accrued Interest and Discount on the Debt                                                     1,381            22,720
Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                            (1,225)          (69,359)
Other Resources or Adjustments to Net Obligated Resources that do not Affect Net Cost of
  Treasury Operations and Non-Entity Costs                                                                   (332)          (11,233)
Total Resources Used to Finance Items Not Part of the Net Cost of Treasury Operations and
Non-Entity Costs                                                                                        (197,228)           116,083
Total Resources Used to Finance the Net Cost of Treasury Operations and Non-
  Entity Costs                                                                                           299,953            156,896

Total Components of Net Cost of Treasury Operations and Non-Entity Costs That Will
  Require or Generate Resources in Future Periods                                                        (18,865)           (15,760)
Total Components of Net Cost of Treasury Operations and Non-Entity Costs That Will Not
  Require or Generate Resources(a)                                                                          2,536             4,045
Total Components of Net Cost of Treasury Operations and Non-Entity Costs
  That Will Not Require or Generate Resources in the Current Period                                      (16,329)           (11,715)
Net Cost of Treasury Operations and Non-Entity Costs                                              $      283,624      $      145,181
(a) The Components not requiring or generating resources primarily include depreciation and amortization and revaluation of assets

or liabilities.




                                                                129
                                                               U.S. Department of the Treasury | Fiscal Year 2013

26. SCHEDULE OF FIDUCIARY ACTIVITY
The following funds have been identified by the Department as meeting the criteria for fiduciary activity. Details of the
funds are provided below.

Bureau                Fund Code        Authority              Fund Title/Description
BEP                   20X6513.013      31 USC 5119            Mutilated Currency Claims Funds
Fiscal Service        20X6045          31 USC 3328            Proceeds, Payments of Unpaid Checks
Fiscal Service        20X6048          31 USC 3329, 3330      Proceeds of Withheld Foreign Checks
Fiscal Service        2015X6078        50 APP. USC 2012       War Claims Fund, Foreign Claims Settlement Commission
Fiscal Service        20X6092          31 USC 1321            Debt Management Operations
Fiscal Service        20X6104          22 USC 1627            Albanian Claims Fund, Treasury
Fiscal Service        20X6133          31 USC 1322            Payment of Unclaimed Moneys
Fiscal Service        20X6210          22 USC 1623            Iraq Claims Settlement Fund
Fiscal Service        20X6309          22 USC 1627(a)         Libyan Claims Settlement Fund
Fiscal Service        20X6310          22 USC 1627(a)         Libyan Claims Settlement Fund
Fiscal Service        20X6311          98 Stat. 1876          Kennedy Center Revenue Bond
Fiscal Service        20X6312          22 USC 1627            Iranian Claims Settlement Fund
Fiscal Service        20X6314          22 USC 1644g           German Democrat Settlement Fund
Fiscal Service        20X6315          22 USC 1645h           Vietnam Claims Settlement Fund
Fiscal Service        20X6501.018      31 USC 3513            Small Escrow Amounts
Fiscal Service        20X6720          31 USC 3513            SM DIF Account for Dep. & Check Adj.
Fiscal Service        20X6830          104 Stat. 1061         Net Interest Payments to/from State
Fiscal Service        20X6999          31 USC 3513            Accounts Payable, Check Issue UNDDR
IRS                   20X6737          90 Stat. 269-270       Internal Revenue Collections for Northern Mariana Island
IRS                   20X6738          31 USC 3513            Coverover Withholdings-U.S. Virgin Islands
IRS                   20X6740          31 USC 3515            Coverover Withholdings-Guam
IRS                   20X6741          31 USC 3513            Coverover Withholdings-American Samoa
OAS                   20X6317.001      22 USC 2431            Belize Escrow, Debt Reduction

Unclaimed monies were authorized by 31 USC 5119, which authorized the Fiscal Service to collect unclaimed monies on
behalf of the public. Other fiduciary activities by the Department as listed above are included in All Other Fiduciary
Funds.




                                                            130
                                                                        U.S. Department of the Treasury | Fiscal Year 2013
                                                     Schedule of Fiduciary Activity

(in millions)                                                           2013                                      2012
                                                       Unclaimed                                 Unclaimed
                                                        Monies -     All Other           Total    Monies -        All Other            Total
                                                           Fiscal    Fiduciary       Fiduciary       Fiscal       Fiduciary        Fiduciary
                                                          Service       Funds           Funds       Service          Funds            Funds
Fiduciary Net Assets, Beginning of the Year           $      509    $      343       $    852    $     451    $          413   $        864
Increases:
  Contributions to Fiduciary Net Assets                       48               316        364           59             243              302
  Investment Earnings                                          -                 1          1            -               1                1
Total Increases                                               48               317        365           59             244              303
Decreases:
  Disbursements to and on behalf of beneficiaries             (6)         (505)          (511)          (1)           (314)            (315)
Total Decreases                                               (6)         (505)          (511)          (1)           (314)            (315)
Net Increase (Decrease) in Fiduciary Assets                    42         (188)          (146)          58             (70)             (12)
Fiduciary Net Assets, End of Year                     $       551   $          155   $    706    $     509    $        343     $        852




                                                    Schedule of Fiduciary Net Assets
(in millions)                                                           2013                                      2012
                                                       Unclaimed                                 Unclaimed
                                                        Monies -     All Other           Total    Monies -        All Other            Total
                                                           Fiscal    Fiduciary       Fiduciary       Fiscal       Fiduciary        Fiduciary
                                                          Service       Funds           Funds       Service          Funds            Funds
Fiduciary Assets
Cash and Cash Equivalents                             $       551   $          145   $    696    $     509    $        328     $        837
Investments                                                     -               18         18            -              17               17
Total Fiduciary Assets                                        551              163        714          509             345              854
Less: Fiduciary Liabilities                                     -              (8)        (8)            -              (2)              (2)
Total Fiduciary Net Assets                            $       551   $          155   $    706    $     509    $        343     $        852



   27. COMMITMENTS AND CONTINGENCIES
   LEGAL CONTINGENCIES
   The Department is a party in various administrative proceedings, legal actions, and claims, which may ultimately result
   in settlements or decisions adverse to the U.S. government. These contingent liabilities arise in the normal course of
   operations and their ultimate disposition is unknown. The Department discloses contingent liabilities where the
   conditions for liability recognition have not been met and the likelihood of unfavorable outcome is more than remote.
   The Department does not accrue for possible losses related to cases where the potential loss cannot be estimated or the
   likelihood of an unfavorable outcome is less than probable.

   In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment Fund, which is separate
   from the operating resources of the Department. For cases related to the Contract Disputes Act of 1978 and awards
   under federal anti-discrimination and whistle-blower protection acts, the Department must reimburse the Judgment
   Fund from future appropriations.

   In the opinion of the Department’s management and legal counsel, based on information currently available, the
   expected outcome of other legal actions, individually or in the aggregate, will not have a materially adverse effect on the
   Department’s consolidated financial statements, except for the pending legal actions described below which may have a
   materially adverse impact on the consolidated financial statements depending on the outcomes of the cases.



                                                                    131
                                                                U.S. Department of the Treasury | Fiscal Year 2013
Pending Legal Actions

• Tribal Trust Fund Cases: Numerous cases have been filed in the U.S. District Courts in which Native American Tribes
  seek a declaration that the United States has not provided the tribes with a full and complete accounting of their trust
  funds, and seek an order requiring the U.S. government to provide such an accounting. In addition, there are a
  number of other related cases seeking damages in the U.S. Court of Federal Claims, which do not name the Department
  as a defendant. During fiscal year 2013, a number of tribal trust fund case settlements were paid from the Judgment
  Fund for an aggregate amount totaling $405 million. The U.S. government is currently in discussion with counsel
  representing most of the remaining plaintiff tribes with tribal trust fund cases pending against the United States about
  the feasibility of an out-of-court settlement. Plaintiff tribes in several of the pending cases have chosen to pursue active
  litigation, rather than settlement discussion, and the U.S. government is vigorously litigating those cases. The
  Department is unable to determine the likelihood of an unfavorable outcome or an estimate of potential loss at this
  time.
• James X. Bormes v. United States of America: The complaint alleges that the U.S. government willfully violated
  certain provisions of the Fair and Accurate Credit Transaction Act P.L. 108-159 in that the transaction confirmation
  received by the complainant from Pay.gov improperly included, among other things, the expiration date of a credit card
  used in a transaction. The complaint does not state the amount of damages sought on behalf of the class beyond
  asserting that each class member would be entitled to $100 to $1,000 in statutory damages. In a letter sent to the
  Department of Justice, the plaintiff proposed a fund of $30 million for just the Illinois class members.

  In July 2009, the U.S. District Court for the Northern District of Illinois granted the U.S. government’s motion to
  dismiss this case for lack of an unequivocal waiver of sovereign immunity. In November 2010, the U.S. Court of
  Appeals for the Federal Circuit reversed the District Court’s decision and directed that the case be remanded back to
  the District Court for further proceedings. The U.S. government’s petition for a rehearing of that decision was denied
  by the Federal Circuit in March 2011. In January 2012, the U.S. Supreme Court granted the U.S. government’s petition
  for a writ of certiorari. The case was argued in October 2012 and, in November 2012, the U.S. Supreme Court reversed
  the lower court decision and remanded the case back to the U.S. Court of Appeals for the Seventh Circuit. The parties
  have completed the appellate briefing and the oral argument occurred on September 27, 2013. The parties are awaiting
  the Seventh Circuit’s decision. The Department is unable to determine the likelihood of an unfavorable outcome or an
  estimate of potential loss at this time.

• GSE Related Cases: A number of cases were filed in the U.S. Court of Federal Claims and the U.S. District Court for
  the District of Columbia in which the plaintiffs allege, among other things, that the U.S. government took their
  property and contractual rights as preferred and common stockholders when the third amendments to the SPSPAs
  between the Department and each GSE were executed in August 2012 (Note 8). One case also alleges that the U.S.
  government took plaintiffs’ property and contractual rights when the GSEs were placed into conservatorship and
  entered into the SPSPAs with the Department in September 2008. In the Court of Federal Claims, the plaintiffs seek
  just compensation (damages) from the U.S. government. In the District Court, the plaintiffs seek to set aside the third
  amendments to the SPSPAs as well as damages. The Department is unable to determine the likelihood of an
  unfavorable outcome or an estimate of potential loss at this time.

• IRS 501(c)(4) Cases: Two cases were filed in U.S. District Court in which the plaintiffs seek actual and punitive
  damages in connection with IRS’ alleged unlawful requests for information and unreasonable delays in processing the
  plaintiffs’ applications for tax exempt status. The Department is unable to determine the likelihood of an unfavorable
  outcome or an estimate of potential loss at this time.




                                                            132
                                                                              U.S. Department of the Treasury | Fiscal Year 2013
• Other Legal Actions: The Department is also involved in employment related legal actions (e.g., matters alleging
  discrimination and other claims before federal courts, the Equal Employment Opportunity Commission, the Merit
  Systems Protection Board, etc.) for which an unfavorable outcome is reasonably possible, but for which an estimate of
  potential loss cannot be determined at this time. It is not expected that these cases will have a material adverse effect
  on the Department’s financial position or results.


OTHER COMMITMENTS AND CONTINGENCIES

Loan Commitments

The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend them credit for their own use (refer to Notes 1L and 3). As of September 30,
2013 and 2012, the Department had loan commitments totaling $73.6 billion and $86.2 billion, respectively.


Multilateral Development Banks

The Department, on behalf of the United States, has subscribed to capital for certain MDBs, portions of which are callable
under certain limited circumstances to meet the obligations of the respective MDB. There has never been, nor is there
anticipated, a call on the U.S. commitment for these subscriptions. As of September 30, 2013 and 2012, U.S. callable
capital in MDBs was as follows (in millions):
                                                                                                                             2013                    2012
Inter-American Development Bank                                                                                     $      36,437           $      32,786
International Bank for Reconstruction and Development                                                                      33,585                  31,805
Asian Development Bank                                                                                                     13,456                  11,027
European Bank for Reconstruction and Development                                                                            3,055                   3,055
African Development Bank                                                                                                    2,534                   2,053
North American Development Bank                                                                                             1,275                   1,275
Multilateral Investment Guarantee Agency(1)                                                                                   315                     315
Total                                                                                                               $      90,657           $      82,316
(1) Both fiscal years 2013 and 2012 include commitments of $22 million for the undisbursed portion of the subscription to paid-in capital investments.


Amounts included in the above table do not include amounts for which the Department may be liable to pay if future

congressional action is taken to fund executed agreements between the Department and certain MDBs.


Terrorism Risk Insurance Program

The Terrorism Risk Insurance Act (TRIA), signed into law in November 2002, was enacted to address market
disruptions resulting from terrorist attacks on September 11, 2001. TRIA helps to ensure available and affordable
commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to stabilize.
The authority to pay claims under the Terrorism Risk Insurance Program (TRIA Program) is activated upon the
certification of an “act of terrorism” by the Secretary in concurrence with the Secretary of State and the Attorney General.
If a certified act of terrorism occurs, insurers may be eligible to receive reimbursement from the U.S. government for
insured losses above a designated deductible amount. Insured losses above this amount will be shared between
insurance companies and the U.S. government. TRIA also gives the Department authority to recoup federal payments
made under the TRIA Program through policyholder surcharges under certain circumstances, and contains provisions
designed to manage litigation arising from or relating to a certified act of terrorism. There were no claims under TRIA as
of September 30, 2013 or 2012.




                                                                          133
                                                               U.S. Department of the Treasury | Fiscal Year 2013
Exchange Stabilization Agreement

The North American Framework Agreement (NAFA), signed by the Department in 1994, includes the Exchange
Stabilization Agreement (ESA) with Mexico. The Department, through the ESF, has a standing swap line for $3.0 billion
with Mexico under the NAFA and its implementing ESA. The amounts and terms (including the assured source of
repayment) of any borrowing under NAFA and ESA will have to be negotiated and agreed to before any actual drawing
can occur. The ESA does provide sample clauses that state that transactions shall be exchange rate neutral for the ESF,
and shall bear interest based on a then current rate tied to U.S. Treasury bills. There were no drawings outstanding on
the ESF swap line as of September 30, 2013 and 2012. The Department renewed the ESA through December 14, 2014.


New Arrangements to Borrow

The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided the authorization and appropriations for an
increase in the United States’ participation in the New Arrangements to Borrow (NAB). Because the U.S. financial
participation in the IMF is denominated in SDRs, P.L. 111-32 authorized and appropriated up to the dollar equivalent of
SDR 75 billion to implement this commitment. The United States agreed in May 2010 that its participation in the NAB
would increase from SDR 6.6 billion to SDR 69.1 billion, pursuant to IMF Executive Board Decision No. 14577-(10/35).
Total U.S. participation in the NAB of SDR 69.1 billion was equivalent to $106.0 billion and $106.5 billion as of
September 30, 2013 and 2012, respectively. Refer to Notes 11 and 12 for more information on the NAB.


Commitment to GSEs

The SPSPA agreements between the Department and each GSE, which have no expiration date, provide for the
Department to disburse funds to the GSEs if, at the end of any quarter, the FHFA determines that the liabilities exceed its
assets. At September 30, 2013 and 2012, the Department projected a maximum remaining potential commitment to the
GSEs of $258.1 billion and $282.3 billion, respectively. Refer to Note 8 for a full description of the SPSPA agreements
and related contingent liability.




                                                            134
                                                                   U.S. Department of the Treasury | Fiscal Year 2013

REQUIRED SUPPLEMENTAL INFORMATION (UNAUDITED – SEE
ACCOMPANYING AUDITORS’ REPORT)

INTRODUCTION
This section provides the Required Supplemental Information as prescribed by accounting standards.


OTHER CLAIMS FOR REFUNDS
The Department has estimated that $4.3 billion may be payable as other claims for tax refunds. This estimate represents
amounts (principal and interest) that may be paid for claims pending judicial review by the federal courts or internally,
by Appeals. The total estimated payout (including principal and interest) for claims pending judicial review by the
federal courts is $0.8 billion and by appeals is $3.5 billion.

The Department made an administrative determination to accept the position that certain medical residents who
received stipends be exempted from FICA taxes for periods before April 1, 2005. At September 30, 2013 and 2012, the
IRS estimated unpaid refund claims of approximately $0.1 billion and $2.4 billion, respectively.

In accordance with federal accounting standards, the amounts of these claims have not been recorded as a liability in the
consolidated financial statements because certain administrative processes have not been completed as of September 30,
2013.


IRS FEDERAL TAXES RECEIVABLE, NET
In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, some unpaid tax assessments do not meet the criteria for financial statement
recognition. Under Internal Revenue Code Section 6201, the Department is authorized and required to make inquiries,
determinations, and assessments of all taxes which have not been duly paid (including interest, additions to the tax, and
assessable penalties) under the law. Unpaid assessments result from taxpayers filing returns without sufficient payment,
as well as from tax compliance programs such as examination, under-reporter, substitute for return, and combined
annual wage reporting. The Department also has authority to abate the paid or unpaid portion of an assessed tax,
interest, and penalty. Abatements occur for a number of reasons and are a normal part of the tax administration process.
Abatements may result in claims for refunds or a reduction of the unpaid assessed amount.

Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered federal
taxes receivable. Assessments not agreed to by taxpayers or the courts are considered compliance assessments and are
not considered federal taxes receivable. Due to the lack of agreement, these compliance assessments are less likely to
have future collection potential than those unpaid assessments that are considered federal taxes receivable.

Assessments with little or no future collection potential are called write-offs. Write-offs principally consist of amounts
owed by deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidated by the FDIC
and the former RTC. Write-offs have little or no future collection potential, but statutory provisions require that these
assessments be maintained until the statute for collection expires.

Although compliance assessments and write-offs are not considered receivables under federal accounting standards, they
represent legally enforceable claims of the U.S. government.




                                                                 135
                                                                U.S. Department of the Treasury | Fiscal Year 2013
The components of the total unpaid assessments at September 30, 2013 and 2012, were as follows (in millions):
                                                                                                   2013                 2012
Total Unpaid Assessments                                                                 $      374,000       $     364,000
Less: Compliance Assessments                                                                   (85,000)             (87,000)
Write Offs                                                                                    (130,000)            (125,000)
Gross Federal Taxes Receivable                                                                  159,000              152,000
Less: Allowance for Doubtful Accounts                                                         (124,000)            (113,000)
Federal Taxes Receivables, Net                                                           $       35,000       $       39,000

To eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties assessed
against officers and directors of businesses involved in the non-remittance of federal taxes withheld from their
employees. The penalties totaled $2.0 billion as of September 30, 2013 and 2012. The related unpaid assessments of
those businesses are reported as taxes receivable or write-offs, but the Department may also recover portions of those
businesses’ unpaid assessments from any and all individual officers and directors against whom a trust fund recovery
penalty is assessed.


ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
As an agent of the U.S. government and as authorized by 26 USC, the TTB collects excise taxes from alcohol, tobacco,
firearms, and ammunition industries. In addition, special occupational taxes are collected from certain tobacco
businesses. During fiscal years 2013 and 2012, TTB collected approximately $22.9 billion and $23.4 billion in taxes,
interest, and other revenues, respectively. Federal excise taxes are also collected on certain articles produced in Puerto
Rico and the Virgin Islands, and imported into the United States. In accordance with 26 USC 7652, such taxes collected
on rum imported into the United States are “covered over” or paid into the treasuries of Puerto Rico and the Virgin
Islands.

Substantially all of the taxes collected by TTB, net of related refund disbursements, are remitted to the General Fund.
The Department further distributes this revenue to Federal agencies in accordance with various laws and regulations.
The firearms and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and Wildlife
Restoration Fund under provisions of the Pittman-Robertson Act of 1937.


DEFERRED MAINTENANCE
In fiscal years 2013 and 2012, the Department had no material amounts of deferred maintenance costs to report on
vehicles, buildings, and structures owned by the Department.

Deferred maintenance applies to owned PP&E. Deferred maintenance is maintenance that was not performed when it
should have been, or was scheduled to be, and is put off or delayed for a future period. Maintenance is defined as the act
of keeping capitalized assets in an “acceptable condition” to serve their required mission. It includes preventive
maintenance, normal repairs, replacement of parts and structural components, and other activities needed to preserve
the asset so that it continues to provide acceptable services and achieves its expected useful life. Maintenance excludes
activities aimed at expanding the capacity or significantly upgrading the assets to a different form than it was originally
intended (i.e., activities related to capitalized improvements, modernization, and/or restoration).

Logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred
maintenance and acceptable operating condition of an asset. Periodic condition assessments, physical inspections, and
review of manufacturing and engineering specifications, work orders, and building and other structure logistics reports
can be used under these methodologies. Heritage assets held by the Department are generally in acceptable physical
condition, and there is no deferred maintenance on heritage assets.



                                                             136
                                                                                 U.S. Department of the Treasury | Fiscal Year 2013

  STATEMENT OF BUDGETARY RESOURCES DISAGGREGATED BY TREASURY REPORTING ENTITY
  The following tables provide the Statement of Budgetary Resources for the fiscal years ended September 30, 2013 and
  2012 disaggregated by Treasury reporting entity rather than by Treasury major budget account, since Treasury manages
  its budget at the reporting entity level.


                         Fiscal Year 2013 Statement of Budgetary Resources Disaggregated
                                                        by Sub-organization Accounts

                                                                 Bureau of        Bureau of the                          Fin. Crimes           Internal
                                                                Engraving &          Fiscal         Departmental        Enforcement            Revenue
(in millions):                                                    Printing          Service(a)        Offices(b)          Network               Service
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                  $          51     $          453    $       336,295     $            34    $            980
Recoveries of prior year unpaid obligations                                 -                  43             15,259                   4                 134
Other changes in unobligated balance                                        -                 (6)           (26,674)                 (1)                (72)
Unobligated balance from prior year budget authority, net                  51                490            324,880                  37               1,042
Appropriations (discretionary and mandatory)                                -            434,829              58,105                105              11,553
Borrowing authority (discretionary and mandatory)                           -                   -                576                   -                   -
Spending authority from offsetting collections (discretionary
   and mandatory)                                                        664                 536             17,931                   3                 126
Total Budgetary Resources                                       $        715             435,855    $       401,492     $           145    $         12,721

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                            $        656      $      435,022    $        34,646     $           101    $         11,731
Unobligated balance, end of year :
  Apportioned                                                              20                784            273,045                  42                637
  Exempt from apportionment                                                 -                  6             17,894                   -                   7
  Unapportioned                                                            39                 43             75,907                   2                346
Total unobligated balance brought forward, end of year                     59                833            366,846                  44                990
Total Status of Budgetary Resources                             $         715     $      435,855    $       401,492     $           145    $         12,721

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1           $          117    $          996    $       249,770     $             36   $          1,672
Obligations incurred                                                      656            435,022             34,646                  101             11,731
Outlays, gross                                                          (723)          (435,403)            (37,125)               (110)           (11,972)
Recoveries of prior year unpaid obligations                                  -               (43)           (15,259)                 (4)              (134)
Unpaid obligations, gross, end of year                                     50                 572           232,032                   23              1,297
Uncollected Payments:
Uncollected payments from federal sources, brought
  forward, October 1                                                     (55)                (34)              (852)                 (7)                  (41)
Change in uncollected customer payments from
  federal sources                                                         (9)               (60)                  81                  4                     11
Uncollected customer payments from federal sources, end of
  year                                                                   (64)                (94)             (771)                  (3)                  (30)
Obligated balance, End of Year (Net)                                     (14)                 478           231,261                  20                  1,267
Obligated Balance, Start of Year (Net)                          $          62     $           962   $       248,918     $            29    $             1,631

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)           $         664     $      435,365    $         76,612    $           108    $         11,679
Actual offsetting collections (discretionary and mandatory)             (687)              (476)            (46,141)                 (6)              (137)
Change in uncollected customer payments from federal
   sources (discretionary and mandatory)                                  (9)               (60)                  81                  4                     11
Budget Authority, Net (Discretionary and
   Mandatory)                                                   $        (32)     $      434,829    $         30,552    $           106              11,553

Outlay, gross (discretionary and mandatory)                     $         723     $      435,403    $          37,125   $           110              11,972
Actual offsetting collections (discretionary and mandatory)             (687)               (476)            (46,141)                (6)              (137)
Outlays, net (discretionary and mandatory)                                 36            434,927              (9,016)               104              11,835
Distributed offsetting receipts                                             -            (39,401)           (111,272)                  -              (731)
Agency Outlays, Net (Discretionary and Mandatory)               $          36     $       395,526   $      (120,288)    $           104    $         11,104

  (a)   Includes the combined financial information of the BPD and FMS operating bureaus which merged effective October 2012 (Note 1A). The salaries
        and other administrative expenses of the legacy BPD and FMS bureaus will continue to be funded separately until Congress enacts legislation to
        fund these costs through a single appropriation.
  (b)   Of the $401 billion of Total Budgetary Resources for Departmental Offices, GSE and OFS had $260 billion and $38 billion, respectively. The
        remainder is spread throughout other offices.




                                                                           137
                                                                                 U.S. Department of the Treasury | Fiscal Year 2013
                       Fiscal Year 2013 Statement of Budgetary Resources Disaggregated
                                                     by Sub-organization Accounts


                                                                                                       Alcohol
                                                                                                           and
                                                                                  Office of the       Tobacco
                                                                                  Comptroller         Tax and
                                                                                         of the         Trade                               Non-
(in millions):                                                      U.S. Mint        Currency          Bureau         Budgetary         Budgetary
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                  $        694      $       1,087   $          4    $     320,785     $       18,813
Recoveries of prior year unpaid obligations                                42                 -              2             7,876             7,608
Other changes in unobligated balance                                     (42)                 -            (1)           (3,366)          (23,430)
Unobligated balance from prior year budget authority, net                694              1,087              5          325,295              2,991
Appropriations (discretionary and mandatory)                                -                 -            95           504,687                  -
Borrowing authority (discretionary and mandatory)                           -                 -              -                 -               576
Spending authority from offsetting collections (discretionary
   and mandatory)                                                       3,961            1,005              6            10,091              14,141
Total Budgetary Resources                                       $       4,655     $      2,092    $       106     $     840,073     $       17,708

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                            $       4,159     $       1,016   $       100     $      471,734    $       15,697
Unobligated balance, end of year:
  Apportioned                                                             496                -              2           274,291                735
  Exempt from apportionment                                                 -            1,076              -            18,983                  -
  Unapportioned                                                             -                -              4            75,065              1,276
Total unobligated balance brought forward, end of year                    496            1,076              6           368,339              2,011
Total Status of Budgetary Resources                             $       4,655     $      2,092    $       106     $     840,073     $       17,708


CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1           $          276    $         284   $          22   $      142,307    $      110,866
Obligations incurred                                                     4,159            1,016            100           471,734             15,697
Outlays, gross                                                         (4,195)          (1,077)          (103)         (473,187)           (17,521)
Recoveries of prior year unpaid obligations                               (42)                -             (2)           (7,876)          (7,608)
Unpaid obligations, gross, end of year                                     198              223              17          132,978           101,434
Uncollected Payments:
Uncollected payments from federal sources, brought
  forward, October 1                                                       (6)              (5)            (4)             (186)             (818)
Change in uncollected customer payments from federal
  sources                                                                    -                1              1              (59)                88
Uncollected customer payments from federal sources, end of
  year                                                                     (6)             (4)             (3)             (245)            (730)
Obligated balance, End of Year (Net)                                      192              219              14           132,733          100,704
Obligated Balance, Start of Year (Net)                          $         270     $        279    $         18    $      142,121    $      110,048


BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)           $       3,961     $       1,005   $        101    $      514,778    $       14,717
Actual offsetting collections (discretionary and mandatory)           (3,985)           (1,007)             (7)         (10,088)          (42,358)
Change in uncollected customer payments from federal
   sources (discretionary and mandatory)                                     -                1              1              (59)                88
Budget Authority, Net (Discretionary and
    Mandatory)                                                  $        (24)     $         (1)   $         95    $      504,631    $     (27,553)


Outlay, gross (discretionary and mandatory)                     $       4,195     $       1,077   $       103     $      473,187    $       17,521
Actual offsetting collections (discretionary and mandatory)           (3,985)           (1,007)            (7)          (10,088)          (42,358)
Outlays, net (discretionary and mandatory)                                210                70            96           463,099           (24,837)
Distributed offsetting receipts                                             -     $           -   $          -    $    (151,404)    $            -
Agency Outlays, Net (Discretionary and Mandatory)               $         210                70            96            311,695          (24,837)




                                                                            138
                                                                                  U.S. Department of the Treasury | Fiscal Year 2013
                         Fiscal Year 2012 Statement of Budgetary Resources Disaggregated
                                                         by Sub-organization Accounts


                                                                Bureau of                                                  Fin. Crimes           Internal
                                                               Engraving &         Bureau of the      Departmental        Enforcement            Revenue
(in millions):                                                   Printing          Fiscal Service       Offices1            Network               Service
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                $             26     $          407     $       366,022    $             34    $           885
Recoveries of prior year unpaid obligations                                  -                  27              13,164                   1                105
Other changes in unobligated balance                                         -                 (7)           (40,845)                  (1)               (96)
Unobligated balance from prior year budget authority, net                   26                427             338,341                  34                894
Appropriations (discretionary and mandatory)                                 -            379,246              37,903                  111             12,175
Borrowing authority (discretionary and mandatory)                            -                   -              11,019                   -                  -
Spending authority from offsetting collections
   (discretionary and mandatory)                                           730                505              28,422                   8                 144
Total Budgetary Resources                                     $            756     $       380,178    $       415,685    $            153    $         13,213

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                          $            705     $       379,725    $        79,390    $             119   $         12,233
Unobligated balance, end of year:
  Apportioned                                                               22                409            229,800                   32                602
  Exempt from apportionment                                                  -                   6             22,593                   -                   6
  Unapportioned                                                             29                  38             83,902                   2                 372
Total unobligated balance brought forward, end of year                      51                 453           336,295                   34                980
Total Status of Budgetary Resources                           $            756     $       380,178    $       415,685    $            153    $         13,213

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1         $            140     $           920    $       268,670    $             27    $          1,776
Obligations incurred                                                       705             379,725             79,390                 119              12,233
Outlays, gross                                                           (728)           (379,622)            (85,126)              (109)            (12,232)
Recoveries of prior year unpaid obligations                                   -               (27)            (13,164)                 (1)              (105)
Unpaid obligations, gross, end of year                                      117                996            249,770                  36               1,672
Uncollected Payments:
Uncollected payments from federal sources, brought
   forward, October 1                                                     (40)                (43)             (1,010)                 (9)                  (52)
Change in uncollected customer payments from federal
   sources                                                                 (15)                  9                158                   2                     11
Uncollected customer payments from federal sources, end
   of year                                                                 (55)               (34)              (852)                  (7)                   (41)
Obligated balance, End of Year (Net)                                         62               962             248,918                  29                  1,631
Obligated Balance, Start of Year (Net)                        $            100     $           877    $       267,660    $              18   $             1,724

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)         $            730     $       379,751    $         77,344   $             119   $         12,319
Actual offsetting collections (discretionary and mandatory)               (715)              (514)           (161,078)                (10)              (156)
Change in uncollected customer payments from federal
   sources (discretionary and mandatory)                                   (15)                  9                158                   2                     11
Budget Authority, Net (Discretionary and
   Mandatory)                                                 $               -    $      379,246     $      (83,576)    $             111             12,174

Outlay, gross (discretionary and mandatory)                   $            728     $       379,622    $         85,126   $             109             12,232
Actual offsetting collections (discretionary and mandatory)               (715)              (514)           (161,078)                (10)              (156)
Outlays, net (discretionary and mandatory)                                   13            379,108            (75,952)                  99             12,076
Distributed offsetting receipts                                               -           (39,894)            (33,243)                   -              (744)
Agency Outlays, Net (Discretionary and
   Mandatory)                                                 $              13    $       339,214    $      (109,195)   $             99    $         11,332

        (1)   Of the $416 billion of Total Budgetary Resources for Departmental Offices, GSE and OFS had $242 billion and $68 billion, respectively. The
              remainder is spread throughout other offices




                                                                             139
                                                                               U.S. Department of the Treasury | Fiscal Year 2013
                       Fiscal Year 2012 Statement of Budgetary Resources Disaggregated
                                                     by Sub-organization Accounts




                                                                                                     Alcohol
                                                                                                         and
                                                                                Office of the       Tobacco
                                                                                Comptroller         Tax and
                                                                                       of the         Trade                               Non-
(in millions):                                                  U.S. Mint          Currency          Bureau         Budgetary         Budgetary
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                  $       413    $        1,163   $         4     $     340,384     $       28,570
Recoveries of prior year unpaid obligations                              51                 -             1              2,818            10,531
Other changes in unobligated balance                                   (77)                 -             -            (3,542)          (37,484)
Unobligated balance from prior year budget authority, net              387              1,163             5           339,660               1,617
Appropriations (discretionary and mandatory)                              -                 -           100           429,535                   -
Borrowing authority (discretionary and mandatory)                         -                 -             -                  -             11,019
Spending authority from offsetting collections (discretionary
   and mandatory)                                                    3,413              1,001              7            9,727             24,503
Total Budgetary Resources                                       $    3,800     $        2,164   $        112    $     778,922     $       37,139
STATUS OF BUDGETARY RESOURCES
Obligations incurred                                            $    3,106     $        1,077   $        108    $     458,137     $       18,326
Unobligated balance, end of year
  Apportioned                                                          670                  -              -          227,587              3,948
  Exempt from apportionment                                              -              1,087              -           23,692                  -
  Unapportioned                                                         24                  -              4           69,506             14,865
Total unobligated balance brought forward, end of year                 694              1,087              4          320,785             18,813
Total Status of Budgetary Resources                             $    3,800     $        2,164   $        112    $     778,922     $       37,139


CHANGE IN OBLIGATED BALANCE
Unpaid obligations, gross, brought forward, October 1           $       346    $          251   $         23    $      148,351    $     123,802
Obligations incurred                                                  3,106             1,077            108           458,137            18,326
Outlays, gross                                                      (3,125)           (1,044)          (108)         (461,363)          (20,731)
Recoveries of prior year unpaid obligations                             (51)                -             (1)           (2,818)         (10,531)
Unpaid obligations, gross, end of year                                  276               284             22           142,307           110,866
Uncollected Payments:
Uncollected payments from federal sources, brought
  forward, October 1                                                    (7)               (7)            (2)             (201)             (969)
Change in uncollected customer payments from federal
  sources                                                                 1                 2            (2)                15               151
Uncollected customer payments from federal sources, end of
  year                                                                  (6)               (5)            (4)             (186)             (818)
Obligated balance, End of Year                                         270               279              18           142,121           110,048
Obligated Balance, Start of Year (Net)                          $      339     $         244    $         21    $      148,150    $      122,833

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)           $     3,413    $        1,001   $        107    $     439,262     $       35,522
Actual offsetting collections (discretionary and mandatory)         (3,414)           (1,003)             (5)          (9,743)          (157,152)
Change in uncollected customer payments from federal
   sources (discretionary and mandatory)                                  1                 2            (2)                15               151
Budget Authority, Net (Discretionary and
   Mandatory)                                                   $          -   $            -   $       100     $     429,534     $    (121,479)

Outlay, gross (discretionary and mandatory)                     $     3,125    $        1,044   $        108    $      461,363    $       20,731
Actual offsetting collections (discretionary and mandatory)         (3,414)           (1,003)             (5)           (9,743)        (157,152)
Outlays, net (discretionary and mandatory)                            (289)                41            103          451,620          (136,421)
Distributed offsetting receipts                                           -                 -               -         (73,881)                 -
Agency Outlays, Net (Discretionary and Mandatory)               $    (289)     $           41   $        103    $     377,739     $    (136,421)




                                                                          140
      U.S. Department of the Treasury | Fiscal Year 2013




(UNAUDITED)




141
      U.S. Department of the Treasury | Fiscal Year 2013




142
                                                                                 U.S. Department of the Treasury | Fiscal Year 2013

SECTION A: SCHEDULE OF SPENDING


                                                     Schedule of Spending (Unaudited)
                                                    For Year Ended September 30, 2013
                                                               (In Millions)

    The following Schedule of Spending (SOS) presents an overview of the funds available for the Department to spend and how
    the Department spent these funds as of and for the fiscal year ended September 30, 2013. The financial data used to populate
    this schedule is the same underlying data used to populate the Department’s Statement of Budgetary Resources (SBR).
    Accordingly, the budgetary financial information in this schedule is presented on a combined basis rather than on a
    consolidated basis. Specifically, the SOS presents Total Resources (or “Total Budgetary Resources” per the SBR), Amount
    Available but Not Agreed to be Spent (or “Unobligated balance, end of year – Apportioned and Exempt from Apportionment”
    per the SBR), and “Amount Not Available to be Spent” (or “Unobligated balances, end of year – Unapportioned” per the SBR).


                                                                                                   2013                      2012
                   What Money is Available to Spend?
                   Total Resources                                                   $           857,781     $            816,061
                   Less: Amount Available but Not Agreed to be Spent                          (294,009)                 (255,227)
                   Less: Amount Not Available to be Spent                                       (76,341)                 (84,371)
                   Total Amounts Agreed to be Spent                                  $        487,431        $           476,463


                   How was the Money Spent/Issued?
                   Interest and Dividends 1                                          $          427,946      $            372,178
                   Grants, Subsidies, and Contributions 2                                        24,590                    37,885
                   Personnel Compensation and Other Related Benefits                              11,254                   11,588
                   Investments and Loans 3                                                         7,201                   40,716
                   Other Contractual Services                                                      4,079                    9,882
                   Other                                                                         12,359                     4,214
                   Total Amounts Agreed to be Spent                                  $        487,431        $           476,463




                   Who did the Money go to?
                   Federal                                                           $          201,954      $            182,013
                   Non-Federal                                                                  285,477                   294,450
                   Total Amounts Agreed to be Spent                                  $        487,431        $           476,463




1   Interest and Dividends is primarily comprised of Interest on the Public Debt and interest expense related to credit reform activities.

2 Grants, Subsidies, and Contributions are primarily comprised of cash payments to States, other political subdivisions, corporations,
associations, and individuals; credit reform program related subsidies; and contributions to foreign countries.

3 Investments and Loans primarily include investments made in connection with loans issued for credit reform and non-credit reform
activities. The fiscal year 2012 amount includes $18.5 billion of liquidity payments made to the Government Sponsored Enterprises under the
Senior Preferred Stock Purchase Agreements as of the fiscal year ended September 30, 2012 (Note 8). There were no payments to the GSEs for
the fiscal year ended September 30, 2013.
                                                                         143
                                                                       U.S. Department of the Treasury | Fiscal Year 2013

SECTION B: TAX GAP AND TAX BURDEN

TAX GAP
Reducing the tax gap is at the heart of IRS’s enforcement and service programs. The tax gap is the difference between the tax
(not interest and penalties) imposed on taxpayers by law for a given tax year and what they actually pay on time. The tax gap
arises from three types of noncompliance: not filing required tax returns on time or at all (the nonfiling gap), underreporting the
correct amount of tax on timely filed returns (the underreporting gap), and not paying on time the full amount reported on
timely filed returns (the underpayment gap). Of these three components, only the underpayment gap is observed; the nonfiling
gap and the underreporting gap must be estimated. The tax gap, about $450 billion based on updated tax year 2006 estimates, is
defined as underpayments net of overpayments of true tax liability. However, it excludes illegal economic activity. IRS limits its
estimates of the tax gap to tax due on legal-sector activity only. The tax gap is not synonymous with the so- called “underground
economy,” though there is some overlap. The underground economy is made up of activities that are not very visible to tax and
other government authorities. Some of these activities are legal-sector and some are illegal-sector activities. While some of the
tax gap arises from legal-sector income generated by underground economy participants, some of it arises from noncompliance
that is completely unrelated to the underground economy – such as claiming the wrong filing status or overstating exemptions or
tax credits. Therefore, while there is substantial overlap between the tax gap and the underground economy, it is best to
maintain the distinction between these two concepts.

The underreporting gap accounts for 84 percent of the gross tax gap, with the remainder divided between the nonfiling gap (6
percent) and the underpayment of reported tax liability (10 percent). The IRS remains committed to finding ways to increase
compliance and reduce the tax gap, while minimizing the burden on the vast majority of taxpayers who pay their taxes accurately
and on time.

Each instance of noncompliance by a taxpayer at the time the tax is due contributes to the tax gap, whether or not the IRS
detects it, and whether or not the taxpayer is even aware of the noncompliance. Obviously, some of the tax gap arises from
intentional (willful) noncompliance, and some of it arises from mistakes caused by not applying sufficient due diligence to meet
the tax obligation fully.

The collection gap is the cumulative amount of tax, penalties, and interest that has been assessed over many years, but has not
been paid by a certain point in time, and which the IRS expects to remain uncollectible. In essence, it represents the difference
between the total balance of unpaid assessments and the net taxes receivable reported on the IRS’s balance sheet. The tax gap
and the collection gap are related and overlapping concepts, but they have significant differences. The collection gap is a
cumulative balance sheet concept for a particular point in time, while the tax gap is like an income statement item for a single
year. Moreover, the tax gap estimates include all noncompliance, while the collection gap includes only amounts that have been
assessed (a small portion of all noncompliance).


TAX BURDEN
The Internal Revenue Code (IRC) provides for progressive rates of tax, whereby higher incomes are generally subject to higher
rates of tax. The following graphs and charts present the latest available information on reported income tax and adjusted gross
income (AGI) for individuals by reported AGI level and for corporations by size of reported assets. For individuals, the
information illustrates, in percentage terms, the reported tax burden borne by various reported AGI levels. For corporations, the
information illustrates, in percentage terms, the reported tax burden borne by these entities by various sizes of their reported
total assets. The graphs are only representative of more detailed data and analysis available from the IRS’s Statistics of Income
Division.
                                                                144
                                                                                                                                   U.S. Department of the Treasury | Fiscal Year 2013


                    Average Adjusted Gross Income (AGI) and                                                                           Individual Income Tax Liability as a Percentage of AGI
                     Average Individual Income Tax Liability                                                                                             Tax Year 2011
                                  Tax Year 2011

      1,600,000                                                                                                                     25.0%                                                   23.5%

      1,400,000                                                                                                                                                                     19.6%
                        Average AGI
                                                                                                                                    20.0%
      1,200,000         Average Income Tax




                                                                                               1,504,944




                                                                                                                      Percentage
      1,000,000                                                                                                                     15.0%                                   12.6%
Dollars




          800,000
                                                                                                                                                                     8.6%




                                                                                                           354,225
                                                                                                                                    10.0%




                                                                                    284,306
          600,000
                                                                134,007                                                                                   5.5%
          400,000
                                                   71,169



                                                                                                                                     5.0%


                                                                              55,866
                                                                                                                                            2.6% 2.8%
                                        39,083
                              21,965




                                                             16,872
                                                 6,132
                      2,276




                                       2,168




          200,000
                              615
                      60




                                                                                                                                     0.0%
               0




INDIVIDUAL INCOME TAX LIABILITY

Tax Year 2011

                                                                                                                                                                          Average
                                                                                                                                                  Average AGI         income tax        Income tax
    Adjusted gross               Number of taxable                                                                            Total income         per return          per return              as a
    income                                returns                                         AGI                                           tax         (in whole           (in whole       percentage
    (AGI)                          (in thousands)                                (in millions)                                (in Millions)           dollars)            dollars)          of AGI

    Under $15,000                                    38,456               $                         87,540                 $            2,304    $        2,276       $         60              2.6%
    $15,000 under
    $30,000                                          31,078                                    682,619                                  19,113           21,965                 615             2.8%
    $30,000 under
    $50,000                                          25,504                                    996,783                                 55,287            39,083               2,168             5.5%
    $50,000 under
    $100,000                                         30,876                                   2,197,423                               189,342             71,169              6,132             8.6%
    $100,000 under
    $200,000                                          14,756                                  1,977,406                               248,968           134,007              16,872            12.6%
    $200,000 under
    $500,000                                           3,802                                  1,080,932                               212,403           284,306              55,866            19.6%

    $500,000 or more                                        898                               1,351,440                               318,094         1,504,944             354,225            23.5%

    Total                                         145,370                 $              8,374,143                        $         1,045,511                    -                  -               -




                                                                                                                     145
                                                                                                           U.S. Department of the Treasury | Fiscal Year 2013

                                                 Corporation Tax Liability as a Percentage of Taxable Income
                                                                    Tax Year 2010 Data
                                 35.0%




                                                                                                              32.0%
                                                                                           32.6%


                                                                                                   32.1%




                                                                                                                                30.1%
                                 30.0%




                                                                                                                      30.2%
                                                                                 31.4%
                                                                        28.9%




                                                                                                                                         28.2%
                                 25.0%




                                                             22.9%
                                         31.8%
                                 20.0%




                                                                                                                                                 19.6%
                                                     19.1%
                       Percent


                                 15.0%

                                 10.0%

                                  5.0%

                                 0.0%




CORPORATION TAX LIABILITY

Tax Year 2010

 Total Assets                            Income subject to tax                           Total income tax after credits                         Percentage of income tax
 (in Thousands)                                  (in Millions)                                           (in Millions)                       after credits to taxable income
 Zero Assets                                     $                    15,068                $                                   4,789                    31.8%
 $1 under $500                                                           6,167                                                   1,178                   19.1%
 $500 under $1,000                                                      3,231                                                      741                   22.9%
 $1,000 under $5,000                                                  10,274                                                    2,970                    28.9%
 $5,000 under $10,000                                                   6,890                                                   2,162                    31.4%
 $10,000 under $25,000                                                 10,312                                                   3,358                    32.6%
 $25,000 under $50,000                                                 9,900                                                    3,175                    32.1%
 $50,000 under $100,000                                               12,955                                                    4,150                    32.0%
 $100,000 under $250,000                                              23,640                                                    7,143                    30.2%
 $250,000 under $500,000                                              29,057                                                    8,732                    30.1%
 $500,000 under $2,500,000                                           109,072                                                   30,770                    28.2%
 $2,500,000 or more                                                  785,609                                                  153,801                    19.6%
 Total                                           $           1,022,175                         $                        222,969                             -



SECTION C: MANAGEMENT AND PERFORMANCE CHALLENGES
IDENTIFIED BY THE INSPECTORS GENERAL AND THE SECRETARY’S
RESPONSES
In accordance with the Reports Consolidation Act of 2000, the Inspectors General issue Semiannual Reports to Congress that
identify specific management and performance challenges facing the Department. At the end of each fiscal year, the Treasury
Office of Inspector General (OIG) and Treasury Inspector General for Tax Administration (TIGTA) send an update of these
management challenges to the Secretary and cite any new challenges for the upcoming fiscal year. The Special Inspector General
for TARP does not provide the Secretary with a semiannual report or annual update on management and performance
challenges. This section contains the management and performance challenges letters from OIG and TIGTA and the Secretary’s
responses describing actions taken and planned to address the challenges.

                                                                                             146
                                        DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220

                                                  November 14, 2013

     OFFICE OF
INSPECTOR GENERAL

                        INFORMATION MEMORANDUM FOR SECRETARY LEW

         FROM:          Eric M. Thorson
                        Inspector General

         SUBJECT:       Management and Performance Challenges Facing the
                        Department of the Treasury (OIG-CA-14-004)


         In accordance with the Reports Consolidation Act of 2000, we are providing you with our
         perspective on the most serious management and performance challenges facing the Department
         of the Treasury.

         In assessing the Department’s most serious challenges, we are mindful of two factors affecting
         Treasury. The first, which we reported last year, is the sluggish economic recovery despite the
         efforts of the Administration and Congress. The second is the Nation’s budget deficit. In my
         memoranda for each of the last 2 years, we acknowledged that in looking for ways to address the
         deficit, cuts to programs and operations were likely although the extent and specific nature of
         any cuts were unknown. This situation remains the same today. The results of the last national
         election brought little clarity to the direction the Federal Government will take in addressing
         these matters, as evidenced by the recent government shutdown and the uncertainties
         surrounding the future debt ceiling debate. While a significant number of issues related to the
         future of programs like Social Security and Medicare have once again been put off, problems
         would be exacerbated if the Government were to default on its obligations. The polarized
         political environment in which the Federal Government has been operating since 2010, with the
         repeated cycle of budget and debt ceiling stopgaps, has resulted in more waste and inefficiency.
         At the same time, more incidents of imprudent use of funds, such as certain conference spending
         by the General Services Administration, Internal Revenue Service, and the Department of
         Veterans Affairs, were brought to light. While the Department has implemented strong controls
         over spending for things like conferences, it is imperative that senior leaders and front-line
         managers remain ever vigilant when spending the funds that have been entrusted to them.

         As I have also noted previously, Treasury has, in recent years, had to administer additional
         responsibilities intended to support and improve the country’s economy. To do so, in nearly
         every case, the Department had to start up and administer these new responsibilities with thin
         staffing and resources. That situation remains the case. Like last year, we cannot emphasize
         enough to the Department’s stakeholders the critical importance that Treasury is resourced
         sufficiently to maintain a strong control environment.




                                                        147
                                                  U.S. Department of the Treasury | Fiscal Year 2013



This year we are reporting four challenges, which are repeated from last year.

•   Continued Implementation of Dodd-Frank (in our prior year memorandum, we referred to
    this challenge as “Transformation of Financial Regulation” but have renamed it as many
    aspects of Dodd-Frank Wall Street Reform and Consumer Protection Act have been
    implemented and are maturing)

•   Management of Treasury’s Authorities Intended to Support and Improve the Economy

•   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement
•   Gulf Coast Restoration Trust Fund Administration

In addition to the above challenges, we are continuing to report our elevated concerns about three
matters – cybersecurity, currency and coin production, and the need to document key activities
and decisions. We close our memorandum this year with observations about the Bureau of the
Fiscal Service (Fiscal Service) and its Do Not Pay Initiative.

2013 Management and Performance Challenges
Challenge 1: Continued Implementation of Dodd-Frank

In response to the need for financial reform, Congress passed Dodd-Frank in July 2010. Among
other things, Dodd-Frank established the Financial Stability Oversight Council (FSOC), which
you chair as the Treasury Secretary. FSOC’s mission is to identify risks to financial stability that
could arise from the activities of large, interconnected financial companies; respond to any
emerging threats to the financial system; and promote market discipline. FSOC and its Federal
agency members must continue to work in order to meet all of FSOC’s responsibilities. That
said, FSOC accomplished much over the last year. For example:

    Annual reporting – As required, FSOC issued its third annual report in July 2013. The report
    contained recommendations to (1) further reforms to address structural vulnerabilities in key
    markets, (2) take steps to address reform of the housing finance market, (3) identify
    alternative interest rate benchmarks, (4) heighten risk management and supervisory attention
    in specific areas, (5) monitor the impact of the low interest rate environment, (6) ensure
    enhanced capital planning and robust capital for financial institutions, and (7) ensure
    implementation and coordination on financial regulatory reform.

    Designation of nonbank financial institutions for consolidated supervision – FSOC
    designated two companies for additional supervision by the Board of Governors of the
    Federal Reserve System (FRB) in July 2013. After considering an appeal, FSOC designated
    one additional company in September 2013. FSOC continues to review other nonbank
    financial institutions for potential designation.

    Money Market Reform – In November 2012, FSOC issued for public comment proposed
    recommendations to the Securities and Exchange Commission (SEC) to address the
    structural susceptibility of money market funds to investor runs. FSOC’s proposed
    recommendations state that if SEC moves forward with meaningful structural reforms of
    money market funds before FSOC finalizes its recommendation, FSOC expects not to issue a

                                                148
                                                          U.S. Department of the Treasury | Fiscal Year 2013
    final recommendation. In this regard, SEC posted a money market fund reform proposal in
    the Federal Register on June 19, 2013, with comments due by September 17, 2013.

    Risk Monitoring and Regulatory Coordination – FSOC has considered issues such as
    sovereign fiscal developments in Europe and the U.S., the multi-billion dollar trading losses
    by JPMorgan Chase, the state of mortgage foreclosures in the U.S., the failure of MF Global,
    the impact of Superstorm Sandy on financial markets, weaknesses in the setting process of
    the London Interbank Offered Rate (LIBOR), 1 and risks to financial stability arising from
    cybersecurity vulnerabilities. To facilitate this risk monitoring process, FSOC established the
    Systemic Risk Committee which serves as a forum for member agency staff to identify and
    analyze potential risks that may extend beyond the jurisdiction of any one agency.

The Council of Inspectors General on Financial Oversight (CIGFO), also established by Dodd-
Frank and which I chair, facilitates the sharing of information among member inspectors general
with a focus on reporting our concerns that may apply to the broader financial sector and ways to
improve financial oversight. Accordingly, CIGFO is an important source of independent analysis
to FSOC. As required, CIGFO met quarterly and issued its third annual report in July 2013.
CIGFO also established its second Working Group in January 2013. The Working Group
assessed the rules, procedures, and practices established by FSOC and its members to determine
which financial market utilities (FMU) 2 should be designated as systemically important. The
Working Group determined that FSOC carried out the designation activities as established by
Dodd-Frank and the FSOC FMU Committee carried out its activities in the designation process
as intended by FSOC. However, the Working Group noted that the FMU Committee did not
have a designated chairperson and did not keep records of its meetings. Also, the Working Group
found that FSOC continues to evaluate whether to consider for designation foreign-based FMUs;
retail FMUs; or payment, clearing, and settlement activities conducted by financial institutions,
but had not made any such designations at the time of the review. In addition, the Working
Group found FSOC relied on the respective regulators of the designated FMUs to monitor their
activities and report updates to FSOC. However, there was no agreement or process established
in writing by FSOC that defined the nature, frequency, and communication of such updates. The
Working Group’s July 2013 report made five recommendations to FSOC to address these
matters. Going forward, CIGFO will continue to review FSOC operations and its efforts to
oversee the U.S. financial system.

Dodd-Frank also established two offices within Treasury: the Office of Financial Research
(OFR) and the Federal Insurance Office (FIO). 3 OFR is the data collection, research and analysis
arm of FSOC. Last year, we reviewed the stand-up of OFR. In our report on that review, we
noted among other things that OFR had not yet developed performance measures for the office.
We are currently conducting a review to assess the design and implementation of performance

1 LIBOR is the interest rate at which banks can borrow unsecured funds from other banks in London wholesale
  money markets, as measured by daily surveys of the British Bankers’ Association. LIBOR is used to set rates on
  mortgages, student loans, car loans, credit cards, and some complex financial derivatives.
2 FMUs are systems that provide the essential infrastructure for transferring, clearing, and settling payments,
  securities, and other financial transactions among financial institutions or between financial institutions and the
  system. FSOC may designate an FMU as systemically important under Title VIII of Dodd-Frank if a failure or a
  disruption to the functioning of the FMU could create, or increase, the risk of significant liquidity or credit
  problems spreading among financial institutions or markets and thereby threaten the stability of the U.S. financial
  system.
3 Dodd-Frank also established two other offices within Treasury – the Offices of Minority and Women Inclusion
  (OMWI) at Departmental Offices and at the Office of the Comptroller of the Currency. We are currently
  conducting a review of OMWI at Departmental Offices.
                                                         149
                                                      U.S. Department of the Treasury | Fiscal Year 2013
measures by OFR. FIO is charged with monitoring the insurance industry, including identifying
gaps or issues in the regulation of insurance that could contribute to a systemic crisis in the
insurance industry or financial system. We are currently reviewing the stand-up of FIO. We do
note, however, that FIO has not completed or submitted two reports required by Dodd-Frank.

    1. A report on how to modernize and improve the system of insurance regulation in the
       U.S. – Due 18 months after enactment (January 27, 2012), now late by nearly 22 months

    2. A report describing the breadth and scope of the global reinsurance market and the
       critical role such a market plays in supporting insurance in the U.S. – Due September 30,
       2012, now late by nearly 14 months

The other regulatory challenges that we discussed last year still remain. Specifically, since
September 2007, 130 financial institutions supervised by the Office of the Comptroller of the
Currency (OCC) or the former Office of Thrift Supervision (OTS) have failed, with estimated
losses to the Deposit Insurance Fund of approximately $36.1 billion. While we expect that bank
failures will continue, we note the number of failures has dramatically decreased since 2010.
Unless there is an unanticipated significant disruption to the financial markets, the rate of bank
failures should remain low. Although many factors contributed to the economic crisis, our failed
bank reviews generally found that OCC and the former OTS did not identify early or force
timely correction of unsafe and unsound practices by numerous failed institutions under their
supervision.

Furthermore, in 2010, the unprecedented speed at which servicers foreclosed on defaulted
mortgages revealed flaws in the processing of those foreclosures. In response, the federal
banking regulators completed a review of foreclosure practices at major mortgage servicers. The
review found deficiencies in the servicers’ foreclosure processes and, as a result, the federal
banking regulators issued formal enforcement actions against 14 mortgage servicers and 2 third-
party providers subject to the review. Among other things, the enforcement actions required the
servicers to implement an independent foreclosure review (IFR) process using independent
consultants to determine financial injury to affected borrowers. We reviewed OCC’s oversight of
the servicers’ efforts to comply with the enforcement actions. We found that OCC had developed
a framework to monitor the servicers’ efforts and oversee the foreclosure review process.
However, we found areas where OCC oversight needed strengthening. Specifically, OCC had
not performed comprehensive direct testing of individual independent foreclosure reviews to
assess whether independent consultants were performing the reviews objectively, consistently,
and in compliance with OCC guidance. In addition, improvements were needed in the
documentation of various aspects of OCC oversight. 4 Subsequent to our review, OCC negotiated
a change to the terms of the enforcement actions with 11 of the 12 servicers under OCC
supervision because the foreclosure reviews were taking longer than anticipated and delaying
compensation to affected borrowers. We are currently reviewing OCC’s oversight of the
servicers’ compliance with the amended enforcement actions.

As we have stated in the past, the intention of Dodd-Frank is most notably to prevent, or at least
minimize, the impact of a future financial sector crisis on the U.S. economy. To accomplish this,
Dodd-Frank has placed great responsibility with Treasury and with the Secretary. This
management challenge from our perspective is to maintain an effective FSOC process supported

4 Office of Inspector General (OIG), Safety and Soundness: Improvement Needed in OCC’s Oversight of
  Foreclosure Related Consent Orders (OIG-13-049; Sep. 9, 2013)
                                                     150
                                                 U.S. Department of the Treasury | Fiscal Year 2013
by OFR and FIO within Treasury and to build a streamlined banking regulatory structure that
timely identifies and appropriately responds to emerging risks. This is especially important in
times of economic growth and financial institution profitability, when such government action is
generally unpopular. As the regulatory framework prescribed by Dodd-Frank is institutionalized
and matures, we will reassess our reporting of it as a management challenge in future years..

Challenge 2: Management of Treasury’s Authorities Intended to Support and Improve the
Economy

Congress provided Treasury with broad authorities to address the recent financial crisis under the
Housing and Economic Recovery Act (HERA) and the Emergency Economic Stabilization Act
(EESA) enacted in 2008, the American Recovery and Reinvestment Act of 2009 (Recovery Act),
and the Small Business Jobs Act of 2010. As we stated last year, to a large extent Treasury’s
program administration under these acts has matured, but challenges remain in managing
Treasury’s programs and its outstanding investments. Additionally, the long-term impact on
small business lending resulting from investment decisions under Small Business Jobs Act
programs is still not clear. Our discussion of this challenge will begin with this act and then
address the others for which Treasury is responsible.

Management of the Small Business Lending Fund and State Small Business Credit Initiative

Enacted in September 2010, the Small Business Jobs Act created within Treasury a $30 billion
Small Business Lending Fund (SBLF) to assist financial institutions and provided $1.5 billion to
Treasury to allocate to eligible state programs through the State Small Business Credit Initiative
(SSBCI). These represent key initiatives of the Administration to increase lending to small
businesses, and thereby support job creation. Both programs were slow to disburse funds, with
Treasury approving the majority of SBLF and SSBCI applications during the last quarter of
fiscal year 2011. Because the majority of applicants waited until near the application deadlines to
apply, Treasury encountered significant delays in implementing the two programs. As a result,
Treasury was rushed in making a number of SBLF investment decisions to meet the funding
deadlines, and disbursed the initial installment of SSBCI funds without establishing clear
oversight obligations of participating states. Now that Treasury has completed the approval
process for these two programs, the challenge is to exercise sufficient oversight to ensure that
funds are used appropriately, SBLF dividends owed Treasury are paid, and programs achieve
intended results.


   SBLF – As of September 2011, Treasury had disbursed more than $4 billion to 332 financial
   institutions across the country. Of the institutions funded, approximately 41 percent used
   SBLF funds to refinance securities issued under the Troubled Asset Relief Program’s Capital
   Purchase Program. Institutions receiving investments under the SBLF program pay dividends
   to Treasury at rates that decrease as the institutions increase their qualified small business
   lending activity. During the first 4½ years of Treasury’s investment, participating institutions
   initially pay dividends to Treasury of up to 5 percent, but that rate may be reduced to as low
   as 1 percent based on institutions’ self-reported increases in small business lending.
   Institutions are under no obligation to make dividend payments as scheduled or to pay off
   previously missed payments before exiting the program. There are provisions for increased
   restrictions as dividends are missed, including a prohibition against an institution paying
   dividends on common stock and a provision for Treasury to appoint one or two members to

                                                151
                                               U.S. Department of the Treasury | Fiscal Year 2013
the bank’s board of directors. The effectiveness of these measures, however, can be affected
if the institution’s regulator has already restricted it from making dividend payments.

Treasury faces challenges in measuring program performance and ensuring that the SBLF
program meets its intended objective of increasing lending to small businesses. The intent of
the authorizing legislation was to stimulate lending to small businesses, but participating
institutions are not required to report how they use Treasury’s investments and are under no
obligation to increase their small business lending. Further, although participating institutions
must report their small business lending activity, there is no way to isolate the impact of
SBLF from other factors that could affect lending to determine program impact. Once
participating institutions commingle SBLF disbursements with other funds, it is difficult to
track how the funds are used. Additionally, Treasury does not verify that small business
lending reported by participating institutions meet SBLF requirements and should be
included when measuring performance and making dividend rate adjustments.

SSBCI – As of September 30, 2013, Treasury had disbursed approximately $912 million of
the $1.4 billion in SSBCI funding awarded to 56 participating states, territories, and
municipalities. Treasury disburses the funds in thirds, with each successive third transferred
after a state certifies that it has used 80 percent of its last transfer. States have been slow to
use their SSBCI funding as many either had to establish small business lending programs to
be able to use their funds and/or redirect funds transferred midstream to better performing
programs than those originally designated.

Primary oversight of the use of SSBCI funds is the responsibility of each participating state.
The states may use funds awarded for programs that partner with private lenders to extend
credit to small businesses. Such programs may include those that finance loan loss reserves
and provide loan insurance, loan guarantees, venture capital funds, and collateral support.
States must report quarterly and annually on their use of funds and certify quarterly that their
programs approved for SSBCI funding comply with program requirements.

However, Treasury will face challenges in holding states accountable for the proper use of
funds as it has not clearly communicated what is prohibited and has frequently changed
program guidelines, making it difficult for states to ensure the proper use of funds. Treasury
also has not appropriately addressed how self-reported, non-compliant transactions will be
remedied. Current program guidance suggests that if a state self-reports a misuse of funds,
the funds are not subject to an OIG audit or recoupment.

As a result, Treasury will have difficulty finding states to be in default of program
requirements and holding them accountable.




                                              152
                                                U.S. Department of the Treasury | Fiscal Year 2013



Management of Recovery Act Programs

Since the Recovery Act was enacted in 2009, Treasury has been responsible for overseeing an
estimated $150 billion of funding and tax relief for programs that provided payments for
specified energy property in lieu of tax credits and payments to states for low-income housing
projects in lieu of tax credits; grants and tax credits through the Community Development
Financial Institutions (CDFI) Fund; economic recovery payments to Social Security beneficiaries
and others; and payments to U.S. territories for distribution to their citizens. While funding for
non-Internal Revenue Service (IRS) programs is coming to a close, Treasury must continue to
oversee approximately $25 billion to recipients under Treasury’s payments in lieu of tax credit
programs – to persons for specified energy properties and to states for low-income housing
projects. That is, management must continue to ensure award compliance of approximately
93,000 recipients over an extended period of time (5 years from the date of award for the
specified energy properties and 15 years from the date of award for low-income housing
projects). Additionally, our Office of Investigations had several open matters involving claims
for low-income housing projects and specified energy properties.

Management of the Housing and Economic Recovery Act and the Emergency Economic
Stabilization Act

Through several HERA and EESA programs, Treasury injected much needed capital into
financial institutions and businesses.

Under HERA, Treasury supported the financial solvency of the Federal National Mortgage
Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac),
which continue to operate under the conservatorship of the Federal Housing Finance Agency. To
cover the losses of the two government sponsored enterprises (GSE) and maintain a positive net
worth, Treasury purchased senior preferred stock, and as of September 30, 2013, invested $187
billion in the two GSEs. Although the GSEs did not require Treasury’s support in fiscal year
2013, their futures are still uncertain and further assistance may be required. If such support is
needed, the current funding capacity available to Fannie Mae is $117.6 billion and available to
Freddie Mac is $140.5 billion.

Through the Housing Finance Agency Initiative supporting state and local finance agencies,
Treasury purchased $15.3 billion of securities issued by Fannie Mae and Freddie Mac backed by
state and local Housing Finance Agency bonds (New Issue Bond Program) and committed $8.2
billion for a participation interest in the obligations of Fannie Mae and Freddie Mac (Temporary
Credit and Liquidity Program). Treasury received payments of principal and interest on its
securities, and as of September 30, 2013, holds an investment of approximately $9.3 billion.
Additionally, several state and local housing agencies opted out of the Temporary Credit and
Liquidity Program reducing Treasury’s commitment to about $2.0 billion. Treasury must
continue to monitor the underlying assets of its investment in the Housing Finance Agency
Initiative to ensure the accuracy of mortgage principal, interest, and fees collected.

As required by Dodd-Frank, Treasury and the Department of Housing and Urban Development
conducted a study on ending the conservatorship of Fannie Mae and Freddie Mac and
minimizing the cost to taxpayers. The report on this study was presented to the Congress in

                                               153
                                                     U.S. Department of the Treasury | Fiscal Year 2013
February 2011. 5 Regarding the long-term structure of housing finance, the report provided three
options for increased privatization without recommending a specific option. Since this report,
other legislation has been proposed in the Congress to address housing finance reform, but a
legislative solution that all can agree on is still in a formative stage. Accordingly, it is difficult to
predict what lies ahead for winding down the Fannie Mae and Freddie Mac conservatorships and
reforming housing finance.

In addition to SBLF and SSBCI, the Small Business Jobs Act of 2010 provided Treasury with
authority to guarantee the full amounts of bonds and notes issued for community and economic
development activities not to exceed 30 years. Under this authority, Treasury may issue up to
10 guarantees of no less than $100 million each, but may not exceed $1 billion in total aggregate
guarantees in any fiscal year. As the program administrator, CDFI Fund was tasked with
establishing regulations and implementing the program by September 27, 2012. CDFI Fund
experienced challenges in standing up the program and missed the program’s statutory
implementation date. The program, along with regulations, was eventually established in June
2013. Treasury received guarantee authority of $500 million in fiscal year 2013, and as of
September 30, 2013, guaranteed $325 million of bonds to be issued in fiscal year 2014. The
guarantee program is authorized through fiscal year 2014. As with any new program, successful
implementation will depend on a strong internal control structure and senior management
involvement and support at the front end. Our office plans to assess the CDFI Fund’s
administration of this program in 2014.

Challenge 3: Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
Enforcement

As we have reported in the past, ensuring criminals and terrorists do not use our financial
networks to sustain their operations and/or launch attacks against the U.S. continues to be a
challenge. Treasury’s Office of Terrorism and Financial Intelligence (TFI) is dedicated to
disrupting the ability of terrorist organizations to fund their operations. TFI brings together
intelligence gathering and analysis, economic sanctions, international cooperation, and private-
sector cooperation to identify donors, financiers, and facilitators supporting terrorist
organizations, and disrupt their ability to fund them. Enhancing the transparency of the financial
system is one of the cornerstones of this effort. Treasury carries out its responsibilities to
enhance financial transparency through the Bank Secrecy Act (BSA) and the USA Patriot Act.
The Financial Crimes Enforcement Network (FinCEN) is the Treasury bureau responsible for
administering BSA.

Over the past decade, TFI has made progress closing the vulnerabilities that allowed money
launderers and terrorists to use the financial system to support their activities. Nonetheless,
significant challenges remain. One challenge is to ensure the continued cooperation and
coordination of all the organizations involved in its anti-money laundering and combating
terrorist financing efforts. A large number of federal and state entities participate with FinCEN to
ensure compliance with BSA, including the four federal banking agencies, IRS, the Securities
and Exchange Commission, the Department of Justice, and state regulators. Many of these
entities also participate in efforts to ensure compliance with U.S. foreign sanction programs
administered by Treasury’s Office of Foreign Assets Control (OFAC).


5 Department of the Treasury and the Department of Housing and Urban Development, Reforming America’s
  Housing Finance Market - A Report To Congress (Feb. 2011)
                                                    154
                                                           U.S. Department of the Treasury | Fiscal Year 2013
Neither FinCEN nor OFAC have the resources or capability to maintain compliance with their
programs without significant help from these other organizations. Accordingly, to be effective,
Treasury must establish and maintain working relationships with these entities. To this end,
FinCEN signed memoranda of understanding with 73 federal and state regulators to ensure that
information is exchanged between FinCEN and the entities charged with examining for BSA
compliance. While important to promote the cooperation and coordination needed, it should be
noted that these instruments are nonbinding and carry no penalties for violations, and their
overall effectiveness has not been independently assessed.

In light of these challenges, in November 2012, the Department established a new anti-money
laundering (AML) task force composed of federal policymakers, regulators, and law
enforcement agencies to examine and strengthen the U.S. AML framework. The objective of the
task force was to develop recommendations to address any gaps, redundancies, and inefficiencies
in the legal and regulatory foundation, examination function, and enforcement efforts of the
AML framework. During 2013, the AML task force was in the early stages of data gathering and
analysis.

Last year, financial institutions filed approximately 18.7 million BSA reports, including nearly
1.8 million suspicious activity reports (SAR). While the number of SARs has been increasing
since 2001, that alone does not necessarily indicate everything that is going well. Our audits have
found problems with the quality of the data reported. Other audits have also identified gaps in the
regulatory examination programs of the bank regulators and examining agencies.

More recently, vulnerabilities in certain very large institutions’ monitoring of transactions for
money laundering and terrorist financing were revealed. For example, in 2013, OCC filed a
consent cease and desist order against JP Morgan Chase and Company for critical deficiencies
found in its BSA program with respect to submitting SARs, monitoring transactions, conducting
customer due diligence and risk assessment, and implementing adequate systems of internal
controls and independent testing. Also, as a result of a critical congressional report on OCC’s
oversight of HSBC’s BSA program in July 2012, the Comptroller of the Currency has taken
actions to enhance its supervision of BSA compliance.

These include issuing a supervisory memorandum instructing examiners to consider BSA/AML
examination findings in a safety and soundness context when assigning the “management”
component of a bank’s CAMELS rating. 6 OCC also plans to issue guidance for examiners to cite
violations when a bank fails to meet any one of the statutory minimum requirements for a
BSA/AML program. 7 In addition, OCC created a large bank review team, a Major Matters
Supervision Review Committee, and an internal bank supervision appeals program for its
examiners.




6 Federal banking agencies use the CAMELS rating system to evaluate the soundness of financial institutions on a
  uniform basis and to identify institutions requiring special supervisory attention or concern. A financial institution
  is assigned a composite rating based on ratings on six components: Capital adequacy, quality of Assets, the
  capability of the board of directors and Management, the quality and level of Earnings, the adequacy of Liquidity,
  and Sensitivity to market risk.
7 At a minimum, a BSA program must reasonably provide (1) a system of internal controls, (2) independent testing,
  (3) the designation of individual(s) responsible for managing the BSA program, and (4) the training of appropriate
  personnel.
                                                          155
                                                          U.S. Department of the Treasury | Fiscal Year 2013
OCC took these actions in an effort to ensure that OCC takes timely actions for financial
institutions with multiple Matters Requiring Attention 8 or BSA/AML program violations.

FinCEN needs to continue its efforts with regulators and examining agencies to ensure that
financial institutions establish effective BSA compliance programs and file accurate and
complete BSA reports. Furthermore, FinCEN needs to complete work to issue anti-money
laundering regulations, as it determines appropriate, for some non-bank financial institutions
such as vehicle dealers, pawnbrokers, travel agents, finance companies, and real estate closing
and settlement services, as well as financial services intermediaries, such as investment advisors.

FinCEN also faces the continuing challenge to enhance financial transparency to strengthen
efforts to combat financial crime. One area that has FinCEN’s attention is clarifying and
strengthening customer due diligence requirements and associated supervisory expectations. This
includes a possible requirement that institutions identify beneficial ownership of their
accountholders so that the true identities of their customers are not hidden. FinCEN issued an
advance notice of proposed rulemaking in March 2012 to address this.

FinCEN’s BSA Information Technology (IT) Modernization Program, which began in 2008 and
is scheduled for completion in 2014, is being built to ensure efficient management, safeguarding,
and use of BSA information. On a positive note, we completed four audits of the program
pursuant to a Congressional directive in which we concluded that FinCEN is generally meeting
schedule and cost milestones, and had an appropriate oversight structure in place. As a result of a
2013 reorganization, FinCEN did redefine some requirements and priorities. As the program
moves closer to completion, FinCEN plans to engage users to address their concerns and
suggested enhancements. FinCEN also plans to ensure that users are adequately trained to use
the new system.

We note that FinCEN continues to have a difficult challenge in dealing with money service
businesses (MSB). To that end, FinCEN has taken steps to improve MSB examination coverage
and compliance. For example, in past years FinCEN finalized new rules and increased
enforcement designed to ensure MSBs comply with BSA requirements, including registration
and report filing requirements. However, ensuring MSBs register with FinCEN has been an
ongoing challenge. Furthermore, while IRS serves as the examining agency for MSBs, it has
limited resources to inspect MSBs or identify unregistered MSBs. FinCEN engaged the states to
participate in joint MSB examinations with IRS and for outreach programs aimed at these
nonbank institutions. FinCEN, IRS, and the states need to work together to ensure that MSBs
operating in this country are identified, properly registered, and in compliance with all applicable
laws and regulations.

FinCEN has also been concerned with MSBs that use informal value transfer systems and with
MSBs that issue, redeem, or sell prepaid access through physical means (cards or other devices)
or non-physical means (codes, electronic serial numbers, mobile identification numbers, or
personal identification numbers). MSBs using informal value transfers have been identified in a
number of attempts to launder proceeds of criminal activity or finance terrorism. Similarly,
prepaid access can make it easier for some to engage in money laundering or terrorist financing.

8 Matters Requiring Attention are practices that (1) deviate from sound governance, internal control, and risk
  management principles, which may adversely impact the bank’s earnings or capital, risk profile, or reputation, if
  not addressed; or (2) result in substantive noncompliance with laws and regulations, internal policies or processes,
  OCC supervisory guidance, or conditions imposed in writing in connection with the approval of any application or
  other request by a bank.
                                                         156
                                                            U.S. Department of the Treasury | Fiscal Year 2013
In September 2010, FinCEN notified financial institutions to be vigilant and file SARs on MSBs
that may be inappropriately using informal value transfers when they use financial institutions to
store currency, clear checks, remit and receive funds, and obtain other financial services. In
2011, FinCEN issued a final rule applying customer identification, recordkeeping, and reporting
obligations to providers and sellers of prepaid access, and continues to issue clarifying guidance
for institutions to implement the requirements. Ensuring institutions properly implement these
rules and maintain compliance will be a continuing challenge.

To detect possible illicit wire transfer use of the financial system, FinCEN also proposed a
regulatory requirement for certain depository institutions and MSBs to report cross-border
electronic transmittals of funds. FinCEN determined that establishing a centralized database will
greatly assist law enforcement in detecting and ferreting out transnational organized crime,
multinational drug cartels, terrorist financing, and international tax evasion. Ensuring financial
institutions, particularly MSBs, comply with the cross-border electronic transaction reporting
requirements, as well as managing this new database, is another significant challenge for
FinCEN. It should be noted that this system cannot be fully implemented until FinCEN
completes work on its BSA IT Modernization Program.

Other matters of concern are on the horizon. One concern is the increasing use of mobile devices
for banking, internet banking, internet gaming, and peer-to-peer transactions. FinCEN, OFAC,
and other regulatory agencies will need to make sure that providers of these services ensure
transactions conform to BSA requirements. Monitoring the transactions of tomorrow may prove
to be increasingly difficult for Treasury. In this regard, in March 2013, FinCEN issued guidance
on virtual currencies 9 and regulatory responsibilities to provide clarity for businesses and
individuals engaged in this expanding field of financial activity. FinCEN’s rules defined certain
businesses or individuals which use convertible virtual currencies or make a business of
exchanging, accepting, and transmitting them as MSBs. MSBs have registration requirements
and a range of anti-money laundering, recordkeeping, and reporting responsibilities under
FinCEN’s regulations.

Given the criticality of this challenge to the Department’s mission, we continue to consider anti-
money laundering and combating terrorist financing as inherently high-risk. In this regard, we
have on-going BSA-related audits of FinCEN’s programs for MSB compliance and for
information sharing under section 314 of the USA Patriot Act, FinCEN’s and OFAC’s use of
Reports of Blocked Transactions as SARs, and OCC’s BSA and USA Patriot Act examinations
and enforcement actions. We are also reviewing OFAC’s licensing program (where OFAC may
grant exceptions to a sanction program as allowed under law) and performing a case study
review of its Libyan sanctions program. We plan to complete these audits in fiscal year 2014.




9 Bitcoins are an example of a virtual currency. These consist of a series of numbers created automatically on a set
  schedule and traded anonymously between digital addresses or "wallets." Certain exchange firms buy or sell
  Bitcoins for legal tender at a rate that fluctuates with the market. Congress and regulators continue their efforts to
  determine the legality, legitimacy, and regulatory framework for virtual currencies such as Bitcoins.
                                                          157
                                                         U.S. Department of the Treasury | Fiscal Year 2013
Challenge 4: Gulf Coast Restoration Trust Fund Administration

In response to the Deepwater Horizon oil spill, Congress enacted the Resources and Ecosystems
Sustainability, Tourist Opportunities, and Revived Economies of the Gulf Coast States Act of
2012 (RESTORE Act). This law established within Treasury the Gulf Coast Restoration Trust
Fund and requires Treasury to deposit in the Trust Fund 80 percent of administrative and civil
penalties paid by responsible parties for the Deepwater Horizon oil spill. The funds are to be
distributed for environmental and economic restoration activities affecting the Gulf Coast states
(Alabama, Florida, Louisiana, Mississippi, and Texas). While the total amount that will
eventually be deposited into the Trust Fund is unknown at this time, estimates range from
$5 billion to $21 billion. The Trust Fund has already received a deposit of approximately
$323 million, part of a $1 billion settlement with the Transocean defendants. Litigation is
ongoing with other defendants.

Under the RESTORE Act, money from the Trust Fund is allocated as five components:

    •   Direct Component (35 percent) – administered by Treasury for allocation in equal shares
        to the Gulf Coast states for ecological and economic restoration of the Gulf Coast region

    •   Council-selected Restoration Component (30 percent) – administered by the Gulf Coast
        Ecosystem Restoration Council 10 for allocation to Gulf Coast states and federal agencies,
        pursuant to a comprehensive plan approved by the council, to undertake projects and
        programs using the best available science that would restore and protect the Gulf Coast
        region’s natural resources, ecosystems, fisheries, marine and wildlife habitats, beaches,
        and coastal wetlands

    •   Spill Impact Component (30 percent) – administered by the Gulf Coast Ecosystem
        Restoration Council for allocation to the Gulf Coast states for eligible oil spill restoration
        activities, pursuant to the council’s approval of the states’ plans to improve the
        ecosystems or economy of the Gulf Coast region, using a regulatory formula

    •   National Oceanic and Atmospheric Administration (NOAA) Science Program
        Component (2.5 percent) – administered by NOAA for its Gulf Coast Ecosystem
        Restoration Science, Observation, Monitoring, and Technology Program. This program is
        to carry out research, observation, and monitoring to support the long-term sustainability
        of the ecosystem, fish stocks, fish habitat, and the recreational, commercial, and charter
        fishing industry in the Gulf of Mexico

    •   Centers of Excellence Research Grants Program Component (2.5 percent) – administered
        by Treasury for allocation in equal shares to the Gulf Coast states for competitive grant
        awards to nongovernmental entities and consortia in the Gulf Coast region, including
        public and private institutions of higher education, to establish centers for excellence to
        conduct Gulf Coast region research




10 The Gulf Coast Ecosystem Restoration Council consists of the following members, or designees: (1) at the
  federal level, the Secretaries of the Interior, Army, Commerce, Agriculture, the head of the department in which
  the Coast Guard is operating (currently the Secretary of Homeland Security), and the Administrator of the
  Environmental Protection Agency; and (2) at the state level, the Governors of Alabama, Florida, Louisiana,
  Mississippi, and Texas.
                                                        158
                                                 U.S. Department of the Treasury | Fiscal Year 2013
The RESTORE Act prescribes how funds will be distributed and gives the Secretary of the
Treasury the authority to withhold funds if certain conditions in the Act are not met, including
the following of procurement rules and regulations.

The RESTORE Act gives Treasury many responsibilities. The act also authorizes our office to
conduct, supervise, and coordinate audits and investigations of projects, programs and activities
funded under this legislation. Neither Treasury nor our office was provided specific funding in
the act for carrying out our respective responsibilities. What makes the administration of the
RESTORE Act so challenging is that (1) regulations and associated policies and procedures need
to be established and put into place before the receipts of the Trust Fund can be used; (2) the
numerous entities and councils that are to receive and further allocate funding are still
establishing their own policies and procedures; and (3) the need for cooperation and coordination
by these entities and councils to ensure funds are spent in an appropriate manner.

Treasury was required, in consultation with the Departments of the Interior and Commerce, to
develop policies and procedures to administer the Trust Fund by January 2, 2013. Treasury’s
Office of the Fiscal Assistant Secretary published the draft procedures, in the form of
regulations, in the Federal Register for comment on September 6, 2013; over 8 months after the
procedures were to be finalized. We have been meeting with the Fiscal Assistant Secretary’s
staff and providing our perspectives on controls as the procedures to administer the Trust Fund
are being developed. We are also actively engaged in coordinating with affected federal, state,
and local government entities to ensure effective oversight of programs established by the act.

Matters of Concern

Although we are not reporting these as management and performance challenges, we want to
highlight some areas of growing concern – cybersecurity, currency and coin production, and
documenting key activities and decisions.

   Cybersecurity

   Treasury’s systems are interconnected and critical to the core functions of government and
   the Nation’s financial infrastructure. Cybersecurity remains a constant area of concern and
   potential vulnerability for Treasury’s internal systems. Our audits in this area have found
   deficiencies across Treasury in the areas of vulnerability and patch management, password
   management, system security configurations, and users’ susceptibility to social engineering
   attacks. In addition, cyberthreats continue to grow and are increasingly more sophisticated,
   posing an ongoing challenge to the confidentiality, integrity, and availability of systems.
   Accordingly, Treasury management must continuously monitor Treasury’s systems for
   vulnerabilities and ensure all employees and others connected to those systems maintain a
   heightened awareness of their roles in protecting these critical assets.

   The cyber attacks facing banking institutions continue to evolve at an accelerated rate,
   ranging from distributed denial of service attacks on bank websites to phishing attacks to
   fraudulent wire payments. Organized hacking groups leverage known and new vulnerabilities
   and use different methods to make attacks hard to detect and even harder to prevent. Criminal
   groups and nation-states are constantly seeking to steal information, commit fraud, disrupt,
   degrade, or deny access to information systems that can strain bank resources and cause
   financial, operational, or reputational harm. A successful, widespread attack on the banking
   industry would shake confidence in the banking system.
                                                159
                                              U.S. Department of the Treasury | Fiscal Year 2013
As a result, an economic and national security challenge for which Treasury must be
prepared is providing leadership to financial institutions in particular, and the financial sector
in general, to strengthen awareness and preparedness against cyberthreats. Given the
evolving environment, Treasury will need to continue to strengthen partnerships and
coordination among law enforcement, financial institutions, regulators, and private entities in
the financial sector, to address these threats.

Currency and Coin Production

On October 8, 2013, after a 1½ year delay, FRB began supplying financial institutions with
the redesigned, NexGen $100 Note that incorporates new security features to deter
counterfeiters and help businesses and consumers tell whether a note is genuine. The original
scheduled introduction of this new note, in February 2011, was missed after creasing was
detected in some of the finished notes. In January 2012, we reported on deficiencies with the
Bureau of Engraving and Printing (BEP) NexGen $100 Note production process, project
management, and the need to complete a comprehensive cost-benefit analysis for the
disposition of the 1.4 billion finished NexGen $100 notes printed in 2010 but not accepted by
FRB. The notes now being supplied to banks were produced after the production problems
with the 1.4 billion notes were identified and sufficiently resolved; BEP and FRB still need to
decide on a course of action for the 1.4 billion finished notes, which are currently held in
BEP vaults.

Another matter related to currency redesign that should be kept in mind is meaningful access
to U.S. currency for blind and visually impaired individuals. In response to a court ruling on
that matter, several methods were discussed that Treasury plans to use to provide such
access. Among them, the inclusion of raised tactile features and high-contrast numerals that
would help distinguish denominations of U.S. currency notes. The lessons learned with the
NexGen $100 Note production process underscore the need for sound and comprehensive
project management as BEP undertakes this redesign effort.

Challenges continue to exist with coin production. For example, the cost of producing penny
and nickel coins were double their face value because metal prices have resulted in higher
production costs for the past 7 years. To meet the demands of managing a retail business, the
U.S. Mint has also identified the need to replace its 12-year old Integrated Retail Information
System with a new e-commerce system which fully integrates order management.

In the future, the impact of alternative payment systems and other technological advances –
such as stored value cards, the Internet, and smartphones – to BEP’s and the Mint’s
respective business models and practices must be considered. Accordingly, it is imperative
that BEP and the Mint factor this into their business model and future planning and
interactions with their customer, FRB.

Documenting Key Activities and Decisions

In last year’s letter I cited two audits by my office that highlighted lapses by the Department
in maintaining a complete and concurrent record of key activities and decisions. One audit
involved the selection of financial agents for Treasury’s investment in Fannie Mae and
Freddie Mac mortgage backed securities. The other audit involved Treasury’s consultative
role with the Department of Energy’s Solyndra loan guarantee. More recently, as mentioned
in Challenge 1, we found that documentation of OCC’s oversight of foreclosure-related
                                             160
                                                     U.S. Department of the Treasury | Fiscal Year 2013
    consent orders was lacking. 11 Maintaining proper documentation is a fundamental tenet of
    government accountability and transparency. Maintaining proper documentation is also in the
    best long-term interest of Treasury and its component offices and bureaus if actions are later
    questioned, as they have been. In this regard, appropriate documentation can be as simple as
    contemporaneous notes providing a record of why decisions were made, the way they were
    made, and how the government satisfied itself that the decisions were the best course. Also
    adding to the documentation challenge is the fact that federal retirements along with the
    associated institutional knowledge in this last year are markedly higher. Accordingly, it
    becomes even more important that actions and their context are documented for reference.
    We do note that Treasury has issued policy that addresses documentation requirements, such
    as Treasury Directive Publication 80-05, Records and Information Management Program. In
    our view, this is a matter of Treasury management personnel needing to remain aware and
    vigilant.

In my memorandum last year, we reported on risks associated with the consolidation of the
former Financial Management Service and the former Bureau of the Public Debt into Fiscal
Service, noting that comprehensive planning and the involvement of senior management were
key. Fiscal Service has now been stood up for over a year although certain planned restructuring
of functions and employee relocations are delayed (along with the anticipated cost savings) in
response to Congressional concerns about the impact to Treasury’s Maryland operations. I want
to close this year with a comment about the Fiscal Service Do Not Pay Initiative. In light of the
continuing and unacceptable problem of improper payments (estimated at $108 billion for fiscal
year 2012 alone) and the extreme pressures on the federal budget, the Federal Government has
intensified efforts to reduce improper payments in major federal programs. The Do Not Pay
Initiative is a chief component of these efforts. In August 2013, pursuant to the Improper
Payments Elimination and Recovery Improvement Act of 2012, the Office of Management and
Budget (OMB) issued guidance, “Protecting Privacy while Reducing Improper Payments with
the Do Not Pay Initiative.” The OMB guidance details Treasury’s responsibilities, which include
hosting a working system for the Do Not Pay Initiative that allows agencies to perform pre-
award eligibility, prepayment, and post-payment reviews. Other Treasury responsibilities include
entering into computer matching agreements, developing memoranda of understanding with
agencies, ensuring records are complete, accurate, and current, complying with the Privacy Act,
and periodically reporting to OMB. This will be a major and important undertaking by Fiscal
Service and Treasury. We have audit work under way in this area and look forward to working
with the Department in our oversight role to ensure the success of Do Not Pay.

We would be pleased to discuss our views on the management and performance challenges and
the other matters in this memorandum in more detail.

cc: Nani A. Coloretti

    Assistant Secretary for Management




11 OIG, Safety and Soundness: Improvement Needed in OCC’s Oversight of Foreclosure Related Consent Orders
  (OIG-13-049; issued Sep. 9, 2013)
                                                    161
                                      DEP ARTMENT OF THE TRE AS URY
                                              WASHINGTON, D.C. 20005




   INSPECTOR
GENERAL FOR TAX
ADMINISTRATION
                                           November 8, 2013

MEMORANDUM FOR SECRETARY LEW

FROM:                      J. Russell George
                           Inspector General

SUBJECT:                   Management and Performance Challenges Facing the Internal
                           Revenue Service for Fiscal Year 2014


The Reports Consolidation Act of 2000 1 requires that the Treasury Inspector General for
Tax Administration (TIGTA) summarize, for inclusion in the annual Department of the
Treasury Agency Financial Report, its perspective on the most serious management
and performance challenges confronting the Internal Revenue Service (IRS).

Each year, TIGTA evaluates IRS programs, operations, and management functions to
identify the areas of highest vulnerabilities to the Nation’s tax system. For Fiscal Year
2014, the top management and performance challenges, in order of priority, are:

     1.   Security for Taxpayer Data and IRS Employees;
     2.   Implementing the Affordable Care Act and Other Tax Law Changes;
     3.   Tax Compliance Initiatives;
     4.   Modernization;
     5.   Fraudulent Claims and Improper Payments;
     6.   Providing Quality Taxpayer Service Operations;
     7.   Human Capital;
     8.   Globalization;
     9.   Taxpayer Protection and Rights; and
    10.   Achieving Program Efficiencies and Cost Savings.

The IRS was faced with numerous challenges during FY 2013, including several that
resulted in Congressional hearings on IRS management practices. The IRS will
continue to face other pressing priorities and challenges during FY 2014. Several key
provisions of the Patient Protection and Affordable Care Act (Affordable Care Act)2 will
become effective in FY 2014, and the IRS must ensure that the tax system is able to

1
 31 U.S.C. § 3516(d) (2006).
2
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
                                                  162
                                                     U.S. Department of the Treasury | Fiscal Year 2013
fully implement these provisions. Of utmost importance is ensuring the adequate
protection of Federal tax data when it is sent to the Federal and State exchanges.

Furthermore, the continuing budget constraints present a substantial challenge to the
IRS in effectively carrying out its mission. In FY 2013, the IRS budget was reduced by
$618 million at mid-year, which required management to make a number of difficult
decisions: among them, implementation of a hiring freeze, a reduction in customer
service and enforcement, and declaration of three furlough days for IRS employees. As
the IRS faces new or growing challenges with a smaller staff, it must identify and
implement innovative and cost saving strategies to accomplish its mission of providing
America’s taxpayers top-quality service by helping them understand and meet their tax
responsibilities and enforce the law with integrity and fairness for all.

The following information detailing these management and performance challenges is
being provided to promote economy, efficiency, and effectiveness in the IRS’s
administration of the Nation’s tax laws.

SECURITY FOR TAXPAYER DATA AND IRS EMPLOYEES

As our Nation’s tax collector and administrator of the Internal Revenue Code, the IRS
collected over $2.5 trillion in tax revenue in FY 2012, processed over 237 million tax
returns, and issued approximately $373 billion in tax refunds. In today’s environment,
the IRS faces the daunting task of securing its massive computer systems against the
growing threat of cyberattacks. Effective information systems security is essential to
ensure that data are protected against inadvertent or deliberate misuse, improper
disclosure or destruction, and that computer operations supporting tax administration
are secured against disruption or compromise. According to the Department of
Homeland Security’s U.S. Computer Emergency Readiness Team, Federal agencies
reported 48,842 cyberattacks in FY 2012, an increase of about 11 percent from
FY 2011. 3

Computer security has been problematic for the IRS since 1997, when the IRS initially
reported computer security as a material weakness during its annual evaluation of
internal accounting and administrative controls under the Federal Managers’ Financial
Integrity Act of 1982. 4 In March 2013, the Government Accountability Office reported
that the IRS is making progress in addressing information security control weaknesses. 5

However, TIGTA continues to identify significant security weaknesses in this area that
could affect the confidentiality, integrity, and availability of financial and sensitive
taxpayer data.


3
  Office of Management and Budget, Fiscal Year 2012 Report to Congress on the Implementation of The
Federal Information Security Management Act of 2002 (Mar. 2013).
4
  31 U.S.C. §§ 1105, 1113, and 3512. The Federal Managers’ Financial Integrity Act (FMFIA) requires
that agency management establish and maintain effective internal controls to achieve the objectives of 1)
effective and efficient operations, 2) reliable financial reporting, and 3) compliance with applicable laws
and regulations. The FMFIA also requires the head of each Executive agency to report annually to the
President and Congress on the effectiveness of internal controls and to identify any material weaknesses
in those controls. Reporting material weaknesses under the FMFIA is not limited to weaknesses over
financial reporting.
5
  GAO-13-350, IRS Has Improved Controls but Needs to Resolve Weaknesses (March 2013).
                                                    163
                                               U.S. Department of the Treasury | Fiscal Year 2013
Meanwhile, beyond safeguarding a vast amount of sensitive financial and personal
data, the IRS must also protect approximately 100,000 employees and contractors
working at more than 600 facilities throughout the country. To proactively mitigate
threats made against IRS facilities and employees, the IRS is required to conduct
comprehensive and timely risk assessments to identify and address vulnerabilities in
physical security. TIGTA identified deficiencies in the IRS’s risk assessment program
and found that not all IRS facilities had a risk assessment conducted. 6 Additionally, the
IRS did not implement some of the additional countermeasures that were identified by
the completed risk assessments.

Physical violence, harassment, and intimidation of IRS employees pose significant
challenges to the implementation of a fair and effective system of tax administration.
Between FYs 2009 and 2012, TIGTA has processed over 8,600 threat-related
complaints. This resulted in over 4,000 threat investigations that required the prompt
response of TIGTA Special Agents to mitigate those threats and determine whether
criminal prosecutions of the perpetrators making the threats were warranted.

Additionally, the ongoing public debate regarding the health care law and increased
scrutiny over IRS spending and treatment of certain exempt organizations could fuel
threats against the Federal Government, including IRS employees and facilities. These
challenging operating conditions for the IRS underscore the need for continued
vigilance in the area of physical and personnel security.

IMPLEMENTING THE AFFORDABLE CARE ACT AND OTHER TAX LAW CHANGES

Each filing season tests the IRS’s ability to implement tax law changes made by
Congress. Correctly implementing late tax law changes remains a significant challenge
because the IRS must often act quickly to assess the changes and determine the
necessary actions to ensure that all legislative requirements are satisfied. In addition,
the IRS must often create new or revise existing tax forms, publications and
instructions; revise internal operating procedures; provide outreach and education to
taxpayers and tax professionals; train employees; and reprogram computer systems to
accurately and timely process tax returns affected by the new tax law changes. For the
2014 filing season, the IRS announced a delay of approximately one to two weeks to
the start of the filing season to allow adequate time to program and test tax processing
systems following the 16-day Federal Government closure.

Affordable Care Act

The Affordable Care Act (ACA) contains an extensive array of tax law changes that will
present a continuing source of challenge for the IRS in coming years. The Affordable
Care Act provides incentives and tax breaks to individuals and small businesses to
offset health care expenses. It also imposes penalties, administered through the tax
code, for individuals and businesses that do not obtain health care coverage for
themselves or their employees. The Affordable Care Act represents the largest set of
tax law changes in more than 20 years.


6
 TIGTA, Ref. No. 2013-10-101, The Physical Security Risk Assessment Program Needs Improvement
(Sept. 2013).
                                              164
                                                   U.S. Department of the Treasury | Fiscal Year 2013
Starting in Calendar Year 2014, the IRS will be responsible for implementing the
Advanced Premium Tax Credit, 7 as well as implementing the penalty on applicable
individuals for each month they fail to have minimum essential health care coverage.
These two issues have a far-reaching impact on the IRS and will require significant
resources, particularly customer service resources, as taxpayers turn to the IRS with
questions and issues about the Affordable Care Act. Customer service has been
declining in recent years, with fewer taxpayers being served at local IRS offices and the
IRS answering fewer telephone calls. 8

The IRS’s implementation plan for the ACA includes providing information on eligibility
and enrollment, developing calculations for the Advanced Premium Tax Credit,
reconciling Premium Tax Credits 9 with reported taxable income, and developing new
ACA information collection and processing systems. These provisions require
development of new computer systems, modification of existing systems, revision
and/or creation of new fraud detection systems, and deployment and testing of new
interagency communication portals to support ACA operations.

From FY 2010 to 2012, the IRS reported that it received $488 million from the Health
Insurance Implementation Fund to implement the ACA. Although the IRS stopped
receiving funds from the Health Insurance Implementation Fund at the end of FY 2012,
implementation of the ACA remains an ongoing effort, and all implementation efforts in
FY 2013 and beyond will be funded solely from the IRS’s operating budget.

TAX COMPLIANCE INITIATIVES

With an estimated voluntary compliance rate of approximately 83 percent, 10 a significant
amount of income remains unreported and unpaid. Tax compliance initiatives include
the administration of tax regulations, collection of the correct amount of tax from
businesses and individuals, and oversight of tax-exempt and governmental entities.

Increasing voluntary taxpayer compliance and reducing the Tax Gap 11 are the focus of
many IRS initiatives. Although the IRS reported that the Tax Gap is caused by both
unintentional taxpayer errors (whether due to tax law complexity, confusion, or
carelessness) and willful tax evasion or cheating, the IRS does not have sufficient data
to distinguish the amounts attributable to each. The IRS also reported that a meaningful
improvement in the voluntary compliance rate requires a long-term, focused effort on
taxpayer service, modernization, and enforcement.

However, the budget reductions over the past three years have led to a reduction in the
IRS’s resources in the enforcement area, which has impacted tax compliance. Since

7
  An Advanced Premium Tax Credit is paid in advance to a taxpayer’s insurance company to help cover
the cost of premiums.
8
  TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sept. 2012).
9
  A refundable tax credit to assist individuals and families in purchasing health insurance coverage
through an Affordable Insurance Exchange.
10
   The voluntary compliance rate is an estimate of the amount of tax for a given year that is paid
voluntarily and timely. The IRS reported in the Tax Gap for Tax Year 2006 Overview (Jan. 2012) that the
voluntary compliance rate for 2006 was 83.1 percent.
11
   The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely paid for a tax year.
                                                  165
                                             U.S. Department of the Treasury | Fiscal Year 2013
Fiscal Year 2010, approximately 8,000 full-time IRS positions have been lost—about
5,000 from front-line enforcement.

The amount of enforcement revenue collected declined by nine percent in Fiscal Year
2012, from $55.2 billion to $50.2 billion. This has decreased for two straight years and
is 13 percent less than the $57.6 billion collected in Fiscal Year 2010. The 13 percent
reduction in enforcement revenue correlates to the 14 percent reduction in the number
of IRS enforcement personnel.

In the Examination function, the combination of a decrease in the number of revenue
agents and tax compliance officers and an increase in the number of corporate,
partnership, and S corporation examinations has contributed, in part, to a reduction in
the number of individual tax returns examined. Two factors contributing to the increase
in partnership and S corporation examinations are the growth in the number of these
filings and the compliance risk these tax returns pose.

IRS filing statistics show that partnerships and S corporations are the fastest growing
segments of all tax returns filed. For example, the IRS estimates that S corporations
will file nearly 5.7 million returns in Processing Year (PY) 2015, which is a 26 percent
increase over S corporation returns filed in PY 2011.

In terms of compliance risk and potential fraud or abuse, both partnerships and
S corporations provide shareholders and partners with opportunities to structure
transactions improperly to reduce the income taxes they would otherwise owe. In
Calendar Year 2000, the IRS published guidance on 10 transactions that would likely
trigger an audit because they purportedly abuse the tax law, represent a significant loss
of tax revenue, and undermine the public’s confidence in the tax system. As of January
2012, the list of such abusive transactions had expanded to 34, several of which involve
partnerships and/or S corporations.

TIGTA reported in 2012 that examiners are recommending a considerable amount of
adjustments to items reported on the returns. For example, in FY 2011, examiners
closed 5,310 audits of partnership returns and recommended approximately
$728 million in adjustments to items reported on the returns. This indicates that
examiners recommended an average of $137,000 in adjustments for each return
audited. TIGTA also reported that the number of partnership and S corporation
examinations that result in no adjustments (no-change) is high. According to the IRS, a
high number of no-change examinations means it is spending significant resources on
unproductive examinations and unnecessarily burdening compliant taxpayers.

The following three sections will examine tax compliance challenges the IRS faces
affecting businesses and individuals, tax-exempt entities, and tax return preparers.

    Businesses and Individuals

    The IRS estimated the gross Tax Gap for Tax Year 2006 to be approximately
    $450 billion. This estimate is the best approximation of noncompliance the IRS can
    provide. However, TIGTA found that the IRS could improve its Tax Gap



                                            166
                                                   U.S. Department of the Treasury | Fiscal Year 2013
     estimates. 12 Specifically, there are no estimates for nonfiling of tax returns related
     to corporate, employment, or excise taxes. In addition, the reliability and accuracy
     of the tax information that is reported on corporate tax returns could be improved.

     The underreporting of taxes, which comprises four major components (individual
     income tax, employment tax, corporate income tax, and estate and excise taxes),
     was estimated at $376 billion and accounted for the largest portion (approximately
     84 percent) of the Tax Gap. The underpayment of taxes was approximately
     10 percent, and the nonfiling of taxes was approximately six percent. The IRS will
     need to address the following impediments to more effectively address the Tax
     Gap:

        •   Information Reporting. The availability of third-party income and
            withholding information at the time tax returns are processed would
            encourage voluntary compliance and would prevent the issuance of billions
            of dollars in fraudulent tax refunds.

        •   Taxpayer Service. Ensuring high-quality service to taxpayers can help
            encourage those taxpayers who wish to comply with tax laws but do not
            understand their tax obligations. However, tax law changes and funding
            priorities have recently affected the IRS’s ability to provide quality taxpayer
            service.

        •   Enforcement. Devoting additional resources to enforcement would enable
            the IRS to contact the millions of potentially noncompliant taxpayers it
            identifies but cannot currently contact due to resource limitations.

        •   Compliance Checks. Expanding compliance checks before the IRS issues
            refunds would involve matching information returns to tax returns during,
            rather than after, the tax filing season. TIGTA reported that the IRS designed
            new identity theft screening filters for the 2012 filing season that improved
            the IRS’s ability to identify false tax returns before the tax return was
            processed; however, more needs to be done in this area. 13

        •   External Parties. Leveraging external resources, such as paid tax return
            preparers and whistleblowers, can help improve tax compliance because
            paid preparers’ actions have an enormous impact on the IRS’s ability to
            effectively administer tax laws, and whistleblowers provide the IRS with
            information on suspected noncompliance.

        •   Modernization. Modernizing information systems could potentially allow the
            IRS to post more comprehensive tax return information to its computer
            systems, which could facilitate the examination process and expedite
            taxpayer contacts for faster resolution.


12
   TIGTA, Ref. No. 2013-IE-R008, the Internal Revenue Service Needs to Improve the
Comprehensiveness, Accuracy, Reliability, and Timeliness of the Tax Gap Estimate (Aug. 2013).
13
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
                                                  167
                                                   U.S. Department of the Treasury | Fiscal Year 2013
     Tax-Exempt Entities

     The IRS’s use of inappropriate methods for selecting and reviewing applications for
     tax-exempt status became a top concern for both Congress and the public in 2013
     and has resulted in congressional hearings and investigations. The IRS will
     continue to face unprecedented levels of scrutiny from a variety of stakeholders in
     the exempt organizations area in FY 2014.

     Most organizations requesting tax-exempt status must submit an application to the
     IRS. The type of application submitted depends upon the type of tax-exempt
     organization the organization desires to be. For example, a charitable organization
     would request exemption under I.R.C. Section 501(c)(3), 14 whereas a social
     welfare organization would request exemption under I.R.C. Section 501(c)(4). 15
     TIGTA found that the IRS developed and used criteria to identify potential political
     cases for review that inappropriately identified specific groups applying for tax-
     exempt status based on their names or policy positions instead of developing
     criteria based on tax-exempt laws and Treasury Regulations. 16 TIGTA also found
     that ineffective management allowed the inappropriate criteria to be developed and
     stay in place for more than 18 months, resulting in substantial delays in processing
     certain applications, and allowed unnecessary information requests to be issued.

     Tax Return Preparers

     Every year, more than half of all taxpayers pay someone else to prepare their
     Federal income tax returns. During the 2013 Filing Season, 17 the IRS processed
     over 70 million individual Federal income tax returns prepared by paid tax return
     preparers.

     TIGTA has reported on the IRS’s efforts to improve oversight of the return preparer
     community. 18 While the IRS began implementing the new preparer requirements in
     FY 2011, TIGTA reported that it will take years for the IRS to implement the Return
     Preparer Program, including establishing all the program requirements and
     developing the system(s) and processes necessary to administer and oversee the
     program. However, this program is on hold based on a recent court ruling. 19 On
     January 18, 2013, the U. S. District Court for the District of Columbia ruled that the
     IRS did not have the authority to regulate tax preparers who had not been
     regulated before: namely, preparers who were not certified public accountants,
     attorneys, enrolled agents, or enrolled actuaries. The IRS filed a notice of appeal
     on February 20, 2013. After the initial ruling, the Court clarified that all paid tax
     return preparers are still required to obtain a preparer tax identification number
     from the IRS. 20 TIGTA also reported that the IRS’s requirement for return

14
   I.R.C. § 501(c)(3) (2012).
15
   I.R.C. § 501(c)(4) (2012).
16
   TIGTA, Ref. No. 2013-10-053, Inappropriate Criteria Were Used to Identify Tax-Exempt Applications for
Review (May 2013).
17
   The period of January 1 through April 15 when most individual income tax returns are filed.
18
   TIGTA, Ref. No. 2010-40-127, It Will Take Years to Implement the Return Preparer Program and to
Realize Its Impact (Sept. 2010).
19
   Loving v. IRS, 2013 U.S. Dist. LEXIS 7980 (D.D.C. Jan. 18, 2013).
20
   Loving v. IRS, 2013 U.S. Dist. LEXIS 13818 (D.D.C. Feb. 1, 2013).
                                                  168
                                                    U.S. Department of the Treasury | Fiscal Year 2013
     preparers to electronically file tax returns helped the IRS meet its goal to receive
     and process 80 percent of individual returns electronically, but better controls were
     needed to ensure preparer compliance with the new preparer regulations. 21

MODERNIZATION

The Business Systems Modernization Program (Modernization Program) is a complex
effort to modernize IRS technology and related business processes. It involves
integrating thousands of hardware and software components while replacing outdated
technology and maintaining the current tax system. The IRS originally estimated that
completion of the Modernization Program would take up to 15 years and incur
contractor costs of approximately $8 billion. The Modernization Program was funded for
$313 million in Fiscal Year 2013; the President’s Budget request for Fiscal Year 2014
was $300.8 million.

The IRS’s modernization efforts continue to focus on core tax administration systems
designed to provide taxpayers and IRS employees with more sophisticated tools.
These efforts will provide the foundation for implementing a real-time tax system and
reducing improper payments and fraudulent refunds. They will also provide the
technology infrastructure and architecture that will enable taxpayers and other
stakeholders the capability to securely access tax account information. The complexity
of these efforts continues to pose significant technological and business challenges for
the IRS.

The IRS considers the Customer Account Data Engine 2 (CADE 2) program critical to
the IRS’s mission. It is the IRS’s most important information technology investment.
The CADE 2 system also provides for a centralized database of individual taxpayer
accounts. Once implemented, it will allow IRS employees to view tax data online and
provide timely responses to taxpayers. TIGTA found that the implementation of CADE
2 daily processing allowed the IRS to process tax returns for individual taxpayers more
quickly by replacing existing weekly processing. 22 However, the IRS has experienced
delays in the implementation of the CADE 2 database interfaces to downstream
systems. 23 This has resulted in increased costs and delayed taxpayer service
improvements that were to be provided by the new transactional database.

Modernization efforts also include the development of computer programs to conduct
predictive analytics to reduce refund fraud. 24 The IRS is developing a new Return
Review Program system to implement the IRS’s new business model for a coordinated
criminal and civil tax noncompliance system. TIGTA found that roles for program-level
governance were not yet established for the Return Review Program and the key role of
system integrator was not documented or clearly communicated. 25 As a result, it is not
21
   TIGTA, Ref. No. 2012-40-010, More Tax Return Preparers Are Filing Electronically, but Better Controls
Are Needed to Ensure All Are Complying With the New Preparer Regulations (Dec. 2011).
22
   TIGTA, Ref. No. 2012-20-122, Customer Account Data Engine 2 Systems Requirements and Testing
Processing Need Improvement (Sept. 2012).
23
   TIGTA, Ref. No. 2013-20-125, Customer Account Data Engine 2 Database Deployment Is
Experiencing Delays and Increased Costs (Sept. 2013).
24
   Computer models that analyze extremely large quantities of data to seek out data patterns and
relationships that could indicate potential tax fraud schemes.
25
   TIGTA, Ref. No. 2013-20-063, Improvements Are Needed to Ensure Successful Development and
System Integration of the Return Review Program (July 2013).
                                                  169
                                                   U.S. Department of the Treasury | Fiscal Year 2013
clear how the IRS will govern the systems development process for this mission-critical
system, resolve enterprise-wide issues for fraud projects and programs, and resolve
disputes and issues concerning fraud projects and programs.

Modernizing legacy tax administration systems to receive and process CADE 2 data
and to process new legislative changes, such as the Affordable Care Act, will continue
to be a major challenge for the IRS.

FRAUDULENT CLAIMS AND IMPROPER PAYMENTS

Improper payments by Federal Government agencies have been an issue for many
years, and various efforts have been made to identify, measure, and reduce them.
These include laws specifically addressing improper payments, an Executive Order, 26
and guidance by certain oversight agencies, such as the Office of Management and
Budget. The Improper Payments Information Act of 2002 defines an improper payment
as any payment that should not have been made or that was made in an incorrect
amount (both overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements. 27 The Act requires Federal
agencies, including the IRS, to estimate the amount of improper payments made each
year and report to Congress on the causes of and the steps taken to reduce improper
payments, as well as to address whether they have the information systems and other
infrastructure needed to reduce improper payments. Erroneous and improper payments
issued by the IRS generally involve improperly paid refunds, tax return filing fraud, or
improper payments to vendors or contractors.

     Refundable Credits

     The IRS administers numerous refundable tax credits. These refundable credits
     allow individual taxpayers to reduce their tax liability to below zero and thus receive
     a tax refund even if no income tax was withheld or paid. Two significant refundable
     credits are the Earned Income Tax Credit and the Additional Child Tax Credit.

     The Earned Income Tax Credit remains the largest refundable credit based on the
     total claims paid, and it continues to be vulnerable to a high rate of noncompliance,
     including incorrect or erroneous claims caused by taxpayer error or resulting from
     fraud. TIGTA continues to report that the IRS does not have effective processes to
     ensure that claimants qualify for these credits at the time tax returns are processed
     and prior to issuance of fraudulent tax refunds. The IRS estimates that it has paid
     between $111 billion and $133 billion in improper Earned Income Tax Credit
     payments from FY 2003 through FY 2012. 28

     The Additional Child Tax Credit is also susceptible to improper claims. TIGTA
     found that taxpayers repeatedly claimed erroneous Additional Child Tax Credits


26
   Executive Order No. 13,520, 74 Fed. Reg. 62201 (Nov. 25, 2009), Reducing Improper Payments and
Eliminating Waste in Federal Programs.
27 Pub. L. No. 1007-300, 116 Stat. 2350.
28
   The Department of the Treasury Performance and Accountability Reports for Fiscal Years 2003
through 2010 and the Agency Financial Report for Fiscal Years 2011 and 2012, as outlined in Office of
Management and Budget Circular A-136.
                                                  170
                                                   U.S. Department of the Treasury | Fiscal Year 2013
     after their claims were disallowed the previous year. 29 The IRS could have saved
     more than $108 million by reviewing claims made by taxpayers who were
     previously disallowed the credit.

     Fraudulent Payments

     Identity theft continues to be a serious and growing problem which has a significant
     impact on tax administration. Identity theft for the purpose of committing tax fraud
     occurs when an individual uses another person’s name and Taxpayer Identification
     Number (generally a Social Security Number) to file a fraudulent tax return to
     obtain a fraudulent tax refund. Incidents of identity theft affecting tax administration
     have continued to rise since Calendar Year 2011, when the IRS identified more
     than one million incidents of identity theft. During the first half of Calendar Year
     2013, the IRS had identified almost 1.9 million incidents of identity theft.

     TIGTA reported that undetected tax refund fraud resulting from identity theft results
     in significant unintended Federal outlays. 30 Specifically, TIGTA analyzed Tax Year
     2011 tax returns that were processed during the 2012 Filing Season and identified
     approximately 1.1 million undetected tax returns where the primary Taxpayer
     Identification Number on the tax return was a Social Security Number. These tax
     returns had potentially fraudulent tax refunds issued totaling approximately
     $3.6 billion, a decrease of $1.6 billion compared to the $5.2 billion we reported for
     Tax Year 2010.

     In addition, we expanded our Tax Year 2011 analysis to include tax returns for
     which the primary Taxpayer Identification Number on the return is an Individual
     Taxpayer Identification Number (ITIN). We identified more than 141,000 Tax Year
     2011 tax returns filed with an ITIN that have the same characteristics as IRS
     confirmed identity theft tax returns involving an ITIN. Potentially fraudulent tax
     refunds issued for these undetected tax returns totaled approximately $385 million.

     Although the IRS is continuing to make changes to its processes to increase its
     ability to detect, prevent, and track fraudulent tax returns and improve assistance to
     victims of identity theft, there is still work to be done.

     Contract and Other Payments

     In the first half of Fiscal Year 2013, the IRS expended approximately $1.3 billion in
     contract spending, an area which continues to experience several risks for fraud
     and abuse. Previous TIGTA investigations and audits have identified millions of
     dollars in questioned costs and several instances of contractor fraud. During the
     last three fiscal years, TIGTA’s criminal investigative efforts contributed to court-
     ordered civil settlements which required Government contractors to pay
     $156 million in FY 2010, $113 million in FY 2011, and $4.6 million in FY 2012 to
     the U.S. Treasury. These payments were the result of Federal procurement law


29
   TIGTA, Ref. No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the
Billions of Dollars of Improperly Paid Claims (Sept. 2012).
30
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From identity Theft (July 2012).
                                                  171
                                                  U.S. Department of the Treasury | Fiscal Year 2013
     violations that occurred with work contracted with multiple Federal agencies,
     including the IRS.

     Additionally, TIGTA continues to identify issues with the awarding and
     administering of IRS contracts. TIGTA recently performed a review of the IRS’s
     cost reimbursement contracts and found that the IRS did not comply with the
     majority of the new Federal Acquisition Regulations requirements for 46 of the 49
     cost reimbursement contracts entered into between March 17, 2011 and June 20,
     2012, totaling nearly $47 million. 31 Specifically, the IRS did not always document
     required information to justify the selection of cost reimbursement contracts and did
     not always assign acquisition workforce resources prior to award to manage these
     contracts. Additionally, TIGTA reported that two contracts totaling $3.6 million
     failed to comply with Federal Acquisition Regulations requirements regarding
     contractor accounting systems. In order to adequately protect government
     resources, the Federal Acquisition Regulations states that cost reimbursement
     contracts should only be awarded to contractors with an adequate accounting
     system.

     Another TIGTA review found that while some controls are working as intended, the
     IRS purchase card program lacks consistent oversight to identity and address
     inappropriate use. 32 TIGTA identified approximately $7,000 in improper purchases,
     including purchases for giveaway items, purchases made for personal use, and
     items purchased from the restricted-purchase list.



PROVIDING QUALITY TAXPAYER SERVICE OPERATIONS

The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service has a significant impact on voluntary tax compliance. Answering
taxpayers’ questions to assist them in correctly preparing their returns reduces the need
to send notices and correspondence when taxpayers make errors. Taxpayer service
also reduces unintentional noncompliance and shrinks the need for future collection
activity.

Taxpayers have several options to choose from when they need assistance from the
IRS, including telephone assistance through the toll-free telephone lines, face-to-face
assistance at the Taxpayer Assistance Centers and or Volunteer Program sites, and
self-assistance through IRS.gov and social media channels. The use of self-assistance
options has seen the most significant growth as more taxpayers seek information and
assistance through these channels. 33

As of May 4, 2013, the IRS reported an increase of 24.7 percent in the number of visits
to IRS.gov over the same period in the prior filing season. The IRS also reported an

31
   TIGTA Ref. No. 2013-10-046, Cost-Reimbursement Contracts Did Not Fully Comply With Federal
Acquisition Regulation Revisions (April 2013).
32
   TIGTA, Ref. No. 2013-10-056, The Purchase Card Program Lacks Consistent Oversight to Identify and
Address Inappropriate Use (June 2013).
33
   TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of
Refunds for the 2013 Filing Season (Sept. 2013).
                                                 172
                                                 U.S. Department of the Treasury | Fiscal Year 2013
increase of 55.6 percent in the number of taxpayers obtaining their refund information
online via the “Where’s My Refund” feature found on IRS.gov. However, TIGTA
identified that the “Where’s My Refund” tool did not consistently provide accurate refund
status information to some taxpayers that filed early in the 2013 Filing Season. The IRS
reported that this issue was resolved on March 14, 2013.

The budget reductions and declining IRS resources reduced the number of taxpayers
whom the IRS estimated could be assisted at Taxpayer Assistance Centers. The IRS
assisted approximately 6.8 million taxpayers at its walk-in Taxpayer Assistance Centers
during FY 2012 and planned to assist 6 million in FY 2013. This represents
11.8 percent fewer taxpayers than were assisted in FY 2012. The FY 2013 plan was
based on the assumption of limited seasonal staff support and the continuing reduction
of permanent staff as a result of the hiring freeze and buyout authority.

In addition, TIGTA reported in May 2012 that the IRS is not providing effective
assistance to taxpayers who report that they have been victims of identity theft, resulting
in increased burden for those victims. 34 In September 2013, TIGTA reported that
taxpayers continued to face delays with some cases having significant inactivity during
case processing. In addition, the IRS did not always correctly resolve tax accounts
before the cases were closed. 35

HUMAN CAPITAL

Human capital is the Federal Government’s most critical asset, making strategic
management of human capital a top priority of the IRS. Continued focus by IRS
management on human capital will remain important because the IRS is facing several
key challenges.

First, a wave of anticipated retirements presents a critical challenge in the human
capital area. More than one-third of all executives and almost 20 percent of non-
executive managers are currently eligible for retirement, according to IRS data. By the
end of FY 2017, nearly 70 percent of all IRS executives and nearly one-half of the IRS’s
non-executive managers are projected to be eligible for retirement. Overall, about
40 percent of the IRS’s employees will be eligible to retire within five years. In FY 2013,
the IRS experienced significant changes in its most senior executive leadership.

Further, the IRS’s challenge of having the right people in the right place at the right time
is made more difficult by many complex internal and external factors. Budget
constraints have resulted in fewer personnel to accomplish the IRS’s mission.
Specifically, the IRS’s workforce shrank by approximately 10,000 employees between
the end of FY 2010 and the end of FY 2012. This reduction in employees possessing
unique skills and institutional knowledge is particularly challenging as the number of tax
returns the IRS processes continues to rise and the number of identity theft fraud cases
the IRS works is also increasing. The IRS will also be required to implement provisions
related to the Affordable Care Act using their own operating budget in the future, further
stretching its limited resources.
34
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose identities Have Been Stolen to Commit Refund
Fraud, Do Not Receive Quality Customer Service (May 2012).
35
   TIGTA, Ref. No. 2013-40-062, The Taxpayer Protection Program Improves Identity Theft Detection;
However, Case Processing Controls Need to Be Improved (June 2013).
                                                173
                                                  U.S. Department of the Treasury | Fiscal Year 2013
TIGTA reported that outstanding corrective actions in response to human capital audits
require a continued focus by IRS management. 36 For example, TIGTA has found that
the IRS needs to develop an agency-wide strategy for integrating new employees into
the workforce because some best practices that would help new employees become
more productive were not fully implemented.

With a shrinking workforce and budget, the IRS will be challenged to successfully
achieve its mission of providing America’s taxpayers with top-quality service by helping
them understand and meet their tax responsibilities and enforcing the law with integrity
and fairness.

GLOBALIZATION

The scope, complexity, and magnitude of the international financial system present
significant enforcement challenges for the IRS. At the end of Calendar Year 2012,
foreign business holdings and investments in the United States were $25.5 trillion, an
increase of nearly $135 billion over Calendar Year 2011, while U.S. business and
investments abroad grew to over $21.6 trillion, an increase of nearly $1.5 billion during
the same period. 37 The numbers of taxpayers conducting international business
transactions continues to grow as technological advances provide opportunities for
offshore investments that were once only possible for large corporations and wealthy
individuals.

As advancing technology continues to allow more cross-border transactions, the IRS is
increasingly challenged by a lack of information reporting on many of them. In addition,
the varying legal requirements imposed by different jurisdictions lead to the creation of
complex business structures that are not easy to understand, making determination of
the full scope and effect of cross-border transactions extremely difficult.

As this global economic activity increases, so do concerns regarding the International
Tax Gap. 38 While the IRS has not developed an accurate and reliable estimate of the
International Tax Gap, non-IRS sources estimate it to be between $40 billion and
$133 billion annually. To address the International Tax Gap, the IRS developed an
international tax strategy plan with two major goals: (1) enforce the law to ensure that
all taxpayers meet their obligations and (2) improve service to make voluntary
compliance less burdensome.

The IRS currently faces the challenge of implementing the Foreign Account Tax
Compliance Act (FATCA). 39 FATCA was enacted to combat tax evasion by U.S.
persons holding investments in offshore accounts. Under this Act, a U.S. taxpayer with
financial assets outside the United States will be required to report those assets to the
IRS. In addition, foreign financial institutions will be required to report to the IRS certain
information about financial accounts held by U.S. taxpayers or by foreign entities in

36
   TIGTA, Ref. No. 2013-10-017, Improvements Have Been Made to Address Human Capital Issues, but
Continued Focus Is Needed (Jan. 2013).
37
   Bureau of Economic Analysis, Department of Commerce.
38
   Taxes owed but not collected on time from a U.S. person or foreign person whose cross-border
transactions are subject to U.S. taxation.
39
   Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010)(codified in scattered sections of 26
U.S.C.).
                                                 174
                                                   U.S. Department of the Treasury | Fiscal Year 2013
which U.S. taxpayers hold a substantial ownership interest. The IRS is developing a
new international system, the Foreign Financial Institution Registration System, to
support the requirements of FATCA. This system is intended to register foreign
financial institutions to assist in achieving the primary objective of FATCA which is the
disclosure of U.S. taxpayer foreign accounts. TIGTA reviewed the development of this
system and reported that the program management control processes did not timely
identify or communicate system design changes to ensure its successful deployment. 40

Concerns about the International Tax Gap have also led to increased enforcement
efforts on international information reporting requirements and increased assessments
of related penalties. For example, the IRS has automated the penalty-setting process
for the Form 5471, Information Return of U.S. Persons With Respect to Certain Foreign
Corporations, which has resulted in a total of $215.4 million in late-filed Form 5471
penalty assessments during Fiscal Years 2009 through 2012. 41

In addition, the IRS established the International Campus Compliance Unit to expand
audit coverage of tax returns with international aspects and to increase compliance
among international individual taxpayers. For FY 2011 through March 13, 2013, the
Campus Compliance Unit conducted almost 18,000 audits and assessed approximately
$36 million in additional tax. Despite its accomplishments, TIGTA found that the
Campus Compliance Unit has no specific performance measures for its operations. 42

TAXPAYER PROTECTION AND RIGHTS

The IRS must ensure that tax compliance activities are balanced against the rights of
the taxpayers to receive fair and equitable treatment. The IRS continues to dedicate
significant resources and attention to implementing the taxpayer rights provisions of the
IRS Restructuring and Reform Act of 1998 (RRA 98). 43 The following audits related to
taxpayer rights provisions are mandated annually: Notices of Levies; Restrictions on
the Use of Enforcement Statistics to Evaluate Employees; Fair Debt Collection
Practices Act 44 Violations; Notices of Liens; Seizures; Illegal Protestor Designations;
Assessment Statute of Limitations; Collection Due Process Appeals; Denial of Requests
for Information; Restrictions on Directly Contacting Taxpayers Instead of Authorized
Representatives; and Separated or Divorced Joint Filer Requests.

In general, the IRS has improved its compliance with these statutory taxpayer rights
provisions and is documenting its protection of taxpayer rights. However, TIGTA
continues to identify the same deficiencies in the IRS’s processing of collection due-
process cases. 45 Specifically, TIGTA continues to identify errors relating to the


40
   TIGTA Ref. No. 2013-20-118, Foreign Account Tax Compliance Act: Improvements Are Needed to
Strengthen Systems Development for the Foreign Financial Institution Registration System (Sept. 2013).
41
   TIGTA, Ref. No. 2013-30-111, Systemic Penalties on Late-Filed Forms Related to Certain Foreign
Corporations Were Properly Assessed, but the Abatement Process Needs Improvement (Sept. 2013).
42
   TIGTA, Ref. No. 2013-30-113, The International Campus Compliance Unit Is Improving Individual Tax
Compliance (Sept. 2013).
43
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered section of 2 U.S.C., 5 U.S.C.
app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
44
   15 U.S.C. §§1601 note, 1692-1692o (2006).
45
   TIGTA Ref. No. 2013-10-103, The Office of Appeals Continues to Experience Difficulties in the
Handling of Collection Due Process Cases (Sept. 2013).
                                                  175
                                                    U.S. Department of the Treasury | Fiscal Year 2013
determination of the Collection Statute Expiration Date 46 on taxpayer accounts. In
addition, the Office of Appeals did not always classify taxpayer requests properly and
Office of Appeals personnel do not always document their impartiality statement in
hearing notification letters issued to taxpayers. These deficiencies may result in
taxpayers not receiving their full rights during an appeal hearing.

In addition, TIGTA reported that the IRS used inappropriate criteria to identify and
review organizations applying for tax-exempt status. This activity caused delays in the
resolution of the organizations’ applications, as well as their being subject to
unnecessary and burdensome requests for information from the IRS.

ACHIEVING PROGRAM EFFICIENCIES AND COST SAVINGS

Given the current economic environment and the increased focus by the Administration,
Congress, and the American people on Federal Government accountability and efficient
use of resources, the American people must be able to trust that their Government is
taking action to stop wasteful practices and spending every tax dollar wisely. This
management challenge became even more compelling in Fiscal Year 2013, when the
IRS’s budget fell $618 million below its Fiscal Year 2012 enacted level after application
of the enacted rescission and sequestration reductions. As a result, the IRS had to
reduce administrative costs, furlough employees for three days, and make difficult
decisions to reduce both taxpayer service and enforcement operations.

While the IRS has taken steps to improve program effectiveness and reduce costs,
progress in this area continues to be a major challenge. In January 2013, TIGTA
reported that the IRS paid over $1 million during FY 2011 for aircards and BlackBerry®
smartphones that were not used for periods of three months to one year. 47 Overall,
process improvements could result in a cost savings totaling approximately $5.9 million
over five years.

TIGTA also reported on several areas of concern associated with an August 2010 IRS
conference in Anaheim, California and made recommendations to ensure that taxpayer
funds are expended more efficiently in the future. 48 The Acting IRS Commissioner
stated that new spending restrictions have been put in place at the IRS. The IRS has
taken steps to ensure travel and conference spending is appropriate, limited, and
undergoes a thorough review and approval process.

In another audit, TIGTA reported that the IRS has not identified the optimal footprint for
its data centers. 49 TIGTA observed significant empty space at the IRS’s Enterprise
Computing Center in Detroit, Michigan. After our audit was initiated, the IRS announced
plans to close this facility, which will save the IRS approximately $15 million annually.


46
   The IRS generally has 10 years from the date of assessment to collect a liability owed by a taxpayer.
The final date to collect is referred to as the Collection Statute Expiration Date.
47
   TIGTA Ref. No. 2013-10-010, Inadequate Aircard and Blackberry Assignment and Monitoring
Processes Result in Millions of Dollars in Unnecessary Access Fees (Jan. 2013).
48
   TIGTA, Ref. No. 2013-10-037, Review of the August 2010 Small Business/Self-Employed Division’s
Conference in Anaheim, California (May 2013).
49
   TIGTA Ref. No. 2013-20-013, The Data Center Consolidation Initiative Has Made Significant Progress,
but Program Management Should Be Improved to Ensure That Goals Are Achieved (June 2013).
                                                   176
                                           U.S. Department of the Treasury | Fiscal Year 2013
CONCLUSION

This memorandum is provided as our annual summary of the most serious major
management and performance challenges confronting the IRS in FY 2014. TIGTA’s
Fiscal Year 2014 Annual Audit Plan contains our proposed reviews, which are
organized by these challenges. If you have any questions or wish to discuss our views
on the challenges in greater detail, please contact me at (202) 622-6500.


cc:   Deputy Secretary

      Acting Assistant Secretary for Management and Chief Financial Officer

      Acting Commissioner of Internal Revenue




                                          177
                                                      U.S. Department of the Treasury | Fiscal Year 2013


                                   MANAGEMENT’S RESPONSE TO THE
             MANAGEMENT AND PERFORMANCE CHALLENGES IDENTIFIED BY THE
                                     TREASURY INSPECTOR GENERAL
                                                       AND
                   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




    In their memoranda dated November 14 and 8, 2013, the Treasury Inspector General (IG) and the Treasury
    Inspector General for Tax Administration (TIGTA), respectively, identified the major challenges facing
    management. The Department of the Treasury concurs with the IG and the TIGTA on these challenges.
    These challenges do not necessarily indicate deficiencies in performance; rather, some represent inherent
    risks that must be monitored continuously. Moving forward, Treasury will continue to address these issues
    proactively. The following tables summarize the major management and performance challenges facing the
    Department of the Treasury, and provide information on the actions taken by Treasury in fiscal year 2013 and
    planned for fiscal year 2014 and beyond. The IG’s matters of concern are also addressed below.




    Jacob J. Lew
    Secretary of the Treasury
    December 16, 2013


                                           RESPONSE TO OIG


OIG CHALLENGE NO. 1                                SUMMARY OF MAJOR ISSUES

Continued Implementation of Dodd-                  • Maintain an effective Financial Stability Oversight Council
Frank                                                process supported by the Office of Financial Research and
                                                     Federal Insurance Office within Treasury
                                                   • Build a streamlined banking regulatory structure that timely
                                                     identifies and strongly responds to emerging risks
Financial Stability Oversight Council (FSOC)
Fiscal Year 2013 Accomplishments

• Held 13 meetings of the FSOC to discuss and analyze emerging market developments and financial
  regulatory issues
• Continued to monitor for potential risks to U.S. financial stability, with a focus on significant financial
  market developments and structural issues within the financial system

• Designated an initial set of certain nonbank financial companies for supervision by the Federal Reserve and
  enhanced prudential standards

•    Monitored the eight financial market utilities designated in 2012 for enhanced risk-management standards
     and supervision


•    Continued to build out the FSOC’s institutional framework and strengthened coordination and cooperation
     among members and member agencies


                                                     178
                                                       U.S. Department of the Treasury | Fiscal Year 2013


Actions Planned or Underway
•   Continue to consult with the Federal Reserve on developing rules establishing enhanced risk-management
    standards

•   Continue identification of specific nonbank financial companies for supervision by the Federal Reserve and
    enhanced prudential standards

•   Coordinate issuance of final regulations implementing the Volcker Rule with identical rule text among the
    five rule-writing agencies
•   Continue monitoring for potential risks to U.S. financial stability, with a focus on significant financial
    market developments and structural issues within the financial system

•   Continue to implement operational improvements to existing processes and procedures related to the work
    of the FSOC

Office of Financial Research (OFR)
Fiscal Year 2013 Accomplishments

•   The OFR Director was confirmed by the Senate in January 2013

•   Completed and published a study of the asset management industry as requested by the FSOC

•   Provided analytical and data-related support to the FSOC and its member agencies to continue the analysis
    related to nonbank financial company designations and to support the FSOC’s annual report

•   Provided FSOC staff an enhanced Financial Stability Monitor – a dashboard of improved financial stability
    metrics and indicators

•   Was selected to chair the Global Legal Entity Identifier Committee

•   Established Regulatory Oversight Committee Board of Directors for the administration of Legal Entity
    Identifiers

•   Held two Financial Research Advisory Committee (FRAC) meetings; the FRAC provided the OFR
    recommendations in August 2013
•   The Federal Reserve Bank of Cleveland and the OFR jointly sponsored a conference on May 30 - 31, 2013, at
    the Federal Reserve Board in Washington, D.C.; the event focused on the data and tools needed for
    measuring potential threats to financial stability

•   Hosted second OFR/FSOC conference in December 2012 on “Assessing Financial Intermediation:
    Measurement and Analysis”

•   Procured critical infrastructure to build the OFR Long-Term Analytic Environment

•   Released eight Research Working Papers to the public

•   The OFR Director testified before the House Financial Services Subcommittee on Oversight and
    Investigations on “Who is Too Big to Fail? GAO’s Assessment of the Financial Stability Oversight Council
    and the Office of Financial Research” on March 14, 2013
•   Issued the first OFR Early-concept Grants for Exploratory Research (EAGER) grant in conjunction with the
    National Science Foundation to promote and support research related to financial stability

•   Submitted second Annual Report to Congress on Human Capital Planning

•   Increased staff from 100 to approximately 180 by the end of fiscal year 2013

•   Implemented organizational performance measures and published them in the fiscal year 2014 budget

•   Improved the content and presentation of the OFR website
•   Continued to create operational policies and procedures as needed




                                                      179
                                                             U.S. Department of the Treasury | Fiscal Year 2013
Actions Planned or Underway
    •    Issue second Annual Report to Congress, containing improved analysis and tools for monitoring threats to
         U.S. financial stability

    •    Complete acquisition of repo data
    •    Complete analysis of Form PF data

    •    Develop additional monitoring tools for use by the FSOC

    •    Provide support for the FSOC’s annual report

    •    Provide support for the FSOC’s nonbank designation process

    •    Provide support for the FSOC’s monitoring of threats by developing a Financial Stability Monitor

    •    Provide support for the FSOC by collecting data as appropriate

    •    Complete the third OFR Annual Report to Congress on Human Capital Planning

    •    Continue to build staff toward steady-state level

    •    Host the third annual OFR/FSOC conference in January 2014

    •    Host the next FRAC meeting in 2Q14

    •    Complete the build-out of the OFR Long-Term Analytic Environment and migrate data

    •    Publish additional working papers

    •    Issue more EAGER grants

    •    Complete the revised OFR Strategic Plan

    •    Drive efforts to support the global issuance and acceptance of Legal Entity Identifiers
Federal Insurance Office (FIO)
Fiscal Year 2013 Accomplishments

• Contributed expertise, policy support, and leadership in the FSOC
• The Director of FIO became chair of the International Association of Insurance Supervisors (IAIS) Technical
  Committee and has served in that capacity throughout 2013
• Led work at the IAIS through chairmanship of the Technical Committee, participation in the development of
  Global Systemically Important Insurers and other work streams, including leadership on technical and
  substantive work streams leading to a Common Framework for the Supervision of Internationally Active
  Insurance Groups

• Initiated, participated in, and assumed leadership and technical engagement with the European Union –
  U.S. Project
• Enhanced bilateral relationships with U.S. regulatory agencies in matters concerning insurance oversight
  and supervision

• Assisted the Secretary of the Treasury in administering the Terrorism Risk Insurance Program, including
  advising on matters relating to the events in Boston

• Convened the Federal Advisory Committee on Insurance to discuss contemporary insurance issues
• Contributed to the Hurricane Sandy Task Force and collected data from state regulators regarding insured
  losses

• Hosted the Federal Government Insurance Forum
• Participated in the Organization for Economic Cooperation and Development Insurance and Private Pension
  Committee meetings

•       Established the Insurance Supervisory Forum for North America



                                                         180
                                                      U.S. Department of the Treasury | Fiscal Year 2013

• Prepared and released reports
Actions Planned or Underway

•   Release the Modernization Report and effectuate its recommendations

•   Produce and release reports on pertinent issues affecting the domestic and international insurance markets

•   Enter into bilateral memoranda of understanding (MOUs) with major emerging markets
• Continue to build on FIO’s current international leadership role and expand opportunities for FIO’s
  involvement in relevant international supervisory bodies

•   Build resources and staff capacity
Office of the Comptroller of the Currency (OCC)
Fiscal Year 2013 Accomplishments
•   Adopted final capital rule that establishes an integrated capital framework that addresses shortcomings
    revealed by the financial crisis and implements the Basel III regulatory capital reforms; the rule increases
    the quantity and quality of regulatory capital held by banks and addresses section 939A of the Dodd-Frank
    Act by removing references to credit ratings from OCC’s regulations dealing with topics other than capital
    requirements replacing it with a new non-ratings based creditworthiness; for the largest, most
    internationally active banks, the rule includes a new minimum supplementary leverage ratio that takes into
    account off-balance-sheet exposures, a countercyclical buffer, and additional capital charges and standards
    for derivatives exposures

•   Published a proposed capital rule to strengthen the leverage ratio standards for the largest, most
    systemically significant U.S. banking organizations

•   Adopted a final rule to implement the company-run stress tests for banks with assets greater than $10 billion
    and issued proposed supervisory guidance for implementation of those rules for banks with consolidated
    assets of between $10 billion and $50 billion

•   Issued supervisory guidance and tools to assist community banks in conducting stress tests

•   Issued re-proposed rule to implement the Dodd-Frank Act risk retention requirements
•   Published a final rule amending the lending limit rule to apply to certain credit exposures arising from
    derivative transactions and securities financing transactions, in response to a Dodd-Frank Act revision in the
    statutory definition of loans and extensions of credit to include certain exposures arising from derivative,
    repurchase and securities transactions

• Issued a final rule for appraisals on higher-risked mortgages and a proposed rule to exempt a subset of
  higher-priced mortgage loans from those requirements
• With the other federal banking agencies, issued updated supervisory risk management guidance for
  leveraged lending

• Issued a revised Commercial Real Estate Lending booklet to the Comptroller’s Handbook; updated
  guidance includes prudent loan workouts, management of concentrations, stress testing, updated
  interagency appraisal guidelines, and statutory and regulatory developments in environmental risk
  management and discussions of statutes and regulations governing federal savings associations
• Adopted a final rule on short-term investment funds (STIFs); the rule adds safeguards to address the risk of
  loss to a STIF’s principal, including measures governing the nature of a STIF’s investments, ongoing
  monitoring of its mark-to-market (MTM) value and forecasting potential changes to its MTM value under
  adverse conditions, greater transparency and regulatory reporting, and procedures to protect fiduciary
  accounts from undue dilution of their participating interests in the event the STIF loses its ability to
  maintain stable net asset value

• Issued proposed guidance on supervisory concerns and expectations for deposit advanced products

• Issued proposed interagency risk management guidance on the use of social media
• Adopted an interagency statement implementing section 612 of the Dodd-Frank Act restrictions on
  conversions for troubled financial institutions



                                                     181
                                                     U.S. Department of the Treasury | Fiscal Year 2013
• Issued Semi-annual Risk Perspectives Reports that provide the industry and other interested parties the
  OCC’s perspectives on issues that pose threats to the safety and soundness of those financial institutions
  regulated by the OCC

• Continued active participation in the FSOC and its various operating committees
• Reached settlements with 11 mortgage servicers that will provide $3.2 billion in payments to eligible
  borrowers and $5.3 billion in other foreclosure prevention assistance; the settlements effectively ended
  requirements that these servicers conduct an independent foreclosure review required by Consent Orders
  issued in April 2011

• Conducted a nationwide call for federally chartered community banks on cybersecurity
• Established the position of Technical Expert for Critical Infrastructure within the OCC’s Operational Risk
  area under the Chief National Bank Examiner’s department

• Established, under the Comptroller’s leadership as chairman of the Federal Financial Institutions
  Examination Council, a cyber-working group
Actions Planned or Underway

• Continue to conduct on-site supervisory assessments of national banks and federal savings associations,
  focusing on the quality of corporate governance, risk management practices, adequacy of loan-loss reserves,
  capital, and liquidity
• Continue to perform individual bank examinations on a variety of other activities aimed at identifying and
  responding to systemic trends and emerging risks that could adversely affect asset quality or the availability
  of credit at national banks and federal savings associations and the banking system, and fair access to
  financial services
• Continue to integrate OCC national bank and Office of Thrift Supervision federal savings association rules
  under OCC regulations

• Monitor and assess the effectiveness of national bank and federal savings association mortgage servicers’
  loan modification and foreclosure actions, including compliance with outstanding enforcement actions and
  agreements

• Issue proposed rulemaking to implement the Basel liquidity reforms
• Work closely within Treasury and with other federal financial regulatory agencies to implement the
  remaining Dodd-Frank Act reforms, and to monitor and respond to emerging risks to the stability of the U.S.
  financial system




                                                   182
                                                      U.S. Department of the Treasury | Fiscal Year 2013


OIG CHALLENGE NO. 2                                        SUMMARY OF MAJOR ISSUES

Management of Treasury’s Authorities                       • Protect the taxpayer from unnecessary risk
Intended to Support and Improve the                          associated with the implementation and
Economy                                                      administration of programs intended to support and
                                                             improve the economy, including the provisions of
                                                             the:
                                                             - Small Business Jobs Act of 2010
                                                             - American Recovery and Reinvestment Act of
                                                                2009
                                                             - Housing and Economic Recovery Act of 2008
                                                             - Emergency Economic Stabilization Act of 2008
Small Business Lending Fund (SBLF)
Fiscal Year 2013 Accomplishments

• In total, the SBLF invested $4.03 billion in 332 community banks and Community Development Loan Funds
  (CDLFs)

• In fiscal year 2013, the SBLF program office continued its fiscal year 2012 focus on investment management,
  operations, compliance and controls, and outreach and reporting activities

•   Specifically, the SBLF program office focused on the following activities:
    o Investment Management: SBLF monitored the SBLF investment portfolio and made recommendations
      to senior Treasury officials on decisions related to investment performance and activities
    o Operations: SBLF managed the program’s data and information in connection with participant
      reporting, dividend and interest payments, and capital repayments
    o Compliance and Controls: SBLF monitored participant conformance with program terms, including
      lending data, certification requirements, and other requirements provided for by the SBLF Securities
      Purchase Agreement; SBLF also developed and executed internal control procedures for processes across
      SBLF program office functions
    o Reporting and Outreach: SBLF continued its outreach and reporting efforts in fiscal year 2013. These
      activities included reporting to Congress on the program’s transactions, costs, and the participants’ use of
      funds, correspondence, and publishing the results of the program’s first annual lending survey; as of
      June 30, 2013, SBLF participants have increased small business lending by $10.4 billion over a $36.5
      billion baseline
Actions Planned or Underway
• For fiscal year 2014 and forward, the SBLF program office plans to continue its focus on investment
  management, operations, compliance and controls, and reporting and outreach:
    o Investment Management: SBLF plans to continue to monitor the SBLF investment portfolio and make
      recommendations to senior Treasury officials on decisions related to investment performance and
      activities
    o Operations: SBLF plans to continue to manage the program’s data and information in connection with
      participant reporting, dividend and interest payments, and capital repayments
    o Compliance and Controls: SBLF plans to continue to execute a compliance program to monitor
      participant conformance with program terms, including lending data, certification requirements, and
      other requirements provided for by the SBLF Securities Purchase Agreement; SBLF also plans to
      continue executing internal control procedures for processes across SBLF program office functions
    o Reporting and Outreach: SBLF plans to continue its outreach and reporting efforts; these activities
      include reporting to Congress on the program’s transactions, costs, and the participants’ use of funds,
      correspondence, and publishing the results of the program’s second annual lending survey




                                                     183
                                                       U.S. Department of the Treasury | Fiscal Year 2013
State Small Business Credit Initiative (SSBCI)
Fiscal Year 2013 Accomplishments

•   Received, tested, and transferred a cumulative $911,781,402 to States as they qualified for subsequent
    disbursements on their allocations ($379,143,821 in fiscal year 2013)

•   Conducted on-site compliance reviews or training sessions in 12 States

•   Evaluated and approved 21 formal modifications to States’ Approved SSBCI Programs

•   Organized two national conferences of state SSBCI officials hosted by the Chicago Federal Reserve Bank and
    the Dallas Federal Reserve Bank

•   Participated in three webinars organized by industry trade associations
•   Convened three working groups of State SSBCI Officials to discuss and publish best practices in Collateral
    Support Programs, Loan Participation Programs and Loan Guarantee Programs

•   Published Summary of States’ Quarterly Reports (Quarter Ending June 2013)

•   Published Summary of States’ 2012 Annual Reports

•   Published consultants’ study of SSBCI state-sponsored venture capital programs
•   Coordinated responses to eight audits of states, one audit on the effectiveness of SSBCI, and one
    management alert from the Office of Special Inspector General for the SBLF, as well as an overall program
    audit by the Government Accountability Office
Actions Planned or Underway

• Continue to receive, test, and process requests for subsequent disbursements

•   Continue to evaluate and respond to requests for modifications to Approved SSBCI Programs

•   Organize at least one national conference of state officials

•   Convene two working groups of State SSBCI officials to discuss and publish best practices

•   Continue to publish Quarterly and Annual Reports

•   Publish consultants’ study of SSBCI lending programs
•   Continue to coordinate responses to audits of states conducted by the Office of Special Inspector General for
    the SBLF
OCC
Fiscal Year 2013 Accomplishments

• Issued a Community Development Investments electronic newsletter, titled “The State Small Business
  Credit Initiative,” describing how national banks and federal savings associations can implement the
  Department of Treasury’s SSBCI to increase the amount of credit available for small businesses

Actions Planned or Underway

• Issue Community Development Investments electronic newsletters to support and improve the economy

Management of Recovery Act Programs

Fiscal Year 2013 Accomplishments

• Managed the low income housing and specified energy property programs, including the extension of the
  specified energy property program by one year under Section 707 of the Job Creation Act, by supplementing
  a small core staff in Departmental Offices with support from Treasury bureaus

•   Continued to review incoming applications for the energy program and make timely awards
•   Continued an interagency agreement for the energy program with the Department of Energy to assist with
    the technical aspects of the energy program

•   Continued an annual reporting process for the low-income housing program to ensure projects funded
                                                   184
                                                     U.S. Department of the Treasury | Fiscal Year 2013
    under the program remain qualified
•   Provided follow-up and support as necessary to Recovery Act Community Development Financial
    Institutions (CDFI) Program and Native American CDFI Assistance Program awardees with remaining
    federal reporting requirements in fiscal year 2013, to ensure timely data reporting to Federal
    Reporting.gov (100 percent on-time rate was achieved for fiscal year 2013)
•   Conducted five site visits and 13 desk reviews on Recovery Act awards as of year-end which brings the total
    number of awards that have undergone detailed reviews of underlying data to 23

•   Closely monitored spend-down of remaining Recovery Act CDFI award funds, to ensure all funds were
    expended by September 30, 2013; also monitored submission of final reports to Federal Reporting.gov by
    remaining Recovery Act CDFI Program and Native American CDFI Assistance Program awardees
Actions Planned or Underway

• Continue the compliance monitoring programs related to the low-income housing and specified energy
  property programs

• Continue to coordinate with IRS’s compliance initiative project regarding the energy program
•   Continue assessment of staffing needs

• Receive final Assistance Agreement compliance reports from awardees for which performance period ended
  in fiscal year 2013; reconcile final compliance reports with reports submitted under Federal Reporting.gov

• Conduct desk reviews or site visits for remaining 46 Recovery Act awards

• Close out all 69 Recovery Act awards
Management of the Housing and Economic Recovery Act and the Emergency Economic
Stabilization Act
Fiscal Year 2013 Accomplishments
• New Issue Bond Program (NIBP)

    o Concluded the period for which State and local Housing Finance Agencies (HFAs) could use program
      funds to finance new single family or multifamily mortgages

    o Managed the prompt return of unused NIBP funds to Treasury well in advance of the final deadline

• Temporary Credit and Liquidity Program (TCLP)

    o Concluded the process of granting a three-year extension of TCLP for six HFAs that elected to extend
      their participation, conditioned on these HFAs submitting plans for Treasury’s approval for reducing
      balances of bonds covered by TCLP

    o Managed the reduction of Treasury’s exposure to risk under TCLP from $3.6 to $2.0 billion during the
      year, with the number of participating HFAs falling from six to four
• Continued to manage the wind-down of remaining Troubled Asset Relief Program (TARP) investments in a
  manner that balanced the desire to exit investments as soon as practicable with maximizing returns for
  taxpayers:
  o Cumulatively collected 96.2 percent of the $420.1 billion in program funds disbursed under TARP
      (100.4 percent if non-TARP American International Group (AIG) shares are included)
    o   Continued to wind down some of our remaining Capital Purchase Plan investments through
        repurchases by banks, asset sales, and restructurings
    o   Substantially completed the wind-down of all of the TARP credit market programs, including remaining
        investments under the Public Private Investment Program and the Term Asset Backed Securities Loan
        Facility
    o   Made considerable progress in the wind down of the Automotive Industry Financing Program (AIFP)
        with the sale of 399 million shares of GM stock during fiscal year 2013, and with announcements by Ally
        Financial of a series of transactions that resulted in Ally repaying Treasury approximately $6 billion on
        November 20, 2013
    o   Exited all remaining holdings in AIG


                                                    185
                                                      U.S. Department of the Treasury | Fiscal Year 2013
•   Continued to implement the housing programs funded under TARP, which are designed to prevent
    avoidable foreclosures; these efforts have directly helped more than1.2 million people avoid foreclosure and
    indirectly helped millions more by setting new standards throughout the mortgage servicing industry
Actions Planned or Underway

• Manage the wind down of the HFA Initiative

• NIBP – Continue to collect data on the performance of the collateral underlying NIBP bonds, and to use this
  data to monitor and manage Treasury’s risks

• TCLP – Continue to monitor performance of four remaining HFAs in implementing approved plans for
  reducing TCLP balances, and to encourage HFAs to achieve faster reductions as market conditions permit

• Continue to manage the wind-down of the remaining TARP investments in a manner that balances the
  desire to exit as soon as practicable with maximizing returns for the taxpayers:

    o   Continue to wind down our remaining Capital Purchase Program investments through repurchases by
        banks, asset sales, and restructurings
    o   Continue to sell GM common stock through pre-arranged written trading plans and underwritten
        offerings, subject to market conditions
    o   Actively seek to monetize OFS’s Ally Financial investment

•   Continue to implement the housing programs funded under TARP, which are designed to prevent avoidable
    foreclosures




OIG CHALLENGE NO. 3                                        SUMMARY OF MAJOR ISSUES

Anti-Money Laundering and Terrorist                        •   Prevent and detect money laundering and terrorist
Financing/Bank Secrecy Act (BSA)                               financing
Enforcement
                                                           •   Promote U.S. and international financial systems
                                                               that are safe and transparent
                                                           •   Ensure continued cooperation and coordination of
                                                               all organizations involved in anti-money
                                                               laundering and combatting terrorist financial
                                                               efforts
                                                           •   Create safeguards over the use of BSA information


FinCEN
Fiscal Year 2013 Accomplishments
• Imposed a $500 million penalty against HSBC as part of a joint enforcement action with several federal and
  state agencies resulting in a $1.9 billion overall enforcement action, the largest combined BSA and anti-
  money laundering (AML) penalty ever imposed against any financial institution
• Completed the majority of the components of the BSA IT Modernization Program, including deploying
  FinCEN Query to approximately 10,000 users, mandating electronic filing of all Title 31 reports, and
  introducing the ability to view automated alerts based on established business rules

• Completed the transition of financial institutions from legacy forms to new, electronic reporting formats
  through the BSA E-Filing system
• Realigned resources to establish the FinCEN Resource Center, an information operations hub for FinCEN
  that ensures consistent, efficient service to financial institutions, law enforcement, and regulators, as well as
  our foreign partners; thus far, the FRC has responded to more than 26,000 inquiries from financial
  institutions regarding proper electronic filing of BSA Reports, including money services businesses (MSBs)
  registration requirements; processed more than 270 314(a) requests from law enforcement, 4,000 314(b)
  registrations from financial institutions, and 1,700 activity reports for regulatory field examiners; and
  reviewed over 8,000 FinCEN Query searches to network agencies working identical cases

                                                     186
                                                      U.S. Department of the Treasury | Fiscal Year 2013


• Led a significant multilateral effort, in cooperation with the Mexican Financial Intelligence Unit (FIU), the
  Spanish FIU, and the member governments and FIUs of the Organization of American States-Inter-
  American Drug Abuse Control Commission to develop and adopt a set of principles and best practices across
  the Western Hemisphere FIUs for ensuring the confidentiality of FIU information in a manner consistent
  with established Egmont principles and practices
• Continued to enhance the sharing of information derived from compliance examinations through entering
  into an additional 73 MOUs with federal and state regulators

• Issued guidance clarifying that certain administrators or exchangers of virtual currency are subject to
  FinCEN regulations as money transmitters, subjecting them to requirements including, but not limited to,
  registering with FinCEN, adopting an anti-money laundering program, and reporting suspicious activities
• Conducted strategic analytical studies and published reports on emerging money laundering trends and
  vulnerabilities, including assessments related to mortgage fraud, elder financial exploitation, depository
  institution insider abuse, 314(b) program usage, and the accounting profession, and issued analytical reports
  to state regulatory authorities overall BSA filing trends within their jurisdictions
• Realigned resources to increase staffing and revitalize enforcement efforts in all areas under FinCEN’s
  compliance and enforcement authority, including MSBs and non-bank financial institutions
Actions Planned or Underway
•   Continue cooperative efforts with Federal and State regulatory agencies, pursuing MOUs with additional
    state insurance regulators, and promoting greater leveraging of resources between the IRS and state
    regulatory agencies on non-bank financial institution examinations – including implementation of
    compliance strategies for industries that have been recently subject to FinCEN’s regulations

•   Finalize existing rulemaking proposals and develop new regulations, as warranted, to address AML risks or
    gaps in the AML framework
•   Implement the final components of the BSA IT Modernization Program and transition to an operations and
    maintenance environment

•   Continue to issue guidance and actionable advisories to financial institutions, regulators, and law
    enforcement on compliance and emerging money laundering trends and risks
•   Publish analytic products identifying networks, schemes, and failed institutions or jurisdictions involved in
    illicit financial activities and develop new analytic processes to streamline recurring analytic reports to
    provide faster turnarounds to customers

•   Continue to exercise enforcement authorities where appropriate to ensure compliance with the BSA and
    combat money laundering in all sectors of the financial services industry

OCC
Fiscal Year 2013 Accomplishments
•   Examined national banks and federal savings associations to combat money laundering and terrorist
    financing, and to protect the integrity of the U.S. financial system through banks’ compliance with the Bank
    Secrecy Act/Anti-Money Laundering (BSA/AML), and USA PATRIOT Act laws and regulations, taking
    enforcement actions when appropriate

•   Imposed a $500 million civil money penalty against HSBC Bank USA, N.A., McLean, Virginia, the largest
    penalty ever assessed by the OCC, based on the bank’s violating the BSA and its underlying regulations, and
    the bank's failure to fully comply with a cease and desist order issued in October 2010 addressing these
    violations
    o The order required the bank to take comprehensive corrective actions to improve its BSA compliance
      program, while deferring the OCC's decision on assessing a penalty
    o OCC announced that it has issued a separate cease and desist order to address deficiencies in the bank's
      enterprise-wide compliance program
    o OCC entered into an agreement with the bank pursuant to the requirements of the Gramm-Leach-Bliley
      Act



                                                     187
                                                     U.S. Department of the Treasury | Fiscal Year 2013
    o OCC penalty was part of a coordinated action with the U.S. Department of Justice, the Board of
      Governors of the Federal Reserve System, the Financial Crimes Enforcement Network, the Office of
      Foreign Assets Control, and the New York County District Attorney's Office

•   Issued a cease and desist order, by consent, against JPMorgan Chase, N.A.; JPMorgan Bank and Trust
    Company, N.A.; and Chase Bank USA, N.A., for deficiencies in the banks’ overall program for BSA/AML
    compliance
•   Imposed a $10 million civil money penalty against TCF National Bank, Sioux Falls, S.D., for violations of the
    BSA comprising late and inadequate filing of Suspicious Activity Reports (SARs), following a cease and
    desist order issued in 2010 that directed the bank to correct deficiencies in its BSA and anti-money
    laundering programs
•   Emphasized training, staffing, recruitment, policies, and interagency coordination to continually improve
    the BSA/AML supervision program
•   Continued to work closely with the Treasury’s Office of Terrorism and Financial Intelligence, FinCEN and
    Office of Foreign Assets Control to promote the implementation of sound international anti-money
    laundering and counter terrorist financing standards
•   Revised approach to citing BSA/AML violations in order to provide more flexibility for individual pillar
    violations to be cited, and identified steps to more promptly obtain a holistic view of a bank’s BSA/AML
    compliance
Actions Planned or Underway
•   Continue examination, enforcement activities, and cooperative efforts with FinCEN and other federal
    banking agencies



OIG CHALLENGE NO. 4                                       SUMMARY OF MAJOR ISSUES
                                                          • Monitor regulations and associated policies and
Gulf Coast Restoration Trust Fund
                                                            procedures that need be established
Administration
                                                          • Coordinate with many entities/councils that are to
                                                            receive and further allocate funding, and need to
                                                            establish policies and procedures
                                                          • Use Treasury’s existing resources to administer its
                                                            responsibilities for the Trust Fund
Fiscal Year 2013 Accomplishments

•   Posted notice of and published Treasury’s The Resources and Ecosystems Sustainability, Tourism
    Opportunities and Revived Economy of the Gulf Coast Act of 2011 (RESTORE Act) proposed regulations for
    comment
•   Launched a Treasury RESTORE Act website that includes links to the proposed regulation, statute, Gulf
    Coast Ecosystem Restoration Council’s Comprehensive Plan and to grantees websites

•   Hired a contractor to assist in the development of grant application forms, application procedures,
    application review process and compliance parameters for Treasury’s RESTORE Act grant programs
•   Implemented an investment strategy for the Gulf Coast Restoration Trust Fund concurred to by the Gulf
    Coast Ecosystem Restoration Council and the National Oceanic Atmospheric Administration

•   Represented Treasury at weekly conference calls and monthly meetings of the Gulf Coast Ecosystem
    Restoration Council executive committee

•   Met with federal agencies who sit on the Gulf Coast Ecosystem Restoration Council to evaluate resource
    needs and provide input on RESTORE grant programs

•   Utilized resources from the Fiscal Service to investigate grants management systems

•   Assisted the Fiscal Service in implementing Trust Fund investments




                                                    188
                                                       U.S. Department of the Treasury | Fiscal Year 2013
Actions Planned or Underway

•   Hire three full time employees for the RESTORE Act
• Comment period for proposed regulations began in early November; release of final regulation anticipated in
  the second quarter fiscal year 2014

• Target date for the Fiscal Service to execute an interagency agreement for a grants management system set
  for late December 2013 and complete set up in the second quarter fiscal year 2014

• Continue to engage IT support for reporting functions to be added to RESTORE Act website
• Target date to execute an interagency agreement or contract for subject matter experts to assist in grant
  application review is third quarter fiscal year 2014

• Target date for standard grant award agreement set for the second quarter of fiscal year 2014
• Target date to announce launch of program with accompanying application forms, procedures, and guidance
  is set for second quarter fiscal year 2014

• Target date for receipt of first grantee applications set for the third quarter of fiscal year 2014

• Target date for first awards to grantees anticipated in the fourth quarter of fiscal year 2014



Matters of Concern No. 1                                    SUMMARY OF MAJOR ISSUES
                                                            • Build on existing partnerships among financial
Cybersecurity
                                                              institutions, regulators, and private entities in the
                                                              financial sector
                                                            • Identify and respond to emerging cyber threats
                                                              against financial institutions and the broader
                                                              financial sector
Fiscal Year 2013 Accomplishments

• Clarified roles and responsibilities within the partnership system of the sector coordinating council
  (Financial Services Sector Coordinating Council for Critical Infrastructure Protection, FSSCC); the sector
  communications utility (Financial Services Information Sharing and Analysis Center, FS-ISAC); and the
  regulatory c0mmittee (Financial and Banking Information Infrastructure Committee)

• Implemented an information-sharing platform, to exchange sensitive information between the financial
  sector and the defense industrial base (Global Information Sharing Framework)
• Partnered with Department of Homeland Security (DHS), the intelligence community and law enforcement
  to build cyber-intelligence capabilities focused on protecting the financial services sector

• Began working with key sector partners to adapt a defense industrial base sensors program [Defense
  Enhanced Cybersecurity Services (DECS)] to serve institutions within the financial services sector

• Encouraged the sector to focus on extending communications networks beyond IT specialists to executives at
  various levels including Chief Executive Officers, Chief Information Officers, Chief Information Security
  Officers

• Stood up the Financial Sector Cyber Intelligence Group (CIG) within Treasury to provide timely and
  actionable cyber threat information to the financial sector

• Provided substantial input on key Administration cybersecurity proposals, including Executive Order 13636
  - Improving Critical Infrastructure Cybersecurity and Presidential Policy Directive (PPD)-21 Critical
  Infrastructure Security and Resilience

• Re-aligned and updated Treasury’s Cyber Critical Infrastructure Protection policies to address rapidly
  evolving federal requirements, including the 2013 Presidential Directive to protect the most essential
  information systems from potential adversaries

• Convened classified discussions with Chief Executive Officers, Chief Information Officers and Chief
  Information Security Officers from over 150 financial service firms and their service providers to identify and
  address emerging threats

• Collaborated with private and public sector partners to assess the emerging risks associated with the
  Internet Corporation for Assigned Names and Numbers proposal to delegate new financial Internet suffixes,
                                                  189
                                                       U.S. Department of the Treasury | Fiscal Year 2013
   including “.bank”, “.mortgage”, “.insurance”, and “.retirement”
• Coordinated government and industry responses to attacks on individual institutions of the financial
  services sector

• Executed requests for Technical Assistance and Memoranda of Understanding to deploy government
  resources in defense of critical infrastructure


• Achieved continuous monitoring of Treasury systems covering 83 percent of the IT assets supporting
  Treasury unclassified systems, up from 65 percent at the end of fiscal year 2011

• Introduced a performance element in Bureau CIO performance plans to encourage the application of critical
  patches to at least 75 percent of applicable systems within 30 days of patch release; as result, 60 percent of
  the Treasury bureaus accomplished this goal

• Continued to improve Treasury’s network security to reduce the impact of social engineering and other
  attempts to expose Treasury IT systems to malicious software; as a result, 99 percent of Treasury network
  traffic was routed through a Trusted Internet Connection, where advanced analytic and defensive
  capabilities (including DHS monitoring with EINSTEIN technologies) help to block known and potential
  threats from entering Treasury’s IT environment

• Met the Treasury goal of 99 percent of users with a network account received cybersecurity awareness
  training, and 99 percent of users with significant security responsibilities met Treasury requirements for
  completing specialized, role-based security training

• OCC held a webinar on cyber threats and vulnerabilities to raise awareness for community banks, part of its
  continuing outreach effort to raise awareness by federally chartered banks and national savings associations
  of the growing operational risks from cyber-attacks; the webinar addressed current threats and
  vulnerabilities on how the OCC and other government entities are partnering to address these threats; and
  practical advice for community bankers on protecting their banks and customers

• OCC created and filled a new position, Senior Infrastructure Officer

• OCC held a series of briefings for banks, third-party service providers, and bank examiners
• OCC issued an alert on denial-of-service attacks and updated examiner handbooks, procedure, and training
  materials to ensure that as threats evolve all banks and thrifts can identify cyber risks and strengthen their
  risk management and control systems
Actions Planned or Underway
• Continuing to encourage the private sector and other government agencies to ramp up their respective
  efforts to bolster cybersecurity for the safety of their businesses as well as the entire U.S. financial system,
  including continued engagement from Treasury staff and senior management, including Assistant
  Secretaries, Under Secretaries, the Deputy Secretary, and the Secretary

• Enhancing access, staffing and automation at the sector communications utility (FS-ISAC)
• Partnering with Department of Homeland Security (DHS) to adapt the defense industrial base sensors
  program (DECS) to meet the needs of the financial sector;

• Continuing to partner with DHS, the intelligence community and law enforcement to enhance cyber-
  intelligence capabilities dedicated to protecting the financial sector

• Continue to work with the FSSCC and FS-ISAC, enlisting the trade associations to extend effective crisis
  management and communications to firms of all sizes

• Coordinating Private Sector Clearance Program with DHS for the Financial Services sector

• Fully operationalizing the Financial Sector Cyber Intelligence Group within Treasury to provide timely and
  actionable cyber threat information to the financial sector

• Supporting the implementation of Executive Order 13636 - Improving Critical Infrastructure Cybersecurity
  and PPD-21 Critical Infrastructure Security and Resilience
• Supporting and institutionalizing the integration of financial services-specific efforts with DHS’ cross-sector
  activities


                                                     190
                                                      U.S. Department of the Treasury | Fiscal Year 2013

• Continuing to provide input on the potential risk of domain name expansion (e.g. “.bank”)

• Continuing to address individual incidents and patterns of attack
• Engaging in the planning and execution of preparedness exercises led by government and industry to
  identify and assess sector vulnerabilities
• Continuing to provide Treasury users annual cybersecurity awareness training to Treasury network users


• Accelerating transition to a logical access control model that requires users to authenticate their identities
  using the Personal Identity Verification card when accessing Treasury systems

• OCC (as the Chair of the Federal Financial Institutions Examination Council) which spearheaded the
  formation of an interagency working group charged with coordinating with intelligence, law enforcement,
  and homeland security officials to fight existing and emerging threats; the working group will consider ways
  to improve coordination of supervisory policies relating to cybersecurity and infrastructure resilience and
  whether additional legislative authority is needed to stop security threats



Matters of Concern No. 2                                   SUMMARY OF MAJOR ISSUES
                                                           • Oversee issues related to the Bureau of Engraving
Currency and Coin Production
                                                             and Printing’s (BEP) redesign of NexGen $100 note
                                                             while engaging in sound and comprehensive
                                                             project management
                                                           • Oversee the U.S. Mint’s costs associated of
                                                             producing penny, nickel coins, and the suspended
                                                             production of the dollar coins
Fiscal Year 2013 Accomplishments
Coin Production

•   The U.S. Mint delivered an alternative coinage materials report to Congress in fiscal year 2013 that provided
    an assessment for both metal and production costs; no formal recommendations were made to change the
    current metallic content of circulating coins and the U.S. Mint is continuing to conduct R&D
•   The U.S. Mint has implemented strategies that have dramatically reduced costs over the past three years
    (fiscal year 2009 – fiscal year 2012); as a result U.S. Mint reduced its non-metal plant operating costs by
    $14.5 million (more than seven percent) from $200.3 million in fiscal year 2009 to $185.8 million in fiscal
    year 2012; the U.S. Mint also reduced selling, general, and administrative costs by $31.8 million (nearly 18
    percent) from $179.5 million in fiscal year 2009 to $147.7 million in fiscal year 2012
Currency Production

• The BEP worked with its currency paper supplier, Crane & Company, and other BEP stakeholders, including
  the Federal Reserve Board, Department of the Treasury, and the U.S. Secret Service to resolve the creasing
  issue and completed production validation testing for the NexGen $100 note
Actions Planned or Underway
Coin Production

• The next biennial report to Congress on alternative coinage materials will be delivered in December 2014
Currency Production
• The Board of Governors of the Federal Reserve System announced that the date of issuance for the NexGen
  $100 note will be issued in the first quarter 2014
• The increasing complexity of U.S. currency note design demands the highest degree of cutting edge research
  and development, state-of-the-art production technology, and best-in-class quality and process control; the
  production challenges associated with the NexGen $100 note highlighted the need for a fundamental re-
  engineering of process control and quality assurance at BEP; and the BEP is implementing a Currency
  Quality Assurance Program which is intended to be a strategic re-alignment that will position BEP for more
  efficient currency production and provide long-term cost reductions related to spoilage and reduced
  currency redesign cycle time



                                                     191
                                                     U.S. Department of the Treasury | Fiscal Year 2013


Matters of Concern No. 3                                  SUMMARY OF MAJOR ISSUES

Documenting Key Activities and Decisions                  Promote an effective records management program to
                                                          ensure Treasury management personnel remain
                                                          aware and vigilant
Fiscal Year 2013 Accomplishments

• The Do Not Pay Program published its system of records notice, TREASURY/Fiscal Service.023, Do Not Pay
  Payment Verification Records, after receiving OMB approval following its review to ensure consistency with
  OMB M 13-20, Protecting Privacy while Reducing Improper Payments with the Do Not Pay Initiative
  (guidance required under the Improper Payment Elimination and Recovery Improvement Act of 2012
  (IPERIA), 31 U.S.C. § 3321 note, Pub. L. 112-248)

• Implementation of the Enterprise Content Management (ECM) program was a top priority for Treasury in
  2013; as ECM is a set of web-based tools that electronically capture, store, search, collaborate, and manage
  records; and successful deployment of the ECM platform has delivered significant tools and resources to
  facilitate effective records management such as e-Records Management and Digitization

•   Ensured compliance with Federal records regulations, Treasury’s Office of Treasury Records conducted
    reviews of each bureau records management program, documented findings, and made recommendations to
    improve the effectiveness and efficiency in the respective programs
Actions Planned or Underway

•   Continued support for Treasury program offices in configuring and utilizing the ECM Records Center
    program, to ensure consistent and efficient management of unstructured electronic records
•   Review and overhaul of Departments Orders and Directives Process—the primary method by which
    Treasury-wide policy is codified; this process improvement initiative is focused on providing proactive
    support to Treasury programs in establishing and regularly review and updating, Treasury Orders and
    Directives in each office’s area of expertise

•   Review and updating of proactive accessible records and digitization strategy, to prioritize digitization of
    high-value and high-demand records, reduce paper records stores in accordance with National Archives and
    Records Administration (NARA) guidance, and ensure digitized record stores are maintained in compliance
    with accessibility requirements

•   Continuing to update the Department’s policy for records management, in conformance with new guidance
    from NARA, to address the retention and disposition of electronic media (email) and use and retention of
    social media communications and web 2.0 technologies




                                                    192
                                                     U.S. Department of the Treasury | Fiscal Year 2013

                                         RESPONSE TO TIGTA


TIGTA CHALLENGE NO. 1                                     SUMMARY OF MAJOR ISSUES

Security for Taxpayer Data and IRS Employees              Promote measures for appropriate physical security
                                                          and protection of financial, personal, and other
                                                          information
Fiscal Year 2013 Accomplishments
• For fiscal year 2013, IRS performed a self-assessment of its internal controls for systems that impact the
  financial statements and demonstrated that management, technical, and operational controls are in place
  and effective to secure the IRS information; on June 28, 2013, the Financial and Management Controls
  Executive Steering Committee voted unanimously to downgrade the internally-carried information security
  material weakness to a significant deficiency
• Identified, mitigated, and responded to more than 1,300 cyber incidents and blocked over 5,800 websites to
  prevent access to malicious or compromised sites

• Eliminated 3,119 fraudulent domestic websites including 2,790 fraudulent malware websites
• Masked social security numbers (SSNs) using a two-dimensional (2D) barcode on 12 additional nonpayment
  notices, for a total of 58 nonpayment notices and 106 payment notices, affecting 20.4 million and 97.3
  million annual taxpayer notices, respectively
• Developed additional levels of security to the existing e-Auth system for IRS online applications, such as
  third-party identification data, which required taxpayers to prove who they are before accessing the IRS
  application; nearly 175,000 callers leveraged the third party ID proofing process

• Developed a Non-filers Identification Proofing and Authentication process for first-time filers for whom the
  IRS has no identification data using a combination of IRS and third party proofing, which standardized
  security services in Affordable Care Act applications and enhanced the ability to securely deliver services to
  customers via IRS.gov

• Implemented a process to ensure that Physical Security and Emergency Preparedness (PSEP) Office
  inventory records include all relevant information, such as the date facilities are open and closed as well as
  the dates risk assessments should be performed
Actions Planned or Underway

• Launch the third phase of the SSN Elimination project to mask SSNs on payment notices, beginning with four
  notices of installment agreements impacting an estimated 33 million notices annually

• Upgrade technology to improve identity theft filters and taxpayer authentication procedures
• Update the Physical Security Internal Revenue Manual to distinguish which risk assessments are the
  responsibility of Federal Protective Services and which are the responsibility of PSEP


TIGTA CHALLENGE NO. 2                                     SUMMARY OF MAJOR ISSUES

Implementing the Affordable Care Act and                  Effectively implement new tax provisions, including
Other Tax Law Changes                                     tax-related health care provisions of the Patient
                                                          Protection and Affordable Care Act (ACA), and other
                                                          tax law changes
Affordable Care Act (ACA)
Fiscal Year 2013 Accomplishments

• Experienced successful testing and rollout of Treasury and IRS-led systems related to the ACA

• Published Healthcare Law Online Resources (Pub. 5093), which provided links to Internet resources
  available from IRS federal agency partners, including the Department of Health and Human Services (HHS),
  the Department of Labor and the Small Business Administration (SBA)




                                                    193
                                                    U.S. Department of the Treasury | Fiscal Year 2013




• Created a new ACA web page, which explains the tax benefits and responsibilities for individuals, families,
  and employers, as well as provides information regarding taxpayers’ health insurance choices and how they
  may affect tax returns filed in 2015

• Launched two new IT services for Marketplace exchanges, providing both income and family size data and
  an optional computation service for exchanges to determine the maximum Advance Premium Tax Credit

• Developed an ACA speaker’s cadre that included speakers throughout the IRS who manage stakeholder
  outreach and education requests related to ACA tax law implementation during the 2013 Health Insurance
  Marketplace pre-enrollment and enrollment period

• Conducted separate ACA discussions at an IRS Nationwide Tax Forum providing information on health care-
  related tax provisions for individuals and businesses, details about provisions that may affect taxpayers in
  2013, and a preview of provisions beginning in 2014

• Published 34 items of regulations and other guidance on ACA tax provisions including Hospital Insurance
  Tax on High Income Taxpayers (9015), Net Investment Income Tax (1402), and Industry Fees (Patient-
  Centered Outcomes Research Trust Fund, and Health Insurance Providers)

• Worked closely with HHS and the states on tax data safeguarding issues including education, correct and
  complete documentation, and on site validation reviews for, HHS data services Hub, Federally-Facilitated
  Marketplace, and State Marketplace, Medicaid and Children’s Health Insurance Program agencies
• Collaborated with HHS, the SBA and other partners to provide live and virtual outreach to individuals,
  employers, states, insurers, tax professionals, and other third parties
Actions Planned or Underway
• Complete development of an ACA awareness module, including key acronyms, for customer-facing managers
  and employees
•   Respond to requests to verify income and family size and requests to calculate the Advance Premium Tax
    Credit

• Continue implementation of ACA mid-horizon provisions

• Continue working with federal and state agencies on implementation including outreach, guidance,
  information technology, and safeguarding of federal tax data

• Continue preparing for Exchange-related tax provisions taking effect in 2014 and impacting 2015 filing
  season (customer service, IT systems and business processes, and compliance)
• Continue ACA outreach to stakeholders including individuals, employers, states, insurers, tax professionals,
  and other third parties

• Coordinate new ACA IT requirements as modules are developed or enhanced
• Determine the impact and update related guidance resulting from the Defense of Marriage Act judicial
  actions
• Ensure ACA requirements are met under e-Authorization Release 3 by aligning release schedules and
  supporting new modules as they are developed or enhanced



TIGTA CHALLENGE NO. 3                                    SUMMARY OF MAJOR ISSUES

Tax Compliance Initiatives                               Improve compliance and fairness in the application of
                                                         the tax laws
Businesses and Individuals
Fiscal Year 2013 Accomplishments

• Developed a three-pronged approach to Improve Individual Tax Identification Number (ITIN) compliance

                                                  194
                                                     U.S. Department of the Treasury | Fiscal Year 2013
   by:


   o Manually reviewing returns involving new ITIN applications that claim Additional Child Tax Credit
     (ACTC) and/or American Opportunity Tax Credit (AOTC), if discrepancies are found, the returns are
     selected for audit
   o Selecting ITIN returns that already have existing ITINs and appear to be claiming ACTC for potential
     audit
   o Freezing potential refunds and auditing the returns of cases that meet the specific criteria
• Identified over 1,000 amended returns using a new screening criteria for Form 1040X (Amended Income
  Tax Return) where ITIN filers increased the number of dependents and claimed additional ACTC/AOTC
• Completed and posted on the web the final lesson for Virtual Small Business Tax Workshop (VSBTW)
  relating to “Hiring People Who Live in the U.S. but who aren’t U.S. Citizens,” which included closed
  captioning in English; as these online workshops focus on providing taxpayers information to help them
  understand and meet their federal tax obligations
• Continued to focus on a comprehensive and aggressive strategy to identify and combat tax-related identity
  theft, which consisted of: preventing refund fraud caused by identity theft; investigating and initiating
  criminal recourse against perpetrators of refund fraud caused by identity theft; and assisting taxpayers
  victimized by identity theft; fiscal year 2013 efforts included:
   o Issued Identity Protection PINs to more than 770,000 taxpayers who had been victimized by identity
     theft, compared to 250,000 in fiscal year 2012
   o Increased the staff dedicated to refund fraud prevention and assisting taxpayers victimized by identity
     theft victim assistance to over 3,000 employees, more than twice the number of employees in fiscal year
     2012
Actions Planned or Underway
• Conduct outreach efforts via direct contact and social media to market the Visual Small Business Tax
  Workshop (VSBTW) and establish relationships with organizations that represent small business owners in
  industries that frequently hire people who live in the U.S. but are not U.S. citizens

• Proceed with VSBTW translations for Chinese, Korean, Portuguese, Russian, Polish, French Creole, and
  Arabic

• Implement closed captioning for new VSBTW for Spanish, Chinese, and Vietnamese

• Collaborate with state and federal correctional agencies to reduce and deter inmate tax fraud by signing
  agreements to exchange information

• Continue the Corporate (Form 1120) reporting compliance study
• Continue to refine and expand the tax processing filters used to detect and prevent the issuance of fraudulent
  tax refunds resulting from identity theft


Tax-Exempt Entities
Fiscal Year 2013 Accomplishments
• Revised the relevant Internal Revenue Manual (IRM) sections related to promoter investigations in the tax-
  exempt arena facilitating abusive tax transactions

• Issued 30-day report titled “Charting a Path Forward at the IRS: Initial Assessment and Plan of Action“
  outlining corrective actions to address TIGTA recommendations and other critical management challenges

• Installed new leadership at all five levels of the senior executive managerial chain that had responsibility
  over the activities identified in the TIGTA report to ensure accountability

• Offered an expedited option to organizations applying for IRC § 501(c)(4) exemption whose applications, as
  of May 28, 2013, had been pending 120 days or more since their original filing date

• Improved the screening criteria for applications for tax-exempt status by eliminating the “Be on the

                                                    195
                                                       U.S. Department of the Treasury | Fiscal Year 2013
   Lookout” or BOLO lists

• Issued guidelines and instructions to Exempt Organizations (EO) personnel requiring screening assessments
  to be based on activity, not names or labels

• Enhanced training for EO personnel in the proper ways to review applications to determine the extent of
  political campaign activities
• Led seven promoter investigations related to tax-exempt entities where retirement plans were
  accommodating parties to abusive transactions and where a promoter required a monetary donation to an
  associated charity for services rendered to individuals; four retirement plans and three charitable
  organizations were involved in these abusive transactions
• Supported the newly formed Security and Exchange Commission (SEC), Office of Municipal Securities, by
  meeting with officials to discuss market trends and observations, legislative and regulatory developments,
  compliance issues and projects, and possible opportunities for additional collaboration pursuant to a
  memorandum of understanding between the IRS and SEC

• Completed 163 out of 330 examinations of retirement plans detected through an advanced data mining
  application that compared past audit analytics to current return information in the Risk Modeling II project
• Revised Forms 5300, 5310, and 5307 relating to applications for determination letters for qualified
  employee plans; the changes to the determination letter filing included eliminating elective demonstrations
  regarding coverage and nondiscrimination requirements and limiting the use of the Form 5307 to employers
  that have made limited modifications to a pre-approved volume submitter plan
Actions Planned or Underway

• Identify gaps and make improvements to the exempt organizations examination program
• Issue guidance on how to measure the “primary activity” of IRC § 501(c)(4) social welfare organizations

• Establish a robust Enterprise Risk Management Program

• Conduct a comprehensive, agency-wide review of compliance selection criteria

• Work with the National Taxpayer Advocate to increase taxpayers’ awareness of mechanisms at their disposal
  for resolving issues with the IRS

• Re-engineer the determination process for organizations seeking tax-exempt status and publish these
  procedures publicly

• Evaluate the determination letter process for employee retirement plans for areas of improvement,
  specifically related to alleviating the determination backlog and improving case processing times

• Develop procedures to better document the reason(s) applications are chosen for review by the team of
  specialists (e.g., evidence of specific political campaign intervention in the application file or specific reasons
  the Exempt Organizations function may have for choosing to review the application further based on past
  experience)

• Develop training or workshops to be held before each election cycle including, but not limited to, the proper
  ways to identify applications that require review of political campaign intervention activities
• Develop training or workshops to be held before each election cycle including, but not limited to: (a) what
  constitutes political campaign intervention versus general advocacy (including case examples) and (b) the
  ability to refer for follow-up those organizations that may conduct activities in a future year which may cause
  them to lose their tax-exempt status
• Provide oversight to ensure that potential political cases, some of which have been in process for three years,
  are approved or denied expeditiously




                                                     196
                                                       U.S. Department of the Treasury | Fiscal Year 2013


Tax Return Preparers
Fiscal Year 2013 Accomplishments
• Issued corrective action letters to 4,200 professional credentialed (CPAs, Attorneys, and Enrolled Agents)
  return preparers in fiscal year 2013 who were noncompliant due to nonpayment of a federal individual or
  business tax liability or the failure to file a required federal individual or business tax return, up from 500 in
  fiscal year 2012
• Verified the personal tax compliance of approximately 920,000 registered Preparer Tax Identification
  Number holders and found that 97 percent were compliant; monitored the tax obligations of the remaining 3
  percent and treated the noncompliance based on program policy, which resulted in compliance from more
  than 2,200 return preparers

• Developed risk models using National Research Program (NRP) data to select preparers for treatment tests


• Implemented a study to compare the effectiveness of treatments for noncompliant preparers who prepare
  inaccurate tax returns to improve return accuracy
Actions Planned or Underway

• Analyze results of the controlled testing study comparing the effectiveness of different treatments



TIGTA CHALLENGE NO. 4                                       SUMMARY OF MAJOR ISSUES

Modernization                                               Improve taxpayer service and efficiency of operations
Fiscal Year 2013 Accomplishments

• Transferred data from the CADE 2 database demonstrating the ability to feed data to downstream systems,
  which enabled robust data accuracy, a sustainable database system, and operational performance to
  facilitate future use
• Delivered transcripts to third parties in seconds compared to days via electronic delivery to secure mailboxes
  using the Proof of Concept (PoC) application; however, the PoC was deactivated due to a low participation
  level of the Send My Transcript Proof of Concept, which also resulted in discontinuing plans to add more
  Income Verification Express Services vendors and financial institutions
• Established the Revenue Protection Technology (RPT) Governance Board and the RPT Executive Steering
  Committee to provide enterprise-wide governance to oversee the Return Review Program (RRP)

• Developed and included the system integrator roles and responsibilities in the RRP Project Management
  plan
Actions Planned or Underway
• Deploy CADE 2 2014 Database Implementation to integrate testing and Data Assurance activities into the
  Annual Integrated Filing Season test

• Convert the Martinsburg and Memphis Computing Centers into a new benchmarkable format, which
  integrates the best methods of data center strategy, planning, operation, and continuous improvement

• Relocate Detroit Computing Center infrastructure and equipment to appropriate IRS facilities




                                                     197
                                                     U.S. Department of the Treasury | Fiscal Year 2013


TIGTA CHALLENGE NO. 5                                     SUMMARY OF MAJOR ISSUES

Fraudulent Claims and Improper Payments                   Effective use of taxpayer funds


Refundable Credits
Fiscal Year 2013 Accomplishments
• Identified multiple submission and processing issues regarding Form 8867 (Paid Preparer's Earned Income
  Credit Checklist) during filing season 2013, which required additional review of the Tax Year 2012 returns to
  effectively and accurately identify the noncompliant returns
• Stood up a new Automated Questionable Credit (AQC) operation, assembled two operational groups, and
  conducted multiple phases of training
• Selected 7,265 returns claiming children age 24 and over as disabled qualifying children using pre-refund
  examination filters to address erroneous EITC claims
• Implemented additional controls to identify and stop erroneous claims for refundable credits before refunds
  are issued including freezing and verifying claims for the Additional Child Tax Credit on all returns for which
  the EITC is frozen
Actions Planned or Underway
• Analyze AQC case results and recommend rule changes to improve selection criteria
Fraudulent Payments
Fiscal Year 2013 Accomplishments
• Initiated the Entity Fabrication Pilot focusing on taxpayers who used false information documents to claim
  fraudulent refunds
• Updated the electronic fraud detection system to identify fabricated business entities with false Form W-2
  filings as “suspicious”
• Conducted 368 audits for the Multi-DUPTIN audit program and coordinated with Submission Processing
  and other IRS offices to resolve processing of returns with questionable Taxpayer Identification Numbers
  (TINs) for dependency exemptions
• Implemented clustering filters to detect additional ID Theft cases with suspicious criteria such as duplicate
  use of addresses and bank account information, resulting in over 392,000 returns selected and preventing
  over $1.2 billion in refunds
Actions Planned or Underway
• Update filters, codes, and finalize treatment stream to identify fraudulent filings based on Entity Fabrication
  pilot results
• Implement new programming, processes, and coding for false information documents
• Develop and implement processes to mark or exclude false Forms W-2 from the automated verification
  process
Contract and Other Payments
Fiscal Year 2013 Accomplishments
• Implemented processes and procedures requiring the inclusion of an overhead rate on reimbursable
  agreements
• Developed and updated policies and procedures to reflect the new Federal Acquisition Regulation (FAR)
  revisions for cost-reimbursement contracts
• Established better controls regarding invoice payments, by requiring on-line training for Contracting
  Officer’s Representatives, invoice approvers and their managers
• Required all contract specialists and Federal Acquisition Certification for Contracting Officer
  Representatives enter training and certification data in the Federal Acquisition Institute Training
  Application System, which is verified quarterly
• Reinforced controls over contract invoice review, approval, and payment processes which included:
  implementing a quarterly receipt & acceptance review process to verify that end users maintained the proper

                                                   198
                                                     U.S. Department of the Treasury | Fiscal Year 2013
   R&A documentation required before making payment
• Implemented a review process to identify potential personal and/or inappropriate purchase card
  transactions
Actions Planned or Underway
• Develop and document an IRS-wide approach to identify, track, and monitor the adequacy of its acquisition
  workforce
• Provide training on recent FAR revisions resulting from the Duncan Hunter National Defense Authorization
  Act to those acquisition personnel involved in the award and administration of cost-reimbursement
  contracts




TIGTA CHALLENGE NO. 6                                       SUMMARY OF MAJOR ISSUES

Providing Quality Taxpayer Service Operations               Improve taxpayer service

Fiscal Year 2013 Accomplishments
• Deployed Virtual Service Delivery (VSD) in 14 new Taxpayer Account Centers locations for walk-in
  customers
• Tested VSD technology with taxpayers in pilot sites and determined that virtual face-to-face conferences
  could be held successfully between employees and taxpayers
• Launched IRS2Go V3, a new version of the IRS2Go Smartphone application, which provided the application
  in Spanish for the first time and included minor updates to existing functionality; IRS2Go is available for
  both iOS and Android devices and has been downloaded by over 2.5 million users
• Increased the number of employees dedicated to preventing refund fraud and assisting taxpayers victimized
  by identity theft and updated and broadened the scope of the training for employees
• Completed the second and final phase of the TIN Matching re-engineering effort to resolve system
  integration, capacity, and maintenance issues and resulted in fewer maintenance and delivery issues, and
  reduced downtime
• Enhanced the MeF system, which successfully processed all Form 1040 electronic returns received within
  five minutes during non-peak periods and within two hours during peak periods
• Refined procedures to ensure appropriate indicators are recorded on taxpayer accounts to document both
  the opening and closures of identity theft investigations
• Delivered quality taxpayer service despite limited resources under severe budget constraints as a result of
  appropriations cuts, including sequestration
Actions Planned or Underway
• Leverage new and existing partners to provide taxpayers expanded access via alternate filing methods such
  as Facilitated Self Assistance and virtual VITA
• Evaluate capacity data to determine options to optimize VSD in support sites and identify locations for
  expansion
• Implement VSD technology as a permanent part of Campus operations




TIGTA CHALLENGE NO. 7                                       SUMMARY OF MAJOR ISSUES
Human Capital                                               Enable the IRS to achieve its mission

Fiscal Year 2013 Accomplishments
• Implemented an Entrance On Duty System 2, which reduced administrative burden on the new hires and
  HR Staff by automating the collection of numerous prescreening and onboarding forms
• Emphasized the recruitment of veterans and persons with disabilities:
   o Established and posted the Disability, Schedule A, and Veteran Plans that outline goals, objectives,
     resources, tools and support available to managers

                                                   199
                                                    U.S. Department of the Treasury | Fiscal Year 2013
   o Promoted the use of Veteran Hiring Authorities through IRS-wide communications
   o Marketed the Treasury Veterans’ Newsletter
   o Launched a marketing campaign, called Veterans Employment Month, highlighting veterans’
     accomplishments, which resulted in an increase of 1000 unique hits to the IRS Careers veteran hiring
     website
   o Expanded the CareerConnector to improving hiring and to track applicant and workforce data
• Increased virtual recruitment efforts such as implementing the Schedule A disability portal for applicants
  applying for positions under the disability hiring authority initiative
• Increased Geographic Leadership Communities (GLCs) throughout the nation; thirty-two GLCs, comprised
  of cross-functional groups (executives, senior managers, and frontline managers) hosted developmental
  opportunities and skill-building workshops across the country
Actions Planned or Underway
• Finalize the IRS drug free workplace program plan, including the testing designated positions list



TIGTA CHALLENGE NO. 8                                    SUMMARY OF MAJOR ISSUES

Globalization                                            Increase the outreach efforts to foreign governments
                                                         on cross-border transactions

Fiscal Year 2013 Accomplishments
• Partnered with the Department of the Treasury’s Office of Terrorist Financing and Financial Crimes (TFFC)
  to address global money laundering
• Began implementing the Foreign Account Tax Compliance Act (FATCA) by conferring with more than 80
  countries to gather information about foreign accounts held by U.S. taxpayers via Tax Information Exchange
  Agreements:
   o Signed Model 1 Agreements, Agreement to Improve International Tax Compliance and to Implement
     FATCA, with seven countries: Denmark, Ireland, Germany, Mexico, Norway, Spain, and the United
     Kingdom
   o Signed two Model 2 Agreements, Agreement for Cooperation to Facilitate the Implementation of FATCA,
     with two countries: Japan and Switzerland
• Collected $5.5 billion in back taxes, interest, and penalties from 38,000 taxpayers by implementing strategic
  enforcement efforts and the offshore voluntary disclosure programs, which since inception, gave U.S.
  taxpayers with undisclosed offshore assets or income an opportunity to become compliant with the U.S. tax
  system and avoid potential criminal charges
• Joined the Treasury’s Working Group on Terrorist Financing and Charities, an interagency working group
  that reviews the abuse of the charitable sector for the diversion of funds for the financing of terrorist
  activities
• Developed bi-lateral working initiatives with the Department of the Treasury’s TFFC aimed at identifying
  and addressing threats presented by all forms of illicit finance to the international financial system
• Collaborated with the Treasury Executive Office for Asset Forfeiture on the emerging issue of Third-Party
  Money Launderers involved in domestic and global money laundering
Actions Planned or Underway
• Collaborate with the Department of Treasury’s working group on Terrorist Financing and Charities to revise
  guidance
• Enhance the case management system to identify the initiation and completion of criminal investigations of
  global money laundering schemes that are used by third party money launderers
• Initiate criminal investigations of third party money launderers involved in domestic and global money
  laundering schemes
• Develop systems, technology and processes to implement FATCA
• Continue FATCA implementation by signing Intergovernmental Agreements to exchange tax information
  with additional countries


                                                  200
                                                      U.S. Department of the Treasury | Fiscal Year 2013
• Conduct a study to determine if the automated penalty-setting process should be expanded to other types of
  income tax and international information reporting returns
• Evaluate the current performance measures and International Campus Compliance Unit (CCU) inventory
  results to determine how best to enhance the performance measures specific to work performed by CCU
  examiners




TIGTA CHALLENGE NO. 9                                      SUMMARY OF MAJOR ISSUES

Taxpayer Protection and Rights                             Apply the tax laws fairly

Fiscal Year 2013 Accomplishments
• Trained 35,000 employees to detect the characteristics of identity theft cases and assist taxpayers who are
  victims of identity theft
• Worked with victims to resolve and close more than 565,000 ID theft cases
• Engaged federal and state agencies to participate in an identity theft data exchange to address identity theft
  and refund fraud; began transmission of the data to two participating states, California and New York,
  resulting in sharing over 575,000 records of identity theft victims
• Prevented fraudulent refunds of over $3.3 million as the result of referrals through the State Suspicious Filer
  Group, which consists of 41 participating states; eight of the 41 participating states submitted information
  on over 5,000 suspicious filers under an exchange of information agreement
• Launched the Law Enforcement Assistance Program nationwide; the program allowed victimized taxpayers
  to sign a waiver (Form 8821-A) authorizing the release of any tax information to the designated state or local
  law enforcement official pursuing the investigation; in fiscal year 2013, 270 state/local law enforcement
  agencies from 31 states participated in the program, resulting in over 3,200 waiver requests for taxpayer
  consent access to their tax return data
• Implemented new identity theft screening filters, including filters that target multiple refunds deposited into
  a single bank account or sent to a single address, to improve the ability to identify fraudulent returns before
  processing and issuing refunds
• Improved customer service using the Two Dimension (2D) Barcode technology which enabled assistors to
  instantly access the correct taxpayer account information and reduced notice processing errors
• Initiated 1,492 identity theft investigations and recommended 1,257 cases for prosecution in fiscal year 2013
• Suspended the use of BOLO lists in the application process for tax exempt status
Actions Planned or Underway
• Expand partnerships and participation in data exchange and information sharing programs to combat
  identity theft and tax fraud
• Receive installment payment information through the 2D Barcode technology to expedite payment
  processing and reduce payment errors
•   Develop guidance for specialists on how to process requests for tax-exempt status involving potentially
    significant political campaign intervention; this guidance should also be posted to the Internet to provide
    transparency to organizations on the application process




TIGTA CHALLENGE NO. 10                                     SUMMARY OF MAJOR ISSUES

Achieving Program Efficiencies and Cost                    Use resources to focus on producing the best value for
Savings                                                    stakeholders

Fiscal Year 2013 Accomplishments
• Completed space reductions that resulted in the release of 557,000 square feet for an annualized rent savings
  of $15.7 million

• Operated under an exception-only hiring freeze since December 2010 and reduced the total number of full-
  time, permanent IRS employees by almost 9,000

                                                     201
                                                      U.S. Department of the Treasury | Fiscal Year 2013
• Secured buyout authority that resulted in the elimination of 1,224 positions

• Limited employee travel and training to mission-critical projects, reducing training costs by 83 percent and
  training-related travel costs by 87 percent since 2010

• Reduced spending on professional and technical service contracts by $200 million

• Generated $60 million in printing and postage savings

• Reduced retention allowances paid to senior staff
• Updated and expanded the use of cost accounting information for exam and collections operations to
  improve program efficiency
   o Expanded study on source of assessment for notices and added FTE’s to the notice cost model to compare
     Balance Due notice process against other collection processes
   o Developed the average hourly rate for use in determining the costs of different types of exams based on
     the hours expended on them
   o Enhanced the cost/benefit study on notices to include costs and revenues for first through fourth balance
     due notices
   o Developed the cost/benefit of the Federal Agency Delinquency program which established the threshold
     amount for write-off of aged delinquent accounts
   o Developed the cost of examinations of Tax-Exempt organizations
• Submitted requirements for the RRP to design a web-based portal to exchange data between the IRS and
  correctional agencies that are required to submit inmate data to the IRS to speed up the process of receiving,
  reviewing and loading data files into the system.
• Established a policy to periodically evaluate the job series profiled for aircards and smartphones as well as
  monitor and document smartphones with no usage
• Released 45,395 square feet of available data center space by consolidating information technology
  operations in Atlanta, GA; Brookhaven, NY; Ogden, UT; Philadelphia, PA; and the New Carrollton Federal
  Building to be used for other IRS space requirements
• Issued additional guidance related to conference spending, attendance and tracking of expenditure
Actions Planned or Underway
• Complete the development of the cost of collection processes by activity
• Enhance the hourly rate for small business exams by incorporating more detail such as grade and activity
  type
• Support the development of a marginal revenue/cost model for exam by completing the costs of enforcement
  labor costs by job series and grade
• Create a database to import prisoner/prison data files, which will eliminate any missing corrected files that
  are returned from the states
• Use available data systems to systemically research missing prisoner Social Security Numbers that were not
  provided by the prisons
• Relocate Detroit Computing Center infrastructure and equipment to appropriate IRS facilities
• Update IRM 6.410.1, Leadership and Education, Selection of Off-Site Locations and Facilities for Training,
  to include:
   o Procedures that require all documentation supporting the selection of non-Government facilities for
     future conferences be maintained for management review
   o Guidance on the use, selection and compensation if event planners must be used




                                                    202
                                                                U.S. Department of the Treasury | Fiscal Year 2013

SECTION D: SUMMARY OF FINANCIAL STATEMENT AUDIT AND
MANAGEMENT ASSURANCES
SUMMARY OF FINANCIAL STATEMENT AUDIT
                         Audit Opinion                                                        Unmodified

                          Restatement                                                             No
                                                                     Beginning                                              Ending
Material Weakness                                                                    New     Resolved      Consolidated
                                                                      Balance                                               Balance

Material Weakness in Internal Control Over Financial Reporting at
                                                                             1          0            0                  0           1
the IRS



SUMMARY OF MANAGEMENT ASSURANCES
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)

Statement of Assurance                                                                  Qualified

                                                    Beginning                                                               Ending
Material Weakness                                    Balance         New   Resolved         Consolidated     Reassessed     Balance

IRS – Unpaid Tax Assessments                              1           0          0               0                0             1



Effectiveness of Internal Control over Operations (FMFIA § 2)

Statement of Assurance                                                                  Qualified

                                                    Beginning                                                               Ending
Material Weaknesses                                  Balance         New   Resolved         Consolidated     Reassessed     Balance

IRS – Computer Security                                   1           0          1               0                0             0

Fiscal Service – Systems, Controls, and
Procedures to Prepare the Government-wide
Financial Statements                                      1           0          0               0                0             1

Total Material Weaknesses (FMFIA § 2)                    3            0          1               0                0             2



Conformance with Financial Management System Requirements (FMFIA § 4)

Statement of Assurance                              Systems conform to financial management system requirements

                                                    Beginning                                                               Ending
Material Weaknesses                                  Balance         New   Resolved         Consolidated     Reassessed     Balance

Total Non-conformances                                   0            0          0               0                0             0


Compliance with Federal Financial Management Improvement Act (FFMIA)

                                                                                            Agency                    Auditor
                                                                                                                  Noncompliance
Noncompliance noted                                                                  Noncompliance noted              noted

1. System Requirements                                                                          Noncompliance noted

2. Accounting Standards                                                                         Noncompliance noted

3. USSGL at the Transaction Level                                                              No noncompliance noted

                                                               203
                                                             U.S. Department of the Treasury | Fiscal Year 2013

SECTION E: IPIA (AS AMENDED BY IPERA)
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and Recovery Act (IPERA,
Pub. L. 111-204). IPERA amends the Improper Payments Information Act (IPIA), generally repeals the Recovery
Auditing Act, and significantly increases agency payment recapture efforts by expanding the types of payments to be
reviewed and lowering the dollar threshold of annual payments that requires agencies to conduct payment recapture
audit programs. Agencies continue to be required to review their programs and activities periodically to identify
those susceptible to significant improper payments. OMB Circular No. A-123, Management’s Responsibility for
Internal Control, Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments (A-
123, Appendix C), amended April 14, 2011, defines “significant improper payments” as gross annual improper
payments in a program exceeding both the threshold of 2.5 percent and $10 million of total program outlays or $100
million regardless of the improper payment percentage. A-123, Appendix C, also requires agencies with programs
susceptible to significant improper payments to implement corrective action plans that include improper payment
root cause identification, reduction targets, and accountable officials.

Section 2(B) of IPERA allows the development of an alternative approach for meeting the requirements for obtaining
a statistically valid estimate of the annual amount of improper payments for federal programs that are so complex
that developing an annual error rate is not feasible. Agencies may establish an annual estimate for a high-risk
component of a complex program (e.g., a specific program population) with OMB approval. Agencies must also
perform trend analyses to update the program’s baseline error rate in the interim years between detailed program
studies. When development of a statistically valid error rate is possible, the reduction targets are revised and become
the basis for future trend analyses.

On January 10, 2013, the President signed into law, the Improper Payments Elimination and Recovery Improvement
Act of 2012 (IPERIA; Pub. L. 112-248), which also amends IPIA. It is important to note that Section 5 of IPERIA,
regarding the Do Not Pay Initiative, is treated separately from Circular No. A-136 reporting requirements.

I. RISK ASSESSMENT

Each year, the Department develops a comprehensive inventory of the funding sources for all programs and activities
and distributes it to the Treasury bureaus and offices. The bureaus and offices must perform risk assessments at the
payment type level (e.g., payroll, contracts, vendors, travel, etc.). The Department’s risk assessment process follows
the Committee of Sponsoring Organizations of the Treadway Commission (COSO) Internal Control Integrated
Framework. The framework includes:

1.   Internal Control Environment

2.   Risk Assessment

3.   Internal Control Activities

4.   Information and Communication

5.   Monitoring

The factors considered in the determination of risk levels include:

Operating Environment – Existence of factors which necessitate or allow for loosening of financial controls; any
known instances of fraud



                                                           204
                                                             U.S. Department of the Treasury | Fiscal Year 2013
Payment Processing Controls – Management’s implementation of internal controls over payment processes
including existence of current documentation, the assessment of design and operating effectiveness of internal
controls over payments, the identification of deficiencies related to payment processes, and whether or not effective
compensating controls are present

Internal Monitoring Activities – Periodic internal program reviews to determine if payments are made properly;
strength of documentation requirements and standards to support testing of design and operating effectiveness for
key payment controls

Human Capital – Experience, training, and size of payment staff; ability of staff to handle peak payment
requirements; level of management oversight, and monitoring against fraudulent activity

Prior to the enactment of the IPERA changes to IPIA, Treasury maintained and performed a robust improper
payment risk assessment process in which the new IPERA payment types were included. During fiscal year 2013,
Treasury continued the use of its robust assessment process.

For those payment types resulting in high-risk assessments that comprise at least 2.5 percent and $10 million in total
program outlays or $100 million at any rate, (1) statistical sampling must be performed to determine the actual
improper payment rate, and (2) a corrective action plan must be developed and submitted to the Department and
OMB for approval. Responses to the risk assessments produce a score that falls into pre-determined categories of
risk. The following table describes the actions required at each risk level:

                       Risk Level                                              Required Action(s)

High Risk > 2.5% Error Rate & > $10 Million or                Corrective Action Plan
$100,000,000 at any error rate
Medium Risk                                                   Review Payment Controls for Improvement

Low Risk                                                      No Further Action Required




The risk assessments performed across the Department in fiscal year 2013 resulted in all programs and activities
being of low or medium risk susceptibility for improper payments, except for the IRS’s Earned Income Tax Credit
(EITC) program. The EITC’s high-risk status is well-documented, having been identified previously in the former
Section 57 of OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, and has been deemed
by OMB a complex program for the purposes of the IPIA. OMB’s guidance requires additional reporting on programs
deemed high-risk; that information, for the EITC program only, follows.




                                                           205
                                                             U.S. Department of the Treasury | Fiscal Year 2013
II. STATISTICAL SAMPLING

EITC Program

This section describes how the IRS currently develops its erroneous payment projections for the EITC.

The EITC is a refundable federal tax credit that offsets income taxes owed by low-income workers and, if the credit
exceeds the amount of taxes owed, provides a lump-sum refund to those who qualify. The most recent projection is
based on a tax year 2009 reporting compliance study that estimated the level of improper overclaims for fiscal year
2013 to range between $13.3 to $15.6 billion and 22.1 percent (lower bound) to 25.9 percent (upper bound) of
approximately $60.3 billion in total program payments.

The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies preclude
statistical sampling on an annual basis to develop error rates for comparison to reduction targets. The estimates are
based primarily on information from the IRS’s National Research Program (NRP) reporting compliance study of
individual income tax returns for tax year 2009—the most recent year for which compliance information from a
statistically valid, random sample of individual tax returns is available.

Under the tax year 2009 NRP reporting compliance study, which reviewed individual income tax returns filed during
calendar year 2010 for tax year 2009, approximately 2,400 of the returns in the regular NRP sample were EITC
claimants randomly selected for examination.

The IRS National Research Program (NRP) conducts annual studies on the reporting compliance of Form 1040
taxpayers. Imbedded in these annual studies is a sample of EITC claimants large enough to estimate the improper
payment percentage with plus or minus 2.5 percent precision and 90 percent confidence. This is the data source
used to estimate the absolute amount of EITC overclaims and underpayments. EITC overclaims are defined as the
difference between the EITC amount claimed by the taxpayer on his or her return and the amount the taxpayer should
have claimed, as determined by the NRP examination. EITC underpayments are defined as the amount of EITC
disallowed by the IRS in processing that should have been allowed, as determined by the NRP examination. For tax
year 2009 (the most recent data available), the absolute overclaim and underpayment amount is estimated to be
$16.3 billion. This year is the first year in which the estimate includes underpayments in the improper payment
calculation. The underpayments increase the overall improper payment rate by less than 0.05 percent.

The IRS also uses the NRP sample to estimate the total amount of EITC claims. The amount of the taxpayers’ original
claims is captured during data processing. Rather than try to edit the entire population of claimants, the IRS chose to
use the NRP sample, edit those returns and use them to estimate the total amount of claims. For tax year 2009,
approximately $58.8 billion was claimed for EITC.

The improper payments estimates for fiscal year 2013 through fiscal year 2016 were developed by multiplying the
improper payment rate estimated from the fiscal year 2009 NRP data by total estimated EITC claims for the
corresponding fiscal year. It is assumed that the NRP-based tax year 2009 improper payments rate is applicable for
each of these years

To obtain projections of total EITC claims, upward adjustments were made to estimates of EITC tax expenditures and
outlays in the fiscal year 2014 federal budget; this was done for two types of adjustments. The first adjustment
reflects that these amounts likely understate the amount of EITC initially claimed on filed tax returns. This is because
some of the original claims are never actually disbursed to taxpayers, being disallowed through math-error processing
or revenue protected by pre-refund examinations, although these are offset to some extent by new EITC claims made


                                                           206
                                                            U.S. Department of the Treasury | Fiscal Year 2013
on amended returns. The relationship between estimates of EITC claims and estimates of expenditures and outlays in
prior years was used to determine the appropriate adjustment factor.

The second adjustment reflects that projected EITC claims published in the fiscal year 2014 budget assumed the third
child EITC provisions would expire after tax year 2012. With the passage of the American Taxpayer Relief Act of
2012, the third child EITC provisions were extended through tax year 2017. The adjustments made to the fiscal year
2014 budget are based on prior year increases in total EITC claims resulting from the third child EITC provisions.

The final step of estimating EITC improper payments for fiscal year 2013 involves multiplying the improper payment
rate by the estimate of total claims for that year. This yields the estimate for EITC improper payments for fiscal year
2013 shown in the table. In order to provide projections through fiscal year 2016, the same improper payment rate is
applied to future year projections of total claims.

III. CORRECTIVE ACTIONS
This section describes the ongoing and planned corrective actions to reduce the improper payment rate for Treasury’s
only high-risk susceptible program, the EITC.

Root Causes

The root causes of EITC improper payments are from the following sources:

Authentication – It is estimated that 70 percent or $10.15 billion in improper payments are from authentication
errors. They include errors associated with the inability to authenticate qualifying child eligibility requirements,
mainly relationship and residency requirements, filing status, when married couples file as single or head of
household, and eligibility in nontraditional and complex living situations. Authentication is completed on a portion
of this error category during pre-refund examinations.

Verification – It is estimated that 30 percent or $4.35 billion in improper payments are from verification errors.
These errors relate to improper income reporting which allows claimants to fall within the EITC income limitations
and qualify for EITC. The errors include both underreporting and overreporting of income by both wage earners and
taxpayers who report that they are self-employed.

Income reported through information returns such as Forms W-2, Forms 1099, etc, which can be used for verification
of some income, becomes available only after tax returns are processed. Under law, the IRS must process income tax
returns within 45 days of receipt or pay interest to taxpayers.

Base Program

In 2013, the IRS prevented approximately $4 billion of EITC from being paid in error. The prevention activity
primarily focused on three areas:

•   Examinations – IRS identifies tax returns for examination and holds the EITC portion of the refund until an
audit can be conducted. This is the only ongoing IRS audit program where exams are conducted before a refund is
released. The examination closures and enforcement revenue protected in the charts below do not include test
initiatives

•   Math Error – Refers to an automated process in which the IRS identifies math or other irregularities and
automatically prepares an adjusted return for a taxpayer. Legislation is required for each specific type of math error

•   Document Matching – Involves comparing income information provided by the taxpayer with matching
information (e.g., W-2s, 1099s) from employers and other third parties to identify discrepancies
                                                           207
                                                                                U.S. Department of the Treasury | Fiscal Year 2013


The chart below shows significant results from fiscal year 2008 through an estimate of fiscal year 2014. In fiscal year 2013
alone, the IRS conducted an estimated 483,000 EITC-related examinations, issued approximately 240,000 math error
notices, and closed nearly 907,000 document matching reviews.

                                                            Compliance Activities

                                                                                                                              FY08-FY14
                                FY08          FY09          FY10          FY11          FY12*     FY13**         FY14***
                                                                                                                                Total

Examination Closures            503,755       508,180       473,999       483,574       487,408       483,139    483,000            3,423,055

Math Error Notices              432,797       355,416       341,824       293,450       270,492   240,000        210,000             2,143,979

Document Matching               727,916       688,087       904,920   1,178,129         985,172   906,994        907,000            6,298,218

Amended   Returns1               32,473        25,395        19,347        14,317        13,284         8,129        8,000            120,945

* Restated actual.

** Preliminary estimates.

*** Estimate based on fiscal year 2013 preliminary data.
1 Amended   returns are a subset of Examination Closures.



These compliance activities had a significant effect. Treasury projects that continued enforcement efforts will protect a total
of approximately $27 billion in revenue through fiscal year 2014, as shown below.

                                    Enforcement Revenue Protected (Dollars in Billions)

                                                                                                                                  FY08-FY14
                                FY08          FY09          FY10          FY11          FY12*         FY13**     FY14***            Total

Examination Closures        $    2.00     $     2.15    $      1.97   $     2.04    $ 2.05        $       2.11   $     2.00   $       14.32

Math Error Notices          $    0.44     $     0.40    $      0.41   $     0.35    $    0.31     $      0.28    $    0.24    $        2.43

Document Matching           $    1.23     $      1.17   $      1.43   $     1.32    $    1.55     $       1.42   $     1.42   $        9.54

Amended Returns             $    0.07     $     0.07    $     0.06    $     0.04    $ 0.04        $        .03   $    0.03    $        0.34

TOTAL                       $    3.74     $     3.79    $      3.87   $     3.75    $ 3.95        $      3.84    $     3.69   $       26.63

* Restated actual.

** Preliminary estimates.

*** Estimate based on fiscal year 2013 preliminary data.




Maximizing Current Business Processes

•   Completed strategic studies to update the estimates of the two key EITC performance measures, participation rate and
error rate, which comply with the Government Performance and Results Act of 1993. Delivered estimates of EITC
participation for tax year 2010, using a Census-IRS match. IRS also completed a new error rate estimate based on the EITC
component of the tax year 2009 National Research Plan (NRP) study that meets IPIA standards for measuring and reporting
on improper payments. This year is the first year in which the estimate includes underpayments in the improper payment
calculation, although its effect was not significant.




                                                                          208
                                                                    U.S. Department of the Treasury | Fiscal Year 2013


•   As part of the fiscal year 2013 EITC Return Preparer Strategy, the IRS completed activities associated with a traditional
suite of EITC paid preparer treatments, selected from a risk-based model, and activities associated with an expanded pilot
that used real-time data to assess EITC preparer risk and test progressive sets of treatments.

•   As part of the traditional suite of treatments, IRS completed 540 pre-filing season due diligence visits (DDVs) reflecting a
continuing high penalty rate of 86 percent and over $14.9 million in proposed penalties. Revenue and criminal investigation
agents completed 109 Knock and Talk (KTV) educational visits. IRS proposed penalties of over $200 thousand on 27 DDVs
completed as a follow-up for those preparers who received pre-filing season KTVs, but did not improve their due diligence.
Almost 3,000 educational notices were mailed before the filing season as well. Additionally, the IRS obtained four civil
injunctions protecting revenue of $15.4 million.

•   In the second year of the real-time return preparer pilot, the IRS expanded the number of non-compliant preparers
treated to almost 7,000 and tested progressive combinations of treatments that included pre-filing season letters and client
return audits and filing season letters, phone calls, client return audits, and DDVs. The 300 real-time DDVs closed with a
penalty rate of 81 percent and almost $2.9 million in penalties.

•   The preliminary analysis of the fiscal year 2013 EITC Preparer Strategy revealed that in addition to the penalties and
injunction revenue protected above, the treatments protected over half a billion dollars (EITC and Child Tax Credit). The
analysis showed that low cost treatments do have an impact on non-compliant return preparers. The low cost letters have a
high return on investment and alone protected an estimated $408.5 million.

•   As a result of IRS's collaboration with software developers, most companies did program their tax year 2012 professional
software to automatically transmit Form 8867. As a result, IRS received far less than one percent of paid preparer electronic
returns without the required form attached.




                                                              209
                                                                                                      U.S. Department of the Treasury | Fiscal Year 2013


IV. IMPROPER PAYMENTS REPORTING

The following table provides the improper payment reduction outlook for Treasury’s only high risk susceptible program, the
EITC:
                                                                Improper Payment (IP) Reduction Outlook
                                                                                  (Dollars in Billions)




                                                 2013 Outlays




                                                                                                       2014 IP%




                                                                                                                                                                           2016 IP%
                            2012 IP%




                                                                    2013 IP%




                                                                                                                                         2015 IP%
                                                                                          2014 Est.




                                                                                                                                                               2016 Est.
                                                                                                                             2015 Est.
                                                                                                                  2014 IP$




                                                                                                                                                                                      2016 IP$
                                                                               2013 IP$




                                                                                                                                                    2015 IP$
Program
                                       2012IP$
                  Outlays




                                                                                          Outlays




                                                                                                                             Outlays




                                                                                                                                                               Outlays
           2012




EITC
Upper
Bound        $55.4          24.6%      $13.6     $60.3             25.9%       $15.6       $58.3       25.9%      $15.1       $60.0      25.9%      $15.6       $61.1      25.9%      $15.9

Estimate

EITC
Lower
Bound        $55.4          21.0%      $11.6     $60.3             22.1%       $13.3       $58.3       22.1%      $12.9       $60.0      22.1%      $13.3        $61.1     22.1%      $13.5

Estimate

The term “Outlays” equals “Estimated Claims.”

Estimated Claims: Estimated total claims for the EITC are based on projections of EITC tax expenditures plus outlays as estimated by the Office of Tax
Analysis within the Department of the Treasury, adjusted to account for the difference between taxpayer claims and accounts received by taxpayers due
to return processing and enforcement.

IP % and IP $: These estimates follow the prior approach which provided a range for the error rate (%) and improper payments amounts ($).




V. RECAPTURE OF IMPROPER PAYMENTS REPORTING

In accordance with IPERA and OMB Circular No. A-123, Appendix C, Treasury performs and reports annually on its payment
recapture program. In fiscal year 2011, Treasury incorporated the IPERA amendments into the existing Treasury payment
recapture (recovery audit) program, and continued to address them in fiscal years 2012 and 2013. Prior to the enactment of
the IPERA changes to IPIA, Treasury maintained and performed a robust improper payment risk assessment process which
already included the new IPERA payment types.

During fiscal year 2013, Treasury issued contracts and other reviewed payments totaling approximately $11 billion. The
amended act expanded the payment types reviewed beyond just contracts to include grants, benefits, loans, and
miscellaneous payments.

Treasury’s annual risk assessment process includes a review of pre-payment controls that minimize the likelihood and
occurrence of improper payments. Treasury requires each bureau and office to conduct post-award audits and report on
payment recapture activities, contracts issued, improper payments made, and recoveries achieved. Bureaus and offices may
use payment recapture audit contingency firms to perform many of the steps in their payment recapture auditing program
and identify candidates for payment recapture action. However, no Treasury bureaus used contractors to perform recapture
activities for fiscal year 2013. Treasury employees performed this work.

Treasury considers both pre- and post-reviews to identify payment errors a sound management practice that should be
included among basic payment controls. All Treasury bureaus have a process in place to identify improper payments during
pre- and post-reviews. At times, bureaus may use the results of IG and GAO reviews to help identify payment anomalies and



                                                                                              210
                                                                                    U.S. Department of the Treasury | Fiscal Year 2013


 target areas for improvement. However, Treasury applies extensive payment controls at the time each payment is processed,
 making recapture activity minimal.

                                                  Payment Recapture Audit Reporting

                                                                                                                                                           % of
                                                                                                                  % of Amount                            Amount
                                                                                                                  Recovered out                        Outstanding
                                         Actual Amount           Amount                                                 of                                out of
                   Amount Subject        Reviewed and          Identified for               Amount                   Amount          Amount              Amount
                                            Reported             Recovery
   Type of          to Review for                                                          Recovered                Identified      Outstanding         Identified
  Payment          2013 Reporting            (2013)                 (2013)                   (2013)                   (2013)          (2013)              (2013)

Contracts      $7,289,700,639        $ 7,114,265,877 $              1,285,978       $         1,205,728                 93.8 $          80,250                6.2

Grants         $     87,160,667      $     87,160,667      $    17,814,845          $       16,361,039                   91.8 $      1,453,806                8.2

Benefits       $ 651,558,439         $       4,654,814 $            1,081,184       $         1,075,563                  99.4 $           5,621               0.5

Loans          $                 0   $                 0 $                      0   $                      0                0 $                   0             0

Other          $3,978,608,796        $ 3,961,793,673 $               143,048        $           110,692                  77.3 $          31,438              22.0



                                  % of Amount
                                  Determined                                                                                                           Cumulative
                    Amount          Not to be                                              Cumulative                              Cumulative           Amounts
                   Determined      Collectable Amounts Identified      Amounts              Amounts                                 Amounts           Determined
                    Not to be    out of Amount   for Recovery          Recovered          Identified for          Cumulative       Outstanding          Not to be
   Type of         Collectable     Identified                                               Recovery           Amounts Recovered                       Collectable
  Payment            (2013)          (2013)      (2004-2012)          (2004-2012)         (2004-2013)            (2004-2013)       (2004-2013)        (2004-2013)

 Contracts     $             0              0$        7,967,748 $ 6,653,882 $ 9,253,726 $                           7,859,610 $         81,550 $          75,130

 Grants        $             0              0$           917,316 $           917,316 $ 18,732,161 $                17,278,355 $ 1,453,806 $                      0

 Benefits      $             0              0$           14,968 $               1,438 $ 1,669,073 $                 1,132,587 $      286,409 $          248,706*

 Loans         $             0              0$                 0 $                  0 $                0 $                   0 $                 0$              0

 Other         $           918            0.7 $       2,999,477 $ 2,885,738 $ 3,142,525 $                          2,999,430 $         38,490 $             1,603
*This amount includes a prior year amount of $248,706. This amount represents annuitant benefit balances determined to be uncollectible by
 the Department of Justice.

 During fiscal year 2013, Treasury determined that conducting a Payment Recapture Audit on the following five programs
 would not be cost-effective:

      •      Fiscal Service Debt Activity Programs
      •      Treasury Management Accounts
      •      Treasury Executive Office for Asset Forfeiture
      •      Departmental Offices International Financial Institutions – International Assistance Programs
      •      Federal Financing Bank

 The Fiscal Service Debt Activity Programs continued to reflect a low level of risk in every group and payment type in fiscal
 year 2013.
 Disbursements from the Fiscal Service - Treasury Managed Accounts are based on public law, adjudications, or payment
 certifications from federal agencies. Payments are made via the Fiscal Service Secure Payment System.

 The Treasury Executive Office for Asset Forfeiture’s program payments to state and local law enforcement agencies are
 intergovernmental payments that represent a low risk of improper payment. In addition, the Treasury Executive Office of
 Asset Forfeiture staff reviews payments monthly for accuracy.


                                                                              211
                                                                          U.S. Department of the Treasury | Fiscal Year 2013


The Departmental Offices International Financial Institutions non-federal payments to the Multilateral Development Banks
are submitted by either a voucher on a letter of credit administered by the Federal Reserve Bank of New York or through
direct cash payments via the Fiscal Service Secure Payment System. These payments present a low level of improper
payment risk based on the number of payments annually and the quality of third party controls.

The FFB has an interagency agreement with the General Services Agency (GSA) to provide acquisition support. Invoices are
paid through GSA’s ITSS platform and are reviewed prior to payment by the task order COR. Contractor payments are paid
through the GSA via the Intra-Governmental Payment and Collection Systems. The FFB’s lone contractor bills the FFB once
a month. The effort required in performing this review would be significantly disproportionate to the low volume of invoices
associated with a single vendor.

Based on the justifications submitted by the five Treasury entities, payment recapture audits for these programs were not
deemed cost effective.

Payment Recapture Audit Targets
The payment recapture audit targets listed below are preliminary estimates developed by Treasury bureaus and offices based
on historical performance and current payment recapture audit programs.

                                                                              2013                     2014             2015             2016

                           2013                                      Recovery Rate (%)             Recovery           Recovery          Recovery
                                                    2013                                           Rate (%)           Rate (%)          Rate (%)
                          Amount                                    (Amount Recovered /
 Type of Payment         Identified         Amount Recovered         Amount Identified)             Target             Target            Target

       Contracts     $       1,285,978     $          1,205,728                          93.8                 85                85                85

       Grants        $      17,814,845     $          16,361,039                         91.8                 85                85                85

       Benefits      $       1,081,184     $           1,075,563                         99.4                 85                85                85

       Loans         $                0    $                   0                               0              85                85                85

       Other         $         143,048     $            110,692                          77.3                 85                85                85


                                               Aging of Outstanding Overpayments

                           CY* Amount Outstanding                   CY Amount Outstanding                          CY Amount Outstanding

  Type of Payment                  (0-6 months)                          (6 months – 1 year)                            (Over 1 year)

       Contracts     $                              80,250     $                                   0     $                                 1,300

       Grants        $                            1,453,806    $                                   0     $                                        0

       Benefits      $                               5,621     $                                   0     $                               280,788

       Loans         $                                     0   $                                   0     $                                        0

       Other         $                              31,437     $                                   0     $                                 7,052

*CY = Current Year




                                                                   212
                                                                              U.S. Department of the Treasury | Fiscal Year 2013



                                                  Disposition of Recaptured Funds


                                                                 Financial
                   Agency Expenses to      Payment             Management
    Type of          Administer the        Recapture           Improvement                                   Office of the          Returned to
   Payment             Program            Auditor Fees           Activities     Original Purpose          Inspector General          Treasury

  Contracts      $             62,761 $                  0 $                  0 $           1,137,168 $                       0 $          6,152

   Grants        $                 0 $                   0 $                  0 $       17,492,189 $                          0 $             0

   Benefits      $                 0 $                   0 $                  0 $                  0 $                        0 $             0

   Loans         $                 0 $                   0 $                  0 $                  0 $                        0 $             0

   Other         $              9,395 $                  0 $                  0 $            106,179 $                        0 $             0



                               Overpayments Recaptured Outside of Payment Recapture Audit

                                                                                                                Cumulative          Cumulative
                                                                                                                  Amount             Amount
                              Amount             Amount               Amount              Amount                 Identified         Recovered
  Source of Recovery        Identified CY      Recovered CY        Identified PY*       Recovered PY             (CY + PY)           (CY+PY)

 Statistical Samples       $              0   $                0   $            0       $            0      $                 0     $         0

 Post Payment
                           $      84,305      $          84,305    $           112      $          112      $         84,417        $     84,417
 Reviews or Audits

 OIG Reviews               $        1,089     $                0   $                8   $            8      $           7,331       $      3,121

 Single Audit Reports      $              0   $                0   $                0   $            0      $                 0     $         0

 Self-Reported             $              0   $                0   $   2,896,776        $ 2,896,776         $      2,896,776        $ 2,896,776

 Reports from Public       $   40,045,280     $   40,044,803       $     155,484        $      149,402      $     40,200,764        $ 40,194,205

*PY = Prior Year

VI. ACCOUNTABILITY

The Secretary of the Treasury has delegated responsibility for addressing improper payments to the Assistant Secretary for
Management (ASM). Improper payments fall under the Department’s management and internal control program. A major
component of the internal control program is risk assessments, which are an extension of each bureau’s annual improper
payment elimination and recovery review process, as required under A-123, Appendix C. Under Treasury Directive 40-04,
Treasury Internal (Management) Control Program, executives and other managers are required to have management
control responsibilities as part of their annual performance plans. With oversight mechanisms such as the Treasury CFO
Council and the IRS’s Financial and Management Controls Executive Steering Committee, managerial responsibility and
accountability in all management and internal control areas are visible and well-documented. Treasury has identified
executives who are responsible and accountable for reducing the level of EITC overclaims, while other senior and mid-level
officials have responsibility for monitoring progress in this area as bureau and program internal control officers.

VII. INFORMATION SYSTEMS AND OTHER INFRASTRUCTURE

Overall, Treasury has the internal controls, human capital, and information systems and other infrastructure it needs to
reduce improper payments to the targeted levels.

                                                                       213
                                                                     U.S. Department of the Treasury | Fiscal Year 2013


VIII. LIMITING STATUTORY AND REGULATORY BARRIERS

A number of factors continue to serve as barriers to reducing overclaims in the EITC program. These include:

•   Complexity of the tax law (including the need for Congressional authorization of math error authority)

•   Structure of the EITC

•   Confusion among eligible claimants

•   High turnover of eligible claimants

•   Unscrupulous return preparers

•   Fraud

No one of these factors can be considered the primary driver of program error. Furthermore, the interaction among the
factors makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the credit makes its way to
taxpayers who are eligible, extremely difficult.

Also, statutory requirements limit the IRS’s ability to ensure that EITC claims are valid before they are paid. Since the EITC
is administered through the Internal Revenue Code, it is claimed by taxpayers during the filing and processing of their tax
returns. The Internal Revenue Code requires the IRS to process tax returns and pay any related tax refunds within 45 days
of receipt of the tax return or the tax return due date, whichever is later. Because of this requirement, the IRS cannot
conduct extensive eligibility checks similar to those that occur with other federal programs that typically certify eligibility
prior to the issuance of payments or benefits.

IX. ADDITIONAL COMMENTS

In fiscal year 2013, the OIG issued Report Number OIG-13-034, Treasury was Not in Compliance with IPERA for Fiscal
Year 2012, which covered the IPERA program as presented in Treasury’s fiscal year 2012 Agency Financial Report. During
fiscal year 2013, the Department continued to implement corrective actions to address the findings and recommendations in
the OIG report.




                                                               214
                                                                   U.S. Department of the Treasury | Fiscal Year 2013


SECTION F: MATERIAL WEAKNESSES AND AUDIT FOLLOW-UP
This section provides detailed descriptions of Treasury’s material weakness inventory, including summaries of actions taken
and planned to resolve the weaknesses; tracking and follow-up activities related to Treasury’s GAO, OIG, TIGTA, and
SIGTARP audit inventory; an analysis of potential monetary benefits arising from audits performed by Treasury’s three IGs;
and an update on Treasury’s financial management systems framework.

I.    Treasury’s Material Weaknesses

Management may declare audit findings or internal situations as a material weakness whenever a condition exists that may
jeopardize the Treasury mission or continued operations. The FMFIA requires agency reporting on material weaknesses.

FMFIA and FFMIA

The FMFIA requires agencies to establish and maintain internal controls. The Secretary must evaluate and report annually
on the operational and financial reporting controls (FMFIA Section 2) and financial systems (FMFIA Section 4 and FFMIA)
that protect the integrity of federal programs. The requirements of the FMFIA serve as an umbrella under which other
reviews, evaluations, and audits should be coordinated and considered to support management’s assertion about the
effectiveness of internal control over operations, financial reporting, and compliance with laws and regulations.

As of September 30, 2013, Treasury had two material weaknesses under Section 2 of the FMFIA, summarized as follows:

Summary of FMFIA Material Weaknesses                                      Section 2           Section 4             Total

Balance at the Beginning of Fiscal Year 2013                                  3                   0                  3
Closures/Downgrades during Fiscal Year 2013                                    1                  0                   1
Reassessed during Fiscal Year 2013                                            0                   0                  0

New Material Weakness Declared during Fiscal Year 2013                        0                   0                  0
Balance at the End of Fiscal Year 2013                                        2                   0                  2




                                                             215
                                                                    U.S. Department of the Treasury | Fiscal Year 2013


Below are detailed descriptions of Treasury’s two material weaknesses:

 Material Weakness Description
 Internal Revenue Service – Unpaid Tax Assessments

 The IRS needs to improve its internal control over Unpaid Assessments. Original key elements:
   • Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
   • Untimely posting of TFRP assessments and untimely review of TFRP accounts
   • General ledger cannot accurately report the Taxes Receivable balance without a statistical estimation process


                    Actions Completed in FY 2013                                 What Remains to be Done

     Evaluated contractor recommendations and                      Automated Trust Fund Recovery (ATFR) JAVA
      determined that changes to the estimation process              Conversion – move processing of transcripts for
      are not needed                                                 performing payment cross-referencing from
     Completed the fiscal year 2012 “After the Audit”               PowerBuilder to JAVA to improve accuracy of
                                                                     assessments and timeliness in crediting payments
      report and issued the results to the Business Owners
                                                                    Complete the fiscal year 2013 “After the Audit”
      for follow-up and corrective action                            report and issue the results to the Business Owners
     Performed a “look back” analysis on fiscal year 2010           for follow-up and corrective actions
      and determined that sampled items were accurate.              Follow-up with the business owners as to the results
      The analysis was completed to ensure business rules            of the “After the Audit” report findings and issue
      and methodology were current and accurate.                     responses for corrective actions
     Partnered with the Business Owners to verify that             Develop milestones for leveraging funded CADE 2
                                                                     TS2 functionality and determine a date the plan will
      IRS management is performing continuous
                                                                     be completed and add to the Remediation Plan to
      monitoring to ensure data input to Integrated Data             address the Unpaid Assessment Material Weakness.
      Retrieval System (IDRS) is accurate                           Targeted Downgrade/Closure: Fiscal year 2015
     Determined process improvement for entering data
      into IDRS to decrease errors posting to Master File
      and CADE 2, including the feasibility of changes to
      the IDRS system. Based on the analysis, process
      improvements will be incorporated into CADE2
      requirements which will decrease errors posting in
      CADE2.
      Programmed Custodial Detail Database (CDDB) to
      accurately report on single Business Master File
      (BMF) modules with a partial collection statute-
      expired assessment.
     Verified that the CDDB program changes achieved
      the expected results. Implemented program
      changes for the fiscal year 2013 audit, as
      appropriate. CFO verified that the CDDB
      programming changes accurately report on single
      BMF modules with a partial collection statute-
      expired assessment met the desired results. These
      changes will enable CDDB to classify the cases when
      the BMF modules have no additional freezes and
      complex transactions are not in the module. The
      programming changes were successfully tested and
      implemented.




                                                             216
                                                                  U.S. Department of the Treasury | Fiscal Year 2013


Material Weakness Description
Bureau of the Fiscal Service – Systems, Controls, and Procedures to Prepare the Government-wide Financial
Statements

The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated
Government-wide Financial Statements. Original key elements:
 • The government lacks a process to obtain information to effectively reconcile the reported excess of net costs over
   revenue with the budget deficit, and when applicable, a reported excess of revenue over net costs with the budget
   surplus

 • Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated
   Financial Statements
                 Actions Completed in FY 2013                                What Remains to be Done
  Partially reconciled fiscal year 2012 operating revenues          Complete reconciliation of operating net cost to
   with budget receipts                                               the budget deficit
  Refined analysis model for unreconciled transactions that         Complete reciprocal category for the Treasury
   affect the change in net position                                  General Fund
  Accounted for intra-governmental differences through              Implement changes to capture material
   formal consolidating and elimination accounting entries            balances and activity from the Reporting Entity
   using all reciprocal fund categories including the General         as defined per the Financial Accounting
   Fund                                                               Standards Advisory Board criteria
  Completed closing package submitted to GAO by federal             Include all disclosures as appropriate
   agencies                                                          Include all loss contingencies as appropriate
  Established traceability from agency footnotes to the             Targeted Downgrade/Closure: Fiscal year 2015
   Consolidated Financial Statements (CFS) for completeness




                                                            217
                                                                       U.S. Department of the Treasury | Fiscal Year 2013


II.       Audit Follow-up Activities

During fiscal year 2013, Treasury continued to place emphasis on both the general administration of internal control issues
throughout the Department and the timely resolution of findings and recommendations identified by GAO, OIG, TIGTA,
SIGTARP, external auditors, and management. During the year, Treasury continued to implement enhancements to the
tracking system called the “Joint Audit Management Enterprise System” (JAMES). JAMES is a Department-wide,
interactive, web-based system accessible to management, OIG, TIGTA, SIGTARP, and others. The system tracks information
on audit reports from issuance through completion of all corrective actions required to address findings and
recommendations contained in an audit report. JAMES is the official system of record for Treasury’s audit follow-up
program.

Potential Monetary Benefits

The Inspector General Act of 1978, as amended, Public Law 95-452, requires the IGs and secretaries of executive agencies
and departments to submit semiannual reports to the Congress on actions taken on audit reports issued that identify
potential monetary benefits. The Department consolidates and analyzes all relevant information for inclusion in this report.
The information contained in this section represents a consolidation of information provided separately by OIG, TIGTA,
SIGTARP, and Treasury management.

In the course of their audits, the IGs periodically identify “questioned costs”, recommend that funds be put to better use,
enhancements to revenues of the federal government, and identify measures that demonstrate the value of audit
recommendations to tax administration and business operations.

“Questioned costs” include a:

      •   Cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other
          requirement governing the expenditure of funds

      •   Finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an unsupported
          cost)

      •   Finding that expenditure of funds for the intended purpose is unnecessary or unreasonable

The phrase “disallowed cost” means a questioned cost that management, in a management decision, has sustained or agreed
should not be charged to the U.S. Government.

“Funds Put to Better Use” include:

      •    Reductions in outlays
      •    Deobligation of funds from programs or operations
      •    Costs not incurred by implementing recommended improvements related to operations
      •    Avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements
      •    Prevention of erroneous payment of refundable credits (e.g., the Earned Income Tax Credit)
      •    Any other savings that are specifically identified

“Revenue Enhancements” include opportunities to increase revenue to the federal government.
The Department regularly reviews progress made by the bureaus to realize potential monetary benefits identified in audit
reports, and coordinates with the auditors as necessary to ensure the consistency and integrity of information on monetary
benefit recommendations tracked in JAMES.

                                                                 218
                                                                                  U.S. Department of the Treasury | Fiscal Year 2013


        The statistical data in the following summary tables represent audit report activity for the period from October 1, 2012
        through September 30, 2013. The data reflect information on OIG, TIGTA, and SIGTARP reports that identified potential
        monetary benefits.



          Audit Report Activity With Potential Monetary Benefits for Which Management Has Identified Corrective
                           Actions (OIG, TIGTA, and SIGTARP) October 1, 2012 through September 30, 2013
                                                                 (Dollars in Millions)

                                                                   Funds Put to                   Revenue
                                  Disallowed Costs                                                                                Totals
                                                                    Better Use                  Enhancements

                                                                                                                           Report         Total
                                   Reports       Dollars        Reports        Dollars        Reports        Dollars
                                                                                                                            Total        Dollars

          Beginning Balance             14          $80.1            11         $9,299.7             8       $2,047.6           33      $11,427.4

          New Reports                     8           32.0            11          5,899.0           10         9,234.4           29        15,165.4

          Total                         22           112.1           22           15,198.7          18        11,282.0           62        26,592.8

          Reports Closed                 11           64.2           16           9,310.3            8         2,048.3           35        11,422.8

            a. Realized or               10           31.7            7               18.1           2            55.6           19           105.4
               Actual1

            b. Unrealized or              3          32.52           10           9,292.23           7         1,992.74          20        11,317.4
               Written off1

          Ending Balance                 11         $47.9             6        $5,888.4             10       $9,233.7            27     $15,170.0

1   Report numbers in categories a and b may not equal the Reports Closed. One report can be included in one or both categories.
2   This figure includes one TIGTA report, with $32.4 million written off, for which TIGTA does not agree with the IRS that the benefit has not
    been realized.
3   This figure includes six TIGTA reports, with $7.1 billion written off, for which IRS management did not concur with TIGTA’s projected benefits;
     and six TIGTA reports with $869.3 million written off, for which TIGTA does not agree with the IRS that the benefits have not been realized.
     There are two reports that have monetary benefits that fall into both categories which is why the total of the reports exceed the total reports
     written off.
4   This figure includes three TIGTA reports, with $1.8 billion written off, for which IRS management did not concur with TIGTA’s projected
     benefits or recommendation; and one TIGTA report, with $44.9 million written off, for which TIGTA does not agree with the IRS that the
     benefit has not been realized.




                                                                            219
                                                              U.S. Department of the Treasury | Fiscal Year 2013


The following table presents a summary of OIG, TIGTA, and SIGTARP audit reports with potential monetary benefits
that were open for more than one year as of the end of fiscal years 2011, 2012, and 2013.



          Number of Reports with Potential Monetary Benefits Open for More than One Year
                                                (Dollars In Millions)

              AFR Report Year                                9/30/2011                  9/30/2012                9/30/2013

              No. of Reports                                          0                            0                       0
OIG
              $ Projected Benefits                                  $0                             $0                    $0

              No. of Reports                                         11                             9                         7
TIGTA
              $ Projected Benefits                            $ 4,384.6                   $10,018.5                   $39.2

              No. of Reports                                          0                             2                      2
SIGTARP
              $ Projected Benefits                                  $0                        $8.7                     $8.8


The following table presents a summary of the audit reports containing potential monetary benefits, broken out by
year of report issuance, on which management decisions were made on or before September 30, 2012, but the final
actions had not been taken as of September 30, 2013.



                       Details of the Audit Reports with Potential Monetary Benefits
          on Which Management Decisions Were Made On or Before September 30, 2012,
                   But Final Actions Have Not Been Taken as of September 30, 2013
                                              (Dollars In Millions)

                                                                           Funds        Revenue
            Report        Report                                 Dis-
Bureau                                Brief Description                    Put to                       Total     Due Date
             No.        Issue Date                             allowed                  Enhance-
                                                                           Better
                                                                Costs                     ment
                                                                            Use

                                     The IRS should use the
                                     Defense Contract Audit
            2011-1c-                 Agency (DCAA) report
  IRS                   8/23/2011    in the administration         0.09             -         -           0.09    8/31/2016
              080
                                     of the contract and
                                     determine whether the
                                     questioned costs
                                     should be recovered.

                                     The IRS should use the
                                     DCAA report in the
            2011-1c-                 administration of the
  IRS                   9/28/2011                                  28.57            -         -          28.57    9/30/2016
              122                    contract and determine
                                     whether the questioned
                                     costs should be
                                     recovered.


                                     OFS should review
                                     previously paid legal                                                        Delay due
            SIG-AR-                  fee bills to identify
  OFS                   4/14/2011                                  0.68             -         -           0.68       to
             11-003                  unreasonable or                                                             Contracting
                                     unallowable charges,                                                        4/30/2014
                                     and seek
                                     reimbursement for
                                                             220
                                                              U.S. Department of the Treasury | Fiscal Year 2013


                                                                           Funds        Revenue
          Report       Report                                    Dis-
Bureau                             Brief Description                       Put to       Enhance-   Total     Due Date
           No.       Issue Date                                allowed
                                                                           Better
                                                                Costs                     ment
                                                                            Use
                                  those charges, as
                                  appropriate.

                                  OFS should determine                                                       Delay due
                                  whether the                                                                to Further
                                  questioned,                                                                Research/
          SIG-AR-
 OFS                 9/28/2011    unsupported legal fees            8.07            -         -      8.07    Analysis of
           11-004
                                  and expenses paid to                                                       Data
                                  specified law firms are
                                  allowable                                                                  11/10/2014

FY 2011      4                                                    $37.41       $0           $0     $37.41


                                  The IRS should use the
                                  DCAA report in the
          2012-1c-                administration of the
  IRS                12/02/2011                                     0.02                             0.02    12/02/2016
            003                   contract and determine
                                  whether the questioned
                                  costs should be
                                  recovered


                                  The IRS should use the
                                  DCAA report in the
          2012-1c-                administration of the
  IRS                3/19/2012                                      7.42            -         -      7.42    3/31/2017
            032                   contract to determine
                                  whether the questioned
                                  costs should be
                                  recovered.


                                  The IRS should use the
          2012-1c-
  IRS                8/17/2012    DCAA report in                    1.48            -         -       1.48   8/07/2017
            079
                                  administering and
                                  closing out contracts.


                                  The IRS should ensure
                                  the validity of all labor
                                  charges associated with
          2012-11-                the procurement
  IRS                9/19/2012                                      0.93            -         -      0.93    7/15/2014
            101                   TIGTA identified as
                                  having a total of
                                  $394,430 paid for
                                  labor charges that were
                                  not supported


                                  The IRS should
                                  develop and implement
                                  additional procedures                                                      Delay due
                                  to ensure that all audits                                                  to Further
          2012-30-                entering the Campus                                                        Research/
  IRS                9/07/2012    Case Processing                      -            -      0.72      0.72    Analysis of
            097
                                  operation with short                                                          Data
                                  statute expiration dates
                                                                                                             1/15/2014
                                  and large dollar
                                  assessment amounts
                                  are timely and
                                  accurately assigned

                                                            221
                                                                  U.S. Department of the Treasury | Fiscal Year 2013


                                                                                Funds    Revenue
           Report        Report                                      Dis-
Bureau                                   Brief Description                      Put to   Enhance-   Total         Due Date
            No.        Issue Date                                  allowed
                                                                                Better
                                                                    Costs                  ment
                                                                                 Use
                                        and processed in
                                        accordance with
                                        applicable procedures.


FY 2012          5                                                     $9.85        $0     $0.72    $10.57

Total            9                                                     $47.26       $0     $0.72    $47.98



The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations reported
in previous semiannual reports for which corrective actions had not been completed as of September 30, 2012 and
September 30, 2013, respectively. OIG and TIGTA define “significant” as any recommendation open for more than
one year. There were no “Undecided Audit Recommendations” during the same periods.

                     Audit Reports with Significant Unimplemented Recommendations

                                            9/30/2012                                      9/30/2013

                                OIG                      TIGTA                     OIG                  TIGTA

No. of Reports                      5                       17                      6                        25


The following table provides a snapshot of the number of recommendations made in SIGTARP audit reports and
quarterly reports for which corrective actions had not been completed as of September 30, 2012 and September 30,
2013, respectively. SIGTARP defines a recommendation as “unimplemented” if it is listed as “partially implemented,”
“in process,” or “not implemented” in SIGTARP’s quarterly report.

                              Unimplemented SIGTARP Recommendations

                                            9/30/2012                                      9/30/2013

No. of Unimplemented
                                                25                                             15
Recommendations




                                                                 222
                                               U.S. Department of the Treasury | Fiscal Year 2013


APPENDIX:
GLOSSARY OF ACRONYMS
Glossary of Acronyms
2D                     Two Dimension
ABS                    Asset-Backed Securities
ACA                    Affordable Care Act
ACTC                   Additional Child Tax Credit
ACH                    Automated Clearinghouse
AFR                    Agency Financial Report
AFTR                   Automated Trust Fund Recovery
AGP                    Asset Guarantee Program
AIFP                   Automotive Industry Financing Program
AIG                    American International Group, Inc.
AML                    Anti-Money Laundering
AOTC                   American Opportunity Tax Credit
AQC                    Automated Acquisition Credit
ARC                    Administrative Resource Center
ASM/CFO                Assistant Secretary for Management & Chief Financial Officer
ATFR                   Automated Trust Fund Recovery
BEP                    Bureau of Engraving and Printing
BMF                    Business Master File
BOLO                   Be on the Lookout
BPD                    Bureau of the Public Debt
BSA                    Bank Secrecy Act
CADE2                  Customer Account Data Engine
CCU                    Campus Compliance Unit
CDCI                   Community Development Capital Initiative
CDDB                   Custodial Detail Database
CDE                    Community Development Entity
CDFI                   Community Development Financial Institutions
CDLF                   Community Development Loan Fund
CFIUS                  Committee on Foreign Investment in the United States
CFO                    Chief Financial Officer
CFOV                   CFO Vision Software
CFS                    Consolidated Financial Statements
CFT                    Counter-Terrorist Financing
CGAC                   Common Government-wide Accounting Classification
CHIPRA                 Children’s Health Insurance Program Reauthorization Act of 2009
CIG                    Cyber Intelligence Group
CIGFO                  Council of Inspectors General on Financial Oversight
CIP                    Critical Infrastructure Protection
CMBS                   Commercial Mortgage Backed Securities
COLA                   Certificate of Label Approval
COR                    Contracting Officers Representative

                                              223
                                              U.S. Department of the Treasury | Fiscal Year 2013


Glossary of Acronyms
COSO                   Committee of Sponsoring Organizations of the Treadway Commission
COTS                   Commercial off-the-shelf
CSRS                   Civil Service Retirement System
CPI                    Consumer Price Index
CPP                    Capital Purchase Program
CRS                    Centralized Receivables Service
CSI                    Customer Satisfaction Index
CY                     Calendar Year
DCAA                   Defense Contract Audit Agency
DCFO                   Deputy Chief Financial Officer
DCP                    Office of D.C. Pensions
DDV                    Due Diligence Visit
DISP                   Debt Issuance Suspension Period
DO                     Departmental Offices
Dodd-Frank Act         Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
DOL                    Department of Labor
EAGER                  Early-concept Grants for Exploratory Research
EESA                   Emergency Economic Stabilization Act of 2008
EFTPS                  Electronic Federal Tax Payment System
EITC                   Earned Income Tax Credit
EO                     Exempt Organization
ESA                    Exchange Stabilization Agreement
ESF                    Exchange Stabilization Fund
Fannie Mae             Federal National Mortgage Association
FAR                    Federal Acquisition Regulation
FARS                   Financial Analysis and Reporting System
FASAB                  Federal Accounting Standards Advisory Board
FATCA                  Foreign Account Tax Compliance Act
FATF                   Financial Action Task Force
FCDA                   Foreign Currency Denominated Assets
FCRA                   Federal Credit Reform Act
FDC                    Funds from Dedicated Collections
FDIC                   Federal Deposit Insurance Corporation
FECA                   Federal Employees’ Compensation Act
FEHBP                  Federal Employees Health Benefits Program
FEGLI                  Federal Employees Group Life Insurance
FERS                   Federal Employees’ Retirement System
FFB                    Federal Financing Bank
FFMIA                  Federal Financial Management Improvement Act of 1996
FHA                    Federal Housing Administration
FHFA                   Federal Housing Finance Agency
FICA                   Federal Insurance Contributions Act
FinCEN                 Financial Crimes Enforcement Network
FIO                    Federal Insurance Office

                                             224
                                                U.S. Department of the Treasury | Fiscal Year 2013


Glossary of Acronyms
FMFIA                  Federal Managers’ Financial Integrity Act
FMS                    Financial Management Service
FMU                    Financial Market Utilities
FOMC                   Federal Open Market Committee
FRAC                   Financial Research Advisory Committee
FRB                    Federal Reserve Bank
FRBNY                  Federal Reserve Bank of New York
FR System              Federal Reserve System
Freddie Mac            Federal Home Loan Mortgage Corporation
FS-ISAC                Financial Services Information Sharing and Analysis Center
FSOC                   Financial Stability Oversight Council
                       Financial Services Sector Coordinating Council for Critical Infrastructure
FSSCC
                       Protection
FTE                    Full Time Employee
FTO                    Fine Troy Ounce
FY                     Fiscal Year
GAAP                   Generally Accepted Accounting Principles
GAB                    General Arrangement to Borrow
GAIS                   Government Agency Investment Services
GAO                    U.S. Government Accountability Office
GLC                    Geographic Leadership Community
GSA                    General Services Administration
GSE                    Government Sponsored Enterprise
GTAS                   Government Treasury Account Symbol Adjusted Trial Balance System
HERA                   Housing and Economic Recovery Act
HFA                    Housing Finance Agency
HHS                    Department of Health and Human Services
HUD                    Department of Housing and Urban Development
IA                     International Affairs
IAIS                   International Association of Insurance Supervisors
IAP                    International Assistance Program
IC                     Intelligence Community
IDRS                   Integrated Data Retrieval System
IFR                    Independent Foreclosure Review
IMF                    International Monetary Fund
IP                     Improper Payment
IPERA                  Improper Payments Elimination and Recovery Act
IPERIA                 Improper Payments Elimination and Recovery Act Improvement Act of 2012
IPIA                   Improper Payments Information Act
IPP                    Invoice Processing Platform
IRM                    Internal Revenue Manual
IRS                    Internal Revenue Service
IT                     Information Technology
ITIN                   Individual Taxpayer Identification Number
ITSS                   Information Technology Solutions Shop
                                               225
                                              U.S. Department of the Treasury | Fiscal Year 2013


Glossary of Acronyms
JAMES                  Joint Audit Management Enterprise System
KTV                    Knock and Talk Educational Visits
LIBOR                  London Interbank Offered Rate
LIC                    Low-Income Community
LLC                    Limited Liability Corporation
MBS                    Mortgage-Backed Security
MDB                    Multilateral Development Bank
MHA                    Making Home Affordable Program
MOU                    Memoranda of Understanding
MRADR                  Market Risk Adjusted Discount Rate
MSB                    Money Service Businesses
MTM                    Mark- to- Market
NAB                    New Arrangement to Borrow
NACA                   Native American CDFI Assistance
NAFA                   North American Framework Agreement
NARA                   National Archives and Records Administration
NIBP                   New Issue Bond Program
NMTC                   New Markets Tax Credit
NOAA                   National Oceanic and Atmospheric Administration
NOGA                   Notice of Guarantee Availability
NRP                    National Research Program
NYSE                   New York Stock Exchange
OAS                    Office of International Affairs
OCC                    Office of the Comptroller of the Currency
ODCP                   Office of D.C. Pensions
OFAC                   Office of Foreign Assets Control
OFR                    Office of Financial Research
OFS                    Office of Financial Stability
OIA                    Office of Intelligence and Analysis
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
OPEB                   Other Post-Employment Benefits
OPM                    Office of Personnel Management
ORB                    Other Retirement Benefits
OTP                    Office Tax Policy
OTS                    Office of Thrift Supervision
PB                     President’s Budget
PCIE                   President’s Council on Integrity and Efficiency
PDBP                   Pentegra Defined Benefit Plan
P.L.                   Public Law
PP&E                   Property, Plant, and Equipment
PPD                    Presidential Policy Directive
PPIF                   Public-Private Investment Fund
PPIP                   Public-Private Investment Program

                                             226
                                              U.S. Department of the Treasury | Fiscal Year 2013


Glossary of Acronyms
PSEP                   Physical Security and Emergency Preparedness
PTIN                   Preparer Taxpayer Identification Number
PY                     Processing Year
QALICB                 Qualified Active Low-Income Community Business
QFI                    Qualified Financial Institution
QLICI                  Qualified Low Income Community Investments
                       Resources and Ecosystems Sustainability, Tourist Opportunities and Revived
RESTORE Act
                       Economies of the Gulf Coast States Act
RMBS                   Residential Mortgage Backed Securities
RRA – 98               IRS Restructuring and Reform Act of 1998
RRP                    Return Review Program
RTC                    Resolution Trust Corporation
RYO                    Roll-Your-Own
S&ED                   Strategic and Economic Dialogue
SAR                    Suspicious Activity Report
SBA                    Small Business Administration
SBLF                   Small Business Lending Fund
SBR                    Statement of Budgetary Resources
SDN                    Specially Designated Nationals
SDR                    Special Drawing Rights
SEC                    Securities and Exchange Commission
SFFAC                  Statement of Federal Financial Accounting Concepts
SFFAS                  Statement of Federal Financial Accounting Standards
SIGTARP                Special Office of Inspector General for the Troubled Asset Relief Program
SOMA                   System Open Market Account
SOP                    Standard Operating Procedure
SOS                    Schedule of Spending
SPSPA                  Senior Preferred Stock Purchase Agreements
SPV                    Special Purpose Vehicle
SSBCI                  State Small Business Credit Initiative
SSN                    Social Security Number
STIF                   Short – term Investment Fund
TALF                   Term Asset-Backed Securities Loan Facility
TARP                   Troubled Asset Relief Program
TCLP                   Temporary Credit and Liquidity Program
TFF                    Treasury Forfeiture Fund
TFFC                   Terrorist Financing and Financial Crimes
TFI                    Terrorism and Financial Intelligence
TFRP                   Trust Fund Recovery Penalty
TFS                    TIER Financial Statements
TFTP                   Terrorist Finance Tracking Program
TGA                    Treasury General Account
TIER                   Treasury Information Executive Repository
TIGTA                  Treasury Inspector General for Tax Administration
TIPS                   Treasury Inflation-Protected Securities
                                            227
                                             U.S. Department of the Treasury | Fiscal Year 2013


Glossary of Acronyms
TP                     Tax Policy
TRIA                   Terrorism Risk Insurance Act
TTB                    Alcohol and Tobacco Tax and Trade Bureau
TY                     Tax Year
UIC                    Unemployment Insurance Compensation
USC                    United States Code
USSGL                  United States Standard General Ledger
VSBTW                  Virtual Small Business Tax Workshop
VSD                    Virtual Service Delivery
WMD                    Weapons of Mass Destruction




                                            228
 U.S. Department of the Treasury | Fiscal Year 2013




229
 U.S. Department of the Treasury | Fiscal Year 2013




230
